<html>
<title> - RESTORING FAITH IN AMERICA'S PASTIME: EVALUATING MAJOR LEAGUE BASEBALL'S EFFORTS TO ERADICATE STEROID USE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
     RESTORING FAITH IN AMERICA'S PASTIME: EVALUATING MAJOR LEAGUE 
              BASEBALL'S EFFORTS TO ERADICATE STEROID USE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2005

                               __________

                            Serial No. 109-8

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



     RESTORING FAITH IN AMERICA'S PASTIME: EVALUATING MAJOR LEAGUE 
              BASEBALL'S EFFORTS TO ERADICATE STEROID USE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2005

                               __________

                            Serial No. 109-8

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                ------                                

                    U.S. GOVERNMENT PRINTING OFFICE
97-093                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 17, 2005...................................     1
Statement of:
    Bunning, Jim, a U.S. Senator from the State of Kentucky......    55
    Canseco, Jose, former Oakland Athletic and Texas Ranger; 
      Sammy Sosa, current Baltimore Oriole and former Chicago 
      Cub, accompanied by Jim Sharp, attorney, and Patricia 
      Rosell, interpreter; Mark McGwire, former Oakland Athletic 
      and St. Louis Cardinal; Rafael Palmeiro, current Baltimore 
      Oriole and former Texas Ranger; Curt Schilling, current 
      Boston Red Sox; and Frank Thomas, current Chicago White Sox   208
        Canseco, Jose............................................   208
        McGwire, Mark............................................   219
        Palmeiro, Rafael.........................................   227
        Schilling, Curt..........................................   229
        Sosa, Sammy..............................................   215
        Thomas, Frank............................................   236
    Garibaldi, Denise and Raymond, parents of former U.S. Player 
      Rob Garibaldi; Donald Hooton, president and director, 
      Taylor Hooton Foundation, father of high school baseball 
      player, Taylor Hooton; Nora D. Volkow, M.D., Director, 
      National Institute on Drug Abuse, National Institutes of 
      Health; Gary I. Wadler, M.D., associate professor of 
      clinical medicine, New York University School of Medicine; 
      Kirk Brower, M.D., associate professor of psychiatry, 
      University of Michigan Medical School, and executive 
      director, Chelsea Arbor Addiction Treatment Center; and 
      Elliott Pellman, M.D., the medical advisor to Major League 
      Baseball...................................................   113
    Brower, Kirk J., M.D.........................................   145
        Garibaldi, Denise and Raymond............................   113
        Hooton, Donald M.........................................   118
    Pellman, Elliott, M.D........................................   160
    Volkow, Nora D., M.D.........................................   124
    Wadler, Gary I., M.D.........................................   136
    Selig, Allan H., commissioner of Major League Baseball; 
      Robert Manfred, executive vice president, labor and human 
      resources, Major League Baseball; Don Fehr, executive 
      director and general counsel, Major League Baseball Players 
      Association; Sandy Alderson, executive vice president, 
      baseball operations, Major League Baseball, former general 
      manager, Oakland Athletics; and Kevin Towers, general 
      manager, San Diego Padres..................................   276
        Alderson, Sandy..........................................   323
        Fehr, Don................................................   307
        Manfred, Robert D........................................   288
        Selig, Allan H...........................................   276
Letters, statements, etc., submitted for the record by:
    Alderson, Sandy, executive vice president, baseball 
      operations, Major League Baseball, former general manager, 
      Oakland Athletics, prepared statement of...................   325
    Brower, Kirk, M.D., associate professor of psychiatry, 
      University of Michigan Medical School, and executive 
      director, Chelsea Arbor Addiction Treatment Center, 
      prepared statement of......................................   147
    Brown-Waite, Hon. Ginny, a Representative in Congress from 
      the State of Florida, prepared statement of................   382
    Bunning, Jim, a U.S. Senator from the State of Kentucky:
        Major League Baseball's drug testing policies............    62
        Prepared statement of....................................    58
    Canseco, Jose, former Oakland Athletic and Texas Ranger, 
      prepared statement of......................................   210
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................   384
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    48
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia:
        Prepared statement of....................................     5
        Prepared statement of Mr. Efrain and Brenda Marrero......   105
    Fehr, Don, executive director and general counsel, Major 
      League Baseball Players Association, prepared statement of.   311
    Garibaldi, Denise and Raymond, parents of former U.S. Player 
      Rob Garibaldi, prepared statement of.......................   116
    Higgins, Hon. Brian, a Representative in Congress from the 
      State of New York, prepared statement of...................   380
    Hooton, Donald, president and director, Taylor Hooton 
      Foundation, father of high school baseball player, Taylor 
      Hooton, prepared statement of..............................   121
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, prepared statement of.................   194
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, H. Res. 496 from the 107th Congress.....   356
    Manfred, Robert, executive vice president, labor and human 
      resources, Major League Baseball, prepared statement of....   292
    Marchant, Hon. Kenny, a Representative in Congress from the 
      State of Texas, prepared statement of......................   179
    McGwire, Mark, former Oakland Athletic and St. Louis 
      Cardinal, prepared statement of............................   221
    Palmeiro, Rafael, current Baltimore Oriole and former Texas 
      Ranger, prepared statement of..............................   228
    Pellman, Elliott, M.D., the medical advisor to Major League 
      Baseball, prepared statement of............................   163
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................   386
    Schilling, Curt, current Boston Red Sox, prepared statement 
      of.........................................................   233
    Selig, Allan H., commissioner of Major League Baseball, 
      prepared statement of......................................   280
    Sosa, Sammy, current Baltimore Oriole and former Chicago Cub, 
      prepared statement of......................................   217
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana:
        Information concerning ephedra...........................   341
        Prepared statement of....................................    44
        Prepared statement of Mr. McClellan......................   197
    Thomas, Frank, current Chicago White Sox, prepared statement 
      of.........................................................   237
    Van Hollen, Hon. Chris, a Representative in Congress from the 
      State of Maryland, prepared statement of...................   102
    Volkow, Nora D., M.D., Director, National Institute on Drug 
      Abuse, National Institutes of Health, prepared statement of   126
    Wadler, Gary I., M.D., associate professor of clinical 
      medicine, New York University School of Medicine, prepared 
      statement of...............................................   139
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Background memo..........................................    23
        Fact Sheet...............................................   367
        Prepared statement of....................................    12

 
     RESTORING FAITH IN AMERICA'S PASTIME: EVALUATING MAJOR LEAGUE 
              BASEBALL'S EFFORTS TO ERADICATE STEROID USE

                              ----------                              


                        THURSDAY, MARCH 17, 2005

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Tom Davis (chairman 
of the committee) presiding.
    Present: Representatives Tom Davis, Shays, Burton, Ros-
Lehtinen, McHugh, Mica, Gutknecht, Souder, Platts, Cannon, 
Duncan, Miller, Turner, Issa, Brown-Waite, Porter, Marchant, 
Westmoreland, McHenry, Dent, Foxx, Waxman, Lantos, Owens, 
Towns, Kanjorski, Sanders, Maloney, Cummings, Kucinich, Davis 
of Illinois, Clay, Watson, Lynch, Van Hollen, Sanchez, 
Ruppersberger, Higgins, and Norton.
    Also present: Representatives Osborne, Sweeney, and 
Serrano.
    Staff present: Melissa Wojciak, staff director; David 
Marin, deputy staff director/communications director; Keith 
Ausbrook, chief counsel; Ellen Brown, legislative director and 
senior policy counsel; Jennifer Safavian, chief counsel for 
oversight and investigations; Amy Laudeman, special assistant; 
Anne Marie Turner, counsel; Robert Borden, counsel/
parliamentarian; Rob White, press secretary; Drew Crockett, 
deputy director of communications; Susie Schulte, Shalley Kim, 
Brien Beattie, and Howie Denis, professional staff members; 
Teresa Austin, chief clerk; Sarah D'Orsie, deputy clerk; 
Corinne Zaccagnini, chief information officer; Phil Schiliro, 
minority chief of staff; Phil Barnett, minority staff director/
chief counsel; Kristin Amerling, minority deputy chief counsel; 
Karen Lightfoot, minority communications director/senior policy 
advisor; Molly Gulland, minority communications assistant; 
Brian Cohen, minority senior investigator and policy advisor; 
Tony Haywood, minority counsel; Richard Butcher, Anna Laitin, 
Nancy Scola, Josh Sharfstein, and Andrew Su, minority 
professional staff members; Earley Green, minority chief clerk; 
Jean Gosa and Teresa Coufal, minority assistant clerks; and 
Christopher Davis, minority investigator.
    Chairman Tom Davis. Good morning. The committee will come 
to order, and welcome to the Committee on Government Reform's 
hearing on Major League Baseball and the use of performance 
enhancing drugs. Fourteen years ago, anabolic steroids were 
added to the Control Substance Act as a Schedule III drug, 
making it illegal to possess or sell them without a valid 
prescription. Today, however, evidence strongly suggests that 
steroid use among teenagers, especially aspiring athletes, is a 
large and growing problem. The Centers for Disease Control and 
Prevention tells us that more than 500,000 high school students 
have tried steroids, nearly triple the number just 10 years 
ago.
    A second national survey conducted in 2004 by the National 
Institute on Drug Abuse and the University of Michigan found 
that over 40 percent of 12th graders describe steroids as 
fairly easy or very easy to obtain. And the perception among 
high school students that steroids are harmful has dropped from 
71 percent in 1992 to 56 percent in 2004. This is but a 
snapshot of the startling data that we face. Today, we take the 
committee's first steps toward understanding how we got here 
and how we begin turning those numbers around. Down the road, 
we need to look at whether and how Congress should exercise its 
legislative powers to further restrict the use and distribution 
of these substances.
    Our specific purpose today is to consider Major League 
Baseball's recently negotiated drug policy, how the testing 
policy will be implemented, how it will effectively address the 
use of prohibitive drugs by players and most importantly, the 
larger societal and public health ramifications of steroid use. 
Yesterday, USA Today reported that 79 percent of Major League 
players surveyed believed steroids played a role in record-
breaking performances by some high profile players.
    While our focus is not on the impact of steroids on Major 
League Baseball records, the survey does underscore the 
importance of our inquiry. A majority of the 568 players in 
this survey think steroids are influencing individual 
achievements. That's exactly our point. We need to recognize 
the dangerous vicious cycle that perception creates.
    Too many college athletes believe they have to consider 
steroids if they are going to make it to the pros. High school 
athletes, in turn, think steroids may be the key to getting a 
scholarship.
    It is time to break that cycle and it needs to happen from 
the top down. You can't do this by just sending people into the 
high school classrooms talking about it. It hasn't worked. It 
has to start from the top. When I go to Little League opening 
games these days, kids aren't just talking about their favorite 
teams' chances in the pennant race, they're talking about which 
pro players are on the ``juice.'' After the 1994 Major League 
Baseball strike, rumors and allegations of steroid use in the 
league began to surface. Since then, longstanding records were 
broken. Along with these broken records came allegations of 
steroid use among Major League Baseball players. Despite the 
circulating rumors of illegal drug use, Major League Baseball 
and the Players Association didn't respond to ban the use of 
steroids, which were illegal until 2002.
    The result was an almost decade-long question mark as to 
not only the validity of the new records, but also the 
credibility of the game itself. In February of this year, 
former Major League Baseball all star Jose Canseco released a 
book that not only alleges steroid use by well-known Major 
League players, but discusses the prevalence of steroids in 
baseball during his 17-year career. After hearing Commissioner 
Bud Selig's public statements that Major League Baseball would 
not launch an investigation into his allegations, my ranking 
member, Henry Waxman, wrote to me asking for a committee 
hearing to ``find out what really happened and to get at the 
bottom of this growing scandal.'' I was initially reluctant to 
hold such an investigation because Major League Baseball 
assured us they had the problem under control.
    However, a cursory investigation raised more questions than 
it answered and we decided to proceed. Major League Baseball 
and the Players Association greeted the word of inquiry first 
as a nuisance, then as a negotiation replete with misstatements 
about the scope of the documents and information we had sought 
and inaccurate legalese about the committee's authority and 
jurisdiction. Fine. I understand their desire to avoid the 
public's prying eye. I understand this is not their preference. 
I understand that they just wish it would go away. But I think 
they misjudged the seriousness of our purpose. I think they 
misjudged the will of the American public. I think they 
mistakenly believed we got into this on a whim. We did not. We 
gave this serious, serious consideration. And we decided it was 
time to break the code of silence that has enveloped the game.
    I'm a baseball fan and always have been. I didn't become a 
political junkie until the Senators left town and I needed 
something to replace my near daily routine of memorizing box 
scores. And I'm not looking forward to being relegated to the 
nose bleed sections in the next few years. But there is a cloud 
over the game that I love. Maybe we're late in the game in 
recognizing it. Maybe we're partly to blame implicitly and 
wrongly sending the message that baseball's anti-trust 
exemption is also a public accountability exemption. But the 
cloud hovers over us nonetheless and our hope is that a public 
discussion of the issues with witnesses testifying under oath 
can provide a glimpse of sunlight.
    Why? Because more than just the reputation of baseball is 
at risk. Our primary focus remains on the message being sent to 
the 500,000 steroid users in America's high schools, children 
who play baseball, children who idolize and emulate 
professional baseball players. I still have faith in Major 
League Baseball and a lot of players, managers, trainers and 
fans want to join us in helping kids understand this.
    Steroids aren't cool. Our responsibility is to help make 
sure Major League Baseball strategy, particularly its new 
testing program, gets the job done. We need to know if the 
policy is adequate in terms of how the tests are done and the 
punishments and the scope. As Mr. Waxman and I wrote to Major 
League Baseball and the Players Association yesterday, there 
are real doubts about this new policy and all that it's cracked 
up to be. The same USA Today survey I referenced earlier found 
that 69 percent of players believe the new policy is strict 
enough. Frankly, I'm surprised the number isn't higher. That's 
like asking trial lawyers if we need more tort reform. The 
answer is going to be no.
    Over the years, there have been a consistent drip, drip, 
drip of information about steroids in baseball with not much of 
a response from Major League Baseball. After all, it was, in 
large part, due to congressional pressure that the current 
policy took shape. Now we have not only the BALCO case, but a 
book by a former big league star naming names. We don't know if 
the allegations are accurate, but the truth needs to come out, 
however ugly the truth might be. Baseball can't simply turn its 
back on recent history, pronounce that the new testing policy 
will solve everything and move on. You can't look forward 
without looking back. I would hope that baseball would see this 
hearing as an opportunity to talk about the steps it is taking 
to get a handle on the situation. That's what we are interested 
in. We're not interested in embarrassing anybody, ruining 
careers or grandstanding.
    This is not a witch hunt. We're not asking for witnesses to 
name names. Furthermore, today's hearing will not be the end of 
our inquiry. Far from it. Nor will Major League Baseball be our 
sole or even primary focus. We are in the first inning of what 
can be an extra-inning ball game. This is the beginning and not 
the end. We believe this hearing will give us good information 
about the prevalence of steroids in professional sports, shine 
light on the sometimes tragic results of steroid use by high 
school and college athletes and provide leads as to where our 
investigation will go next; leads from Senator Bunning about 
how to restore the integrity of the game; leads from medical 
experts about how to better educate all Americans about the 
real dangers of steroid use; leads from parents whose stories 
today will poignantly illustrate, like it or not, professional 
athletes are role models and their actions can lead to tragic 
imitation.
    We are grateful to the players who have joined us today to 
share their perspective on the role and prevalence of 
performance enhancing drugs in baseball. Some have been vocal 
about the need for baseball to address its steroid problems, 
and we applaud them for accepting this calling. Others have an 
opportunity today to either clear their name, take public 
responsibility for their actions or perhaps offer cautionary 
tales to our youth. In total, we think the six current and 
former players offer a broad perspective on the issue of 
steroids in baseball, and we are looking forward to hearing 
from all of them.
    Finally, we are fortunate to have with us a final panel 
representing Major League Baseball, the Players Association and 
front office management. This panel is quite frankly where the 
rubber hits the road. If the players are cogs, this is the 
machine. If the players have been silent, these are the 
enforcers and promoters of the code. Ultimately, it's Major 
League Baseball, the union and team executives that will 
determine the strength of the game's testing policies. 
Ultimately, it's Major League Baseball and the union that will 
or will not determine the accountability or punishment. 
Ultimately, it's Major League Baseball and the union that can 
remove the cloud over baseball and maybe save some lives in the 
process. A famous poem starts, oh, somewhere in this favored 
land the sun is shining bright the band is playing somewhere 
and somewhere hearts are light. And somewhere men are laughing 
and somewhere children shout, but there is no joy in Mudville 
until the truth comes out. I now recognize the distinguished 
ranking member, Mr. Waxman.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.001
    
    [GRAPHIC] [TIFF OMITTED] T0323.002
    
    [GRAPHIC] [TIFF OMITTED] T0323.003
    
    [GRAPHIC] [TIFF OMITTED] T0323.004
    
    Mr. Waxman. Thank you very much, Mr. Chairman, for holding 
this hearing. Today's hearing is about steroid use in 
professional baseball, its impact on steroid use by teenagers 
and the implications for Federal policy. These are important 
questions for baseball, its fans and for this Nation. Major 
League Baseball and the Players Association say that this is 
the subject that should be left to the bargaining table. They 
are wrong. This is an issue that needs debate in Congress and 
around the dinner table of American families. Steroids are a 
drug problem that affects not only elite athletes, but also the 
neighborhood kids who idolize them. And this issue is 
challenging not just for baseball, but for our whole society. 
More than 500,000 teenagers across the country have taken 
illegal steroids, risking serious and sometimes deadly 
consequences. Together, the Garibaldis and the Hootons will 
testify about what steroids have done to their sons and their 
families and I want to commend them for their courage.
    There is an absolute correlation between the culture of 
steroids in high school and the culture of steroids in Major 
League club houses. Kids get the message when it appears it's 
OK for professional athletes to use steroids. If the pros do 
it, college athletes will do it. If it is an edge in college, 
high school students want that edge, too. There is a pyramid of 
steroid use in society, and today our investigation starts 
where it should, with the owners and players at the top of that 
pyramid. Congress first investigated steroids and drug use in 
professional sports over 30 years ago. And I think perhaps only 
two people in this room would have knowledge of that or would 
remember that and that would be Commissioner Selig and myself. 
He was an owner in 1970 and I was elected to Congress in 1974.
    The year before I ran for Congress, the House Committee on 
Interstate and Foreign Commerce, which I served all of my time 
in Congress as a member in addition to this committee concluded 
a year-long investigation. And they concluded ``drug use exists 
in all sports and in all levels of competition.'' In some 
instances, the degree of improper drug use, primarily 
amphetamines and anabolic steroids can only be described as 
alarming. The committee's chairman, Harley Staggers, was 
concerned about making these findings public.
    He thought it would bring too much attention to them, might 
even encourage kids to use these drugs. So what he did was he 
agreed with Baseball Commissioner Bowie Kuhn to consider 
instituting tough penalties in testing and he trusted 
Commissioner Kuhn to do that. And in a press release in 1973, 
Chairman Staggers said, ``based on the constructive responses 
and assurances I have received from these gentlemen, I think 
self-regulation will be intensified and will be effective.'' 
But now we know from 30 years of history, baseball failed to 
regulate itself. Well, let's fast forward to 1988. Jose Canseco 
was widely suspected of using steroids. Fans on opposing teams 
at the park even chanted the phrase steroids when he came to 
bat. But according to Mr. Canseco, no one in Major League 
Baseball talked with him or asked him questions about steroids. 
He was never asked to submit to a drug test.
    Instead, he was voted the American League's most valuable 
player. In 1991, Faye Vincent, then baseball's commissioner, 
finally took unilateral action and released a commissioner's 
policy that said, ``the possession, sale or use of any illegal 
drug or controlled substance by Major League players and 
personnel is strictly prohibited. This prohibition applies to 
all illegal drugs and controlled substances, including 
steroids.''
    Well, this policy didn't give Major League Baseball the 
right to demand that players take mandatory drug tests, but it 
was a step in the right direction and demonstrated the League's 
authority to act on its own to respond to allegations of 
steroid use.
    In 1992, Bud Selig was appointed commissioner and replaced 
Mr. Vincent. One year later in 1993, the Centers for Disease 
Control reported that 1 in 45 teenagers had used illegal 
steroids. That was 1992. 1995, the first of a series of 
detailed investigative reports appeared. The L.A. Times quoted 
one Major League manager who said ``we all know there is 
steroid use and it has definitely become more prevalent, I 
think, 10 to 20 percent.'' Another general manager estimated 
that steroid use was closer to 30 percent. In response to that 
story, Commissioner Selig said, if baseball has a problem, I 
must say candidly we are not aware of it. But should we concern 
ourselves as an industry? I don't know.
    In 1996, Ken Camaniti was using steroids, won the most 
valuable player award. That same year, Pat Courtney a Major 
League spokesman, commented on steroids and said, I don't think 
the concern is there that it is being used. In 1997, the Denver 
Post investigated the issue reporting as many as 20 percent of 
big league players using illegal steroids. In 1998, baseball 
hit the height of its post strike resurgence as Sammy Sosa and 
Mark McGwire both shattered Roger Maris' home run record. In 
1999, the Centers for Disease Control reported 1 in 27 
teenagers now using illegal steroids. In July 2000, a Boston 
Red Sox infielder had steroids seized from his car. Three 
months later, the New York Times published a front page story 
on the rampant use of steroids by professional baseball 
players, and here is what a Major League spokesman said the 
very same year, ``steroids have never been much of an issue.''
    In June 2002, Sports Illustrated put steroids on its cover 
and it reported that baseball had become a pharmacological 
trade show. One Major League player estimated that 40 to 50 
percent of Major League players use steroids. After that Sports 
Illustrated article, Major League Baseball and the players' 
union agreed to a steroid testing regimen. Independent experts 
however, strongly criticized the program as weak and limited in 
scope. But in 2003, when the first results were disclosed, Rob 
Manfred, baseball's vice president for labor relations said, 
``a positive rate of 5 percent is hardly a sign that you have 
rampant use of anything.''
    The same year, CDC reported to us that 1 in 16 high school 
students had used illegal steroids. The allegations and 
revelations about steroid use in baseball have only intensified 
in recent months. We have learned that Jason Giambi, a former 
most valuable player, Gary Sheffield and Barry Bonds, who was 
one of the most valuable player awards seven times, testified 
before a Federal grand jury in San Francisco about their 
steroid use.
    And just last month, Jose Canseco released a book alleging 
that steroid use in baseball was widespread in the 1990's and 
it involved some of baseball's biggest stars and that he 
personally injected other players with steroids. In response to 
these unproven but serious accusations, Sandy Alderson a senior 
Major League official said, ``I would be surprised if there is 
any serious followup.'' And Bud Selig was quoted as saying, as 
a sport, we have done everything that we could. Well, that 
brings us to today. For 30 years, Major League Baseball has 
told us to trust them, but the league hasn't honored that 
trust. And it hasn't acted to protect the integrity of baseball 
or send the right message to millions of teenagers who idolize 
ball players.
    Major League Baseball isn't the only reason 1 in 16 kids 
are using illegal steroids, but it's part of the reason. 
Baseball had the responsibility to do the right thing and it 
didn't do it. I don't see any other way to read the history of 
the past 30 years. Major League Baseball is actually right that 
it couldn't impose mandatory testing on the players. It needed 
the union's agreement to do that. But there were many other 
steps they could have taken. And I don't see that they had 
taken in the 1980's and the 1990's.
    Baseball's constitution says that the commissioner can 
``investigate any act alleged or suspected to be not in the 
best interest of the national game of baseball.'' The 
collective bargaining agreement expressly recognizes that the 
baseball commissioner retains inherent authority to take 
actions necessary for again, ``the preservation of the 
integrity of or the maintenance of public confidence in the 
game of baseball.''
    But Major League Baseball never exercised its authority to 
investigate steroid use. It boils down to this. We don't know 
what happened. We don't know who did it. We don't know what 
they did or how they did it, but we fixed it. Trust us. Well, 
we wrote the commissioner yesterday because we already see 
significant differences between what Major League Baseball says 
its new drug policy will accomplish and what is actually in the 
policy and we will ask a lot of questions about that today. 
Over the past century, baseball has been part of our social 
fabric. It helped restore normalcy after World War II, provided 
a playing field for black athletes like Jackie Robinson who 
broke the color barrier and inspired civic pride in communities 
across the country.
    Now America is asking baseball for integrity, an 
unequivocal statement against cheating, an unimpeachable policy 
and a reason for all of us to have faith in that sport again. 
At the end of the day, the most important thing Congress can do 
is find as many of the facts as we can and do our part to 
change the culture of steroids that has become part of baseball 
and too many other sports.
    That's why I am intrigued with the idea of one Federal 
policy that applies to all sports and all levels of competition 
from high school to the pros and that provides a strong 
disincentive to using steroids. If we are going to do something 
for our Nation's kids, it seems we are long past the point 
where we can rely on Major League Baseball to fix its own 
problems. Thank you, Mr. Chairman and thanks to our witnesses 
for helping us fulfill our responsibility in Congress.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.005
    
    [GRAPHIC] [TIFF OMITTED] T0323.006
    
    [GRAPHIC] [TIFF OMITTED] T0323.007
    
    [GRAPHIC] [TIFF OMITTED] T0323.008
    
    [GRAPHIC] [TIFF OMITTED] T0323.009
    
    [GRAPHIC] [TIFF OMITTED] T0323.010
    
    [GRAPHIC] [TIFF OMITTED] T0323.011
    
    [GRAPHIC] [TIFF OMITTED] T0323.012
    
    [GRAPHIC] [TIFF OMITTED] T0323.013
    
    [GRAPHIC] [TIFF OMITTED] T0323.014
    
    Mr. Waxman. Mr. Chairman, my staff has prepared a 
background memo that provides additional details about some of 
the points I discussed this morning. I have taken a long period 
of time, but I wanted to lay out this history and this 
chronology as baseball did nothing over the years. The increase 
in steroid use by kids increased. Now it is 1 in 16. It used to 
be 1 in 45. We are going in the wrong direction. I ask 
unanimous consent to make part of the hearing record the memo 
that we would like to submit.
    Chairman Tom Davis. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.015
    
    [GRAPHIC] [TIFF OMITTED] T0323.016
    
    [GRAPHIC] [TIFF OMITTED] T0323.017
    
    [GRAPHIC] [TIFF OMITTED] T0323.018
    
    [GRAPHIC] [TIFF OMITTED] T0323.019
    
    [GRAPHIC] [TIFF OMITTED] T0323.020
    
    [GRAPHIC] [TIFF OMITTED] T0323.021
    
    [GRAPHIC] [TIFF OMITTED] T0323.022
    
    [GRAPHIC] [TIFF OMITTED] T0323.023
    
    [GRAPHIC] [TIFF OMITTED] T0323.024
    
    [GRAPHIC] [TIFF OMITTED] T0323.025
    
    [GRAPHIC] [TIFF OMITTED] T0323.026
    
    [GRAPHIC] [TIFF OMITTED] T0323.027
    
    [GRAPHIC] [TIFF OMITTED] T0323.028
    
    [GRAPHIC] [TIFF OMITTED] T0323.029
    
    [GRAPHIC] [TIFF OMITTED] T0323.030
    
    [GRAPHIC] [TIFF OMITTED] T0323.031
    
    [GRAPHIC] [TIFF OMITTED] T0323.032
    
    [GRAPHIC] [TIFF OMITTED] T0323.033
    
    Chairman Tom Davis. Because we have four panels and many 
witnesses to hear from today, I am limiting further opening 
statements to the chairman and the ranking minority member of 
the Subcommittee on Criminal Justice, Drug Policy and Human 
Resources. All Members will have 7 days to submit written 
statements for the record. And of course on the cross-
examination and the examination of witnesses, members will be 
under the 5-minute rule.
    Mr. Souder.
    Mr. Souder. Thank you very much, Mr. Chairman. Some have 
questioned why we are focusing on steroids. As chairman of the 
Drug Policy Subcommittee of the Committee on Government Reform, 
along with ranking Democrat Elijah Cummings, we have held 29 
narcotics hearings in the last 24 months, hearings on how to 
prevent, control, interdict, eradicate and treat cocaine, 
crystal meth, marijuana, heroin, Ecstasy and over the counter 
drug abuse. This committee has been tackling the overall 
narcotics issues. What has been missing is this type of media 
coverage. If there is a question to be asked, it is why we held 
29 hearings on drug abuse and all the focus on this hearing by 
the media. The answer in itself proves the importance of this 
hearing.
    Like so many Americans growing up, baseball players were my 
heroes. Nellie Fox was my personal favorite. I tried to bat 
left-handed. I saved my money for months to try to get a Nellie 
Fox baseball glove. I had Nellie Fox box. I traded once a whole 
box of cards including some Mickey Mantle's to get one Nellie 
Fox card. Not the wisest business decision.
    Today, we will hear from some parents of young baseball 
players who wanted to grow up to be professional athletes, only 
they took steroids. They are now dead. Years ago, when the 
integrity of baseball was at stake, Judge Kenesaw Mountain 
Landis put an end to the infamous White Sox scandal when 
allegedly eight Chicago White Sox players were involved. Even 
shoeless Joe Jackson who was illiterate and hit 380 in the 
World Series is still banned from the Hall of Fame because 
Judge Landis not only said, ``no player who throws a game'' 
will ever play professional baseball again, but he said ``no 
player who sits in a conference where people are with crooked 
players'' discussing where ``ways and means of throwing a 
game'' will be discussed shall ever play the game.
    If there was that much of a baseball reaction to players 
who allegedly may have let a ball go through their legs or 
deliberately walked a batter, what about when key players 
systematically cheat through steroids and performance enhancing 
drugs to alter game after game. Pete Rose was banned for life 
from baseball and the Hall of Fame by commissioner Bart 
Giamatti because he eroded the integrity of the game of 
baseball. It's not even clear he bet on a game that he played 
in.
    Yet we have today people who are admitting that they are 
altering the games and cheating. How low has the integrity of 
baseball sunk? Their example is sad. Now millionaire baseball 
players and owners depended upon the public protection of anti-
trust legislation to achieve their enhanced money through their 
licenses and everything else and could not have the salaries 
and income that they have without the protection of the 
taxpayers--didn't even want to come without subpoenas to be 
questioned today.
    Even worse, it appears they have told us less than the 
whole truth about what policies they do have. They have changed 
their answers so many times in the media the last few days, 
that really the only question of this hearing is what exactly 
are they trying to cover up? With drastically rising drug abuse 
among youth in America, baseball needs to come clean. If anyone 
takes the fifth amendment today saying they would incriminate 
themselves, it would be a terrible additional tragedy. The 
scourge of all illegal drug abuse tears at the fabric of our 
Nation. Baseball was once America's pastime and it needs to 
start today to regain its former glory.
    Right now, its records and current players, the 
overwhelming percentage who are completely innocent are all 
tainted. This committee will continue to pursue all illegal 
drug use, whether in Afghanistan or Colombia, whether it's in 
rural or urban America. Whether it involves street dealers or 
whether it involves millionaire athletes, we will not stop.
    Chairman Tom Davis. Thank you, Mr. Souder.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.034
    
    [GRAPHIC] [TIFF OMITTED] T0323.035
    
    Chairman Tom Davis. Mr. Cummings.
    Mr. Cummings. Mr. Chairman, for the first time I want to 
associate myself with the words of my subcommittee ranking 
chairman, and I want to commend you and the ranking minority 
member, Mr. Waxman for holding today's very important hearing 
examining the use of steroids in professional baseball and 
Major League Baseball's response to the problem and the broader 
implications of this problem for America's public health. As 
ranking member of the Subcommittee on Criminal Justice, Drug 
Policy and Human Resources, I work routinely with subcommittee 
Chairman Souder on issues related to the U.S. drug control 
policy and public health. All those Schedule I substances are 
the primary focus of our oversight, the dangers associated with 
the illegal diversion and abuse of other drugs, including drugs 
available by prescription, can be as serious as those attending 
the use of purely illicit drugs.
    Anabolic steroids have legitimate medical use in patients 
who have suffered muscle damage, but abuse of steroids by 
recreational users seeking increased muscle growth and enhanced 
athletic performance can result in serious health problems. 
These problems can include early cardiovascular disease, liver 
damage, infection from contaminated injection equipment, 
changes to sexual characteristics and serious psychiatric side 
effects, including severe depression leading to suicide.
    To protect the public from dangerous and illegitimate use 
of steroids, Congress added certain anabolic steroids to 
Schedule III of the Controlled Substances Act. Individuals 
possessing drugs without a valid prescription can be subject to 
a misdemeanor charge with persons convicted of distributing, 
dispensing or selling these drugs are subject to a 5-year 
sentence for the first offense. In addition, Drug Enforcement 
Administration has authority to schedule additional substances. 
State laws on controlled drugs may also apply to the use and 
distribution of anabolic steroids. The growing abuse of 
steroids by recreational users, particularly by young athletes 
seeking a competitive edge to get to the next level in their 
sport, is a serious public health problem that is encouraged by 
the illegal use of steroids by professional athletes.
    The iconic status of elite athletes in America's society 
gives them tremendous influence over the attitudes and 
behaviors of the American public, especially among young people 
who aspire to be like them. The alleged private actions and 
personal choices of even a few elite players can speak even 
louder than the scripted promotional messages that prominent 
athletes are paid to recite. Young people are the most 
impressionable consumers of all of these messages and there is 
clear evidence that steroid use among young people is 
increasing at the same time that steroid use in professional 
baseball is being called widespread.
    In just 10 years, the percentage of U.S. high school 
students reporting steroid use has tripled and experts believe 
more than 500,000 high school students have used steroids in 
some form. According to the Centers of Disease Control, 1 in 45 
high schools reported steroid use in 1993. By 2003, the figure 
was 1 in 16. Major League Baseball has lagged behind other 
sports in clamping down on the use of steroids by athletes, 
often blaming its collective bargaining agreement with the 
players' union, but specific substances banned by other sports 
have only recently been banned by baseball and despite numerous 
reports of steroid use by baseball players, the league has not 
once exercised its authority to investigate a specific 
allegation of illegal steroid use.
    Mr. Chairman, Major League Baseball's policy on steroids 
needs to be one of zero tolerance and needs to have teeth. The 
committee's preliminary review of the new drug policy announced 
by Major League Baseball and the players' union suggest the 
policy could be made stronger by addressing areas of concern, 
which include the limited scope of prohibited drugs and the 
paltry penalties for violations.
    What is clear, in my opinion, is that Major League Baseball 
and the Players' Union has a joint responsibility to send to 
the public the message that steroids and performance-enhancing 
drugs have absolutely no place in legitimate sports competition 
or a lifestyle that is consistent with long-term health. In the 
absence of strong proactive leadership by Major League 
Baseball, it is incumbent upon those of us who have 
responsibility for overseeing our Nation's public health and 
drug policies to counteract the missed mixed signals of 
steroids emanating from the world of professional sports. I 
believe we have a moral obligation to the parents of youth who 
are using or who may be tempted to use these drugs to say that 
not only is the use of performance enhancing drugs contrary to 
the spirit of fair competition that we aim to promote in all 
aspects of American life, but these drugs can lead to serious 
mental and physical harm, including death. The editors of the 
Baltimore Sun may have put it best when they wrote, ``the time 
has come to hold baseball up to the brightest possible light. 
The sport needs to be examined and challenged.'' That is 
exactly what we plan to do today. I want to thank all of our 
witnesses for being here. And with that, Mr. Chairman, I yield 
back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T0323.036

[GRAPHIC] [TIFF OMITTED] T0323.037

[GRAPHIC] [TIFF OMITTED] T0323.038

[GRAPHIC] [TIFF OMITTED] T0323.039

[GRAPHIC] [TIFF OMITTED] T0323.040

[GRAPHIC] [TIFF OMITTED] T0323.041

[GRAPHIC] [TIFF OMITTED] T0323.042

    Chairman Tom Davis. Thank you, Mr. Cummings. Because we 
have four panels and many witnesses to hear from today, we are 
going to limit further opening statements to where we are and 
we are ready to move with our first panel. But before we get 
there, I want to ask unanimous consent that Mr. Osborne from 
Nebraska, former coach at the University of Nebraska, Mr. 
Sweeney, who has been active on this issue, and Mr. Serrano, be 
allowed to sit with the panel.
    And hearing no objection, so ordered. Our first witness is 
the Honorable Jim Bunning, U.S. Senator from Kentucky, and a 
member of the Major League Baseball Hall of Fame. As a pitcher 
for the Detroit Tigers and Philadelphia Phillies, Senator 
Bunning was the only second pitcher to record 1,000 strikeouts 
and 100 wins in both the American and National Leagues. Senator 
Bunning has served in public office since 1977. After winning a 
seat in the Fort Thomas, Kentucky City Council, he was elected 
to a second term in the U.S. Senate this past November, and he 
is a former Member of this body. And thank you, Jim, for being 
here.

STATEMENT OF HON. JIM BUNNING, A U.S. SENATOR FROM THE STATE OF 
                            KENTUCKY

    Senator Bunning. Thank you, Mr. Chairman and all other 
members, Ranking Member Waxman and all my good friends from the 
House of Representatives. I appreciate the opportunity to come 
here today to testify on this very important issue. As a member 
of the Baseball Hall of Fame and someone who helped found the 
current Player Association, our union, and as a lifelong fan, 
protecting the integrity of our national pastime is a matter 
that is near and dear to my heart.
    Since the beginning of this scandal, I have said that 
baseball should get the chance to clean up its own mess and 
government should stay out of the way. With the new steroid 
testing policy, it looks like baseball has taken a first baby 
step toward restoring honesty to the game. But if they 
backslide or don't follow through, then the owners and players 
need to know that we can and will act. Mr. Chairman, thank 
goodness that I don't have any personal experience with 
steroids. They weren't around during my 17 years in the Major 
Leagues. But when players broke the rules or cheated for 
sharpening spikes or corking bats or something worse, they were 
suspended. Since 1991, it has been illegal under Federal law to 
possess or sell anabolic steroids without a prescription. Many 
steroid dietary supplements like Android, were regulated as 
controlled substances by legislation that Congress passed last 
year. These substances have no place in baseball and players 
who use them illegally are cheating.
    Like I said before, I think the new policy that suspends 
players for steroid use is a baby step forward. Personally, I 
think the penalties are really puny. I would like to see much 
stronger ones. One-month suspension for a first offense and 
from what I have read today, that isn't really what happens. A 
year for a second. And then 1-month suspension for a first 
offense is what it should be, a year for a second and then the 
third strike and you are out, out of the game. Football has a 
much stronger penalty and everyone agrees its program has 
worked. Players who break the law and cheat should be severely 
punished and their records and statistics from when they used 
steroids should be wiped out.
    If baseball fails to fix this scandal, then there are a lot 
of things we can do to get their attention, by amending the 
labor laws, repealing the outdated anti-trust exemption that 
baseball alone enjoys and shining the spotlight of public 
scrutiny. The last thing I want for the national pastime to be 
the subject of a witch hunt. All of the players should be 
considered innocent until proven guilty, but we can't let 
anything get swept under the rug either. It is important we 
hear from the players themselves about the steroid use in 
baseball. We need to hear the truth and I think hearings like 
this one the committee is holding today can be helpful in 
bringing the truth forward. The players and Major League 
Baseball must be held accountable for the integrity of the 
game. After all, it's not their game. It's ours, they're just 
enjoying the privilege of playing it for a short time.
    What I may think many of today's players don't understand 
is that many others came before them and even more will come 
after them. And all of us have an obligation to protect the 
integrity of the greatest game ever invented. Now the game of 
baseball has been tarnished by some players because they didn't 
follow the rules and thought they were bigger than the game. It 
is disturbing to see trends continuing today. Baseball has to 
follow the rules just like everyone else. If a player thinks 
they are above the law of the land and can defy a congressional 
subpoena, they are sadly mistaken. They are not bigger than the 
game and they are certainly not bigger than the law of the 
land.
    The same goes for owners. For over a decade, they have 
turned their heads when it came to steroids. They have helped 
put the game at risk. Not only did they turn a blind eye, they 
built smaller parks making it easier to hit home runs. The 
balls started flying farther. We have to ask why all of these 
things happened. Some in the press have talked about this 
hearing like it's a lark. It isn't. Congress is dead serious. 
We have every right to be concerned that the national pastime 
and all that it represents has been threatened by the selfish 
actions of a few.
    Baseball is part of our culture, our history. It's a multi-
billion dollar business that affects our economy and most of 
our largest communities. There's no doubt that Congress has a 
direct and important interest in what happens in baseball. 
Finally, players can't forget that like it or not, they are 
role models. By using steroids, they have sent the wrong 
message to the kids and to the public. As has been quoted by 
many in opening statements, too many, almost a half a million 
kids or more have tried steroids. 40 percent of 12th graders in 
a recent University of Michigan study said that steroids are 
easy to get.
    So it's important for the American public to understand 
just how harmful steroids can be to someone's health. Side 
effects of steroid use include fatal conditions like liver 
cysts, liver cancer, blood clotting, hypertension and can even 
lead to heart attack and stroke and many other bad things. 
Baseball has helped to open a Pandora's box and now there's a 
chance to fix that damage and educate the public on the 
terrible health effects of steroids.
    Baseball needs to know that we are watching and even more 
importantly, the fans are watching. Mr. Chairman, maybe I'm old 
fashioned. I remembered players didn't get any better as they 
got older. We all got worse. When I played with Henry Aaron and 
Willie Mays and Ted Williams, they didn't put on 40 pounds and 
bulk up in their careers and they didn't hit more home runs in 
their late 30's than they did in their late 20's. What's 
happening in baseball now is not natural and it isn't right. 
Baseball has to get its act together or else. So let's see how 
they do. And now I'll follow the proverb President Reagan 
always quoted, trust but verify. I'm willing to trust baseball, 
but players and owners have a special responsibility to protect 
the game and they owe it to all of us to prove that they are 
fixing this terrible problem. If not, we will have to do it for 
them. Thank you again for giving me this opportunity to speak 
before your committee today and I will be happy to answer any 
questions you might have.
    [The prepared statement of Senator Jim Bunning follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.043
    
    [GRAPHIC] [TIFF OMITTED] T0323.044
    
    [GRAPHIC] [TIFF OMITTED] T0323.045
    
    Chairman Tom Davis. Senator Bunning, thank you for a 
splendid statement from a Hall of Famer. I think we have given 
you a copy of Major League Baseball's drug testing policies, 
the one with the red tabs. Could you turn to page 11, section 
9(b), discipline. It says, player tests positive for a steroid. 
It says, first positive test result, a 10-day suspension or up 
to a $10,000 fine. Is that a baby step?
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.046
    
    [GRAPHIC] [TIFF OMITTED] T0323.047
    
    [GRAPHIC] [TIFF OMITTED] T0323.048
    
    [GRAPHIC] [TIFF OMITTED] T0323.049
    
    [GRAPHIC] [TIFF OMITTED] T0323.050
    
    [GRAPHIC] [TIFF OMITTED] T0323.051
    
    [GRAPHIC] [TIFF OMITTED] T0323.052
    
    [GRAPHIC] [TIFF OMITTED] T0323.053
    
    [GRAPHIC] [TIFF OMITTED] T0323.054
    
    [GRAPHIC] [TIFF OMITTED] T0323.055
    
    [GRAPHIC] [TIFF OMITTED] T0323.056
    
    [GRAPHIC] [TIFF OMITTED] T0323.057
    
    [GRAPHIC] [TIFF OMITTED] T0323.058
    
    [GRAPHIC] [TIFF OMITTED] T0323.059
    
    [GRAPHIC] [TIFF OMITTED] T0323.060
    
    [GRAPHIC] [TIFF OMITTED] T0323.061
    
    [GRAPHIC] [TIFF OMITTED] T0323.062
    
    [GRAPHIC] [TIFF OMITTED] T0323.063
    
    [GRAPHIC] [TIFF OMITTED] T0323.064
    
    [GRAPHIC] [TIFF OMITTED] T0323.065
    
    [GRAPHIC] [TIFF OMITTED] T0323.066
    
    [GRAPHIC] [TIFF OMITTED] T0323.067
    
    [GRAPHIC] [TIFF OMITTED] T0323.068
    
    [GRAPHIC] [TIFF OMITTED] T0323.069
    
    [GRAPHIC] [TIFF OMITTED] T0323.070
    
    [GRAPHIC] [TIFF OMITTED] T0323.071
    
    [GRAPHIC] [TIFF OMITTED] T0323.072
    
    [GRAPHIC] [TIFF OMITTED] T0323.073
    
    [GRAPHIC] [TIFF OMITTED] T0323.074
    
    [GRAPHIC] [TIFF OMITTED] T0323.075
    
    [GRAPHIC] [TIFF OMITTED] T0323.076
    
    [GRAPHIC] [TIFF OMITTED] T0323.077
    
    Senator Bunning. Unfortunately, that is not the evidence 
that was sent to me by Major League Baseball. I have in front 
of me the penalties for testing positive for steroids are as 
follows: First offense, 10 days suspension. It doesn't mention 
anything, up to a fine of $10,000.
    Chairman Tom Davis. Or, the option. Could you turn to page 
10 for a second? Do they say anything in their letter to you 
that the name would be disclosed if someone flunked the test 
for steroids?
    Senator Bunning. No mention of that in here.
    Chairman Tom Davis. It says on page 10, under section 
(a)(2), the results of any prohibitive substance testing, any 
disciplinary fines imposed upon the player by the Commission 
shall remain strictly confidential. And it says if a player--
and that is on the or. So if they go with a fine, the way I 
read this, it's not even public. If they elect to suspend, only 
then will they note somebody was suspended for a specified 
number of days for a violation of the program be made public. 
Is that in the policy?
    Senator Bunning. That was not sent to me either. I know you 
are familiar with the Major League Football drug testing 
policy. Not only do they suspend them for four games on first 
offense, but they name the offender.
    Chairman Tom Davis. That's 25 percent of the season?
    Senator Bunning. That is 25 percent of the season. This 10-
days suspension is 10 days or $10,000 or up to $10,000.
    Chairman Tom Davis. It could be $1.
    Senator Bunning. Or, and they do not name the person. 
Second offense in football is eight games suspension. That is 
half a season. No pay.
    Chairman Tom Davis. That gets you where it hurts.
    Senator Bunning. There is a difference in the approach 
between the National Football League. And I realize that Major 
League Baseball was at a disadvantage in trying to negotiate a 
new agreement with a contract already in hand, so they had 
their hands tied behind them. But in fact, what they did is a 
Band-Aid and it doesn't really get to the problem.
    Chairman Tom Davis. Would you think that maybe they are not 
at the first base, they are merely out the of the batter's box?
    Senator Bunning. First step out of the box.
    Chairman Tom Davis. I just note that in the Commonwealth of 
Virginia where I reside, in our legislature, if a student 
athlete is caught with steroids, it is a 2-year suspension.
    Senator Bunning. The Olympic Committee has the best policy 
as far as steroids are concerned, 2 years suspension for the 
first offense, life suspension for the second offense.
    Chairman Tom Davis. Our feeling is this starts from the top 
down. They have passed laws in legislatures for kids. It's 
strict and it has to start from the top. Mr. Waxman.
    Mr. Waxman. Senator, I want to thank you for your eloquent 
statement. When I hear from someone who has firsthand knowledge 
who was a baseball player as well as a very well respected 
senior member of the Senate, I'm impressed by what you had to 
say to us. I want to put out there for further discussion with 
you an idea that was suggested to me by a very prominent person 
in the athletic field and he suggested that maybe what we ought 
to do is have one standard, one standard for all sports, not 
only in the Major Leagues, Minor Leagues and at schools, 
something like the Olympic standard and have that as a clear 
statement that there are going to be severe penalties, maybe 
even suspension from forever participating in the sport if 
there are numerous occasions when they have been caught.
    I don't want you to answer that now. I would like you to 
think about it and perhaps we can talk about it at another 
time.
    Senator Bunning. You know that would require a lot of 
changing of the laws that we have now.
    Mr. Waxman. Yes, but laws can be changed if it's 
appropriate, and I want to discuss with you at some future time 
whether it is appropriate.
    Chairman Tom Davis. What's your time schedule? We have a 
vote in 10 or 15 minutes. Do you have a couple of minutes?
    Senator Bunning. I have whatever you want.
    Chairman Tom Davis. Mr. Burton.
    Mr. Burton. I just would like to ask if you were in a 
position where you could make decisions, what would be the 
steps that you personally would take to clean this mess up?
    Senator Bunning. I've been looking back a little sooner 
than the current operation. You have to look forward and you've 
got to at least get some kind of an idea where these records 
that are being set have come from. So there's got to be a date 
certain if you can find out--and I don't suggest you do that 
today, find out from some of these key players if they started 
in 1992 or 1993 illegally using steroids, wipe all of their 
records out, take them away. They don't deserve them. Go ask 
Henry Aaron, go ask the family of Roger Maris, go ask all of 
the people that played without enhanced drugs if they would 
like their records compared with the current records. I 
sincerely believe that one of the solutions to get baseball's 
integrity back in heel is to look forward, but not forget 
what's happened in the past.
    Mr. Burton. I guess I didn't make my question clear, 
assuming you were commissioner, what steps would you take to 
make sure that this sort of thing does not happen in the 
future? How do you stop it?
    Senator Bunning. By making the penalties such that if you 
are caught, you are out of the game. Who would take the chance 
of losing $12 million a year if they were thrown out of the 
game if they tested positive for any of the steroids and if 
they were randomly sampled. That's the big key to be able to 
randomly sample every player in Major League Baseball and not 
just once, but at the will of the Major Leagues.
    Mr. Burton. Thank you, Mr. Chairman.
    Chairman Tom Davis. Mr. Cummings.
    Mr. Cummings. Just one quick statement. I want to thank you 
for your testimony. It was indeed very moving. And there is 
only thing that I wonder about, when you say ``trust and 
verify,'' and you can answer this some other time, but the 
question becomes how long do you trust?
    Senator Bunning. You are about at the end of your trust.
    Mr. Cummings. You answered my question. Thank you.
    Chairman Tom Davis. Mr. Towns.
    Mr. Towns. Let me also thank you, Senator for your 
testimony and I think part of my question is, the question that 
was asked, but I would like to take it a little step further. 
Are you saying that Congress should not take action at this 
time, that we should wait and give Major League Baseball an 
opportunity to act?
    Senator Bunning. I'm not saying that. Congress can take 
action at any time. On the evidence presented today at this 
hearing and subsequent hearings, I think this committee can put 
forward any kind of legislation they deem necessary to clean up 
the problems. You are going to hear some statistics today you 
are going to have a hard time believing from Major League 
Baseball. You are going to hear statistics that the abuse is 
down to 1 percent. Now that's hard for me to believe, knowing 
full well that a 150-pound right-handed hitting second baseman 
can hit the ball 425 feet to the right center field for a home 
run. And I'm not naming any names. But it's impossible.
    The only person who could do that in my era of baseball was 
Mickey Mantle, and the only reason he could do it he was 
stronger than anybody who played the game. But he was the only 
one who ever hit a ball in the right center field. Maybe it's 
because they knocked the mound down 5 inches. But I know one 
thing, hitters are much stronger and the ball is much more 
souped up than it was in the 1950's, 1960's and 1970's.
    Mr. Towns. I want to leave this room with new ideas and a 
cogent plan to stem the tide of steroids among our professional 
athletes as well as our young people. If we are to explore the 
dangers of these drugs and educate our young athletes, we need 
to hear from the right people. Mr. Chairman, I'm here today to 
help our younger people stay away from these substances, if we 
have any future hearings on this topic, please consider 
inviting these individuals that I'm going to mention.
    This is essential and could go a long way toward helping 
our young people avoid the temptation and dangers of this 
crippling drug. We should invite the Commissioner of FDA. We 
should invite Mr. John Walters, Director of the National Drug 
Control Policy for the United States of America, the Governor 
of the most populated State in the Nation, Governor 
Schwarzeneger who has indicated that he has used enhancing 
drugs and is now speaking out against them. I would like to 
hear from him. I think he has a lot to contribute.
    So Mr. Chairman, on that note, I yield back. But I'm hoping 
we do not stop at this point but continue to move forward with 
these people that have information that we need in order to 
make the proper decision.
    Chairman Tom Davis. Thank you very much.
    Mr. Shays.
    Mr. Shays. Thank you, my colleagues, it is great to have 
you here. I think one thing that Major League Baseball has done 
more is to unite Republicans and Democrats in this Congress 
than anything else that has happened in the last 18 years, 
because of the arrogance that you outlined. The letter that you 
received was from whom?
    Senator Bunning. Major League Baseball.
    Mr. Shays. Who signed the letter?
    Senator Bunning. I would have to ask staff.
    Mr. Shays. Is it in front of you, could we have a copy of 
that letter?
    Senator Bunning. Well, I only have an outline of the 
policy.
    Mr. Shays. Thank you. I think we would like a copy of that 
letter. And we would like to know who it was from.
    Senator Bunning. It was background in a memo. It wasn't a 
letter. It was a background memo.
    Mr. Shays. All right. In your statement, I just want to 
clarify, because you talked about 30 days for the first 
suspension. It's 10 days for the first?
    Senator Bunning. Correct.
    Mr. Shays. It's 30 for the second, 60 for the third, and 
for the fourth, 1 year. What we didn't know, and you clearly 
didn't know as well, is that it could be replaced with a fine. 
I am interested to know, do you think the reason that they 
chose a fine was so that they then didn't have to publicize 
that this player was being reprimanded or disciplined?
    Senator Bunning. Well, I think they gave the opportunity of 
a fine, because obviously it doesn't hurt. Somebody is making a 
$6 to $8 or $10 or $12 million a year, when you are fining them 
$10,000 or less for our first offense, it means absolutely 
nothing. There is no record of who that person is.
    Mr. Shays. You clearly wouldn't know it, necessarily, but 
if they are absent from the game, it would raise questions from 
the press. If they were suspended for 10 days or 30 days or 60 
days, we would clearly have a sense of what they were all 
about.
    Senator Bunning. Unlike football's program, where you know 
exactly who has been suspended.
    Mr. Shays. I thank you Mr. Chairman.
    Chairman Tom Davis. Who seeks recognition? Mr. Owens.
    Mr. Owens. Mr. Chairman, I would just like to make a brief 
comment. I serve as the ranking democrat on the Subcommittee on 
Workforce Protections, which is concerned about the safety of 
workers in the workplace and although baseball players earn 
tremendous amounts of money in the final analysis, baseball is 
a business, and they are workers and we are looking at a 
situation where the health and safety of every worker will be 
compromised if we allow the use of steroids, because in order 
to remain competitive have been has to do it, stay in the sport 
unless you compete on that basis, so we are jeopardizing the 
health of every worker eventually if we don't put a stop to 
this at this point.
    Thank you.
    Chairman Tom Davis. Thank you, Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman. Just a brief 
question. Senator, I appreciate you coming today, I am from 
Detroit, so you can guess my allegiance to the Detroit Tigers. 
We are very proud to call you a Detroit Tiger--I don't quite 
remember--I read about it.
    Senator Bunning. Don't date yourself.
    Mrs. Miller. For the Detroit Tigers, but let me say, in 
light of the conversation and the subject that we are talking 
about today--I am glad there are no Detroit Tigers on any of 
our panels here today. But also in the Detroit area, of course, 
we have very strong unions there. And I am just wondering, why 
has it taken, in your opinion, the players union such a long 
time to address this? The union, in my mind, is the 
organization that tries to help and protect other members. Do 
you have any comment on that, Senator?
    Senator Bunning. You will be able to answer that question 
of Donald Fehr. He is the executive director of the Major 
League Baseball Player Union, so I suggest that you ask him.
    Mrs. Miller. Thank you, I will.
    Chairman Tom Davis. Thank you very much. Let me just add. 
Just because a player is summoned here today. It is a cross-
section. We have some players here today who have been 
outspoken about steroids and we are proud to have all of them 
here.
    Mr. Sanders.
    Mr. Sanders. No questions.
    Chairman Tom Davis. Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman, Jim, Senator, great to 
see you.
    Senator Bunning. John.
    Mr. McHugh. Always appreciate your enlightened comments on 
so many subjects. I had the opportunity to go to Cooperstown, 
and listen to Jim Bunning to speak as he was inducted into the 
Hall of Fame. Anybody who heard that speech or knows of his 
representation on our stance knows he is a real straight 
talker, and it is hard to imagine anybody who has more validity 
on that issue and I appreciate you being here.
    I just wanted to followup on my young colleague who doesn't 
remember that no hitter, I do. In comments about the Players 
Association, Major League Baseball, as you look at the 
situation now, how would you assess culpability for there not 
being a stronger steroids testing policy? Could you say it's 
equally responsible in equal failure between Major League 
Baseball and the Players Association, 80/20, just to give us an 
idea where the true land mine is?
    Senator Bunning. I think after the 1994 debacle where we 
lost part of the season, lost part of the World Series. There 
was a lack of attention played by both the Players Association 
and the management. That's when it looks like steroids really 
got a hold in baseball.
    Everybody was looking for kind of a rekindling of interest 
at the Major League Baseball level, and the home run looks 
like, was the savior, and Mark McGwire, who you will have here 
before you, and Sammy Sosa, put on a home-run hitting contest 
that wound up breaking--or Roger Maris' 1961 record, and that 
rekindled fans' interest in Major League Baseball.
    I think maybe that might be the reason that there wasn't 
real hard scrutiny put on the players who were succeeding in 
hitting balls out of the ballpark faster than I have ever seen 
in my life. I always wondered why the pitchers weren't pitching 
inside a little more. Because when someone hit a ball, you 
know, 480-foot, a few years prior to that, they had to suffer 
some consequences if they did that.
    My feeling is that there wasn't a lot of attention paid, 
John.
    Mr. McHugh. So the home run meant the dollars, meant the 
game?
    Senator Bunning. Well, take a look at the Major League 
parks and what has come from that time forward. They have 
shortened the fences, the home run is a big part of the game. 
People don't really like to watch 1-0 or 2-1 games. They would 
rather be 11-9.
    So I would say that's pretty accurate.
    Mr. McHugh. Thank you, Senator, thank you, Mr. Chair.
    Chairman Tom Davis. Thank you. Mr. Kucinich.
    Mr. Kucinich. I will have some questions of a later panel, 
thank you.
    Chairman Tom Davis. Mr. Davis.
    Mr. Davis of Illinois. Thank you, Mr. Chairman I want to 
thank you and Mr. Waxman for holding this hearing. Senator, let 
me thank you for your testimony. It was certainly good to see 
you earlier this morning. I want to ask you, do you think that 
a strong anti steroid-use statement from the Baseball League 
and the Players Association with serious consequences for 
abusers would be helpful in stemming the tide among active 
players and would help to steer young people away from their 
use?
    Senator Bunning. I don't know about the latter part of your 
statement, but I know for sure, if there was a joint statement 
between Major League Baseball and the Players Union, and there 
were severe enough penalties involved in the use of those 
steroids at an earlier time, not on the fifth or sixth time, 
yes, I think that would have a dramatic effect on the use of 
steroids in Major League Baseball.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Chairman Tom Davis. Thank you. Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman. Senator, it is a 
pleasure to see you again.
    Senator Bunning. Ileana.
    Ms. Ros-Lehtinen. We all know you as an American hero in 
Major League Baseball, but maybe some of our members don't know 
that in my native homeland of Cuba, you are also a baseball 
hero, because you played for many years in the Cuban leagues in 
the off season. And we thank you, and you are very much of a 
hometown favorite, still in south Florida, where so many Cuban 
exiles are living now.
    You say in your statement that you would hope that the 
Association, the Players Association and all of the entities 
would take the necessary rules and regulations so that Congress 
would not have to act, and that the recommendations are not 
what we had hoped that they would be. What role do you see 
Congress playing in this, in the regulation of steroid use, 
understanding that the union is such a powerful union, what can 
we do and how do we fit into that scenario?
    Senator Bunning. Well, there's been some suggestions made 
already. My suggestion is if you feel this committee, and any 
other committee of the Congress feels, that Major League 
Baseball and the Players Association or Players Union does not 
comply strongly enough to our desire to wipe steroids 
completely out of baseball, then we ought to take it into our 
own hands. And it's not going to be an easy thing to change the 
labor laws of this land, to make sure that we can affect a 
change in all professional athletics. I think you are going to 
have to do it that way, make it the law of the land that all 
professional athletics are governed under this one-drug policy.
    Ms. Ros-Lehtinen. You think hearings such as this one help 
further the cause for that?
    Senator Bunning. I think it can, yes.
    Ms. Ros-Lehtinen. Thank you, Senator.
    Chairman Tom Davis. Thank you. We have votes on the House 
floor. The Obey amendment, the Hensarling amendment and rules 
suspension from yesterday, so when we go there we will be doing 
three votes. When we come back, the rest of the voting of the 
day, I think, will be single votes on different substitutes to 
the budget resolution. And at that point, we should be able to 
keep the hearings going continuously if we alternate the 
Chairs.
    Mr. Burton, Mr. Shays have offered to help with the Chair 
duties at that point.
    I would like to see if anybody else would like to make an 
opening statement before we go or any other comments, and then 
Senator Bunning could have--anyone else wish to, Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman, thank you, Ranking 
Member Waxman, for holding these hearings. I will be very brief 
since the votes are on. Thank you, Senator, for being here in 
this matter. As a fan of baseball, I hope today's hearing will 
serve as a forum to discredit some rumors and prove that the 
records obtained by future Hall of Fame inductees are credible.
    While the NFL randomly tests football players for steroid 
use, using unpaid suspensions to get their point across, the 
most impressive testing is within the Olympics. Olympic sports 
have the strongest drug-testing program run by the independent 
U.S. Anti-Doping Agency. Athletes are subject to frequent 
unannounced year-round testing, and the first positive test 
brings a minimum 2-year suspension.
    I commend Major League Baseball, therefore, to strengthen 
its steroid policy. However, it is strikingly clear that more 
steps need to be taken in order to send a clear message to 
players that using illegal drugs will not be tolerated.
    It is my hope that today's hearing will not only shed light 
on Major League Baseball's policies, but more importantly 
educate the public about the dangers to youths who may be 
tempted to use anabolic steroids and to insure that adequate 
safeguards for the future are in place.
    Thank you, Mr. Chairman, I yield back.
    Chairman Tom Davis. Thank you very much.
    Mr. Duncan.
    Mr. Duncan. Mr. Chairman, thank you, I will save my 
questions for later, but I do want to make a brief comment that 
I think my friend, Jim Bunning's statement was one of the 
finest summations of this problem that I have heard. And I want 
to commend him.
    I also want to commend you for calling this hearing, 
because I think this has given a very important wake-up call to 
Major League Baseball.
    As some of you know, my family owned and operated the 
Knoxville Smokeys AA baseball team, and were involved with the 
team from 1956 until the early 1990's. So this is very near and 
dear to my heart also. I grew up in baseball, although at a 
much lower level than Jim Bunning.
    But I think this is very, very important here today, and I 
think also, though, that we should give Major League Baseball a 
chance to take some serious steps, in addition to the actions 
that we take. I think that we will react positively, and I 
certainly hope they will, because this is a very serious 
problem for the young people of this country, and I thank you 
very much.
    Chairman Tom Davis. Thank you very much.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman, Senator, thank you 
for your excellent testimony. I will be very brief. During my 
12 years in the Maryland Legislature I had the opportunity to 
work with many people in raising awareness about the dangers of 
chewing tobacco, tobacco use, for oral cancer and many of the 
baseball players and the Baltimore Orioles organization were 
terrific at helping get out the word, Hank Aaron has been a 
real leader in that effort.
    I think that effort shows that the players understand that 
when they are committed to doing it, can work to send signals 
and messages to our young people, and I think it's had an 
effect, because of the position Hank Aaron and others have 
taken. It seems to me we need an even higher level of 
commitment to message sending to our youth, from Major League 
Baseball and the players, especially from the players, who 
young people--I have young children, I have two young boys and 
a daughter, they are very actively engaged in sports.
    My 13-year-old tries to do 10 pushups every night. He is 
very interested in being physically fit. We may need to make 
sure that we are sending a message that in sports across the 
board, as you said, baseball or any other sport, you can't get 
ahead by taking these shortcuts. You can't get ahead by 
cheating. We can't send a message that sports figures are 
somehow above the law, and it's critical that the ball players 
themselves, those who are engaged in those efforts.
    So I thank you for all your efforts to raise attention to 
this issue and call upon my colleagues here, the ball players 
to get with it and to start sending the right messages to our 
youth. Thank you.
    [The prepared statement of Hon. Chris Van Hollen follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.078
    
    Chairman Tom Davis. Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman, Senator Bunning, as a 
representative of eastern Pennsylvania, I want to congratulate 
you nearly 41 years after your perfect game on Father's Day 
1964.
    In your statement, you mentioned the Federal antitrust 
exemption. If Major League Baseball fails to enact stringent 
policies on steroids, do you think that we as a Congress should 
consider repealing that antitrust exemption that, in my State, 
the team owners effectively use to extract over $150 million to 
pay for their stadiums in the cities of Philadelphia and 
Pittsburgh?
    Senator Bunning. Well, my personal feeling is that if you 
are going to grant an exemption to someone, if they don't honor 
the exemption that they have and respect the fact that they 
have it, or Major League football doesn't and Major League 
basketball doesn't and Major League hockey never had it, then 
they should be held accountable for that exemption. Of course, 
it should be one of the things on the table, if you are going 
to look at not reacting to this crisis that's before them.
    Chairman Tom Davis. Thank you very much. Anyone? Mr. 
Ruppersberger.
    Mr. Ruppersberger. First, one baseball question. What was 
that pitch that you threw to Mickey Mantle when he hit the ball 
to right field, home run?
    Senator Bunning. Which home run, which pitch?
    Mr. Ruppersberger. Well, we know this is a very serious 
area, I am from Baltimore, a Baltimore Oriole fan all of my 
life. I went to a lot of games, I have seen you pitch. But what 
I liked about your testimony, I liked a lot about your 
testimony is bottom line, baseball is a game and you talked 
about using steroids as cheating. We do not want our national 
pastime, the sport that we love, to be considered a game where 
people can cheat, where it can take advantage of one over 
another.
    It seems to me that now we have to come together, and this 
hearing will put the limelight on this and I think help the 
Commission. The Commissioner is in a pretty bad position right 
now, because he has to pull the Players Association together. 
Maybe have the Players Association rethink their position, 
because it seems we have to be able to get the facts on using 
steroids and who was not. Right now, a lot of the testimony out 
there from Canseco is Canseco's credibility versus someone 
else's credibility.
    My question to you is what do we need to do now, from a 
testing point of view, a change in policy for baseball, to get 
this issue worked on so we can start worrying more about the 
game and who is going to win or lose and not about athletes 
using sports, using steroids that is cheating and illegal.
    Senator Bunning. Well, what you need to do is make it 
tougher and then the policy that they have proposed, and you 
have to make it so that if you use them and get caught, you are 
gone.
    Mr. Ruppersberger. And I agree with all of that. I think 
the Olympic testing is great, but I think we have to move right 
away. How can we move right away from your point of view?
    Senator Bunning. Well, they are in the middle of a contract 
right now, a collective bargained agreement. And that puts an 
ominous job on the United States to change labor law, so it is 
much more difficult than it appears.
    Mr. Ruppersberger. Well thank you, we have to go run and 
vote thank you.
    Senator Bunning. Thank you.
    Chairman Tom Davis. Senator Bunning, thanks so much for 
being with us.
    Senator Bunning. Thank you, Tom.
    Chairman Tom Davis. Ms. Norton, we have to go run to vote. 
Go ahead--well, the hearing will be in a recess for about half 
an hour as Members go. We have three items, at that point we 
will go with our second panel, be ready to swear them in and 
move on to their testimony and questions, thank you.
    [Recess.]
    Chairman Tom Davis. I want to move to our second panel as 
everybody will return from votes.
    We have Dr. Denise and Mr. Raymond Garibaldi, the parents 
of former U.S. player Rob Garibaldi, who committed suicide 
after steroid use.
    We have Mr. Hooton, president and director of Taylor Hooten 
Foundation and father of high school baseball player, Taylor 
Hooton, who committed suicide after steroid use.
    We have Dr. Nora D. Volkow, Director, National Institute on 
Drug Abuse, National Institutes of Health.
    Dr. Gary I. Wadler, associate professor of clinical 
medicine, New York University School of Medicine.
    And we have Dr. Kirk Brower, associate professor of 
psychiatry, University of Michigan Medical School and executive 
director Chelsea Arbor Addiction Treatment Center.
    And Dr. Elliott Pellman, the medical advisor to Major 
League Baseball.
    We ask unanimous consent that the written statement of Mr. 
Efrain and Brenda Marrero be inserted in the record, and 
hearing no objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.079
    
    [GRAPHIC] [TIFF OMITTED] T0323.080
    
    [GRAPHIC] [TIFF OMITTED] T0323.081
    
    [GRAPHIC] [TIFF OMITTED] T0323.082
    
    [GRAPHIC] [TIFF OMITTED] T0323.083
    
    [GRAPHIC] [TIFF OMITTED] T0323.084
    
    [GRAPHIC] [TIFF OMITTED] T0323.085
    
    [GRAPHIC] [TIFF OMITTED] T0323.086
    
    Chairman Tom Davis. It's a policy of this committee that 
all witnesses be sworn before you testify. If you would rise 
with me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Your entire statements are in the 
record. This is a very important topic, and I thank each of you 
for taking the time to be with us here today to share it.
    Dr. Garibaldi, I will start with you.

 STATEMENTS OF DENISE AND RAYMOND GARIBALDI, PARENTS OF FORMER 
    U.S. PLAYER ROB GARIBALDI; DONALD HOOTON, PRESIDENT AND 
   DIRECTOR, TAYLOR HOOTEN FOUNDATION, FATHER OF HIGH SCHOOL 
BASEBALL PLAYER, TAYLOR HOOTON; NORA D. VOLKOW, M.D., DIRECTOR, 
   NATIONAL INSTITUTE ON DRUG ABUSE, NATIONAL INSTITUTES OF 
 HEALTH; GARY I. WADLER, M.D., ASSOCIATE PROFESSOR OF CLINICAL 
MEDICINE, NEW YORK UNIVERSITY SCHOOL OF MEDICINE; KIRK BROWER, 
M.D., ASSOCIATE PROFESSOR OF PSYCHIATRY, UNIVERSITY OF MICHIGAN 
MEDICAL SCHOOL, AND EXECUTIVE DIRECTOR, CHELSEA ARBOR ADDICTION 
   TREATMENT CENTER; AND ELLIOTT PELLMAN, M.D., THE MEDICAL 
                ADVISOR TO MAJOR LEAGUE BASEBALL

           STATEMENT OF DENISE AND RAYMOND GARIBALDI

    Ms. Garibaldi. Honorable Davis and members of the 
committee, as a licensed psychologist and more so parent, I 
thank you for the honor of addressing this committee today. My 
husband's and my personal efforts interest in your efforts 
emanates from our son, Rob, who, with the exception of his 
size, had all the makings of a professional baseball player.
    We were living on the San Francisco peninsula when Rob was 
a Little Leaguer, watching with excitement the accomplishments 
of his local sports heroes, Barry Bonds and the Bash brothers, 
Mark McGwire and Jose Canseco. Their successes fueled his 
dreams. He had both the talent and the desire. To Rob, baseball 
was life. By the time he reached high school, his skill at 
baseball was considered remarkable. In fact, his dream of 
playing in the Major Leagues came very close to reality.
    Rob turned down the Yankees in 1999 in order to accept a 
full scholarship at University of Southern California, and then 
he played for USC in the 2000 World Series.
    Mr. Garibaldi. As a team, Rob was told by all working with 
him, coaches, trainers and scouts, that the only way to improve 
his game was to get bigger. With the exception of size, he had 
all the tools Major League scouts considered in a potential 
draftee. Running speed, throwing skills, defensive skills and 
hitting skills. Getting bigger began with working out 
diligently and using creatine. Creatine was supplied by a 
scouting team sponsored by the California Angels when he was 
15.
    In fact, this and other performance-enhancing supplements, 
such of which the FDA purport as food, were given to him 
throughout his baseball career. We were told they were like 
vitamins. When weight lifting, nutrition and supplements did 
not produce the desired results, Rob was encouraged to obtain 
and use steroids. Rob obtained his first cycle of steroids 
after graduating from high school. He travelled to Tijuana, 
Mexico with a friend, and within an hour, had a prescription 
and purchased steroids from a pharmacy there for himself and 
other friends. Rob also implicated his trainer at USC as 
assisting his use of steroids so as to gain 20 pounds.
    At 16, 5'9'' and 130 pounds, Rob was far from being a 
prototype designated by Major League scouts as desirable. Their 
goal weight for Rob was 185 pounds. By the 2002 Major League 
draft, steroids had made good on their promise. Rob was a power 
hitter, 5'11'' and weighed 185 pounds, but he was not drafted. 
Steroids had taken an insidious hold with scouts commenting he 
was a head case.
    Even though his mom and I confronted him about his weight 
gain, upper body muscle development, puffy face, hair loss and 
acne--all symptoms of steroids use--he denied his use. Most 
disturbing were the adverse psychiatric effects he demonstrated 
over time. Mania, depression, short-term memory loss, 
uncontrollable rage, delusional and suicidal thinking and 
paranoid psychosis--symptoms he never acknowledged as being 
problems.
    Prior to steroids, Rob never displayed any of these 
symptoms. When not on steroids, or withdrawn from them, Rob was 
a sweet and empathetic guy with ambitions beyond baseball. When 
disabled by steroids, his character and demeanor so drastically 
changed that he was dismissed by the coaching staff at USC as a 
behavioral problem. During this time, no one recognized his 
symptoms as being somewhat other than aggregated depression or 
bipolar disorder.
    Rob also never thought of the known physical consequences 
as being serious. Having heart or liver disease or being 
sterile were issues he would think about after baseball. At our 
insistence, Rob eventually cooperated with psychiatric 
treatment. He was hospitalized in an inpatient psychiatric unit 
involuntary, and was prescribed antidepressants and 
antipsychotics, and went to an residential treatment facility. 
But his depression was unsurmountable. On October 1, 2002, in 
his car a half a block from our home, Rob shot himself in the 
head. He was 24.
    We support your every effort to implore your continued 
efforts to purge steroids from baseball and inform and 
legislate law that guides the general public.
    Ms. Garibaldi. Our children are using the same performance-
enhancing supplements and drugs as professional athletes. 
Research is showing that at an early age, intake of the 
supplements creates a mindset that prompts steroid use later.
    Grave misinformation, such as that in Jose Canseco's recent 
account in his book ``Juiced,'' continues to be disseminated. 
Because of ignorance, denial of these athletes who refuse to 
testify without subpoenas and opinions touted as fact, coaches, 
scouts and parents will continue to make misinformed statements 
to those in their charge.
    Even though Mr. Canseco states on the first page that 
steroids are for adult use, youth are not afraid to take the 
risk of losing their health or their lives to emulate their 
heroes and/or to help guarantee a place on a team a 
scholarship, their physique or competitive edge.
    I have a question, if the Federal Government has designated 
steroids as illegal unless prescribed by a physician, why did 
Major League Baseball have to ban their use before ball players 
could be sanctioned for using them. Our children are reading 
``Juiced'' right now, watching Barry Bonds right now, getting 
permission from their role models right now to use. Canseco 
states--and his counterparts imply--that as long as you trust 
your instincts, control carefully the amounts, administer them 
at a proper time and be smart, careful and know what you are 
doing, full potential can be reached.
    I would like to know where Dr. Canseco got his research. 
Because what we know is that without steroid use, Rob's 
suffering, and ultimately his death, would have been averted. 
How many more youngsters will die questing ego and fame through 
steroids?
    There is no mind that anabolic steroids caused Rob to 
assault his father and choke him until he was restrained by two 
men. There is no doubt in our minds that steroids killed our 
son. Ultimately we do blame Rob for his use. He surrendered his 
well-being and integrity. He made his choice, and we must now 
live with the consequences.
    However, with his sports heroes as examples and Major 
League Baseball's blind eye, Rob's decision was a product of 
erroneous information and promises.
    In his mind, he did what baseball players like Canseco have 
done and McGwire and Bonds are believed to have done. Rob 
fiercely argued, I don't do drugs, I am a ball player, this is 
what ball players do. If Bonds has to do it, then I must. We 
miss him terribly.
    And in Rob's name and in the name of athletic excellence, 
we thank the committee for defining and demanding 
responsibility for those who are admired and communicating to 
the Nation that the win-at-all-cost attitude that prevails is 
much too dangerous a game for our youths for anyone. Baseball 
is not life. Baseball is a game.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. and Mrs. Garibaldi follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.087
    
    [GRAPHIC] [TIFF OMITTED] T0323.088
    
    Chairman Tom Davis. Mr. Hooten.

                 STATEMENT OF DONALD M. HOOTON

    Mr. Hooton. Mr. Davis, Mr. Waxman, Congressmen. 20 short 
months ago, our youngest son, Taylor, took his own life. He was 
2 weeks away from beginning his senior year in high school. He 
was carrying a 3.8 average, made excellent scores on his SAT 
tests, and he and I were preparing to make college visits. 
Taylor was well liked by all who knew him, adults tell us he 
was one of the nicest young men they ever knew, extremely well 
mannered. His kids thought he was one of the nicest kids on 
campus, a real lady's man, quite a charmer. This past spring, 
Taylor would have been a starting pitcher on his varsity 
baseball team.
    But during the fall of his junior year, his JV coach told 
the 6-foot 3, 175-pound young man that he needed to get bigger 
in order to improve his chances of making the varsity team. 
Taylor resorted to using anabolic steroids to help him achieve 
his objective. Like the Garibaldis, I am absolutely convinced 
that Taylor's secret use of anabolic steroids played a 
significant role in causing the depression, the severe 
depression that resulted in his suicide. And I have also 
learned that the events leading up to and including Taylor's 
suicide are right out of the medical textbook on steroids.
    Experts put the usage of steroids amongst our high school 
kids at about 5 to 6 percent of the overall population. Some of 
the percent experts that I talk to put the numbers at more like 
1 million kids doing steroids, not 500,000. And I am of a 
personal belief that those numbers are at the bottom end of 
that range, that number is higher.
    In some parts of the country the studies show that usage 
among high school and junior and senior males is as high as 11 
to 12 percent. Let me put that in context. The kids in my part 
of the country tell me that as many as one-third of the boys 
who show up to play football under the lights on Friday night 
are juicing. A number of factors are contributing to the 
increasing usage amongst our kids. You have asked me to talk 
about one of them, and I am happy to do that.
    I believe the poor example being set by professional 
athletes is a major catalyst fueling the high usage of steroids 
amongst our kids. Our kids look up to these guys. They want to 
do the things the pros do to be successful. And with this in 
mind, I have several messages for the professional athletes.
    First, I am sick and tired of having you tell us that you 
don't want to be considered role models. If you haven't figured 
it out yet, let me break the news to you that whether you like 
it or not, you are role models, and parents across America 
should hold you accountable for behavior that inspires our kids 
to do things that put their health at risk and that teaches 
them that the ethics we try to teach them around our kitchen 
table somehow don't apply to them.
    Second, our kids know that the use of anabolic steroids is 
high amongst professional athletes. They don't need to read Mr. 
Canseco's new book to know that something other than natural 
physical ability is providing many of you with the ability to 
break so many performance records that provides you with the 
opportunity to make those millions of dollars.
    Our youngsters hear the message loud and clear, and it's 
wrong. If you would want to achieve your goal, it's OK to use 
steroids to get you there, because the pros are doing it. It's 
a real challenge for parents to overpower the strong message 
that's being sent to our children by your behavior.
    Third, players that are guilty of taking steroids are not 
only cheaters, you are cowards, you are afraid to step on the 
field to compete for your positions and play the game without 
the aid of substances that are a felony to possess, without a 
legitimate prescription, substances that have been banned from 
competition at all levels of athletics. Not only that, you are 
cowards when it comes to facing your fans and our children. Why 
don't you behave like we try to teach our kids to behave? Show 
our kids that you are man enough to face authority, tell the 
truth and face the consequences.
    Instead, you hide behind the skirts of your union. And with 
the help of management and your lawyers, you have made every 
effort to resist facing the public today.
    What message are you sending our sons and daughters, that 
you are above the law, that you can continue to deny your 
behavior and get away with it? That somehow you are not a 
cheater unless you get caught? Your attorneys say they are 
worried about how your public testimony might play in a court 
of law. But how do you think your refusals to talk about 
playing in the court of public opinion? Let me tell you that 
the national jury of young people have already judged your 
actions and concluded that many of you are guilty of using 
illegal performance-enhancing drugs.
    But instead of convicting you, they have decided to follow 
your lead. In tens of thousands of homes across America, our 16 
and 17-year-old children are injecting themselves with anabolic 
steroids. Just like you big leaguers do.
    Your union leaders won't want us to be sensitive to your 
right of privacy. Rights of privacy? What about our rights as 
parents, our rights to expect that the adults our kids all look 
up to will be held to a standard that does not include behavior 
that is dangerous, felonious and is cheating.
    How about a short message for management. We can't leave 
them out. Major League Baseball and other sports need to take 
serious steps to stop the use of steroids. Slapping a player on 
the wrist with a 10-day suspension, I didn't even know about 
the $10,000 thing until this morning, but a 10-day suspension 
is just one more signal to our children that you are not 
serious about ridding the game of this junk. Forcing a pro, 
even at worse, to miss 10 games, is asking him to miss 6 
percent of a season. Let's put that through the prism of the 
glasses of a high school student.
    Forcing a high school student to miss 6 percent of his 
season is asking him to sit the bench for less than 1 game. We 
shouldn't be talking about whether or not to put asterisks next 
to these guys' records. They ought to be thrown out of 
baseball, and we ought to be turning them over to the 
authorities to have them arrested and put in jail for the 
behavior that they have done.
    Why don't you implement a program that we have heard about 
today that is a lot closer to the Olympics standard where 
cheaters are not able to compete for 2 years after their first 
offense and banned for life following the second. Just maybe 
our kids will get the message that you are finally serious 
about solving this problem. Let me add to the whole discussion 
that this is not about a collective bargaining agreement.
    Guys, we are way past that. Steroid usage has become a 
major health issue that is affecting the lives and health of 
our kids, and I encourage the Members of Congress to please 
deal with it in such a manner. A critical weapon that we have 
in this battle is education.
    Our students need to know that these drugs can seriously 
harm them. But I am convinced that trying to warn 16-year-olds 
about the danger of liver cancer or having a heart attack 
probably is going to fall on deaf ears, which I believe is why 
our first targets for education have to be our parents and 
coaches.
    Our parents need to know the dangers of this drug, how to 
recognize the warning sign and how to understand the importance 
of supervising this with our kids. Our coaches have to be more 
responsible and accountable for dealing with this situation 
with their teams. Coaches across the country need to be 
certified and credentialed to have to pass a test to prove that 
they are competent to supervise our children. As part of a 
certification, they need to be trained about steroids and other 
performance-enhancing drugs and trained to know what to do 
about it when they find it.
    Finally, they need to be held accountable for insuring that 
their teams are steroid free, to help fill the education void, 
we have formed the Taylor Hooton Foundation for fighting 
steroid abuse, the Nation's first private organization in this 
area. Working in conjunction with experts like Dr. Gary Wadler 
here on my left, we would like to explore ways to work with you 
and others in the government to make our foundation a part of 
your work going forward.
    On behalf of my son, Taylor Hooton, Rob Garibaldi and 
Efrain Marrero, whose parents are with us today, let me implore 
you to take steps to clean up this mess. Please help us to see 
that our children's lives were not lost in vain. You have the 
power to do something about it, and we are counting on you to 
do so.
    Thank you.
    Chairman Tom Davis. Thank you very much, Mr. Hooton.
    [The prepared statement of Mr. Hooton follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.089
    
    [GRAPHIC] [TIFF OMITTED] T0323.090
    
    [GRAPHIC] [TIFF OMITTED] T0323.091
    
    Chairman Tom Davis. Dr. Volkow, thank you for being with 
us.

               STATEMENT OF NORA D. VOLKOW, M.D.

    Dr. Volkow. Mr. Chairman and members of the committee, it 
is my privilege to be here today to discuss what science has 
taught us about the serious health consequences of anabolic 
steroid abuse. We are now facing a very damaging message that 
is becoming pervasive in our society, that bigger is better and 
being the best is more important than how you get there.
    We are here today because of the reports of anabolic 
steroid abuse by professional athletes, many of you are 
regarded as role models by today's young people. There is great 
risk that our adolescents will be vulnerable to these messages, 
and will be far less concerned about the long-term health risks 
to their bodies and their minds.
    What are anabolic steroids and how do they affect the body? 
Anabolic steroids are synthetic versions of the primary male 
sex hormone testosterone. They can be injected, taken orally or 
transdermally. They promote the growth of skeletal muscle and 
the development of male sexual characteristics. Anabolic 
steroids are controlled substances which can be prescribed to 
risk conditions such as body wasting in patients with AIDS and 
other diseases that occur when the body produces abnormally low 
levels of testosterone.
    However, the doses prescribed to treat these conditions are 
10 to 100 times lower than the doses that are abused for 
performance enhancement.
    Let me be clear, although anabolic steroids can enhance 
certain types of performance and appearance, they are dangerous 
drugs. And when used inappropriately, they can cause a host of 
severe, long lasting and often irreversible negative health 
consequences. These drugs stunt the height of growing 
adolescents, masculinize women, and alter sex characteristics 
in men.
    Anabolic steroids can lead to heart attacks, strokes, liver 
tumors, kidney failure and serious psychiatric problems. In 
addition, because steroids are often injected, users risk 
contracting or transmitting HIV or hepatitis.
    The research also indicates that anabolic steroids directly 
affect the brain. They affect some of the same reverse sequence 
as other drugs of abuse, and with repeated use, can produce 
addiction. However, they also affect areas in the brain that 
are normally regulated by sex hormones, and these actions 
account for many of the behavioral changes that occur with 
steroid abuse, such as aggression, depression, psychosis, 
mania.
    Some of these consequences occur long after the person 
stops taking the drug. Indeed, depression induced by steroid 
withdrawal can result in suicide weeks after drug 
discontinuation.
    Anabolic steroid abuse differs from the use of other 
illicit substances, in that the initial use is not driven for 
the desire of the high or euphoria with such drugs such as 
cocaine, marijuana or heroin, but the desire of the user to 
enhance their performance and appearance, characteristics that 
are extremely important for adolescents. The effects of 
steroids in addition can boost confidence and strength, leading 
the abuser to overlook the potentially serious long-term 
damages that these substances can cause.
    I am pleased to say that NIDA has supported research that 
lead to the development of two highly effective prevention 
programs, ATLAS targeting male athletes, and ATHENA, targeting 
female athletes, which not only prevent anabolic steroid abuse 
but also promote other behaviors and attitudes in adolescents.
    Because school-sponsored athletics involve about 50 percent 
of high school students, these programs, which are sports-
based, provide the opportunity to reach a large number of 
adolescents. Influential coaches and peer groups provide 
information on sports nutrition and acrobatic strength training 
as alternatives to the use of drugs to performance and build 
confidence.
    ATLAS and ATHENA have been adopted by schools in 29 States 
and Puerto Rico. Both Congress and the substance abuse and 
Mental Health Services Administration have endorsed ATLAS and 
ATHENA as model prevention programs which could and should be 
implemented in more communities throughout the country.
    In response to the increasing alarming use of steroids in 
adolescents, NIDA invested in public education efforts to 
increase the awareness of the dangers of steroid use. Beginning 
in 2000, we created a new Web site focused on steroid abuse, 
developing information on material for healthcare professionals 
and the public and aired public service television 
announcements.
    In summary, we know that the inappropriate use of anabolic 
steroids can have catastrophic medical and psychiatric 
consequences.
    For this reason, we are very concerned about the misleading 
positive messages being conveyed on the abuse of these drugs by 
well-known professional athletes. These could undermine our 
work prevention and education efforts. NIDA will continue to 
bring the power of science to bear on these issues.
    I thank you for your attention and interest, and would be 
pleased to answer any questions you may have.
    Chairman Tom Davis. Thank you, Dr. Volkow.
    [The prepared statement of Dr. Volkow follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.094
    
    [GRAPHIC] [TIFF OMITTED] T0323.095
    
    [GRAPHIC] [TIFF OMITTED] T0323.096
    
    [GRAPHIC] [TIFF OMITTED] T0323.097
    
    [GRAPHIC] [TIFF OMITTED] T0323.098
    
    [GRAPHIC] [TIFF OMITTED] T0323.099
    
    [GRAPHIC] [TIFF OMITTED] T0323.100
    
    [GRAPHIC] [TIFF OMITTED] T0323.101
    
    [GRAPHIC] [TIFF OMITTED] T0323.102
    
    [GRAPHIC] [TIFF OMITTED] T0323.103
    
    Chairman Tom Davis. Dr. Wadler. Thanks for being with us.

               STATEMENT OF GARY I. WADLER, M.D.

    Dr. Wadler. Thank you, Mr. Chairman, I appear before this 
committee wearing multiple hats. I am an associate professor of 
clinical medicine at NYU School of Medicine and represent the 
United States as a member of the World Anti-Doping Agency's 
Prohibited List and Methods Committee. I am a fellow of the 
largest sports medicine association in the world, the American 
College of Sports Medicine, and am the legal author of the 
textbook, ``Drugs and the Athlete.''
    In 1993, I received the International Olympic Committee's 
President's Prize for my work in doping. I have served as an 
expert on anabolic steroids for the Department of Justice and 
since 1999, I have advised the Office of National Drug Control 
policy on matters of doping. Since appearing before the Senate 
Committee on Commerce, Science and Transportation in 1999 to 
discuss the use of performance-enhancing drugs in Olympic 
competition, there has been a sea of change on many fronts. At 
the Federal level, we have witnessed great strides in the fight 
against doping.
    The President highlighted his issue in his 2004 State of 
the Union. The Department of Justice has pursued the BALCO 
investigation, and the FDA removed ephedra and androstenedione 
from the store shelves. Just last month, the Anabolic Steroid 
Control Act of 2004 became effective, adding numerous steroid 
precursors to the list of steroids controlled under the act.
    Internationally the United States, with the Office of 
National Drug Control Policy at the helm has played a 
leadership role in the World Anti-Doping Agency, its governance 
and funding. And most recently, in drafting the anti-doping 
convention under the auspice of UNESCO.
    In 2004, the U.S. Government contributed an unprecedented 
$1.45 million toward WADA budget of $23 million and last year 
$7.5 million was appropriated to support our national anti-
doping and the U.S. Anti-Doping Agency, USADA for testing, 
research and education.
    With this as a backdrop, one must ask the question where 
have we gone astray with Major League Baseball and why should 
we care? Perhaps a seminal moment on researching the issue of 
performance enhancing drug use in baseball was a 1998 
revelation that Mark McGwire had used androstenedione during 
his record-breaking 70 home run season. At the time, McGwire 
did not violate the laws of the land nor the laws of baseball. 
Those were to change. The 2002 assertions of Jose Canseco and 
the late Ken Caminiti that steroid use was rampant in baseball 
were dismissed by many in organized baseball as being 
hyperbolic.
    However, last week, Mr. Selig acknowledged in 2001, 11 
percent of Minor League players had tested positive, and 
baseball's own 2003 steroid survey testing have revealed that 
even with its very poorest testing program, as many as 5 to 10 
percent of players had tested positive, the equivalent of two 
entire Major League teams.
    Last week we learned that in 2004, 1 to 2 percent tested 
positive, which still translates to an unacceptable number of 
users, between 12 to 24-league wide, the equivalent of a half 
to full roster. The incidents would likely have been higher if 
the testing had been performed as it should have been year 
around, in and out of competition, on a random, no notice 
basis.
    To put these figures in perspective, compare Major League 
Baseball's statistics with those of the World Anti-doping 
Agency, where less than 1 half percent of 150,000 tests 
rigorously administered worldwide in 2002 tested positive for 
steroids. One can only conclude that the prior assertions of 
rampant steroid abuse in baseball likely were not hyperbobolic, 
and why should we care?
    We should care for many reasons, but perhaps most notable 
is that baseball, our national pastime, for better or for 
worse, is a role model sport and likely contributes to the 
alarming abuse of anabolic steroids by teenagers. Just reflect 
on the enormous increase in sales in andro, the year after Mark 
McGwire broke Roger Maris' longstanding home run record. The 
most recent data from the annual review of the National 
Institute of Drug Abuse survey reveals that in 2004, 3.4 
percent of 12th graders had used these drugs at some time in 
their lives and as many as 1.9 percent of 8th graders had used 
them. Even more alarming is the perception amongst high school 
students that they are harmful has dropped from 71 percent in 
1992 to only 56 percent in 2004.
    Let me assure you from a public health perspective that the 
abuse of these drugs is harmful both physically and 
behaviorally. Their abuse can lead to an array of physical 
problems, some predictable, such as feminization of the male, 
some not, such as premature heart disease, some permanent and 
some not.
    But baseball's problem is not limited to steroids. One can 
only wonder why baseball's new drug policy does not explicitly 
ban amphetamines, a Schedule III drug. It was amphetamine abuse 
that gave rise to the Controlled Substances Act of 1970 and to 
the development of Olympic banned substances list in 1968.
    Following the first recorded fatalities from performance 
enhancing drugs, namely amphetamines. While ephedra is now 
banned in baseball subsequent to the heat stroke defendant of 
Steven Bechler and is being banned by the FDA, one should not 
lose site of the fact that ephedra is closely related to the 
stimulant amphetamine. Why ephedra is banned by Major League 
Baseball while amphetamines are not, remains an enigma. The 
position that the Players Association has taken with respect to 
amphetamines, certainly leads one to suspect that they too are 
endemic in baseball.
    Finally, a few words about Major League Baseball's new drug 
policy testing program, which I had a brief chance to review.
    In my judgment, the policy at best as we know it, can best 
be described as one of incrementalism. One designed to silence 
its critics, but not one designed to seriously rid professional 
baseball of the abuse of all performance enhancing drugs. To be 
sure that the devil is in the details as we heard with the word 
``or,'' for example, while human growth hormone is on 
baseball's banned list, baseball will not conduct blood 
testing, which is the only way it can be currently detected.
    Doping is an exquisitely complex subject involving 
interplay of numerous disciplines. In my opinion, the 
complexity of antidoping far exceeds the capacity of baseball 
to design, implement and monitor an effective transparent and 
accountable program.
    It is embodied in the world's antidoping code, which I 
distributed to you this morning, and its international 
standards and Major League Baseball should embrace them, as 
have other high profile professional sports such as men's 
professional tennis, soccer and cycling.
    Organized baseball should heed the experience of the 
Olympic movement, which recognized that its very credibility 
was cracking under the weight of doping. And so it passed the 
antidoping baton to WADA, the World Anti-Doping Agency, and to 
the national doping agencies such USADA.
    I am pleased to note that baseball has taken one 
significant step in that direction, by contracting out its 
antidoping laboratory services to WADA certified accredited 
laboratory.
    At a minimum, and now I am being very, very specific, as 
the next step, Major League Baseball should adopt the WADA 
list, which I distributed this morning of prohibited substances 
and methods in its entirety. The list is a continuously 
evolving product reflecting countless man-hours by scientists, 
and physicians around the world. It is endorsed by sporting 
bodies worldwide as well as by world governments, including the 
United States.
    For the potential of a 2-year sanction for steroid abuse is 
called for in the world antidoping code, we make baseball 
hesitant to erase the code, baseball should be mindful that 
baseball caused the sanctions to be reduced in ``exceptional 
circumstances,'' and provides for the possible reduction or 
elimination of the period of eligibility in the unique 
circumstances where the athlete can establish that he had no 
fault or negligence in connection with the violation.
    Furthermore, the U.S. Anti-Doping Agency [USADA] is in the 
best position to implement the best practices of doping control 
baseball in conformity and the requirements with the world 
requirements of the world antidoping code.
    Finally, only when baseball demonstrates its unabashed 
commit to drug-free sport, will it fully regain the confidence 
of its fans and once again deservedly become America's favorite 
pastime. Thank you.
    Mr. Souder [presiding]. Thank you.
    [The prepared statement of Dr. Wadler follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.104
    
    [GRAPHIC] [TIFF OMITTED] T0323.105
    
    [GRAPHIC] [TIFF OMITTED] T0323.106
    
    [GRAPHIC] [TIFF OMITTED] T0323.107
    
    [GRAPHIC] [TIFF OMITTED] T0323.108
    
    [GRAPHIC] [TIFF OMITTED] T0323.109
    
    Mr. Souder. Our next witness is Dr. Kirk Brower, associate 
professor of psychiatry, University of Michigan Medical School 
and executive director of the Chelsea Arbor Addiction Treatment 
Center.

               STATEMENT OF KIRK J. BROWER, M.D.

    Dr. Brower. I want to thank Members of Congress for 
inviting me to testify here today. I will focus mostly on 
psychiatric side effects. May I have the first slide please. 
Illicit use of anabolic-androgenic steroids has been associated 
with a variety of adverse psychiatric effects. You can cancel 
that slide, since it is not mine. Illicit use of anabolic 
androgenic steroids has been associated with a variety of 
adverse psychiatric effects, which I define here as 
disturbances in, thinking, behavior, and perception. The most 
frequently described of these effects are major mood swings, 
ranging from mania to depression, suicidal thoughts and 
behaviors, marked aggression, including homicidal thoughts and 
behaviors, sometimes called by users ``roid rage.''
    In addition, grandiose and paranoid delusions and addiction 
can occur. Mania, or its less severe form known as hypomania, 
aggression and delusions typically begin during the course of 
using steroids. Whereas depressive episodes and suicide 
attempts are most likely to occur within 3 months of stopping 
use, that is, during the period we call steroid withdrawal. 
Fortunately, most psychiatric effects we believe, such as mood 
swings, are reversible with medically monitored cessation of 
steroid use. But not always as you have heard this morning. 
Suicides and homicides are obviously irreversible.
    In adolescents, psychiatric effects of illicit steroid use 
are not well studied, but this age group may be particularly 
vulnerable. Adolescents are already subject to the normal 
surges of sex hormones during puberty, which are associated 
with expected, albeit sometimes problematic changes in mood and 
behavior, which everyone who has a teenage child at home knows. 
Thus, taking additional sex hormones in the form of steroids 
could potentially exacerbate the usual degree of psychological 
upset normally observed during adolescence.
    Suicide is the third leading cause of death among young 
people aged 15 to 24 years of age, following unintentional 
injures and homicide. This statistic is especially troubling, 
because steroids can increase suicide risk in an age group that 
is already at risk.
    The true rate of adverse psychiatric effects amongst 
steroid users is unknown. One controlled study of 160 athletes 
reported that 11 percent were diagnosed with major depression, 
and that the psychiatric effects were dose related. The higher 
the dose the greater the risk.
    Another study found that 3.9 percent of 77 illicit steroid 
users had made suicide attempts during the withdrawal period. 
Rates of completed suicides, however, are especially hard to 
estimate. In a series of 34 forensically evaluated deaths among 
male steroid users, 11 users committed suicide, 9 were victims 
of homicide, 12 deaths were judged as accidental and two were 
indeterminate.
    The gold standard of drug studies is the placebo control 
double blind randomized trial. There are at least four such 
studies that employed relatively high doses of steroids in 
human subjects. Averaging across studies, the incidents of 
prominent irritability or hypomania was 5 percent. Another 
study found that during steroid withdrawal, 10 percent 
developed significant depressive symptoms, including 3.2 
percent, who met full criteria for major depression.
    These gold standard studies, however, are likely to 
underestimate psychiatric effects, illicit steroid users as you 
have been told typically consume 10 to 100 times a therapeutic 
dose. By contrast, the maximum doses that can be ethically 
prescribed in the gold standard studies are zero to 6 times a 
therapeutic dose, or up to 20 times less than active illicit 
users take.
    At least 165 cases of addiction or dependence on steroids 
have been documented in the medical literature. In individuals 
who chronically consumed high doses and combinations of 
steroids taken as pills or injections for nonmedical purposes. 
No cases of dependence have been associated with legitimate 
prescriptions of steroids used as therapeutic doses for medical 
purposes.
    How teenagers and student athletes regard the use of 
steroids by professional athletes has not been investigated. 
However, studies of other drugs suggest the following. First, 
the adolescent's peer group is probably a more important 
influence than adults. Although adult role models can be 
important.
    Second, adolescents' use of a drug is influenced by the 
perception of how harmful that drug is. In other words, the 
more harmful they perceive a drug, the less likely they will 
take it, and unfortunately, use of steroids by famous athletes 
who appear so well in the media probably contribute to the 
perception that steroids are not harmful.
    Thank you.
    [The prepared statement of Dr. Brower follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.111
    
    [GRAPHIC] [TIFF OMITTED] T0323.112
    
    [GRAPHIC] [TIFF OMITTED] T0323.113
    
    [GRAPHIC] [TIFF OMITTED] T0323.114
    
    [GRAPHIC] [TIFF OMITTED] T0323.115
    
    [GRAPHIC] [TIFF OMITTED] T0323.116
    
    [GRAPHIC] [TIFF OMITTED] T0323.117
    
    [GRAPHIC] [TIFF OMITTED] T0323.118
    
    [GRAPHIC] [TIFF OMITTED] T0323.119
    
    [GRAPHIC] [TIFF OMITTED] T0323.120
    
    [GRAPHIC] [TIFF OMITTED] T0323.121
    
    [GRAPHIC] [TIFF OMITTED] T0323.122
    
    [GRAPHIC] [TIFF OMITTED] T0323.123
    
    Mr. Souder. Last witness on this panel is Dr. Elliott 
Pellman, the medical advisor to Major League Baseball.

               STATEMENT OF ELLIOTT PELLMAN, M.D.

    Dr. Pellman. Thank you, Mr. Chairman. I would like to begin 
by thanking the committee for the opportunity to be present 
this morning. Unlike some other medical professionals that you 
have heard from today, I have had extensive experience in the 
area of professional sports. This morning I would like to offer 
you three important medical perspectives that are relevant to 
the development or evaluation of any steroid policy.
    I would also like to discuss the medical and educational 
efforts that form a key component of Major League Baseball 
steroid policies.
    Although there is understandably a serious lack of studies 
in this area, my personal belief is that anabolic steroid use 
has significant associated health risks.
    Most physicians agree that steroid abuse can increase the 
risk of heart disease, certain types of cancer, sterility and 
can lead to depression and aggressive, and at times, 
inappropriate behavior.
    More importantly, in professional sports, anabolic steroids 
can create a working environment that is unfair and unbalanced. 
Those who use steroids have a competitive advantage, and others 
may feel forced to take steroids to even the playing field. 
When one fully appreciates this perspective, it becomes clear 
that steroid use is like an insidious, contagious disease. In 
structuring programs to deal with steroids, it is to approach 
steroids like the disease it is.
    Second, the complexity of the steroid problem in 
professional sports in America has been significantly increased 
by the Federal Government's deregulation of nutritional 
supplements and prohormones in the 1990's. Despite recent 
changes in the law, there is an entire generation that has been 
potentially contaminated by the belief that the uses of such 
substances is in fact legitimate. In creating an effective drug 
program, one must take into account the reality of the damage 
that has been caused by the deregulation of nutritional 
supplements.
    Last, in evaluating the severity of penalties imposed under 
any program, an element of reality is necessary. My experience 
in the National Football League suggests that other than 
deliberate cheating, the most common reason for a positive test 
is the ingestion of a dietary supplement that is contaminated 
with a banned substance that is not listed on the label. When 
one begins talking about 2-year suspensions or lifetime bans 
for professional athletes, it is important to remember that, 
while athletes must be forced to take responsibility for what 
they put in their bodies, honest mistakes do occur. 
Commissioner Selig has described in some detail for all of you 
the substance of the Major League Baseball's new drug testing 
program. I am also very familiar with the National Football 
League's program. On balance, the baseball program compares 
favorably with any of the other professional sports leagues, 
including the NHL, NBA and the PGA. Above a certain critical 
threshold of testing, there will always be individuals, whether 
or not baseball, NFL, NCAA and the Olympics, who will try to 
circumvent or cheat the testing program. This point is perhaps 
illustrated by the alleged use of athletes of several different 
sports of THG, the designer steroid that is the center of the 
BALCO investigation.
    Therefore, the intent of a testing program must be to try 
to create an environment that is conducive for athletes to 
perform without feeling the need to cheat by taking steroids. 
But the program must be flexible and innovative enough to 
change as the type of drugs change. I am comfortable that the 
baseball program like the NFL's meets this goal. Our efforts 
with respect to steroids, however, are much broader than just 
drug testing and discipline. Last year, the Major League 
Baseball's medical staff visited in person all 30 Major League 
camps to provide players and baseball operations personnel an 
educational program on the health risks associated with the use 
of steroids. Participation in this program was mandatory, and 
we have followed up last year's program with individual calls 
or visits to, presently, approximately two-thirds of the teams. 
Major League Baseball continues to believe that the issue of 
steroids also must be addressed from the bottom up. As you 
know, Commissioner Selig implemented a very aggressive Minor 
League drug testing program in 2001. That program has 
continually been refined and strengthened. As a supplement to 
the testing program, we have produced a professional quality 
video in English and Spanish which details the health risks and 
problems associated with steroid use. Minor League programs 
must view this video every year. We significantly enhanced this 
educational video this off-season, and the new video has been 
or will be shown in every Minor League camp this spring.
    We have also made resources available to players that can 
be utilized on an individual basis. For example, we have 
entered into a contractual relationship with a hotline that is 
available to provide players with information about what 
substances are included in particular dietary supplements. We 
have strengthened and educated the employee assistance 
provider's program at each individual club, so they are in a 
position to deal effectively with steroid-related issues 
associated with the Major League and Minor League players. We 
have also used the medical staffs on the individual teams as a 
resource in combating steroid use. Each of the last 2 years, we 
have had mandatory meetings for physicians and athletic 
trainers to educate and instruct them on the dangers of steroid 
use and to review with them the uncertainties associated with 
players using dietary supplements. A major component of that 
program is to emphasize to all club personnel the serious 
disciplinary ramifications they face in the event they enable 
use by any player Major League or Minor League. Our educational 
efforts have extended to the highest levels of management in 
the game.
    Over the last 2 years, I have addressed the assembly of all 
general managers on two separate occasions on the issue of 
steroids and performance-enhancing substances. I have also had 
the opportunity to discuss steroid performance-enhancing 
substances at two separate owners meetings as well. My strong 
sense is that at all levels of management in baseball are 
committed to the elimination of these substances. In this 
regard, there is no difference between the leadership in the 
Commissioner's Office, between Major League Baseball and the 
National Football League. Looking ahead, Major League Baseball 
is committed to making every effort to eliminate the use of 
performance-enhancing agent substances from this sport. We are 
working to establish a program that will provide nutritional 
products to players that can be used without concern about 
potential contamination of prohormones. We are working closely 
with the World Anti-Doping Agency certified laboratory, UCLA, 
to make sure that baseball is completely abreast of 
developments in the area of designer steroids.
    Finally, Major League Baseball is currently in the process 
of developing a funding arrangement that will hopefully speed 
the development of a urine test for human growth hormones.
    [The prepared statement of Dr. Pellman follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.124
    
    [GRAPHIC] [TIFF OMITTED] T0323.125
    
    [GRAPHIC] [TIFF OMITTED] T0323.126
    
    [GRAPHIC] [TIFF OMITTED] T0323.127
    
    [GRAPHIC] [TIFF OMITTED] T0323.128
    
    Chairman Tom Davis. I want to thank all of our witnesses 
here.
    I am going to start the questions with Mr. Sweeney.
    Mr. Sweeney. I thank you, Mr. Chairman, and I know we have 
other panels that are of greater celebrity than maybe this 
panel is, but I happen to think this is the most important 
panel we are going to face today. It starts with the notion and 
the idea and our deepest gratitude to the Garibaldis and Mr. 
Hooton for your courage in being here and for your commitment 
to keep fighting, and please know that you have our sympathies 
and our best wishes. I have so many questions to ask in such 
little time, and I want to get to them as quickly as I can.
    Mr. Hooton, I have a bill in Approps to create such an 
education program. And I would like to work with all of you on 
the panel to try to get it more perfected as we get forward. I 
want to get to the scientists, though, because I think it is 
important.
    Dr. Wadler, you are not a member of USADA.
    Dr. Wadler. I'm not a member and have no vested interest at 
all.
    Mr. Sweeney. You mentioned that Major League Baseball does 
use your labs?
    Dr. Wadler. My understanding is that they have used the 
Montreal lab.
    Mr. Sweeney. And you mentioned that, in your testimony, 
that you hope that they will adopt your list of prohibitive 
substances. That's not the case now; is that correct?
    Dr. Wadler. That's correct.
    Mr. Sweeney. You have the capacity to test for those in 
your labs now?
    Dr. Wadler. Yes, we do.
    Mr. Sweeney. I want to make this point to you, that lab 
testing is only the final test in this process.
    Dr. Wadler. That's correct.
    Mr. Sweeney. In the current Major League Baseball agreement 
or whatever the status of it is, because I'm confused as to 
whether it's in play or not in play at this point, there's no 
process in place other than the lab testing. In other words, 
the chain of custody that is critically important here, the 
monitoring of athletes during testing, during the entire test 
and the amount of tests and the randomness of those tests are 
sketchy. And I have other questions that Dr. Pellman can 
answer.
    Dr. Wadler. I did not mention, because of time, there are a 
series of international standards which are highly complex 
documents. The one on testing, which I'm glad to make it 
available to you, is 41 pages of highly detailed information of 
utmost importance. Remember that these cases tend to be 
adjudicated, and issues of a legal nature are incredibly 
important. So the standard is spelled out and used worldwide.
    Mr. Sweeney. Does it make any sense not to employ a group 
like USADA to oversee that chain of custody and the process to 
you?
    Dr. Wadler. I personally believe there is no reason why 
this should not be done by an agency.
    Mr. Sweeney. Dr. Pellman, I'm intrigued by your testimony 
and hope that, when we're done, that we can talk about some 
things. I'm intrigued by the notion or your assertion that 
there is a lack of studies in the area, and maybe you could 
clarify that because I think Dr. Brower has an issue with that. 
I'm going to let you clarify first, and then I'm going to ask 
Dr. Brower if he would agree with you.
    Dr. Pellman. First, talking as a physician and a scientist, 
it is very difficult to do studies on anabolic steroids. In 
terms, if you go and look at publications on anabolic steroids, 
when we talk about the risk of cancer or liver disease or heart 
disease, it is very hard to do analysis on those patients, 
because how, in fact, do you give them anabolic steroids and 
study them and test them the way most validated scientific 
studies are done?
    Mr. Sweeney. You don't refute the notion that anabolic 
steroids need to be banned in baseball and need to be banned in 
general society. You are not casting aspersions on the idea 
that this is a substance that is no worse than anything else 
out there; are you?
    Dr. Pellman. Quite the opposite. Despite the fact that 
there are no strong scientific studies that support those 
conclusions, I, in fact, absolutely concur regarding the 
potential health risks and the fact that it should be banned.
    Mr. Sweeney. You make reference in your testimony to THG. 
You know, we banned that last year along with precursors like 
andro. I need to mention to the parents, I don't have your 
experience, but I got in this business because my teenage son 
wanted to take andro because he heard Mark McGwire took andro. 
I happen to have access to some scientists who believe there is 
emphatic data out there, and that is how I got started out 
there, and I was lucky. You make reference to THG, the designer 
steroid that is the center of the BALCO investigation. Several 
baseball players may have used THG for years before its 
detection by authorities was really even capable. And its 
addition to the list of Federal controlled substances was 
perfected as of last year. Under the new policy, does baseball 
currently list designer steroids like THG and the precursors 
like andro?
    Dr. Pellman. First, the answer is in terms of precursors, 
absolutely, yes. And I will get to THG in one moment, but in 
fact, I would like to ask a question as well. What is 
interesting to us and in fact I suspect the other physicians on 
this panel as well is why not all precursors were banned. Why 
was DHEA not banned, in fact, when the new laws were passed? I 
have very strong feelings about that and in fact spoke to one 
of the Senators regarding this, a key Member.
    Mr. Sweeney. I don't want to filibuster, but it's a good 
point, and I agree with you on that issue.
    Dr. Pellman. When we talk about prohormones and talk about 
the exclusion of prohormones, DHEA was excluded. But, yes, 
prohormones are covered. And regarding THG, yes, designer 
steroids are covered. It is impossible to list steroids that 
you can't identify, but the intention--and I suspect that Rob 
Manfred will address this later on--was in fact THG was added 
on and the intention was that any designer steroid that is 
identified will be added on to that list.
    Chairman Tom Davis. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman, I want to say to the 
Garibaldis and Mr. Hooton, thank you very much for being here. 
I know it is painful for you to have to relive the experience, 
but it is a powerful message for everyone to get.
    Dr. Wadler, I want to ask you, because you are a world 
expert in the use and detection of performance-enhancing drugs, 
you have a senior advisory position with the World Anti-Doping 
Agency, and that oversees the Olympic testing and is considered 
the international gold standard in preserving integrity in 
sports. You have had a chance to look at the Major League 
Baseball's new 2005 drug testing policy?
    Dr. Wadler. I have had a chance to look it over, but not 
study in detail. I'm not paid by the World Anti-Doping Agency 
by the way. I'm a volunteer.
    Mr. Waxman. I would like to run down a few key provisions 
of baseball's policy and ask for your professional opinion. 
Does the policy cover all anabolic steroids?
    Dr. Wadler. No.
    Mr. Waxman. Does the policy address the misuse of human 
growth hormone?
    Dr. Wadler. Inadequate in terms of testing.
    Mr. Waxman. Does the policy cover other important 
performance-enhancing drugs that have similar effects as 
anabolic steroids and human growth hormone?
    Dr. Wadler. They do not for IDF1, insulin, and there is a 
number of them that do not.
    Mr. Waxman. Does the policy cover stimulants?
    Dr. Wadler. Except for ephedra, I believe it does not deal 
with the broad category of stimulants, including amphetamines.
    Mr. Waxman. Does the policy ensure integrity in the testing 
process?
    Dr. Wadler. There are significant loopholes in the program 
as outlined.
    Mr. Waxman. Does the policy permit new types of substances 
to be tested as new problems are identified?
    Dr. Wadler. It's not quite clear, as it winds its way onto 
the list. I am not certain.
    Mr. Waxman. Does the policy adequately inform athletes what 
are banned substances and masking agents?
    Dr. Wadler. They don't test for masking agents, by the way, 
and they don't test for diuretics, which are critical in 
detecting abuse. I'm not sure how much of the educational part 
of the program deals with it.
    Mr. Waxman. Does the policy contain adequate penalties?
    Dr. Wadler. Categorically, in my view, not.
    Mr. Waxman. Will this new policy remove the cloud that has 
been hanging over baseball?
    Dr. Wadler. Unfortunately, it creates the cloud.
    Mr. Waxman. Dr. Wadler, Dr. Pellman just made the statement 
that I thought was really quite interesting, and if it's true, 
that is a number of legal dietary supplements are laced with 
banned substances which is not known to the player and would 
come up with false positives. Has this been a problem in the 
Olympics or in other testing programs?
    Dr. Wadler. Yes. He is absolutely correct about that. That 
was a major issue for several years around the world. Very 
large percentage of positive tests were related to the 
ingestion of the so-called precursors, andro-type drugs. A lot 
of adjudication around that. The United States was seen as 
somebody who actually facilitated that with respect to around 
the world and happy to see the loophole has been closed, but it 
did account for a lot of positive tests, and the adjudication 
took that into account.
    Mr. Waxman. You disagree with Dr. Pellman when he claims 
this is a problem in the testing.
    Dr. Wadler. I think it was a problem, but I don't think 
it's a problem anymore.
    Dr. Pellman. May I respond to some of the comments that Dr. 
Wadler just said, including the fact that my suggestion is, 
before you comment on something for the record, that you do 
more than glance at it but that you study it?
    Mr. Waxman. Dr. Pellman, I only have a few minutes, and if 
you want to respond to that last point on testing because he 
challenged your statement.
    Dr. Pellman. I am getting there. Substances like diuretics 
are tested for, like masking agents are tested for. The letter 
that I saw from this body, four steroids were listed as being 
out of the list in which that will be disputed later on.
    Mr. Waxman. My staff has had a chance to review National 
Baseball League's policy and there is no list of specific 
masking agents or diuretics in this policy contrary to the 
public assurances of Major League Baseball. It is not in the 
documents that were submitted to us. I want to ask Dr. Wadler 
because I only have a few seconds. You suggested that the 
Olympic testing program is the right way to approach, which 
happens every 4 years, and it's the wrong approach to sports 
like baseball with long seasons. Can you give us some examples 
of other sports that have adopted the Olympic testing program, 
and could the standard be applied to baseball and other sports 
at different levels?
    Dr. Wadler. Professional tennis. I adjudicated a case 
yesterday morning on a professional tennis player. May not be 
as big in this country as in other parts of the world, but 
professional soccer, huge money sport is signatory to the world 
anti-doping code as is cycling, which is a huge money sport. 
Rugby. But there are at least four professional sports around 
the world which are not in the Olympic movement which are using 
this as their standard.
    Mr. Waxman. Could it apply to baseball?
    Dr. Wadler. Could it apply to baseball? Absolutely. 
Absolutely.
    Mr. Waxman. Thank you, Mr. Chairman.
    Chairman Tom Davis. Mrs. Miller.
    Mrs. Miller. I want to agree with my colleague, Mr. 
Sweeney, when he said this is the most powerful panel we are 
going to hear from today, and I say that because, personally, I 
wasn't quite certain this was something Congress should be 
getting involved in. I wasn't quite sure. In fact, I want to 
read you one quick thing. This is today's Detroit News, my big 
paper in my area. In my district, I had a lot of people calling 
and saying, ``What are you doing?'' This is what the Detroit 
News opined today. They said: Congress strikes out with steroid 
hearings. A Federal jury has already exposed the problems, and 
the teen use of performance-enhancing drugs is declining. That 
is what my Detroit News is saying. And I read that this morning 
and thought, I don't know about this hearing.
    But I'm going to tell you, after listening to you parents, 
in particular--and my heart goes out to you--I am convinced we 
are doing the right thing, and I applaud the chairman and 
ranking member for calling this hearing. I intend to write an 
editorial to the Detroit News. And I may lift some of your 
statements if you don't mind, because it was very powerful.
    And Mr. Hooton in particular, when you said that your son's 
coach said to your son that he needed to get bigger, he 
essentially told your son--I don't want to put words in the 
coach's mouth, but what was he implying to your son? He was 
implying to your son, essentially, that Taylor should be using 
steroids. To the Garibaldis as well, so sorry for the loss of 
your son. But you said in your testimony, he was advised to 
obtain steroids. I am wondering who actually advised him to do 
so? Was it a coach? Was it a scout? This is amazing to me 
listening to that.
    Mrs. Garibaldi. That statement comes from Rob himself. When 
we were trying to figure out what was going on with his steroid 
use, he said he was advised and it actually had been obtained 
for him at the University of Southern California. He did not 
name names. However, since he has passed away, we have learned 
that his initial course of steroids he did on his own going 
across to Tijuana. We have no facts if the University of 
Southern California was involved. What we are concerned about 
is that we believe they are still implicated because Rob was 
ill, showed symptoms for months, and nothing was done. It took 
a mother from his roommate to call us and say something is 
terribly wrong, and you have to get down here. So the coach's 
staff at USC did nothing to help us.
    Mrs. Miller. Did USC have a program set up to test?
    Mrs. Garibaldi. It is set up, but only during the season. 
Rob began suffering the withdrawals during the season and had 
taken the steroids in the fall.
    Mr. Hooton. In our case, first of all, it was Taylor with 
his psychiatrist that told his psychiatrist that the reason he 
got started was because of the advice the coach had given him 
to get bigger. In this particular case, I don't make any 
inference, because I don't know that the coach had steroids in 
mind. Rather, what I would like us to learn from this, the 
reason that I think our coaches need to be trained and 
certified, because this particular coach hasn't been trained in 
how to show this kid get on a diet or exercise program to show 
him how to gain 20 pounds. And you turn a 16-year-old kid loose 
with an objective of trying to gain 20 pounds when he has half 
of his teammates doing steroids, it doesn't take a genius to 
figure out what path he is going to take. But this is going on 
with coaches around the country. They need to be trained, but 
they need to be held accountable to see that this doesn't 
happen.
    Chairman Tom Davis. Thank you very much. Mr. Cummings.
    Mr. Cummings. First of all, I want to thank the Garibaldis 
and Mr. Hooton, I thank you for being here. As a father, I can 
truly relate to how you must feel, and I can only say that, 
hopefully--and first of all, I thank you for taking your pain 
and trying to turn it into something positive so somebody else 
might be helped and other young people might not go through 
what your sons have gone through. And I am just wondering, what 
it is that you would like for baseball players to do to help 
get the word out, in other words, to help as opposed to hurting 
the process?
    Mr. Hooton. Well, we have an organization that was formed 
to tackle this. The Garibaldis are involved. And it would be 
wonderful if coming out of these hearings, after the dust 
settles, if we haven't made them so mad that they won't talk to 
us again, they would get behind an organization like ours or 
the programs that we are working on and become a part of 
actively solving this problem with the kids, not just doing 
training in the locker rooms of Major League Baseball, but 
doing training in the locker rooms in our high schools across 
the country, with the big league players with the big names 
standing there helping us deliver that message.
    Mr. Garibaldi. It's not only the players. Major League 
Baseball scouts have a big influence on the young kids of this 
country. Their network of scouts evaluates every kid playing 
baseball in high school in this country. Their stats, 
everything, all their statistics are all there. This is where 
it starts. Major League Baseball in 1988, the average-sized 
player was 188 pounds. Today, it is 220 pounds. The scouts 
indirectly talk to every high school coach, college coach and 
get the point across so a kid who is a prospect, exactly what 
they need to do to meet the profile that they desire. So they 
have an influence on our high school kids from the time they 
are 14, 15 years old. And what they say and how they deal with 
it is a problem.
    Mr. Cummings. Thank you.
    Dr. Wadler, let me ask you this. You said that there were 
loopholes in the policy as you know it, the National Baseball 
League's policy. Let me ask you this. If a player cannot 
urinate an adequate amount, there is a rule, apparently, that 
says if an inadequate amount of urine is collected, less than 
75 milliliters, to discard the specimen in the player's 
presence; instruct the player that he should return in an hour 
to attempt another collection. Do you see that as a problem?
    Dr. Wadler. The player has to be escorted from the moment 
they are notified. They can never be left and must be 
chaperoned until an adequate specimen is supplied so they can 
be certified by the players' union and there was no opportunity 
for tampering.
    Mr. Cummings. Coming back in an hour, there is a problem 
that happens there. In other words, if they come back, you are 
saying there can be--in other words, the body is still the 
same; is it not?
    Dr. Wadler. I don't want to get graphic, but there are a 
number of things that athletes have been known to do to deceive 
the collection of urine. You don't want to leave them alone 
unattended until you have that specimen, from the moment they 
are notified until you have it sealed.
    Mr. Cummings. Would you consider that a major loophole?
    Dr. Wadler. I consider it a loophole.
    Mr. Cummings. Dr. Pellman, you are the medical adviser to 
the commissioner. Can you say why that is allowed?
    Dr. Pellman. No, I cannot, but I agree with Dr. Wadler that 
person should be observed for that hour.
    Mr. Cummings. Were you aware of that policy?
    Dr. Pellman. In terms of that component, no.
    Mr. Cummings. You are the advisor on these kinds of issues, 
and you didn't even know that a person could walk away and not 
be observed--is that what you are telling me--for a test?
    Dr. Pellman. Well, the answer to that, Congressman, is yes, 
but on the other hand, I would tell you that in terms of the 
development of this program, which was brand new, if that's the 
worst of my problems as we move forward and make changes, I 
would say we have done a pretty good job; that if you tell me 
in fact that is the loophole there that stands alone, I will 
make sure that gets changed.
    Mr. Cummings. You are telling me today that you are going 
to go back to baseball and say, make sure you do this, as their 
advisor?
    Dr. Pellman. Yes.
    Chairman Tom Davis. Mr. Westmoreland.
    Mr. Westmoreland. I want to thank the Garibaldis, Mr. 
Hooton and the Marreros, and for your losses.
    My first question is for Dr. Pellman. Dr. Pellman, you are 
the advisor to the commissioner of Major League Baseball; is 
that correct?
    Dr. Pellman. Yes, I am.
    Mr. Westmoreland. If he had asked you what the result of 
steroid use was, would you have answered him that there was a 
serious lack of scientific studies as to what it did?
    Dr. Pellman. First, I think we need to separate that out 
between what I am and have published and do publish. When I say 
things that are for the record, that is for the record. So 
therefore, my response to that is, I would have told the 
commissioner that there are severe medical consequences from 
taking anabolic steroids. However, do I have the literature 
that can be pulled to make my case in front of other scientists 
in terms of certain health risks that we assume? The answer is 
no.
    Mr. Westmoreland. Would your answer have been to him that 
there are no serious studies as to what the effects of the use 
of steroids are?
    Dr. Pellman. Again, it depends upon how you define studies. 
In terms of when we talk about doing perspective analysis and 
we talk about doing trial studies on drugs, we take two groups 
of patients. We take patients and put them on a drug. We took 
patients that we presume they are on the drug and may not be, 
and then we put them on something else, and then we follow 
that. You cannot do that humanistically when it comes to 
anabolic steroids. The data we look at is called retrospective. 
We pull data out, for example, with East German swimmers and 
others who have allegedly taken steroids. But the consensus, 
again, is that, and my opinion strongly stated, is that 
anabolic steroids are unequivocally unhealthy for you and can 
lead to severe consequences, including death.
    Mr. Westmoreland. You didn't get that from reading studies 
about it?
    Dr. Pellman. It depends, again, in terms of defining 
studies. There are studies out there.
    Mr. Westmoreland. Let's go to the next question. You also 
say that the most common reason for a positive test is the 
contamination.
    Dr. Pellman. I say that, in my experience, in the National 
Football League, one of the more common--besides taking it and 
cheating it--the most common reason for being tested positive 
for anabolic steroids is, in fact, at least allegedly taking a 
dietary supplement that contains a banned substance.
    Mr. Westmoreland. I could be taking a dietary supplement 
right now and be taking some controlled substance?
    Dr. Pellman. In fact, there is no doubt about it. That is 
one of the travesties of the dietary supplement industry right 
now.
    Mr. Westmoreland. Could it be caused from carrying them in 
the same bottle?
    Dr. Pellman. It could be, but it also could be that it's 
contaminated. And if you take a dietary supplement that does 
not contain a bad substance, it won't do anything for you; 
therefore, it increases their own marketing.
    Mr. Westmoreland. If the commissioner asked you about the 
penalties imposed, just getting your expert opinion you would 
have said that, from your experience with the NFL, that this 
contamination, unknowing to this athlete, caused most of the 
positive drug testing.
    Dr. Pellman. Could cause some of, if not many, of the 
positive drug tests.
    Mr. Westmoreland. Dr. Brower, could I ask you a question? 
You know, lately, in sports, we have seen basketball teams run 
into the stands. We have seen baseball players go over 
bleachers and dugouts to get to fans. Could this be a sign of 
some type of steroid use? Not accusing anybody. But is this the 
typical behavior? Because it seems that more and more of this 
is happening in sports today that we witness. And I know there 
is a lot of pressure from being a professional athlete, but 
could steroid use help this along?
    Dr. Brower. I am not in a position to say whether any 
player has used or not. I have not examined these players, and 
I haven't seen their urine tests. It is also the case that 
these professional sports are going to attract athletes who are 
competitive and have to be aggressive in order to be successful 
at their sport. Steroids may be involved, but I cannot say for 
sure.
    Dr. Volkow. Could I interject, because I wanted to take a 
pointer? Effectively, we cannot do studies where we can give 
steroids to a normal controlled population and compare it with 
those that don't get it. What we can do is test on laboratory 
animals. And what these tests have shown is that steroids do 
affect a wide variety of parameters that include your own 
physiology as well as behavior. And there is clear evidence, 
and there are multiple studies in animals showing that, if you 
give them these anabolic steroids, animals are more aggressive.
    Mr. Issa [presiding]. Gentleman's time has expired. Because 
there are no Democrats presently here, we will go to the 
Republican side and make it up when they come back.
    The gentleman from Indiana, Mr. Souder.
    Mr. Souder. Thank you very much. I don't think there could 
be anybody who heard the testimony of the Garibaldis or the 
Hootons and not be moved.
    And I particularly wanted to ask Mr. Hooton, if the 
baseball stars had spoken out against steroids and performance-
enhancing drugs, do you think your son Taylor might be alive 
today?
    Mr. Hooton. Yes, I do.
    Mr. Souder. If you thought that Rob might be alive today 
also?
    Mr. Garibaldi. Without a doubt. Absolutely.
    Mr. Souder. They were their heroes?
    Mr. Garibaldi. So much so that he would videotape his 
heroes and breakdown frame by frame and try to emulate their 
swing, and he was a student of the game.
    Mr. Souder. This is so different than the other drugs we 
deal with where, many times, the drug dealers and the pushers 
are not heroes, and it is a different set of problems. But 
professional baseball has a whole different set of 
responsibilities because it is different than heroin and 
cocaine.
    I wanted to ask Dr. Volkow, and I want to thank you for 
coming in front of our committee. You just gave some additional 
testimony on what we can know from at least laboratory animals, 
and it is hard to get human tests. One of the things in 
baseball is not the strength and aggression, but do you 
believe--any tests that have occurred--that it would impact 
hand-eye coordination because that would be very critical as 
far as how it impacts the game?
    Dr. Volkow. My knowledge, in other words, specific study 
that has evaluated the effects of anabolic steroids on eye-
motor coordination--I am aware of studies that have evaluated 
the effects of these anabolic steroids on performance but not 
specifically on coordination. Most of the studies have 
evaluated their effects on strength and endurance.
    Mr. Souder. If it increased your aggression or your heart 
rate, would that impact, potentially, motor skills and how 
quick you could react as well as how powerful you would react?
    Dr. Volkow. What we do know, for example, is that 
aggression is related to the activation of an area of the 
amygdala. And when the amygdala gets activated, the frontal 
cortex gets deactivated, and I say to my staff, do not comment 
if you are angry because your cognitive abilities are not going 
to be as sharp. So if you are very, very angry, your ability to 
do the right thing and make proper decisions is going to be 
markedly, markedly impaired.
    Mr. Souder. But not necessarily on a baseball that is 
coming at you. The increased aggression and increased enhanced 
hyperactivity might in fact, short-term, result in you being 
able to hit the ball harder or quicker?
    Dr. Volkow. The extent to which you can disassociate the 
effects of steroid performance in baseball where many of the 
issues are very controlled as opposed to outside where you 
don't know if a car is going to hit you is very different. In 
the baseball field, to my knowledge, there is--and this is 
clearly not scientific because, there are no scientific studies 
done on a game; there is no evidence in my view of the 
performance of the player itself in the game.
    Mr. Souder. Dr. Brower, you made some references on medical 
things. Do you know of anything that might suggest that or 
whether it might impact that ability?
    Dr. Brower. What I can say is that steroids do work 
otherwise athletes wouldn't take them. There are studies not 
looking at specific coordination issues, but there are studies 
looking at development of muscle mass and muscle strength and 
those studies are fairly conclusive that anabolic steroids can 
increase muscle mass and muscle strength. Is that going to be 
an advantage to every athlete? Maybe not. But to many athletes, 
it will. Steroids will not turn me into a baseball player. But 
if I was a baseball player, they could give me an edge.
    Mr. Souder. Our fastest growing and most difficult law 
enforcement problem in the United States is meth. And we have 
many proposals both here in Congress and at different State 
levels to regulate pseudoephedrine, which is the manufactured 
form of ephedra. Can you talk about what similarities ephedra 
would have to pseudoephedrine which is the key for meth?
    Dr. Volkow. The question relates to stimulant drugs. All of 
these drugs share a similar psychological effect, and they 
increase the concentration of a chemical, called dopamine, that 
allows you to perform motor speed much faster. It also gives 
you a sense of energy. They vary in terms of their potency, so 
some of these drugs are more potent. Among the most potent is 
methamphetamine, and that is why it results in such a severe 
addiction.
    Mr. Souder. It's rather problematic when we are trying to 
send a message about crystal meth around the United States when 
Major League Baseball wouldn't even address ephedra which has 
now been illegal for several years.
    Dr. Volkow. Yes.
    Mr. Souder. Even if it is a lighter dose. Methamphetamine, 
crystal methamphetamine can come in heavier or lighter doses. 
Ephedra would be in effect very similar to a lighter impact of 
pseudoephedrine, which is the key part of crystal meth.
    Dr. Volkow. Correct. It is not the right message that one 
drug is bad and the other one is acceptable. And I think that 
is one of the reasons why we lose so much credibility in our 
education prevention campaigns.
    At the same time, we need to recognize that not all of the 
drugs are the same and that some are more dangerous. Definitely 
amphetamines are drugs that are dangerous and definitely 
produce addiction, no question about it. Should we be sending 
the message ephedra versus pseudoephedrine is OK? No, we 
shouldn't.
    Mr. Issa. Gentleman's time has expired. The Chair now 
recognizes Mr. Marchant for 5 minutes.
    Mr. Marchant. Thank you very much.
    Mr. Hooton, I think most of my comments and my questions 
will be directed to you. I'm a neighbor; I live in Copper Hill. 
So let me say, first of all, I'm sorry for your tragedy and 
appreciate all of your efforts today appearing before this 
panel. As you have been reading in the newspaper in our area in 
the last 2 or 3 months, the district that I represent is Copper 
Hill. We probably have several dozen professional athletes that 
live in our communities that play for the Rangers, the Stars, 
the Mavericks, and the Cowboys practice there in Irving. So 
these professional athletes are very, very important people in 
our community, and they are very involved in our community.
    But the message that I'm most concerned about today is the 
message that Major League Baseball is sending to the student 
athletes in my district. We are the home of South Lake, the 
best high school football team in America it is said and that 
we are seeing a disturbing trend in our high schools where 
steroids are not only being used but, I think, are being 
encouraged to be used both among the athletes themselves and, I 
believe from some of the comments that we have read in the 
newspaper, from even the parents. What do you think Major 
League Baseball could do? What kind of practical things do you 
think Major League Baseball could do to begin to communicate 
directly to those student athletes?
    Mr. Hooton. Two things. One is the message I delivered 
today, which is taking serious steps to clean up their act to 
make sure it's not just training and all of the good words, 
that we implement meaningful programs.
    As far as the kids go, the horse is already out of the 
barn, and we have to figure out how to get them back in there. 
I think a great role that Major League Baseball could play and 
the Trainers' Association and the other significant players 
within the league could come with us or by themselves, however 
we implement the program, to go into the schools with us to 
deliver the message to the coaches but, most importantly, to 
the kids that this stuff is not acceptable and that it's not 
being tolerated and they are trying to turn this thing around. 
As a parent----
    Mr. Marchant. What would you say to parents who are out 
there, who are listening today and beginning to wonder whether 
their student athlete is involved in this? What kind of 
questions would you say to a parent you can ask and what are 
some of the signs that my parents that I represent----
    Mr. Hooton. Outstanding question, No. 1, recognize the use 
of this stuff is as high as it is and don't assume that your 
son or daughter--we haven't talked about the girls in here--
that your son or daughter is somehow immune from being in this 
thing.
    Second, you need to read for yourself what the signs are of 
steroid abuse. Hindsight is 20/20. In hindsight, all of the 
signs that would have told us that Taylor was doing steroids 
were right in front of us. He put on about 30 pounds of weight 
in his upper body. He had acne on his back; puffy face; puffy 
neck; oily skin. He was going through what seemed to be gallons 
of mouthwash. Bad breath is another sign. He was beginning to 
grow nipples. Boys on steroids begin to grow breasts. Taking 
any of those individually and you combine them with aggressive 
behavior of the type that the Garibaldis experienced and we 
experienced, the Marreros, you have a steroid user in your 
house. And all of the signs were right there in front of us, 
but parents across America like us have no idea what we are 
looking at, and it's right there in our face.
    [The prepared statement of Hon. Kenny Marchant follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.129
    
    [GRAPHIC] [TIFF OMITTED] T0323.130
    
    [GRAPHIC] [TIFF OMITTED] T0323.131
    
    Mr. Issa. Now my privilege to introduce the Member from 
California, Mr. Lantos for 5 minutes.
    Mr. Lantos. Thank you, Mr. Chairman. Let me first say, my 
heart goes out to the parents. As a grandparent of 17, I know 
exactly of your loss. We are deeply grateful for your presence. 
I would like to step back for a moment from baseball to put 
this hearing into broader perspective, because in many ways, 
what we are dealing with is the problem of a society that 
provides mind-boggling opportunities to some individuals with 
obscenely excessive rewards. And these individuals, whether 
they are corporate crooks, CEOs who eventually go to prison, 
domestic divas like Martha Stewart, who spent some time behind 
bars, or people viewed as role models considering themselves 
somehow not bound by the laws of society that apply to the rest 
of us.
    And in many ways, this hearing is also reminiscent of the 
tobacco hearings we held in this body, very profitable industry 
which has grown very arrogant and is unprepared to play by the 
rules. The first inkling we got is that we had no authority, no 
jurisdiction to deal with this issue. Well, baseball is not on 
the moon. It is subject to the oversight authority of the 
Congress. Second, I think it is sort of intriguing listening to 
our physicians and scientists that, unless one is unbelievably 
naive, it is self-evident that baseball's new policy is 
designed to silence the critics and not to solve the problem.
    I found your testimony, Dr. Pellman, unpersuasive, and you 
underrate the intelligence of this panel in presenting the 
arguments you have, shifting the blame to other entities; the 
Federal Government, other sports are more guilty than we are. 
That simply will not wash.
    What I would like to ask, Dr. Wadler, and I was very much 
impressed by your testimony, sir, is there any earthly reason 
why, in the face of tragedy such as the ones presented here 
today and untold numbers of others, we should not have 
penalties which, in fact, work? Our distinguished colleague, 
the first witness, former baseball star, said the industry is 
taking baby steps when young men are dying and tens of 
thousands of children or hundreds of thousands are involved; 
baby steps are not enough. We need to have, since self-
regulation palpably has not worked, we need to have provisions 
enacted into law that will work. And while we have had some 
discussion of the Olympic rules, I would be grateful if you 
would comment on the applicability of the Olympic rules with 
proper changes for baseball.
    Dr. Wadler. There are a number of issues at hand here. We 
haven't talked about governance, for example, and having 
conflicts of interest. What we need is an independent 
transparent accountable system. What you are referring to is 
the Olympic movement code that is no longer the Olympic 
movement code but the world code. The United States is part of 
that and is taking a leadership position in it. That 
applicability is not only to Olympic sports, but to sports 
worldwide. It is the gold standard. It takes no bias 
whatsoever. It is absolutely incomprehensible that code should 
not be adopted with slight modifications perhaps in its 
entirety by all sports. This is an incredibly complex business, 
its physiology, its chemistry, therapeutics, psychiatry, law, 
ethics, education and so on. And the budget alone of the World 
Anti-Doping Agency is $20 million a year. To think that HPAC, 
Health Policy Advisory Committee, a body of four, can 
substitute for the collective wisdom of the world makes no 
sense to me. So I think it's time to move forward. And as I 
suggested in my remarks, my biggest concern of baseball is the 
sanctions, because of the mandatory 2-year sanctions under the 
code. I understand that. But, clearly, even the National 
Football League comes close to that code and they have at least 
some teeth in their sanctions. Four games suspension, a quarter 
of a season. But the bottom line is all sports should get out 
of the drug business. They should leave it to the people who 
are experts in the drug business and go on about running their 
sports. This has gotten far too complicated and far too 
expensive for them to deal with it on their own. The day has 
come to move this agenda forward to say that all sports should 
adopt that and use that as their gold standard, and sports 
should get out of the drug business period.
    Chairman Tom Davis [presiding]. Thank you, Mr. Lantos. Mr. 
Kanjorski, 5 minutes.
    Mr. Kanjorski. I was struck today by the testimony I think 
we all concede that the use of steroids are extremely 
disadvantaged personally in certainly the tragedies we heard. 
But I am awfully struck by the fact--and maybe I am unfamiliar 
with the question; who manufactures these steroids? Who profits 
from them? Is that the driving motivation or is it something 
else? Is it attainment in success which, obviously, for 
professional sports, that is there. Does any member of the 
panel know they are manufactured in the United States? Are they 
manufactured in garages or manufactured in sophisticated 
laboratories?
    Mr. Hooton. In working very closely over time with the Drug 
Enforcement Administration, several of the agents have told me 
that the stuff that the kids are buying, that is another whole 
subject. The stuff that kids are buying is different than what 
the professional athletes are taking. Steroids are not the 
same. The stuff that is coming in illegally is in excess--80 
percent is coming across the border from Mexico. From a quality 
standpoint, at best, this stuff is veterinary grade. What our 
kids are getting was designed at best for use in horses and 
pigs and cattle. That's what our kids are taking, not the stuff 
the big boys are taking.
    Mr. Kanjorski. Where are the big boys getting theirs?
    Mr. Hooton. I don't know.
    Dr. Wadler. I think it's important to understand on another 
level, this is about drug dealing. It is another mote pervasive 
form of drug dealing. It is a different cache than cocaine, 
marijuana and heroin. Some of it is diverted from legitimate 
sources. Some of it is clandestinely manufactured. Some of is 
comes across the border or through the Internet.
    Mr. Kanjorski. Let me ask this question. What volume of the 
production of steroids are for illegal or improper use? Do you 
have any studies on that?
    Dr. Wadler. I missed your question, sir.
    Mr. Kanjorski. What percentage of the production of 
steroids are being used illegally, improperly? In other words, 
do we have a large volume? The question I'm asking is why can't 
we look at the inventory of production and realize that people 
that are making these things know they are going for illicit 
purposes?
    Dr. Wadler. I can only answer in general terms but, there 
is no question that the illegitimate use of these substances 
has dropped dramatically in recent years. So the legitimate 
marketplace for it has shrunk substantially.
    Mr. Kanjorski. What is the production? Has that shrunk, 
too? What I'm struck with, we don't have any manufacturer on 
the panel. We have no doctor on the panel. This isn't happening 
in a void. Who is making the delivery system? Who is making the 
production of these things? You know, I will relate for the 
panel and the record, I just went over to vote and a Member of 
Congress told me that in 1967, he used steroids on the advice 
of his coach, and they were animal-grade steroids and the only 
reason he stopped was because his father was a cattle rancher 
and told him that he is losing too many cattle out on the range 
and these things probably aren't good for you. Where is the 
medical profession and the pharmaceutical profession? Why 
aren't they here?
    Dr. Wadler. I think that is another question that----
    Mr. Kanjorski. This hearing is set up that we are going to 
talk about handling this on the retail basis. I mean that is 
what we are talking about, what kind of studies, what more labs 
do we need, how many more tests? And the reality it seems to me 
is that it's clear it is being used by some percentage in 
sports. But how are we going to get down to its broad use and 
get control if we don't find something. One question I would 
like to know, is there a footprint after you test that you can 
identify after you test where the source of the drug came from?
    Dr. Wadler. Generally. But just as alluded to, in 
baseball's own statistics, Equipoise, which is a veterinary 
drug, accounted for half of the 96 tests. Stenozonal and called 
Winstrol and Winstrol V, which is a veterinary drug; 
clenbuterol is also used in animals. Some of this is coming out 
of the veterinary world not the human medicine world.
    Mr. Kanjorski. Can't we require a licensing or 
manufacturing process that a footprint be entered into the drug 
that would be traceable after testing so we would know what 
companies or what individuals knowingly are profiting from the 
manufacture and sale of these illicit drugs?
    Dr. Wadler. That's a very good question. A number of years 
ago, EPO, which is another abused drug in other endurance 
sports, we had met with Amgen to put a marker on the EPO, but 
the feeling was that it would cause such other issues in terms 
of approvals going through drug approvals and so on that 
considering the extent of abuse relative to use, that was 
dropped. I am not aware of any market that exists.
    Mr. Kanjorski. We would have the physical capacity to put a 
marker in?
    Mr. Issa [presiding]. We will come back with a second 
round.
    Mr. Kanjorski. Can I get a response to that?
    Dr. Volkow. The other aspect that makes it very difficult 
to do what you are doing is that unfortunately, access to drugs 
is now through Web sites. You get drugs that are manufactured 
not only from the United States but abroad. Moreover if you go 
to the Web and put anabolic steroids, no prescription, you will 
get hits. You can now go as an adolescent in the privacy of 
your own home and order these things through the Web delivered 
to you. You will not know the quality or where they came from, 
which of course is very risky, but there is no revelation. So 
that makes it very, very problematic.
    Mrs. Garibaldi. The vials that I found in Rob's bedroom 
after he died were not marked. There would be no way to trace 
them.
    Mr. Hooton. The vials that were found in Taylor's bedroom 
all had Spanish writing on them.
    Mr. Garibaldi. If you type on your computer, buy steroids, 
you will come up with thousands of sites.
    Mr. Issa. The gentleman's time has expired and we will come 
back for the next question. The gentleman from Minnesota Mr. 
Gutknecht.
    Mr. Gutknecht. I was interested in this line of 
questioning. We have this ongoing battle with the FDA and a lot 
of folks in my home State of Minnesota where people are buying 
legal drugs from Canada and are facing a blizzard of criticism. 
And they are intercepting a lot of the drugs now and sending 
them back. And what I'm hearing is this particular class of 
drugs which are clearly dangerous, clearly illegal, and we 
don't see much enforcement by our own FDA is that what you are 
saying?
    Mr. Hooton. What I am suggesting is that the law 
enforcement folks that I have talked to, both at the local, 
State, as well as the enforcement guys from the DEA, will all 
tell you the same thing. They don't get as many points for 
picking up a steroid dealer as they do for picking up somebody 
on coke or heroin. It's not in the same classification as the 
harder drugs. So the reality is, when you can talk to them 
privately and understand what is really going on--the officer 
in Plano, TX, that handled our cases, you know, Mr. Hooton, if 
this wasn't such a high-profile case, we wouldn't even be 
following up on it.
    Steroids are not considered--it's a whole other can of 
worms. They are not considered hard-core drugs. I think we have 
learned today they are, and for whatever the rules are on the 
penalties that go along with the drugs, they don't incent our 
law enforcement agencies to deal with them. That's a general 
statement, but I believe it's very accurate.
    Mr. Gutknecht. Yes.
    Dr. Wadler. There was an unintended consequence of the 
Substance Control Act in 1990, the anabolic steroid guidelines, 
but those have been rectified with the recent enactment of the 
Anabolic Steroid Act of 2004. But----
    Mr. Gutknecht. Can you explain what you mean by rectified?
    Dr. Wadler. Apparently the sentencing guidelines provide 
for a high degree of sentencing, depending on amounts and so 
on. I am not in that area, but I was sufficiently involved with 
several cases years ago for the Justice Department. That became 
obvious, and there was actually a review, I think it was under 
the DEA, as the consequences of the sentencing guidelines a 
couple of years ago, and U.S. attorneys from around the country 
had recognized that the sentencing guidelines were sort of--
deincentivized how they used their budgets in prosecuting 
cases. But I don't believe--and it's not my area of expertise, 
but I believe it was rectified in the Anabolic Steroid Act that 
went into effect last week, and there may be greater 
prosecutions.
    Mr. Gutknecht. Mr. Chairman, I would hope at some time we 
would try to get some folks in from FDA and the DEA and try to 
get to the bottom of why it is we treat one classification of 
potentially dangerous drugs so leniently, and yet we are going 
after seniors who are driving to save 50 bucks on their Zocor. 
It seems to me that's a misallocation of resources and the 
wrong way to ultimately deal with these kinds of problems.
    I yield back the balance of my time.
    Mr. Issa. The gentleman yields back.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    First of all, I want to thank the Garibaldi and Hooton 
families for coming. Please know that our prayers are with your 
families and your sons. I deeply regret that this has happened.
    I want to turn my questions principally to Dr. Wadler and 
also Dr. Pellman. It seems we are in a cat-and-mouse game where 
a substance is listed as a prohibitive substance in the Major 
League Baseball drug policy. Dr. Pellman, did you help draft 
this? Are you part of this?
    Dr. Pellman. No.
    Mr. Lynch. OK. It seems we have a listing here, and if a 
chemical, a steroid is on the list and is laid out in the 
contract, and a player uses it, it's illegal, and they can be 
penalized on its face.
    However, if there's an alteration, and if there's a slight 
modification, chemical modification, a molecular modification, 
to any of these substances, then technically under the contract 
they are legal.
    What I am fearful of is that it will just be a cat-and-
mouse game as designer steroids become available, and players 
continually shift from listed steroids to up-listed steroids. 
That's a concern of mine. I do know that the International 
Olympic Committee has their answer to that problem, and they 
have adopted language that says any substance listed or any 
substance of a similar chemical composition that has a similar 
biological effect on the person taking the chemical, that is 
also banned as well. So it is sort of a like a catch-all so 
that we don't get into this long list of steroids that has to 
be added to.
    By the way, under the baseball policy, it has to be by 
mutual consent by the Players' Union and by management to add 
something to the list, which is problematic. I am wondering, 
you know, Dr. Wadler, if you could speak to the IOC dimension 
of this, and perhaps, Dr. Pellman, you could talk to Major 
League Baseball.
    Dr. Pellman. Well, I could certainly give you a medical 
perspective, and my answer is, speaking not only for myself, 
but for the other medical people who work for me, is that the 
intention is and will be to ban all anabolic steroids. But you 
are asking----
    Mr. Lynch. I am an attorney, OK.
    Dr. Pellman. I am not.
    Mr. Lynch. I negotiate these collective bargaining 
agreements. And I will tell you what, if it is not in the 
agreement, there is no written agreement here. The reason we 
write it down is there is an agreement.
    Dr. Pellman. Then, Congressman Lynch, my----
    Mr. Lynch. The people who defend what is in the contract--
these are basic rules of contract. If it's not in there, you 
can't enforce it.
    Dr. Pellman. Then, Congressman Lynch, I suspect, knowing 
the schedule today, you will be able to speak to Mr. Manfred, 
who did write out the contract----
    Mr. Lynch. Fair enough.
    Dr. Pellman [continuing.] And ask him that question. I am 
unable to answer that question.
    Mr. Lynch. OK, fair enough, Doctor, fair enough.
    Dr. Wadler.
    Dr. Wadler. Yes. This is a living document. Just to tell 
you the way we deal with this list is that we meet--and I am a 
member of the list--what they call the Prohibited List and 
Methods Committee, because there are methods to enhanced 
performance which are illegal also, not only drugs.
    We revisit this list several times a year with experts 
around the world. We distribute the modifications to the 
governments of the world, including the U.S. Government, to 
weigh in on this, and so we constantly have information, and we 
have the flexibility to add to it. We actually have a provision 
where if there's a sudden new drug that was otherwise 
uncategorizable, it could be added to the list without waiting 
for the 1-year cycle.
    Mr. Lynch. OK.
    Dr. Wadler. It's a living account that takes into account 
what you are saying.
    Mr. Lynch. Mr. Chairman, how am I doing on time?
    Mr. Waxman. Would you yield?
    Mr. Lynch. Certainly, I would yield.
    Mr. Waxman. I would just point out, Dr. Pellman, we have 
had 3 loopholes pointed out, and we have 10 more. You are here 
at the request of Major League Baseball, but you said you 
didn't draft this testing protocol. Did they consult you about 
the testing protocol?
    Dr. Pellman. Well, first, in terms of what I said, I said--
the paper was held up, and my first response is I am not a 
lawyer, I am a physician. My role is to give medical advice, 
and so therefore I will answer that question in terms of broad 
strokes.
    Mr. Waxman. Well, let me--it is Mr. Lynch's time, but the 
point I am making is we have pointed out three areas where 
there are loopholes that you aren't aware of.
    Dr. Pellman. Can you define the three for me to refresh my 
testimony?
    Mr. Waxman. Yes. Somebody who is tested and gone for an 
hour.
    Dr. Pellman. Yes, of that I am aware.
    Mr. Waxman. The specimen could be corrupted. The second 
one, 10 days suspension, could also be a fine or less, you were 
aware of that; and the third one is the one that Mr. Lynch just 
pointed out that not everything was covered.
    Dr. Pellman. Congressman Waxman, let me respond to the 
second one, because I have already responded to the first one. 
This is for the record.
    We talk about drawing up this document. In terms of 
philosophy, my philosophy has been expressed very strongly to 
the Commissioner and others in the Commissioner's Office, I 
stand by, in fact, and as you are well aware, my thumbprints 
are all over the NFL's policy as well. Therefore I will look at 
you and tell you the following. The intentions of this program 
is suspension and public notice of that suspension. If that is 
not adhered to, I will resign. I am aware of the language, and 
not aware of the language before it was published, but I am 
now.
    So therefore, my understanding from conversations with the 
Commissioner, from Mr. DuPuy and Mr. Manfred, who will clarify 
that today, that if, in fact, there is a loophole in which a 
player--and I understand----
    Mr. Lynch. I think you have made your point. We will take 
it up with Mr. Manfred.
    Chairman Tom Davis. The gentleman's time has expired.
    Mr. Waxman. Mr. Chairman, since I asked Mr. Lynch to yield 
to me, you are so gracious, could I ask unanimous consent he be 
given an additional minute?
    Chairman Tom Davis. Without objection.
    Mr. Lynch. Thank you, Mr. Chairman. You are very fair.
    The last section I want to ask you about is this. We have a 
provision in this agreement that states that in the event of an 
independent government investigation into this drug policy, 
that it will be null and void.
    If the government looks into this agreement and into this 
drug policy and starts investigating whether the enforcement is 
going on, monitoring and penalties are going on and actually 
being enforced, then by mutual agreement it goes away in the 
face of a government investigation.
    Dr. Wadler, I mean, you have had experience with a bunch of 
countries, and have you ever seen a policy like this, a 
provision like this; and if you have, could you enlighten the 
committee as to what its purpose might be?
    Dr. Wadler. I have a simple answer: No, I have not. I have 
never heard of that.
    Mr. Lynch. Now, Dr. Pellman, with great trepidation I will 
ask you, I know you are saying you didn't draft the document, 
but perhaps you were advised around some of it? Do you have any 
information with respect to this sort of escape clause that 
says if the Government Reform Committee starts looking into 
this, we are going to treat it as void, and we won't treat the 
policy as valid? That is very troubling here.
    Dr. Pellman. Mr. Lynch, I suspect that you know what my 
answer will be in terms of again being a physician and not a 
lawyer.
    Mr. Lynch. If I knew, I wouldn't have asked.
    Dr. Pellman. I think you need another lawyer to respond to 
that regarding individual rights and protection of 
Constitutional rights.
    Mr. Lynch. OK.
    Dr. Pellman. For me to begin to comment on that would be 
way beyond the scope of my knowledge.
    Mr. Waxman. Mr. Lynch, I just want to point out that what 
the document says is what will be controlling, not what Dr. 
Pellman intends for it or wishes it would say. We were told 
that you had, Dr. Pellman, a very intimate involvement in 
drafting this document. If you did, I think the lawyers picked 
your pocket, because what they did is substituted wobbly words 
so that what you suggested they do they didn't even do.
    Dr. Pellman. You know what I am finding most fascinating 
about this, Mr. Waxman, is the following, is that the terms and 
intentions of this complicated world we live in in terms of 
these drug policies and what we have done, there's a fine line 
between patients and being a physician and working with 
lawyers. And in terms of my pocket being picked, I will come 
back to you and tell you the following, that baseball in its 
way has made an incredible amount of progress, despite the 
comments here today.
    Mr. Waxman. That's what you have already told us.
    Dr. Pellman. I am responding to a personal comment you made 
to me.
    Mr. Waxman. But we have to talk about----
    Dr. Pellman. We have talked about the Major League system, 
but we have not talked about the Minor League system, and, in 
fact, in terms of the language that was there, I have deferred 
to Mr. Manfred in terms of answering that.
    So instead of coming to a conclusion about whether or not 
there was a quarter or a dollar picked from my pocket, I 
suggest you wait until you get all the information. Thank you.
    Mr. Waxman. I recommend the same for you before you tell us 
what is in the document.
    Dr. Pellman. I could not. You have told me.
    Mr. Porter [presiding]. Doctor, I have a question. Assuming 
the Major League Baseball's policy is weaker than the NFL's, 
the penalties for violation differ significantly. For example, 
the NFL, the first positive test results in a four-game 
suspension, which I guess is about a quarter of a regular 
season. Major League Baseball policy stipulates that the 
penalty for the first offense could be a 10-day suspension or a 
$10,000 fine. How do you reconcile the difference?
    Dr. Pellman. Well, I think I reconcile the difference in 
terms of the ability--and this will be more of a nonphysician 
response, but a response in terms of dealing with both 
cultures. Dealing with the NFL and dealing with the National 
Football League in terms of getting medical issues solved is 
truly a partnership between management and between the Players 
Association, one of which it is ultimately interesting in terms 
of parallel lives in terms of priorities. I will tell you that 
from my experience--remember, I have only been with baseball 
now for about 2\1/2\ years--is, in fact, that there is a 
difference of philosophy between the Commissioner's Office and 
the Players Association in terms of the priorities.
    If you ask me, and you look at me and you tell me what 
would be your wish in terms of the ability to make unilateral 
decisions regarding the Major League program, I will point out 
the Minor League program to you, because it would have been my 
intentions that, in fact, the Minor League program become the 
Major League program. And the Minor League program, a first 
suspension is, in fact, 15 games; not 15 days, but 15 games.
    We could argue in terms of how substantial that is in terms 
of taking a quarter of a season from the NFL, 15 games of Minor 
League baseball. But look at the amount of money and the 
hardship that those young men experience from being suspended 
from what they often claim are innocent mistakes.
    However, the program that you have for the Major League is 
a negotiation between management and the Players Association. 
And I will tell you that in terms of my perspective and their 
perspective, there is a wide, wide schism.
    Mr. Porter. You, I guess, testified that--the testing for 
anabolic steroids began in the NFL, in the league, in 1989, 
correct?
    Dr. Pellman. I did not testify, but, yes, that is very 
correct.
    Mr. Porter. When did testing begin for anabolic steroids in 
the Minor League?
    Dr. Pellman. In the Minor Leagues, essentially it started 
before I started in baseball, but became much more rigorous 
upon my starting and recommendations that were made to the 
Commissioner's Office.
    Mr. Porter. And you stated that the difference between 
baseball and football policies can be attributed to the climate 
of labor relations between management and the Players 
Association. Is there a union in baseball's Minor League?
    Dr. Pellman. No, there is not. Unilateral decisions are 
made from the Commissioner's Office regarding that program. 
There are no negotiations.
    Mr. Porter. Thank you very much.
    Yes, sir. Mr. Cummings.
    Mr. Cummings. Thank you very much.
    Dr. Pellman, let me go back to something you said a moment 
ago. I think you said that you were prepared to resign. Under 
what circumstances?
    Dr. Pellman. If, in fact, players were not suspended, and 
their names were not made--publicly notified; in fact, it was 
deferred, that instead of that penalty, as was intended, they 
received a monetary fine, that was blinded.
    Mr. Cummings. Well, according to our review of the policy 
as presented by Major League Baseball, the policy states, ``The 
results of any prohibited substance testing shall remain 
strictly confidential,'' and in the case of a fine, the policy 
also states, ``Any disciplinary fines imposed on the player by 
the Commissioner shall remain strictly confidential.''
    Are you aware of that?
    Dr. Pellman. In fact, not only did we discuss it, I am 
aware of it. Again, I will let Mr. Manfred explain the 
technical components to that, but I was assured that those 
names will be out there in the public and be aware of who was 
suspended.
    Mr. Cummings. Let me go back, because, you know, we have 
the Garibaldis here, and we have Mr. Hooton, and one of the 
things that has always concerned me is that particularly when 
we have the testimony of people who have suffered like these 
wonderful parents have is that I don't want them or anybody 
else to get the impression that, you know, they come here, they 
sit through a hearing, they are heard, and, in the words of my 
mother, we have motion, commotion, emotion and no results. It 
gets rather frustrating.
    Because what it does is that it--I would imagine that 
people can get to a point where they say--throw up their hands 
and say, why did I even go there? I would be happy to yield, 
but they weren't here. So I just want to ask you a question--
all right, I am going to yield. I will be happy to yield to 
anyone here. I will yield to whoever else is here.
    Mr. Waxman. OK. Well, go ahead.
    Mr. Cummings. Thank you.
    So, I guess what I am trying to get to, Mr. Waxman, was--he 
had raised some issues. I want to know, what are you prepared--
you told me you were prepared to make it clear that this thing 
about being able to go away for an hour while you are taking a 
urine test, that needs to be straightened out. What else are 
you prepared to recommend to the folks that you are working 
with; the Commissioner, that is? In other words, as a result of 
what you have heard today, are there other things that you 
would recommend? Are you following me with regard to the 
policy?
    Dr. Pellman. What more would I recommend?
    Mr. Cummings. Yes, sir.
    Dr. Pellman. Well, what I would recommend would be clearly 
stated by just looking, again, at the Minor League policy.
    Which is, in fact, an image of a policy that was created 
without negotiation.
    Mr. Cummings. OK. All right. With that, I yield back to Mr. 
Waxman, Mr. Chairman.
    Mr. Waxman. Thank you. I just wanted to see if anybody on 
our side wanted a chance to ask questions. OK.
    Mr. Cummings. I yield to the gentleman.
    Mr. Sanders. Thank you.
    I would like to take the discussion just a hair away from 
the central subject, if I might. In our society today, when you 
turn on television, we see programming like Extreme Makeover, 
right? And essentially what that programming is telling 
millions of American people, hey, your bodies are not good 
enough, you are not a Hollywood star, you are not voluptuous, 
you are not really strong. You need radical change in your 
body.
    To what degree do you think that whole effort in our 
culture, to make everybody beautiful and voluptuous and strong, 
has some impact? I know this is above and beyond taking 
steroids to hit a home run or pitch faster. Dr. Wadler, how 
does that influence the taking of steroids and other types of 
body-enhancement drugs?
    Dr. Wadler. I don't have figures, but there's no question, 
in talking to my colleagues and talking to people around the 
country, that body image is another important factor here. It 
is not only about enhancing performance, and that, in fact, is 
probably the major reason why girls are using it. As a 
physician I encourage people to go to the gym and exercise and 
so on. They have taken it a step further and feel they have to 
use enhancing products.
    Unfortunately much of this, in my view, took root in the 
Dietary Supplement and Health Education Act of 1994, which sort 
of set the notion in play that you need a powder, a potion of 
some sort to be better than by eating a regular diet or working 
out. So there is a whole culture of getting six-pack abs, 
getting muscularly-defined, cut-looking, which is totally 
separate from fit-looking, which is totally the athletic 
enhancement aspects of this.
    Mr. Sanders. But you would agree, I think, that the 
television industry and entertainment industry spends huge 
amounts of money telling us, hey, we are not strong enough, we 
are not busty enough, we are not voluptuous enough, you better 
do something about it.
    Yes, Doctor.
    Dr. Volkow. Yes, you are touching on something that is very 
problematic not only for anabolic steroids, but also for a wide 
variety of drugs of abuse. But indeed, one of the elements, and 
one--I mentioned two programs that were very effective in 
anabolic steroids are actually targeting exactly, among other 
things, not just exercising, but telling them how to construct 
the images that the media is putting forth. So these kids sit 
down, and then as their homework they have to go in into the 
message and look at them and say, this is absurd for this and 
this, and this is not part of the reality. So part of the 
training prevention program, which, as I said, is shown to be 
very effective, is allowing the kids to realize that not 
everything the media says should be emulated.
    Mr. Sanders. Thank you.
    Did anyone else want to comment on that?
    Dr. Brower. Yes, I did----
    Mr. Sanders. Doctor.
    Dr. Brower [continuing.] As well. The comment was made 
that, true, that anabolic steroids are hard-core drugs, and 
this is true, but there is a big difference between anabolic 
steroids and the people who are taking them and the people who 
take cocaine and heroin. When you take cocaine and heroin, your 
main goal is to get high. When you take anabolic steroids, your 
main goal is to make yourself consistent with what our cultural 
goals are, winning and looking good.
    Chairman Tom Davis [presiding]. Thank you. The time of the 
gentleman is expired.
    What I would ask, we have two more panels to go, I would 
and unanimous consent 5 minutes a side, and we can move on to 
the next panel. Is there objection? Hearing no objection, I 
will yield to your side. I will start on our side, Mr. Issa, 
and I know Mr. Osborne has a couple of questions.
    Mr. Issa. Thank you, Mr. Chairman. I will be yielding half 
of my time to Mr. Osborne so we can get through this. When you 
are here at the end on one of these panels, there's an awful 
lot that has already been asked and answered. I will try to do 
my opening and closing by just working on a couple of things 
that I don't know were made completely clear.
    Senator Bunning made it completely clear in his opinion 
that if you take steroids, you are cheating, and there should 
be an asterisk, more or less, after the name of every record 
set at a time in which steroids were involved. I think that's a 
fair characterization of the Senator.
    So what I would like to do is just ask each of you, in 
light of the fact that we know that if you go into a baseball 
game with a corked bat deliberately, not making any 
accusations, but if you went in deliberately with a corked bat 
and hit extra home runs, you would be cheating, and that would 
be clear. Yes or no for each of you, if you take anabolic 
steroids, bulk up and play professional sports, are you 
cheating?
    Mr. Garibaldi. Yes.
    Ms. Garibaldi. Definitely.
    Mr. Hooton. Absolutely.
    Dr. Volkow. Yes.
    Dr. Wadler. Absolutely.
    Dr. Brower. Yes.
    Dr. Pellman. Absolutely.
    Mr. Issa. OK. So the second question that goes with this, 
should Congress have the ability to make sure that our national 
pastime--including its exemption from antitrust, there is no 
cheating?
    Mr. Garibaldi. Yes.
    Ms. Garibaldi. Yes.
    Mr. Hooton. Yes.
    Dr. Volkow. Yes.
    Dr. Wadler. Yes.
    Mr. Brower. Yes.
    Dr. Pellman. Yes.
    Mr. Issa. In light of that, I just want to close my 2\1/2\ 
minutes by saying as a Member from San Diego, I am all too 
aware that every day young boys go over--many of them can't 
even drive. They go by trolley, they go into Mexico. They go 
into a pharmacy. There are more pharmacies in Tijuana than all 
the rest of Mexico combined. They go into a room with just the 
pharmacist. They get shot up and come back out, and Mexican law 
protects that pharmacist because it can't be entrapment. That 
is a problem what we in San Diego and the people of San Diego 
have to fix. There is no question that they will continue doing 
it until they take care of that, but hopefully today we are 
setting the stage to send the right message. With that I yield 
to the gentleman from Nebraska.
    [The prepared statement of Hon. Darrell E. Issa follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.132
    
    [GRAPHIC] [TIFF OMITTED] T0323.133
    
    Chairman Tom Davis. The gentleman from Nebraska is 
recognized.
    Mr. Osborne. I thank the gentleman for yielding. I thank 
you for being here today. The thing is we focus so much on the 
physical effects of steroids, you know, the increased risk of 
heart disease and the competitive advantage, sometimes an 
increased risk of cancer. But I would really like to thank the 
parents for being here today, because I think maybe the most 
serious side effect that I see is the emotional component, the 
mood swings, the roid rage, the tremendously devastating 
things.
    I think there are an awful lot of really bad things that 
happen to kids, whether it be suicides, automobile accidents or 
whatever. Sometimes they are never really linked to steroids. 
They really are there. And so I just wanted to thank you all 
for calling attention to that. And I don't think there's 
anything that could be more painful to a parent than to lose a 
child taking their own life, so I just wanted to thank you for 
being here. Thank you for calling attention to that issue, 
because it is something that kind of flies under the radar 
screen so much of the time.
    Thank you. I yield back.
    Chairman Tom Davis. Thank you.
    Mr. Souder, do you have anything you want to put in the 
record?
    Mr. Souder. I have a unanimous consent request. I would 
like to insert into the record testimony from Mark McClellan, 
the Commissioner of the Food and Drug Administration, before 
the Energy and Commerce Committee on July 24, 2003, where he 
praised, on ephedra, the National Football League, NCAA, 
International Olympic Committee and specifically not baseball. 
I think actions speak louder than words. I ask unanimous 
consent for this.
    Chairman Tom Davis. Without objection, it is so ordered.
    [The prepared statement of Mr. McClellan follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.134
    
    [GRAPHIC] [TIFF OMITTED] T0323.135
    
    [GRAPHIC] [TIFF OMITTED] T0323.136
    
    [GRAPHIC] [TIFF OMITTED] T0323.137
    
    [GRAPHIC] [TIFF OMITTED] T0323.138
    
    [GRAPHIC] [TIFF OMITTED] T0323.139
    
    [GRAPHIC] [TIFF OMITTED] T0323.140
    
    Chairman Tom Davis. Our side will yield the last 5 minutes.
    Let me just say to the parents, thank you so much for your 
testimony. I know this is difficult for you, something America 
needs to hear. Commissioner Selig has been here the whole time 
listening to this. I know they are sensitive to it as well. We 
appreciate very much your being here. And for the medical 
experts, thank you very much for shedding light on this very 
dangerous epidemic.
    Mr. Waxman--Mr. Clay.
    Mr. Clay. Thank you.
    I want to ask about human growth hormone, and according to 
what we know about Jason Giambi's testimony in the BALCO case, 
one of the substances he took was human growth hormone. That 
hormone acts like a steroid in that it builds muscle. It also 
changes the physical appearance of a player.
    Major League Baseball officials have told the public that 
the new policy bans the use of human growth hormone, but my 
concern is that it appears to be another big loophole. The only 
drug test that baseball is doing is a urine test, and this does 
not work to detect the illegal use of human growth hormone.
    Dr. Wadler, is it fair to say, then, that the new policy 
does not have a mechanism to enforce a ban of human growth 
hormone?
    Dr. Wadler. That's absolutely correct. There's been a 
national consensus for testing human growth hormone. It is only 
a blood test. There are two different types of tests done. It 
was implemented in Athens on 300 athletes. There's nothing in 
the immediate future to suggest there is going to be a urine 
test.
    Mr. Clay. Well, we have asked Major League Baseball about 
this loophole. They have told us not to worry because they have 
expressed optimism that a urine test for human growth hormone 
could be available in time for the 2006 season. I would like to 
ask if that optimism is justified.
    Dr. Wadler. There is absolutely no basis for that optimism 
whatsoever.
    Mr. Clay. Let me ask Dr. Pellman.
    Dr. Pellman. Yes, I will be more than happy to comment 
regarding that. First, the blood test that Dr. Wadler is 
alluding to is a nonvalidated blood test, and, in fact, was 
used for the first time by the Olympics, this past Olympics, of 
which the data has not been released.
    We have had conversations with both the WADA lab and the 
UCLA in Montreal that has confirmed that to us, as well as, my 
understanding both as a physician and in my role as an advisor, 
that taking blood in the United States and checking urine is 
two very, very different things, complicated in terms of 
privacy acts, in terms of taking blood and doing urine tests, 
and again in terms of what my recommendation would be, because, 
again, for the record, in terms of what I have told two 
Commissioners is that my biggest fear is, in fact, about human 
growth hormone. I am more worried about human growth hormone 
now in terms of the future than I am about anabolic steroids.
    Mr. Clay. OK, Doctor, that doesn't make a lot of sense, 
because the new agreement prohibits blood tests, and this 
agreement lasts until 2008. Why is baseball banning the only 
known tests for human growth hormone then?
    Dr. Pellman. It's not a question of banning it, it's a 
question of banning blood tests. And, again, in terms of 
technically speaking, right now there is no validated test for 
human growth hormone. In fact, I am unaware, and Dr. Green, who 
is behind me, who is the former chairman of the subcommittee of 
the NCAA for drug testing, who is my expert on this, has 
informed me that, in fact, it is unvalidated. We have no 
information on it.
    Mr. Clay. Doctor, they use blood tests for Olympic athletes 
and tennis stars. Can I ask that Dr. Wadler try to respond to 
what Dr. Pellman said, please?
    Dr. Wadler. Blood testing is part of the landscape in 
antidoping control worldwide for a variety of substances. For 
human growth hormone, there are two tests, isoforms and a 
market test. There was a consensus meeting in Dallas last year 
under the auspices of the U.S. Anti-Doping Agency. It was 
clearly a consensus as to how to proceed. It was implemented by 
the World Anti-Doping Agency with the assurance that the test 
was validated and, in fact, was implemented and carried out 
with 300 athletes in Athens.
    Mr. Clay. Thank you for that response to the parents.
    Dr. Pellman. May I ask Mr. Wadler one question which I 
think will help you?
    Mr. Clay. No. No. No. I have a limited amount of time. You 
can get to him after this.
    To the parents my deepest sympathy on the tragic loss of 
your young sons. As a father I cannot imagine how painful this 
must be for you, and we thank you for sharing both of your 
sons' story.
    Would you recommend testing high school athletes?
    Mr. Hooton. Absolutely, for two reasons. Excuse me. I 
jumped on that one. I feel very strongly.
    One, we will never, ever know how many kids we got doing 
steroids without testing. Kids don't admit it, just like our 
professional athletes don't admit it. You have to test.
    But second, I think more important and more positive, is at 
least if there is a testing program, even if it is random, for 
the good kids, it gives them an excuse to say no. At least 
there's a disincentive to do it. Right now, no testing, no 
supervision, there's nothing to keep the players from doing it.
    Mr. Clay. Doctor.
    Ms. Garibaldi. Second, the huge Constitutional argument is 
about the privacy of our youngsters. As a parent, I expect to 
know everything there is to know when it comes to my child, 
especially that under 18, I believe it's the parents that hold 
the rights, not the children. Therefore, the parents especially 
would like testing, and the schools are for it. It needs to 
happen.
    Chairman Tom Davis. Thank you very much. The gentleman's 
time has expired.
    Ms. Watson, we have run out of time. We can give you a 
quick question, I guess, with unanimous consent.
    Ms. Watson. I, too, want to extend my sympathy to both 
parents for being brave and courageous in coming here today. I 
am very disturbed right now because I have a picture of my 
Governor, Arnold Schwarzenegger, who said that he does not 
regret using steroids in the 1970's because they were not 
illegal then.
    But he doesn't want school-age children to use steroids and 
at the same time vetoed a bill that would have created a list 
of banned substances for interscholastic sports and required 
coaches to take a course on performance-enhancing supplements.
    The Garibaldis' son went to USC, which is in my district, 
and I want to know if you will join with me in seeing that a 
new bill in the State of California directed toward the high 
school students and coaches be introduced, and would you attend 
a meeting at USC with me and the coaching staff?
    Ms. Garibaldi. We will absolutely be there. Currently we 
are working with State senator Jackie Spear on her 
reintroducing Senate Bill 37, which targets exactly what it is 
you are talking about.
    Ms. Watson. Thank you very much. I see this as a public 
health issue, and we have to make a move now, or our children 
will be impressed by this.
    Ms. Garibaldi. They are impressed by that.
    Chairman Tom Davis. Thank you very much.
    Mr. Garibaldi. We also are working with the California 
Interscholastic Federation, and by, I think, the first week of 
May, they will be voting on a certification for high school 
coaches and banning accepting sponsorships from any 
performance-enhancing supplement company.
    Chairman Tom Davis. Thank you very much.
    Our time has expired. We have to get on to the next panel 
at this point. I want to thank you for the time today. It's 
been a very, very healthy discussion. We thank our medical 
experts. Thank you very much. The panel is dismissed.
    The committee will take about a 10-minute break as we set 
up for the next panel.
    [Recess.]
    Chairman Tom Davis. As I noted in my opening statement this 
morning, the committee's primary goal in this inquiry is to 
break the vicious cycle of the growing steroid use that begins 
at the professional level, and inevitably trickles down to 
college and high school sports.
    Mr. Waxman, I believe our oversight, which begins but does 
not end today, can help break that cycle and help 500,000 using 
steroids today that are making a big mistake. We can't do this 
alone. After all, there is a cause and effect here. Steroids 
becomes legitimized in large part because young people emulate 
star athletes, so it is going to take stars to combat stars. 
Today we are grateful that we have two pillars of the game of 
baseball ready, willing and able to take on that charge.
    We are taking this break in today's hearing to announce the 
creation of Zero Tolerance, the advisory committee on the 
ending the use of performance-enhancing drugs in sports. While 
membership on this task force is evolving, and names are sure 
to be added in coming days and weeks, it will initially be 
cochaired by Curt Schilling and Frank Thomas, Mr. Waxman and 
myself. Zero Tolerance will gather information, foster 
discussion and provide recommendations to Congress on the next 
steps.
    We have invited the NFL, the NBA and the NHL to recommend 
participants to this panel, since every professional sport 
needs to let young people know about the dangers of illegal 
steroid use. We believe the profile Mr. Schilling and Mr. 
Thomas can lend to this committee will send a strong message in 
and of itself about the dangers of steroid use. We also believe 
that their input and leadership will be essential to putting 
the issue of steroid use at all levels of sports under the 
microscope.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    I am pleased to have Mr. Schilling here with us. The reason 
that Mr. Schilling and Mr. Thomas were invited to be 
participants in this hearing today is because they have both 
been outspoken critics of steroid use by baseball players, for 
which I commend them, and I think it's so important that they 
have taken the position that they have. I am pleased that they 
are going to be testifying, in one case, Mr. Thomas, by remote 
control, and, Mr. Schilling, you are with us today. I am 
pleased that they are here, and announcing as well the fact 
that they will be part of an advisory group.
    This will serve a very, very important purpose as we move 
along to try to figure out how we can best stop steroid use by 
sports figures and, more importantly, the children who emulate 
them. So I want to commend both of them for their presence, 
willing to participate in the committee that they are going to 
be a part of. Thank you.
    Chairman Tom Davis. Mr. Waxman, before we start the formal 
hearing again, Mr. Schilling and Mr. Thomas were invited today 
because they have been outspoken about steroids in 
professionals sports.
    Mr. Schilling, before you give your prepared and are sworn 
in, would you like to say anything?
    Mr. Schilling. No, I wouldn't.
    Chairman Tom Davis. We are happy to have you as part of 
this. I just wanted to say thank you very much. And, Mr. 
Thomas, same thing, thank you very much.
    We are ready to bring in the next panel. We are going to 
swear each member in before they testify individually. Jim 
Sharp will be reading Mr. Sosa's statement. I will start.
    We have a very distinguished panel here, obviously, in 
front of us: Mr. Jose Canseco, the former member of the Oakland 
Athletics and Texas Rangers; Mr. Sammy Sosa, current member of 
the Baltimore Orioles and former Chicago Cub, accompanied by 
his interpreter Mrs. Patricia Rosell, and also Mr. Jim Sharp 
will be reading his opening statement; Mr. Mark McGwire, former 
member of the Oakland Athletics and St. Louis Cardinals; Mr. 
Rafael Palmeiro, current member of the Baltimore Orioles and 
former Texas Rangers; and Curt Schilling, current member of the 
Boston Red Sox. And we have Mr. Frank Thomas, current member of 
the Chicago White Sox, appearing by video conference.
    Mr. Canseco, if you would stand first and----
    [Witness sworn.]
    Chairman Tom Davis. Mr. Canseco, do you wish to make an 
opening statement?
    Mr. Canseco. Yes.
    Chairman Tom Davis. We will go down, each one of you make 
an opening statement, and then we will open it up for 
questions.
    Thank you very much for being here.

 STATEMENTS OF JOSE CANSECO, FORMER OAKLAND ATHLETIC AND TEXAS 
RANGER; SAMMY SOSA, CURRENT BALTIMORE ORIOLE AND FORMER CHICAGO 
 CUB, ACCOMPANIED BY JIM SHARP, ATTORNEY, AND PATRICIA ROSELL, 
  INTERPRETER; MARK McGWIRE, FORMER OAKLAND ATHLETIC AND ST. 
 LOUIS CARDINAL; RAFAEL PALMEIRO, CURRENT BALTIMORE ORIOLE AND 
 FORMER TEXAS RANGER; CURT SCHILLING, CURRENT BOSTON RED SOX; 
          AND FRANK THOMAS, CURRENT CHICAGO WHITE SOX

                   STATEMENT OF JOSE CANSECO

    Mr. Canseco. Thank you, Mr. Chairman, members of the 
committee, distinguished guests. My name is Jose Canseco, and 
for 17 years I played professional baseball. I am humbled by 
the opportunity to appear before you today. Never in my wildest 
dreams could I have imagined that my athletic ability and love 
for America's game would lead me to this place and this subject 
that has brought me before this committee.
    When I decided to write my life story, I was aware that 
what I revealed about myself and the game I played for the 
majority of my life would create a stir in the athletic world. 
I did not know that my revelations would reverberate in the 
halls of this Chamber and the hearts of so many.
    My heart and condolences go out to those families who lost 
their children through the use of steroids. Today I commit 
myself to doing everything possible to assist them in conveying 
to the youth of America the dangers that using steroids will 
bring. After this hearing I will be happy to work with them in 
whatever way I can to help convey to the youth of America the 
message that steroid use is unnecessary to be a great athlete, 
and that they are harmful to those who take them.
    When first contacted by the committee, I was willing to 
cooperate in all aspects of the investigation. Unlike others, I 
have never refused to appear before this committee and assist 
in this endeavor. However, due to the fact I am on probation in 
Florida for events unrelated to baseball and steroid use, and 
to the clear evidence of the overzealous efforts of State 
prosecutors to make an example of me, I request immunity from 
this committee. I requested immunity from this committee. With 
immunity I will be free to answer all questions posed to me by 
the committee without fear of how my testimony would affect my 
probation. Without immunity, I cannot.
    Chairman Tom Davis. Thank you very much.
    Mr. Canseco. It has been represented that this committee 
has been called to get to the bottom of steroid use in 
baseball. Having said that, this meeting is not about 
prosecution or individual use. If that were true, granting 
immunity to me should not be an issue. Although I have nothing 
to hide, and although my answers to your questions will be 
helpful in resolving uncertainties and issues facing this 
committee, because of my fear of future prosecution for 
probation violations or other unrelated charges, I cannot be 
totally candid with this committee. When appropriate, I will 
invoke the protections offered me by the fifth amendment.
    It is unfortunate that the committee chose not to grant me 
this request, especially since I have been the only player or 
member of baseball who did not fight the request to appear here 
today. It is unfortunate the committee has made this decision, 
as it will not be able to fully investigate the steroid issue 
without all testimony, and the issue will continue to plague 
the sport.
    Thank you for asking me to appear. I will try and answer 
every question that may be posed to me. Thank you.
    Chairman Tom Davis. Thank you very much, Mr. Canseco.
    [The prepared statement of Mr. Canseco follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.141
    
    [GRAPHIC] [TIFF OMITTED] T0323.142
    
    [GRAPHIC] [TIFF OMITTED] T0323.143
    
    [GRAPHIC] [TIFF OMITTED] T0323.144
    
    [GRAPHIC] [TIFF OMITTED] T0323.145
    
    Chairman Tom Davis. You are appearing voluntarily.
    Second, I would note that we did try to get immunity. I 
talked to the Attorney General about it. We were not able to 
get it in the time scheduled, unfortunately, but we thank you 
for your statement.
    Mr. Sosa, you will be next. Would you rise with me, raise 
your right hand, as well as your attorney and your interpreter.
    [Witness, attorney and interpreter sworn.]
    Chairman Tom Davis. If you have any opening statement, the 
committee would been happy to entertain it.
    Mr. Sharp. Yes, I do.
    Chairman Tom Davis. Mr. Sharp, I understand you are going 
to read it for Mr. Sosa.

                    STATEMENT OF SAMMY SOSA

    [Note.--The following statement was provided through Mr. 
Sosa's attorney.]
    Mr. Sharp. Mr. Chairman, Congressman Waxman and 
representatives of the committee, my name is Jim Sharp, and I 
represent Mr. Sosa. I appreciate the departure from the norm 
permitting me to read his statement.
    The statement of Mr. Sammy Sosa.
    Good afternoon, members of the committee. I understand that 
people have said that steroids are a big problem in 
professional baseball, and that it is trickling down to our 
children. I am here to offer my testimony in the hope that it 
will assist the committee in remedying this problem.
    I grew up in San Pedro in the Dominican Republic with four 
brothers and two sisters. My father passed away when I was 7 
years old. We sold oranges and shined shoes to get by. Early on 
I displayed a talent for baseball, and when I was 16, I left 
home and signed with the Texas Rangers. I played in the Minor 
Leagues for 4 years before I played in my first Major League 
game when I was 20 years old.
    Playing at that level is very difficult, especially for 
someone as young as I was. I had to fight for everything, and 
that meant working out harder than the next guy, lifting a few 
more reps than the last guy. It meant spending more time in the 
batting cages and less time in the clubs.
    Everything I heard about steroids and human growth hormones 
is that they are very bad for you, even lethal. I would have 
never put anything dangerous like that in my body, nor would I 
encourage other people to use illegal performance-enhancing 
drugs. To be clear, I have never taken illegal performance-
enhancing drugs. I have never injected myself or had anyone 
inject me with anything. I have not broken the laws of the 
United States or the laws of the Dominican Republic. I have 
been tested as recently as 2004, and I am clean.
    I support testing professional athletes for illegal 
performance-enhancing drugs. Because rigorous testing is new to 
baseball, the initial reaction of many players was to bristle 
at the perceived invasion of privacy, but if more testing is 
what it takes to help clean up the sport, I am behind it.
    In light of recent scandals and serious public health 
problems, we players need to commit to doing whatever it takes 
to regain our credibility as athletes and as members of the 
community. I do a lot of charity work for young people. I am 
genuinely committed to their welfare. I am willing to work with 
you and the Congress as a whole to educate kids and young 
athletes about these serious issues. Education, of course, 
starts in the home, but we baseball players can help by 
speaking out against the use of illegal performance-enhancing 
drugs. To the extent that I can help in these efforts, I am 
anxious to do so.
    Thank you very much.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Sosa follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.146
    
    [GRAPHIC] [TIFF OMITTED] T0323.147
    
    Mr. Sharp. If you will indulge me at this point, he would 
just like to say a few words.
    Chairman Tom Davis. That would be fine. Make sure the 
microphone is in front of him.
    Mr. Sosa. Thank you, Mr. Chairman. I was back there in the 
room, and I was watching on the TV the two families that lost 
the two kids, and it really shocked me and breaks my heart. I 
want to send sympathy to those families that had to go through 
that situation, and, you know, the quicker we can resolve this 
problem as to that which is bad for kids, you know, I am 
willing to work with you guys and do the best that I can to 
stop this. I just want to say that. Thank you very much.
    Chairman Tom Davis. Thank you very much.
    Mr. McGwire, rise with me and raise your right hand.
    [Witness sworn.]
    Chairman Tom Davis. Mr. McGuire, thank you very much for 
being with us today.

                   STATEMENT OF MARK McGWIRE

    Mr. McGwire. Mr. Chairman, members of the committee, thank 
you for having me. My name is Mark McGwire. I played the game 
of baseball since I was 9 years old. I was privileged to be 
able to play 15 years in the Major Leagues. I even had the 
honor of representing my country in the 1984 Olympic baseball 
team. I love and respect our national pastime. I will do 
everything in my power to help the game, its players and fans.
    First and foremost, my heart goes out to every parent whose 
son or daughter were victims of steroid use. I hope that these 
hearings can prevent other families from suffering. I admire 
the parents who had the courage to appear before the committee 
and warn of the dangers of steroid use. My heart goes out to 
them.
    When I was lucky enough to secure my last Major League 
contract, one of the first things I did was establish a 
foundation and donate $3 million of my own money to support 
abused children.
    I applaud the work of the committee in exposing this 
problem so that the dangers are clearly understood. There has 
been a problem with steroids in baseball, like any sport where 
there is pressure to perform at the highest level, and there 
has been no testing to control performance-enhancing drugs if 
problems develop.
    It is a problem, and that needs to be addressed. Most 
importantly, every Little Leaguer, Pony League, high school, 
college player needs to understand that performance-enhancing 
drugs of any kind can be dangerous. I will use whatever 
influence and popularity that I have to discourage young 
athletes from taking any drug that is not recommended by a 
doctor. What I will not do, however, is participate in naming 
names, in implicating my friends and teammates.
    I retired from baseball 4 years ago. I live a quiet life 
with my wife and children. I have always been a team player. I 
have never been a person who spread rumors or say things about 
teammates that could hurt them. I do not sit in judgment of 
other players, whether it deals with sexual preference, their 
marital problems or other personal habits, including whether or 
not they use chemical substances. That has never been my style, 
and I do not intend to change this just because the cameras are 
turned on, nor do I intend to dignify Mr. Canseco's book.
    It should be enough that you consider the source of the 
statements in the book and that many inconsistencies and 
contradictions have already been raised. I have been advised 
that my testimony here could be used to harm friends and 
respected teammates, or that some ambitious prosecutor can use 
convicted criminals who would do and say anything to solve 
their own problems, and create jeopardy for my friends.
    Asking me or any other player to answer questions about who 
took steroids in front of television cameras will not solve the 
problem. If a player answers no, he simply will not be 
believed. If he answers yes, he risks public scorn and endless 
government investigations.
    My lawyers have advised me that I cannot answer these 
questions without jeopardizing my friends, my family and 
myself. I intend to follow their advice.
    It is my understanding that Major League Baseball and the 
Players' Union have taken steps to address the steroid issue. 
If these policies need to be strengthened, I would support 
that.
    I appreciate the difficult job you have as Congressmen and 
Congresswomen and will use this opportunity to dedicate myself 
to this problem. I am directing my foundation to concentrate 
its efforts to educate children regarding dangers of 
performance-enhancing drugs. I am also offering to be a 
spokesman for Major League Baseball to convince young athletes 
to avoid dangerous drugs of all sorts.
    Thank you very much.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. McGwire follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.148
    
    [GRAPHIC] [TIFF OMITTED] T0323.149
    
    [GRAPHIC] [TIFF OMITTED] T0323.150
    
    [GRAPHIC] [TIFF OMITTED] T0323.151
    
    [GRAPHIC] [TIFF OMITTED] T0323.152
    
    [GRAPHIC] [TIFF OMITTED] T0323.153
    
    Chairman Tom Davis. Mr. Palmeiro.
    [Witness sworn.]
    Chairman Tom Davis. Thank you very much for being with us 
today.

                  STATEMENT OF RAFAEL PALMEIRO

    Mr. Palmeiro. Good afternoon, Mr. Chairman and members of 
the committee. My name is Ralph Palmeiro, and I'm a 
professional baseball player. I will be brief in my remarks 
today.
    Let me start by telling you this: I have never used 
steroids, period. I do not know how to say it any more clearly 
than that. Never. The reference to me in Mr. Canseco's book is 
absolutely false. I am against the use of steroids. I don't 
think athletes should use steroids, and I don't think our kids 
should use them. The point of view is one, unfortunately, that 
is not shared by our former colleague Jose Canseco. Mr. Canseco 
is an unashamed advocate for increased steroid use by all 
athletes.
    My parents and I came to the United States after fleeing 
the Communist tyranny that still is in my homeland of Cuba. We 
came seeking freedom, knowing that through hard work, 
discipline and dedication, my family and I could build a bright 
future in America.
    Since arriving to this great country, I have tried to live 
every day in my life in a manner that I hope has typified the 
very embodiment of the American dream. I have gotten to play 
for three great organizations, the Chicago Cubs, the Texas 
Rangers and the Baltimore Orioles, and I have been blessed to 
do well in a profession I love. That blessing has allowed me to 
work on projects and with charities in the communities where I 
live and play.
    As much as I have appreciated the accolades that have come 
with a successful career, I am just as honored to have worked 
with great organizations like the Make a Wish Foundation, Shoes 
for Orphans' Souls and the Lena Pope Home of Fort Worth.
    The league and the Players Association recently agreed on a 
steroid policy that I hope will be the first step to 
eradicating these substances from baseball. Congress should 
work with the league and the Players Association to make sure 
that the new policy being put in place achieves the goal of 
stamping steroids out of the sport. To the degree an individual 
player can be helpful, perhaps as an advocate to young people 
about the dangers of steroids, I hope you will call on us. I, 
for one, am ready to heed the call. Mr. Chairman, I think the 
task force is a great idea to send the right message to kids 
about steroids. If it is appropriate, I would like to serve 
with Mr. Schilling and Mr. Thomas. Thank you.
    Chairman Tom Davis. Thank you very much, Mr. Palmeiro.
    [The prepared statement of Mr. Palmeiro follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.154
    
    Chairman Tom Davis. Mr. Schilling.
    [Witness sworn.]
    Chairman Tom Davis. We have votes on, so if Members feel 
they have to leave to go to vote, come back. We have three 
votes. I am going to try to get the testimony in of Mr. 
Schilling and Mr. Thomas. If we stay as a block, I think they 
will hold the vote.
    Mr. Schilling, you have been asked here today because you 
have been an outspoken opponent of steroid use in professional 
sports, and we are happy that there are some people that want 
to help you in that regard, and thank you very much.

                  STATEMENT OF CURT SCHILLING

    Mr. Schilling. Chairman Davis, Congressman Waxman, members 
of the committee and other distinguished guests and invitees, 
nearly 2 weeks ago I had the extreme honor of standing on the 
West Lawn of the White House alongside my teammates and other 
members of the Boston Red Sox world championship team to accept 
the congratulations of President Bush and Vice President 
Cheney. Following that, my teammates and I made a visit to 
Walter Reed Hospital here in Washington, DC. During that visit 
my teammates and I had the extreme honor of meeting and 
visiting with the heroic men and women serving in our country's 
great Armed Forces. As a son of a man who served almost two 
decades in the U.S. Army, as a member of the 101st Airborne, 
with a brother who served in Vietnam, a cousin who served in 
the U.S. Navy aboard the USS Carl Vincent, and another cousin 
who recently finished his service in the U.S. Army as a member 
of the Rangers, Green Berets and finally the Delta Force, I 
think that visit, with absolutely no disrespect to our esteemed 
President and Vice President, was the highlight of many of our 
trips and some of our lives. I believe that visit made my 
teammates and I aware of how fortunate we are to live in this 
country and how fortunate we were able to bring joy that 
afternoon to those courageous service people just because we 
are Major League Baseball players.
    Being a professional baseball player has put me in a 
position to try to bring awareness to certain issues and causes 
that affect so many people in our great country. For example, 
my recognition as a player has enabled me to bring an 
increasing awareness to the terrible disease known as ALS, also 
known as Lou Gehrig's disease, which afflicts some 30,000 
Americans at any one time, and to act as an advocate to try to 
find a cure for the disease. My position as a player, along 
with the dedication of my wife Shonda, a cancer survivor, has 
enabled the two of us to bring awareness to the terrible 
problem that is skin cancer, or melanoma. Our foundation tries 
to educate young Americans on the dangers of exposure to the 
sun. In fact, at this moment the bill has passed the Arizona 
Senate and is awaiting a vote by the House of Representatives 
that would mandate that all children be taught sun safety in 
school, the first such mandate anywhere in the United States.
    My hope is that this hearing results in an increased 
awareness of steroids and their inherent danger to America's 
youth. I understand from the invitation I received to appear 
before this committee that my presence has been requested 
because I have been outspoken on this issue. I'm honored to be 
cochairman on an advisory committee, tasked with putting 
together recommendations on how to prevent steroid usage among 
young people. I recognize that professional athletes are role 
models for many of the youth in this country. Most athletes 
take this role very seriously, and I hope through my appearance 
here that I am conveying my seriousness and understanding of 
the issue.
    While I don't profess to have the medical expertise to 
adequately describe the dangers of steroid use, I do believe I 
have the expertise to comment on whether steroids are necessary 
to excel in athletics. I think it is critical to convey to the 
youth who desire to excel in sports that steroids are not the 
answer, and steroids are not necessary in order to excel in any 
athletic event, and success is achieved through hard work, 
dedication and perseverance.
    I also hope that by being here I can raise the level of 
awareness on several other fronts. First, I hope the committee 
recognizes the danger of possibly glorifying the so-called 
author scheduled to testify today or by indirectly assisting 
him to sell more books through his claim that what he is doing 
is somehow good for his country or the game of the baseball. A 
book which devotes hundreds of pages to glorifying steroid 
usage, and which contends that steroid use is justified and 
will be the norm in the country in several years is a disgrace, 
was written irresponsibly, and sends exactly the opposite 
message that needs to be sent to kids. The allegations made in 
that book, the attempt to smear the names of players, both past 
and present, having been made by one who for years vehemently 
denied steroid use should be seen for what they are, an attempt 
to make money at the expense of others. I hope we come out of 
this proceeding aware of what we are dealing with when we talk 
about that so-called author and not create a buzz that results 
in young athletes buying the book and being misled on the 
issues and dangers of steroids.
    I must tell you that I hope as a result of this hearing 
there is a better awareness of the steroid program recently 
implemented by Major League Baseball and its Players 
Association. That program, though certainly not perfect, and I 
dare say there is no such thing as a testing program, is a 
substantial step in the right direction that appears from 
initial statistics to be having the desired effect; that is, 
removing steroids from the game of baseball.
    Statistics have shown from 2003 to 2004, the number of 
players using steroids in the Major Leagues has gone from 5 to 
7 percent to 1.7 percent. In yesterday's New York Times it was 
reported that there were 96 positive tests during the 2003 
testing period. In 2004, that number saw a dramatic decrease as 
12 players tested positive. I see that as progress. I see that 
as positive.
    It troubles me when I hear the program being identified as 
a joke, a travesty, a program not designed to rid baseball of 
steroids. I think those numbers show this to be a meaningful 
program, one that is working, and steroid usage is dropping. 
The Players Association in an unprecedented move reopened the 
collective bargaining agreement for the sole purpose of 
strengthening drug testing procedures and its penalties. You 
may view that reopening of an agreement as a nonissue or one of 
minimal consequences, but we didn't.
    It appears that the main complaint about the current 
program revolves around the current penalties for being caught 
or failing a test. It is my view as a 19-year veteran of 
professional baseball there will be no system of suspensions or 
discipline that can be implemented that will stand up to or 
match the agreement made by the players that positive test 
results will be made public, subjecting the player to public 
humiliation and labeling as a steroid user or a cheater. Given 
the intense media coverage that now permeates professional 
sports, there is no doubt in my mind that any player who is 
caught after this program has been implemented will, for all 
intents and purposes, have his career blacklisted forever. When 
a player's suspension is over, he may be able to lose the label 
of a player who is under suspension, but I am convinced he will 
never lose the label of a steroid user.
    While not a part of my original prepared statement, I think 
it is important to address the issue that has arisen with 
respect to the issue of public disclosure of test results under 
the current testing program. It is my belief that the positive 
test results will be made public, and it is the public 
disclosure which constitutes the real teeth of the testing 
program as far as I am concerned. When I learned upon my 
arrival in Washington yesterday that there was some question 
about public disclosure, I looked into the public disclosure 
issue because of my beliefs. Based on that, I'm still of the 
belief that positive test results will be made public. And I 
know for a fact that 98.3 percent of the players who tested 
clean want the results to be made public because they know the 
key to the elimination of steroids is a public recognition of 
who the cheaters are.
    Members of the committee, do I believe steroids are being 
used by Major League Baseball players? Yes. Past and present 
testing says as much. Do I believe we should continue to test 
and monitor steroid usage in Major League Baseball? Absolutely. 
I believe the message has been heard by players, and that 
serious, positive, forward-thinking steps have been taken on 
the issue.
    I urge the committee to focus its efforts in that direction 
and not dwell on what may have occurred in the past. I also 
urge the committee to not make this process just about 
baseball. Steroids and supplement usage appears to not be a 
baseball problem, but a society problem. Everywhere you look, 
we are bombarded by advertising of supplements and feel-good 
medications. I urge you to evaluate the way in which these 
products are manufactured and the way in which they are 
marketed. If we are going to send a message to the young 
athlete that steroid use is bad and steroids are not necessary 
to achieve success, you cannot allow that message to be drowned 
out by the manufacturers' advertising to the contrary. If the 
government thought enough of American youth to rally against 
the tobacco industry and its advertising to our youth, why 
should the supplement industry be any different?
    I cannot conclude my statement without expressing my 
admiration to the Hootons and Garibaldis for appearing, and I 
extend my deepest sympathy to each of them for their loss. As a 
father of four children, I cannot begin to imagine the pain 
they must be suffering. To the Hootons and Garibaldis, I want 
to say this: Having been appointed as a cochairman on the 
advisory committee tasked with educating our youth about the 
dangers of steroid usage, I would welcome their input in 
helping the committee move forward.
    Thank you for your attention and the chance to speak.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Schilling follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.155
    
    [GRAPHIC] [TIFF OMITTED] T0323.156
    
    [GRAPHIC] [TIFF OMITTED] T0323.157
    
    Chairman Tom Davis. Mr. Thomas, are you with us? Do we have 
an audio out to Mr. Thomas? Can you hear us, Mr. Thomas? Can I 
swear you in?
    [Witness sworn.]
    Chairman Tom Davis. And as you know, we have invited you 
here because you have been an outspoken opponent of steroids in 
Major League sports.
    Do you wish to make an opening statement? And thank you for 
joining the task force and cochairing it with Mr. Schilling.

                   STATEMENT OF FRANK THOMAS

    Mr. Thomas. Good afternoon, Mr. Chairman and members of the 
committee. My name is Frank Thomas, and I am a baseball player 
for the Chicago White Sox, a team I am proud to have been a 
part of since joining Major League Baseball since 1989.
    First of all, Mr. Chairman, let me say that as an outspoken 
critic of steroids, I would like to work with the committee, 
Major League Baseball and the Players Association to warn 
everyone, especially young people, about the dangers of 
performance-enhancing drugs. Steroids are dangerous, and the 
public should be educated about them, and, in particular, 
parents should make sure their children are aware that steroids 
can be bad for their health.
    I also believe the league and the Players Association have 
done the right thing by reopening our collective bargaining 
agreement and strengthening our policy on drug testing. I 
support this new policy as a very good first step in 
eliminating steroid use in the sport I love.
    I have been a Major League Baseball player for 15 years, 
and throughout my career I have never, ever used steroids.
    Thank you, Mr. Chairman and member of the committee.
    Chairman Tom Davis. Thank you very much, Mr. Thomas.
    [The prepared statement of Mr. Thomas follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.158
    
    Chairman Tom Davis. And I am going to recess the meeting 
and ask the Members to come back. We are in the middle of three 
votes and should be back in 20 minutes. I appreciate your 
opening statements, and if you would be able to stay for a few 
questions, we very much appreciate everybody being here.
    [Recess.]
    Chairman Tom Davis. Let me start the questioning so we can 
move this along.
    Mr. Schilling, I will ask you and ask Mr. Palmeiro, as I 
read the Major League policy, it says if the player tests 
positive for a steroid, a 10-day suspension or up to a $10,000 
fine. So under the policy, a suspension is optional, and you 
could do a fine up to $10,000. It could be less than that. Our 
feeling is it ought to be--with clarity, it ought to be a 
suspension because a suspension carries with it a public 
acknowledgement. Under the rules as we read them, a fine does 
not. Do you have any thoughts on that? I am not trying to put 
you in the middle.
    Mr. Schilling. I don't think for a second there is any 
question about making names public upon a failed test. I can't 
speak at length as to why the clause is in there, but I was 
given the impression, and I'm under the impression, there will 
be no chance for a failed test to not be made public.
    Chairman Tom Davis. It is not what it says, just to let you 
understand. Your position, you think it ought to be made 
public?
    Mr. Schilling. I think that's the position of players as a 
whole.
    Mr. Palmeiro. I believe the players should be suspended. I 
believe our policy needs to be strong, and I think we need to 
give it a chance, but I believe the player needs to be 
suspended.
    Chairman Tom Davis. That is one of the major concerns, and 
it was a huge surprise to us as we walk through here.
    Mr. Canseco, let me ask you a question going back. It is 
your position that Major League Baseball knew that there was 
steroid use going on and for years didn't do anything to stop 
it?
    Mr. Canseco. Absolutely, yes.
    Chairman Tom Davis. When you signed a contract with the 
team, is it your opinion that people knew about the players 
that they were signing and investigated, given the investment 
they were making in them?
    Mr. Canseco. I'm under the impression they even did 
background checks on them.
    Chairman Tom Davis. So in all likelihood they would know if 
a player was taking steroids and what their private lives were 
because that could jeopardize their ability to perform?
    Mr. Canseco. I believe so, yes.
    Chairman Tom Davis. And why do you think baseball didn't do 
anything about this?
    Mr. Canseco. I guess in baseball at the time there was a 
saying, if it's not broke, don't fix it. And baseball was 
coming back to life. Steroids were part of the game. And I 
don't think anyone really wanted to take a stance on it.
    Chairman Tom Davis. I wanted to wait until we got people in 
the room. Mr. Palmeiro, I want to thank you for also agreeing 
to be a representative on the Zero Tolerance Advisory Committee 
on ending steroid use in sports. I want to thank Mr. Sosa and 
Mr. McGwire for agreeing to support the efforts for the 
advisory committee as well. It is important that we get all 
athletes out there publicly on this issue.
    And, Mr. Waxman, I'm going to recognize you. I appreciate 
you being here. Mr. Waxman.
    Mr. Waxman. Mr. Chairman, before I start with this panel, I 
wanted to acknowledge a third family that is here with us 
today, the family of Efrain Marrero, a 19-year-old kid from 
California who loved to play football. He killed himself after 
falling into the grip of steroids. As his mother Brenda has 
said, steroids killed my son. I understand that his mother and 
father and sister Erica are here today, and they are working 
with the Garibaldis and Hootons to get the message out about 
steroid use to America's youth, and I want to say on behalf of 
all of us, thank them for coming.
    On the question I want to ask, and I don't know which of 
you to ask, what I want to know is you have seen steroid use in 
baseball. You have seen it from inside the clubhouse. Mr. 
Palmeiro, maybe it would be best to ask you, is it something 
that most of the baseball players knew about?
    Mr. Palmeiro. I have never seen the use of steroids in the 
clubhouse.
    Mr. Waxman. How about the fact that players were using 
steroids; is that something that other players knew?
    Mr. Palmeiro. I'm sure players knew about it. I really 
didn't pay much attention to it. I was focused on what I had to 
do as part of my job.
    Mr. Waxman. Did players know? You have spoken out about 
this. Did you know that other players were using steroids?
    Mr. Schilling. I think there was suspicion. I don't think 
any of us knew, contrary to the claim of former players. I 
think while I agree it's a problem, I think the issue was 
grossly overstated by some people, including myself.
    Mr. Waxman. Grossly overstated? Why did you do that?
    Mr. Schilling. I think at the time it was a very hot 
situation, and we were all being asked to comment on it. And I 
think my opinion at the time was to go with someone who maybe 
had a better idea than me. But given a chance to reflect, when 
I look back on what I said, I'm not sure I could have been any 
more grossly wrong.
    Mr. Waxman. Do you think it is a nonproblem in baseball?
    Mr. Schilling. If one person is using it, I think it's a 
problem. I think the desire to get to zero players using is a 
great goal. I don't know how achievable that is.
    Mr. Waxman. Mr. Sosa, did you know that other players were 
using steroids?
    Mr. Sosa. To my knowledge, I don't know.
    Mr. Canseco. Absolutely.
    Mr. Waxman. You say it so affirmatively, but the others 
seem to be vague about it. Was it only where you were playing?
    Mr. Canseco. I didn't hear you.
    Mr. Waxman. They seem to be vague as to whether it was 
known by the players that some players were using steroids. Do 
you think there should have been any doubt in anybody's mind 
that steroids was being used by--would you say a large number 
of players?
    Mr. Canseco. There should have been no doubt whatsoever, 
none.
    Mr. Waxman. Does it stop with ballplayers? Steroid use has 
grown. Do you think that the team trainers, the managers and 
general managers, and even the owners might have been aware 
that some players were using steroids?
    Mr. Canseco. No doubt in my mind, absolutely.
    Mr. Waxman. It's not a secret that stayed with the players; 
others knew it in the baseball community?
    Mr. Canseco. Absolutely.
    Mr. Waxman. Do any of you disagree with you that?
    Mr. Schilling. Disagree with----
    Mr. Waxman. Not only did some baseball players know that 
others were using it, but that managers and other teammates and 
the trainers also were aware of it?
    Mr. Schilling. Again, I think it falls--it includes a lot 
of suspicion and a lot of questioning. Unless you were Jose and 
you were actually using it, I don't think you had firsthand 
knowledge of who knew.
    Mr. Waxman. Last week a very respected person in the 
athletic world called me with a suggestion. He said if we want 
to dramatically cut the use of illegal steroids by kids, we 
should pass Federal legislation that applies one standard to 
all major sports, to colleges and high schools, instead of a 
patchwork of different policies. He suggested taking the 
Olympic policy and applying that program to everyone. The first 
violation would result in a 2-year suspension, and the second 
would bring a lifetime ban. Do you think that would be 
effective? Let me start with you.
    Mr. Canseco. I think, in my opinion, the most effective 
thing, right, would be for us to admit there's a major problem. 
It's got to start here, and we have to admit to certain things 
we have done and change things there. From what I'm hearing, 
more or less, I was the only individual in Major League 
Baseball that used steroids. That's hard to believe.
    Mr. Waxman. Mr. Sosa, do you think we ought to have that 
gold standard of the Olympic program, zero tolerance? You got 
caught using steroids; for whatever the sport is, that you are 
suspended for 2 years, and after that second offense, you're 
out. Do you think that would be effective with baseball and 
other sports as well?
    Mr. Sosa. I can tell you, Mr. Chairman, I don't have too 
much to tell you.
    Mr. Waxman. You can think about it.
    How about you, Mr. McGwire?
    Mr. McGuire. I don't know, but I think we should find the 
right standard.
    Mr. Waxman. Do you think that the standard the baseball 
commission is using right now is the right standard?
    Mr. McGuire. I don't know. I'm not a current player.
    Mr. Waxman. You haven't looked at it?
    Mr. McGuire. Correct.
    Mr. Palmeiro. I wouldn't have a problem of playing under 
any type of standard. Like I said, I have never taken it, so if 
you want to play under the rules of the Olympics, I welcome it.
    Mr. Waxman. My time is up, and I hope we will get another 
chance.
    Chairman Tom Davis. Mr. Sweeney.
    Mr. Sweeney. Welcome all, and thank you for your 
participation.
    I want to ask a general question of the entire panel with 
the idea that I would followup with a specific. The general 
question is you all made very strong statements about your 
interests in helping us develop some public education process. 
Very briefly, because there is a time issue and I would like to 
hear from each of you what you think the danger is, what your 
perception of what has happened out there in the world because 
of the allegations of steroid use; and second, what can Major 
League Baseball and the Players Association do tangibly, if you 
have ideas? And, Mr. Schilling, I will start with you.
    Mr. Schilling. I think the inherent danger here is 
inactivity. I don't think a PSA is going to do it. I think 
there needs to be tough legislation mandated on the Federal 
level that affects high school athletics, college athletics. 
And I do agree, I think if you come to one standard and a 
blanket standard for everybody that is tough and strict and 
enforceable, there's no question that's the way to go.
    Mr. Palmeiro. I do believe we are role models, and we do 
have a lot of power in what kids listen to and the message that 
we send to them. And I believe that if we do send the right 
message, we can help tremendously.
    Mr. McGwire. I believe that's one of the reasons I am here 
is to make this a positive thing instead of a negative thing, 
and I will do everything in my power to turn this around from a 
negative to a positive.
    Mr. Sosa. I agree with Mr. McGwire. One of the reasons we 
are here is to stop that. And I think we did some more tests. 
And one way or another, we are here to help.
    Mr. Canseco. I think the most important thing is going to 
be awareness here. I mean, it is in the forefront right now. We 
are looking at it. Major League Baseball player, whatever comes 
out of this meeting will say, wow, we have eyes on us, they are 
looking at us. We have to change something. Hopefully this book 
educates people and what is going on in sports and how 
devastating the use is in Major League sports. And no matter 
what comes out of this, at least we are going to have some type 
of start, some type of position to say, look, you got to stop 
this. The owners have to stop this continuing. They have to 
stop this, period.
    Mr. Sweeney. I have two questions to followup. One is that 
given its impact, especially with the last panel on scholastic 
athletics and kids in this country, do any of you doubt that 
maybe Major League Baseball--and when I say Major League 
Baseball, I'm including the Players Association--don't you 
think that Major League Baseball has an obligation to help pay 
for that program because all of those things cost money? Anyone 
disagree that Major League Baseball helps to subsidize?
    Chairman Tom Davis. Talking about the owners here?
    Mr. Sweeney. I'm talking about the owners and possibly the 
Players Association in conjunction.
    Mr. Schilling. For the owners I say yes.
    Mr. Sweeney. My point is baseball has an obligation here; 
don't you agree?
    And the final question, I'm going to go into sensitive 
territory, and our intent is not to embarrass anybody here. We 
have just established--we all agree this is a public health 
policy issue. This is not treading on conduct that rises to the 
level of criminality in the past years, but this year it is, 
and that is the use of steroid precursors and designer steroids 
and how prevalent that was in baseball because that is part of 
the culture. And specifically, Mr. McGwire, I have to ask you 
this question from your statement. In part 10, you essentially 
say that the impact on children is devastating. You recognize 
that. And you want people to understand that the use of any 
performance-enhancing drug can be dangerous. It is rather an 
infamous occurrence that in the year you were breaking the home 
run record, a bottle of Andro was seen in your locker.
    My question to you is your position now says that the use 
of that product, which is now illegal but was not then--how did 
you get to that point that was what you were using to prepare 
yourself to play? And if you could tell this committee how you 
ended up there. And I would like to know if other players have 
similar experiences. I think that would help us understand what 
you all live in.
    Mr. McGwire. Well, sir, I'm not here to talk about the 
past, I'm here to talk about the positive and not the negative 
about this issue.
    Mr. Sweeney. Were you ever counseled that precursors or 
designer steroids might have the same impact?
    Mr. McGwire. I'm not here to talk about the past.
    Mr. Sweeney. I will simply say to alleviate the kinds of 
questions that surround the game, we need to understand the 
game.
    Chairman Tom Davis. Gentleman from Baltimore.
    Mr. Cummings. First of all, I want to thank all of you for 
being here, and, you know, Mr. Canseco, I have been taking a 
look at your book, and you said some things that really--I hear 
all of you, and I'm trying to feel good this hearing. But at 
the same time, I see you and Mr. McGwire with almost tears in 
your eyes when you are talking, and everyone is willing to come 
and be the spokespersons to help those families who may be 
trying to deal with this issue and prevent it in the future.
    But, Mr. Canseco, let me ask you this. You said in your 
book, and this is in your book, I'm tired of hearing such 
short-sighted crap from people who have no idea what they are 
talking about. Steroids are here to stay. That's a fact, I 
guarantee. Steroids are the future. By the time my 8-year-old 
daughter Josie has graduated from high school, a majority of 
all professional athletes in all sports will be taking 
steroids, and believe it or not, that's good news.
    Help me with that. You sit here one moment talking about 
how you want to do all these wonderful things to prevent it in 
the future, but then it sounds like you are saying something 
almost the opposite in your statement in your book.
    Mr. Canseco. I think that was very much pertaining to two 
subjects. No. 1, if Congress does nothing about this issue, it 
will go on forever. That I guarantee you. And basically 
steroids are only good for certain individuals, not good for 
everyone. I think I specify that, in previous chapters, if you 
medically need it, if it is prescribed to you. I think those 
are the things I spoke about.
    Mr. Cummings. You realize it is a Federal crime to abuse 
steroids?
    Mr. Canseco. Yes.
    Mr. Cummings. Are you now for a zero tolerance policy?
    Mr. Canseco. Absolutely.
    Mr. Cummings. You made some allegations, and as I 
understand it, Mr. Schilling, Mr. Thomas, Mr. Sosa and Mr. 
Palmeiro said they never used the substances. Is that right, 
Mr. Sosa?
    Mr. Sosa. Yes.
    Mr. Cummings. Mr. McGwire, would you like to comment on 
that? I didn't hear you say anything about it. You don't have 
to. I just ask. You don't want to comment. Are you taking the 
fifth?
    Mr. McGwire. I'm not here to discuss the past. I'm here to 
be positive about this subject.
    Mr. Cummings. I'm trying to be positive, too. But just a 
few minutes ago, I watched you with tears--I need to ask a 
question.
    Chairman Tom Davis. The gentleman made it clear.
    Mr. Cummings. I made it clear, and I'm just telling him 
something. I sit here and I almost got tears in my eyes 
watching you testify. And, you know, the thing that I'm curious 
about is, you know, it's one thing to say that we want to help. 
It's a whole another thing when those parents are sitting 
directly behind you and they wonder if this is real.
    I guess my question is you said something about your 
foundation and trying to help out. Tell us exactly what it is 
that you plan for your foundation to do.
    Mr. McGwire. Well, right now?
    Mr. Cummings. Talking about the future, as you said.
    Mr. McGwire. My foundation helps out neglected and abused 
children. We have not talked about it, but I'm going to 
redirect about this subject.
    Mr. Cummings. You are willing to be a national spokesman 
against steroids? We have all these high school kids that are 
emulating you and still look up to McGwire and others. And I 
think you said you are willing to be a national spokesman?
    Mr. McGwire. I would be a great one.
    Mr. Cummings. You would do it?
    Mr. McGwire. Absolutely.
    Chairman Tom Davis. Gentleman's time has expired.
    Mrs. Miller.
    Mrs. Miller. Yes, Mr. Chairman, perhaps just a question. I 
appreciate all of the panelists coming here today sincerely. 
But in your book you did admit you were a user and abuser of 
steroids, and you did suggest that perhaps steroids were a good 
thing for players to use. I think you said in your book if 
properly used, steroids could help you to live to be 120 years 
old.
    Unfortunately during your playing career, baseball did not 
have the testing policy in place against the use of steroids, 
no testing regime.
    I want to applaud you for your testimony today saying that 
you are willing to work toward educating our young people about 
the dangers of steroids, but could you answer, even if the new 
random testing policy that the Major Leagues are putting in 
place today, if that was in place during your playing career, 
do you think it would have changed your behavior in regards to 
steroids, or do you think that the desire to play better is 
just so strong that the standard that is going to be in place 
today is going to eliminate steroid use in Major League 
Baseball?
    Mr. Canseco. I don't know how the policy for Major League 
Baseball is structured right now, but I heard it's a complete 
joke. Obviously if there were a proper system completely 
educating athletes and so forth, I truly believe that no Major 
League player would do steroids.
    Mrs. Miller. My understanding of the new policy is that it 
is a random test, at least one time during the season for each 
player. And I suppose we will have additional questions for the 
next panel.
    Thank you, Mr. Chairman. That is my only question.
    Chairman Tom Davis. If you would yield to Mr. Burton.
    Mrs. Miller. I yield to the gentleman.
    Mr. Burton. Thank you, Mr. Chairman. I don't have a 
question. I just would like to say it's evident from this 
hearing that a lot more needs to be done to make sure that not 
only the baseball world, but the entire world of athletics that 
these kind of drugs need to be outlawed. And I would like to 
say I understand the Commissioner has started to move in the 
right direction, but evidently hasn't moved fast enough.
    Rather than me questioning the players who are here today 
or pound on this subject anymore, I would like to say that the 
message is loud and clear from this committee and from the 
Congress of the United States, we want this stuff stopped in 
all athletics, not just baseball. And I think you can tell by 
the tone of my colleagues up here, if it doesn't stop, you are 
going to end up with something that you don't want in the world 
of athletics, and that is the Congress of the United States 
doing what you don't do.
    So do the job. Baseball players, whom I have respected 
since I was kid, go out there and tell the kids even if you use 
steroids, tell them this is not the right thing to do. Tell 
them about the people who lost their kids because of misuse of 
steroids. If you preach the Gospel, and if the baseball 
Commissioner and everybody in baseball gets the word out, this 
will change. You won't have to have Congress legislating. You 
will get the job done.
    Do the job so we don't have to. And I hope this message 
goes out loud and clear in every athletic endeavor, not just in 
baseball. If it does in this hearing, Mr. Chairman, because of 
you and Mr. Waxman, it will be of great benefit to all sports.
    Chairman Tom Davis. Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman.
    Mr. Chairman, I increasingly feel a feeling of the theater 
of the absurd unfolding here. We are all interested in the 
future, but in order to plan a better future in this field, we 
must look at the past. In every single endeavor as we plan for 
the future, unless we learn from the past, it will be a futile 
endeavor.
    I am totally disinterested in individual past behavior, let 
me make that clear. But there are a few specific questions I 
would like all of you gentleman to respond to. Jim Bunning, our 
former colleague testified earlier today, who said that the 
industry is taking baby steps. Well, baby steps are clearly not 
adequate when we are facing a major national crisis impacting 
our young people. That's why we are here; that's why all the 
media is here. So to pretend that baby steps will solve this 
problem is ludicrous.
    So I would like to ask each of you gentlemen to answer the 
following questions. You have already said, some of you, that 
you favor the Olympics formula. Could I ask all of you to say 
yes or no? It is a much tougher formula, much more demanding, 
with much more severe penalties. Mr. Schilling, are you in 
favor of it?
    Mr. Schilling. I would need to see it first. I wouldn't 
give a blanket yes or no.
    Mr. Lantos. Are you in favor of much stricter penalties?
    Mr. Schilling. I'm in favor of allowing the current system 
to continue to work, and where loopholes are found, loopholes 
need to be fixed. I think the testing is doing what it is aimed 
to do, which is reduce the usage of steroids by players.
    Mr. Palmeiro. I'm in favor of eliminating the problem 
completely.
    Mr. Lantos. Obviously, the Olympics are internationally 
recognized as it has been referred to as the gold standard. If, 
in fact, that is the gold standard, would you be in favor of 
applying to in baseball?
    Mr. Palmeiro. I would play under any type of deal that 
would clean our sport and make it level playing field for 
everyone.
    Mr. Lantos. Thank you.
    Mr. McGwire.
    Mr. McGwire. Being that I'm retired, I think that anything 
that Major League Baseball can do to get rid of this problem 
and put a positive light on this for our children and our 
future, I think it would be great.
    Mr. Sosa. Yes, I am in favor.
    Mr. Canseco. I'm definitely in favor of it, but I think you 
have to monitor whoever is issuing this test.
    Mr. Lantos. The second question I have is are you in favor 
of independent testing, because one of the issues that emerged 
is that unless all testing is done by a totally independent 
entity, which has nothing to do with the owners, the players, 
it stands by itself. Would you favor that, Mr. Schilling?
    Mr. Schilling. Yes.
    Mr. Palmeiro. Yes.
    Mr. McGwire. I think it would be outstanding.
    Mr. Sosa. Yes, sir.
    Mr. Canseco. Going to be the only way you are going to 
solve this.
    Mr. Lantos. Final question. On the assumption that within a 
reasonable period of time the industry doesn't clean up its own 
act, are you in favor of Federal legislation, Mr. Schilling?
    Mr. Schilling. Yes.
    Mr. Palmeiro. I agree. I agree.
    Mr. McGwire. If that's what it takes, yes.
    Mr. Sosa. Yes.
    Mr. Canseco. Yes.
    Mr. Lantos. Thank you very much.
    Chairman Tom Davis. Mr. Souder.
    Mr. Souder. My first question is to Mr. Schilling. And my 
belief is that all we have seen is sampling, and it is not 
adequate, and it is not independent, and so full of holes and 
ephedra and everything else, that if it was cheese, it would 
definitely be Swiss cheese. Clearly the policy needs to be 
fixed, and I'm disappointed that you don't seem to share that 
view.
    You said earlier, as I understood it, that we went from 5 
to 7 percent positive down to 1.7, and that is progress. I 
thought I heard you also say it would be inevitable, and the 
people--this would be public. I haven't heard 5 to 7 percent of 
the players named as using steroids. I haven't heard 1.7 
percent. Where is the public part?
    Mr. Schilling. After the agreement renegotiated those past 
couple of months, those are instituted now. Those previous 
results are from the last two seasons. The 5 to 7 percent was 
the number that needed to be met for the testing to be put into 
effect, the different method of testing which was put into 
effect last year.
    Mr. Souder. Under the previous policy, was anybody 
suspended for steroids?
    Mr. Schilling. I can't answer that.
    Mr. Souder. The simple way to solve this is the way that 
Mr. Sosa and Mr. Palmeiro and Mr. Schilling and Mr. Thomas has 
said. I'm clean, I have been clean, I've taken the test, and I 
have passed the test. This is pretty simple, and the American 
people are figuring out who is willing to say that and who 
isn't.
    And as far as this being about the past, that's what we do. 
This is an oversight committee. If the Enron people come in 
here and say, we don't want to talk about the past, do you 
think Congress is going to let them get away with that? When we 
were doing investigations on the travel office, on Whitewater, 
if President Nixon had said about Watergate when Congress was 
investigating Watergate, we don't talk about the past, how in 
the world are we supposed to pass legislation? When you are a 
protected monopoly, and all of your salaries are paid because 
you are a protected monopoly, how are we supposed to figure out 
what our obligations are to the taxpayers if you say you won't 
want to talk about the past?
    I praise those people that have come forward and have been 
in awkward situations before because of peer pressure and said, 
look, I'm clean; but I'm really disappointed because we have to 
talk about the past because there isn't any way to address 
that. And unless there are independent entities doing this, I 
don't believe this is going to pass the laugh test. I believe 
we have advanced some today, but we have also gone backward 
some today. And this is going to be very critical.
    Yield back the balance of my time.
    Chairman Tom Davis. Mr. Owens.
    Mr. Owens. I don't want to repeat what my colleague asked 
before. I want a clarification. He said if the industry can't 
clean this up, are you in favor of Federal legislation? I think 
you gave a positive answer. I want to go one step further and 
say baseball is an industry, it's a business. It's our favorite 
pastime. In most instances, we have failed in attempts to have 
businesses self-regulate themselves. There are few successes. 
Do you think it is possible that self-regulation will solve 
this problem?
    Mr. Schilling. Yes. Absolutely.
    Mr. Palmeiro. I think it's possible, too.
    Mr. McGwire. Me, too.
    Mr. Sosa. I think it's possible, too. If we work together, 
yes.
    Mr. Canseco. My honest opinion, not completely, but because 
we have brought this to light, it's going to come very close.
    Chairman Tom Davis. Thank you very much.
    Mr. McHenry, any questions?
    Mr. McHenry. Thank you all for coming here today. I know it 
is not an easy situation for any of you. I appreciate the fact 
that as individuals you don't like the idea of having to come 
before Congress and swear an oath. I certainly understand that, 
and I respect your right to privacy as individuals.
    Our hearings today are not about you as individuals. A lot 
has been made of a book written, a lot has been made of 
statements that have been made, but it's not about you as 
individuals, it is the overall societal problem. And you all 
mentioned, with these families that testified earlier, the 
impact it had on you as individuals. That's a message that your 
sport, you and your colleagues are sending in many ways.
    And so I have a simple question, and you can answer yes or 
no or choose to not answer. That is certainly your right. Is 
using steroids the use of steroids, is that cheating?
    Mr. Schilling. Yes.
    Mr. Palmeiro. I believe it is.
    Mr. McGwire. Not for me to determine.
    Mr. McHenry. For you, is it cheating, yes or no?
    Mr. McGwire. It's not for me to determine.
    Mr. Sosa. I think so.
    Mr. Canseco. I think so. And in many ways it also cheats 
the individual who uses it because eventually if found out or 
come to the forefront, they have to go through this. 
Absolutely.
    Mr. McHenry. My followup question is to Mr. McGwire. You 
said you would like to be a spokesman on this issue. What is 
your message?
    Mr. McGwire. My message is that steroids is bad. Don't do 
them. It's a bad message. And I'm here because of that. And I 
want to tell everybody that I will do everything I can, if you 
allow me, to turn this into a positive. There is so much 
negativity said out here. We need to start talking about 
positive things here.
    Mr. McHenry. How do you know they're bad?
    Mr. McGwire. Pardon me?
    Mr. McHenry. Your message, coming from professional 
baseball, would you say that perhaps you have known people that 
have taken steroids, and you have seen ill effects on that, or 
would your message be that you have seen the direct effects of 
steroids?
    Chairman Tom Davis. Let me just note here that House rule 
11 protects witnesses and the public from the disclosure of 
defamatory, degrading or incriminating testimony in open 
session. House rules at this point are both clear and strict. I 
think if the testimony tends to defame, the committee can't 
proceed in open session, and we want to proceed in open session 
today. So with that in mind, you can choose to answer that, Mr. 
McGwire.
    Mr. McHenry. Respectfully, my question is just about the 
message he would carry to the people.
    Chairman Tom Davis. I just wanted to give----
    Mr. McGwire. I have accepted, by my attorney's advice, not 
to comment on this issue.
    Mr. McHenry. If you go down the line again, and I will ask 
another question, and everyone can answer simply and directly I 
would hope. If it is proven that a player has set records while 
using steroids, should those records stand?
    Mr. Canseco. It's impossible to measure, I would guess, 
what one steroid does to one player and another player. There 
is no guideline to try to say, well, if he hits 60 or 70 home 
runs because he was on steroids, we are going to take away 20 
or 25 of his home runs. It's impossible.
    Mr. Sosa. It's not up to me.
    Mr. McGwire. Not up to me to determine that.
    Mr. Palmeiro. I believe that's up to the Commissioner.
    Mr. Schilling. Absolutely not.
    Mr. McHenry. Thank you for your frank answers. And as 
members of the Players' Union, which you all are or were, your 
representatives sat down and negotiated on your behalf about 
the steroid policy. And part of what we will hear from the 
Commissioner, I'm sure, and your union representative, is the 
fact, well, from your union representative, that he was 
empowered to negotiate certain directions.
    Did you support the old policy, the old policy on steroids? 
Did you empower your union representative--what was your stance 
on the issue of steroids within your union votes as members of 
the union? Did you support a more stringent policy, or did you 
ask your union representative to limit the policy when it comes 
to steroids?
    Mr. Schilling. No, I didn't support the old policy. And as 
a team, the Diamondbacks made it very clear we didn't support 
the old policy to the point where we spoke about not taking the 
tests ourselves to force a failed result to increase the 
toughness of the policy. And I think that's exactly what 
happened.
    Mr. Palmeiro. Since there was a new policy in place, and 
first time I was tested, I was in favor of it. I was aware we 
needed to take bigger steps and more steps, and I think we need 
to give a chance to this new policy. And if we do take more 
steps, I'm in favor of that also.
    Mr. McGwire. I've been retired.
    Mr. McHenry. When you were a member of the Players' Union?
    Mr. McGwire. There was no policy.
    Chairman Tom Davis. Gentleman's time has expired, and we 
will allow the previous answer to be accepted.
    Mr. Sosa. I don't have the specific question to explain to 
you.
    Mr. Canseco. The policy was never an issue when I was 
there. The only players that may have been privy to it briefly 
were members of the Players Association. Each organization had 
a representative that would go and represent that team. So as 
beyond that, no policy was ever mentioned or really talked 
about.
    Chairman Tom Davis. The gentleman from New York Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    You know, looking back over the rules and the 
recommendations that have been made, I think that we are 
overlooking the fact that we can only hold the players 
accountable, but all wrongdoers, including management, 
trainers, front office and all, should be involved in this if 
we really want to clean up the situation we now find ourselves 
in.
    Let me just go down the line starting with you, Mr. 
Schilling. Do you consider yourself a role model?
    Mr. Schilling. Yes.
    Mr. Palmeiro. Definitely.
    Mr. McGwire. Yes.
    Mr. Sosa. Yes.
    Mr. Canseco. Yes.
    Mr. Towns. With that in mind, do you think that maybe 
posting something in a locker room might remind a person that 
they should not consider using? Being you're saying that the 
kind of damage that takes place with the person using steroids, 
for instance, in locker rooms, sometimes they put what smoking 
will do to you and things like that. Do you think that will 
serve as a deterrent? I'm trying to figure out what we might be 
able to do if it's a widespread kind of thing. Do you think 
that is a scare tactic?
    Mr. Schilling. No, I don't.
    Mr. Palmeiro. I'm not sure.
    Mr. McGwire. I can't answer that.
    Mr. Sosa. I can't answer that.
    Mr. Canseco. Yes. I think bringing this issue to light is 
going to be a major deterrent. Players will be talking about 
this on a daily basis and will be aware there will be a lot of 
eyes on them, especially Congress.
    Mr. Towns. My concern is the young people, high school 
ballplayers and people playing that I was wondering if this 
kind of technique, the scared straight sort of thing, to kind 
of show them that if you use, you could end up looking like 
this at the end of the day. That is the reason why I was 
thinking about that for high school players more than 
professionals, because my concern is that at that level, they 
might begin to really use it. That is a real concern. So what 
can we do with high schoolers? Any thoughts on that? Any 
suggestions? Because that is the area we need to focus on a 
great deal.
    Mr. Palmeiro. I believe we can go around the high schools 
in the country, use our names, use who we are to send the right 
message, to send the message that steroids are wrong and 
costing lives every day.
    Mr. Schilling. I don't think a PSA is going to do it. I 
think there needs to be some form of drug testing, and there 
needs to be ramifications to failing a drug test, be it high 
school or college. Until you have that and pay a price, I don't 
think there is going to be a lot of thought from a 16-year old 
about the consequences of using.
    Mr. Towns. If a trainer has information about the fact that 
somebody is using, what should that trainer do? And I'm 
thinking in terms of in colleges, that if you see someone 
cheating and you don't tell, they put you out, too. So I'm 
thinking about the fact that if you have a trainer that is very 
much aware of the fact that illegal actions are taking place, 
and nobody is doing a thing about it, does anything happen to 
that person? You have a trainer who might be aware of the fact 
that somebody is using steroids. He knows it, but he just walks 
around every day and doesn't tell anybody about the fact that 
this is going on.
    Mr. Schilling. Might be aware or definitely know? Might be 
aware that someone is using?
    Mr. Towns. Yes. Has information that somebody is using and 
not do anything about it.
    Mr. Schilling. Unless you have a verifiable fact, I think 
you are treading on dangerous ground. We are here because of 
some people that had a loose tongue and said things that I 
don't believe are entirely true. And it could cause a lot more 
problems than it solves.
    Mr. Palmeiro. If the trainer knows for sure, it is his 
responsibility to make the player aware and educate the player.
    Mr. McGwire. I agree with Raffy, I think that would be a 
great step.
    Mr. Palmeiro. Exactly.
    Mr. Towns. Mr. Sosa.
    Mr. Sosa. I agree. I agree with Raffy. I think it is 
probably something we all should do.
    Mr. Towns. Mr. Canseco.
    Mr. Canseco. I definitely believe and know that they are 
under the same circumstances, some Major League players are 
under--meaning if they come to the forefront and speak about 
it, Major League Baseball will do something to them in the 
sense of maybe blackballing them from the game or causing them 
a lot of problems.
    Mr. Towns. In other words, there would be some penalties, 
if the trainer does not report it, that he should be penalized?
    Mr. Canseco. It's a very delicate position he is in. The 
example I can give you, let's say one player knows another 
player is using steroids, or this player is still active, or 
one player wants to come to the forefront but he is still 
active in Major League Baseball. Major League Baseball is very 
powerful, and if you act against them or speak out against 
them, it can cost you your livelihood, definitely.
    Chairman Tom Davis. The gentleman's time has expired.
    Mr. Towns. Mr. Chairman, thank you.
    Chairman Tom Davis. Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman.
    Candice Miller asked one of the questions that I wanted to 
ask about whether, if the policy were in effect years ago, 
would it have made a difference. But I want to ask another 
question and that is, why do you think--I will ask each player 
this--why has it taken so long for the League to act on this, 
since it seems to have been so wide--that it was so well-known 
that abuse was going on; why has it taken the League so long to 
act?
    Mr. Canseco. Basically something like a book written about 
the problems in Major League Baseball had to be done, 
absolutely. I think it definitely triggered a lot of events. I 
think it finally made Major League Baseball aware of that, you 
know, or in the sense of stuff covering up, what was really 
going on.
    Mr. Sosa. I don't really know, I am not sure.
    Mr. McGwire. Can you ask the question one more time?
    Ms. Foxx. Why has it taken so long for the League to act, 
for professional baseball to act on this issue? There's a 
policy in effect now, I think it's a very weak policy, but why 
has it taken so long to institute any policy?
    Mr. McGwire. I don't know. But there is a great reason why 
we are here today: to try to fix it.
    Mr. Palmeiro. Ma'am, I am not sure why it has taken so 
long. You may have to ask the Commissioner and the Players 
Association.
    Mr. Shilling. I don't know--there was a policy in place 
before the book came out. The only thing I think that has 
happened in the last 6 months is that the policy has changed 
and gotten in some ways stronger.
    Ms. Foxx. Thank you.
    Chairman Tom Davis. Thank you. The policy is weaker than 
the Minor League testing at this point, and the Minor League 
had it way before, and I think one of the concerns is among 
professional sports, baseball has been a little bit late coming 
to the table and maybe a little bit short of where some of the 
standards are. That's one of the concerns. Obviously, we will 
see how this is implemented.
    There's active testing going on now, but there is a 
concern, as you can hear from us and some of the other experts, 
that maybe it doesn't go far enough and hopefully this hearing 
will shine some light on it. Between the players and the 
owners, we can come up and close some of these loopholes and 
make it work.
    The last thing you want is us making the policy, I 
guarantee it. We don't do things very well anyway when we get 
into it. We act as the last resort. But there's still a lot of 
concern, not that--it is late, but it is not as complete as we 
had hoped it would be. But your speaking here is very helpful.
    Next. I think Mr. Kanjorski was next.
    Mr. Kanjorski. Thank you, Mr. Chairman.
    Mr. Canseco, in your book--I didn't read your book I must 
confess, but in your book I assume that you confessed to taking 
steroids; is that correct?
    Mr. Canseco. Yes. In the past I have, yes.
    Mr. Kanjorski. Well, can you tell us--what we are trying to 
get to here--one of the reasons I objected to the--I objected 
to the use of subpoenas for the hearing was the highlight of 
just baseball, just superstars in baseball. And I have been 
listening to the examination now, and I am getting the 
indication that we want to clean up baseball at the highest 
level. And not looking at the broad application; I want to get 
to motive.
    Why did you use steroids?
    Mr. Canseco. Well, there are many reasons. There's a 
chapter in my book, where my mom passed away, and I was called 
in from California. I was playing ``A'' ball that year, and 
when I flew home she was in the hospital and she was brain-dead 
from an aneurysm. She never had seen me play Minor League in 
general, and I promised her I was going to be the best athlete 
in the world, no matter what it took. I definitely got caught 
up in the whole----
    Mr. Kanjorski. Would it be fair to say that you did it 
because the motivation was to build your body to be more 
competitive, and ultimately make more money?
    Mr. Canseco. I don't even think the money was an issue 
there. I think just becoming, you know, the best athlete I 
could possibly become.
    Mr. Kanjorski. Right. Have you given a lot of thought that 
if we had the best damn testing system that baseball could 
possibly imagine, what type of implication or ramification 
would that have for all of those hundreds of thousands of high 
school athletes that we are trying to establish some help for? 
Shouldn't we be looking at what we can do for them?
    And now my next question is, since you obviously favor 
testing for super-athletes, would you favor a universal testing 
of the highest standard--the Olympic standard--for all 
athletics, regardless of where they are and regardless of what 
level of schooling that they are in and regardless of what sex 
is involved, whether it's male, female or otherwise?
    Mr. Canseco. I truly believe that at the Major League 
level, if everyone knew there was no steroids at all, and a 
competitive balance was even, it will trickle down to the Minor 
League level, the high school level and beyond.
    Mr. Kanjorski. But is it your idea that we can't do 
anything about steroids, then?
    Mr. Canseco. No, we definitely can.
    Mr. Kanjorski. Wouldn't it require that we have a universal 
test of all athletes? You know, is some kid, 16-year-old, is 
not looking only at you, he is looking at football players, 
tennis players, he is looking at wrestlers, and probably he is 
not doing it for some narcissistic reason. But probably for 
accomplishment and success.
    Mr. Canseco. I agree. But if you just regulate it at, let's 
say, at the Minor League level and then the college level and 
high school level, and then don't regulate it at the Major 
League level----
    Mr. Kanjorski. I am not suggesting not doing it at the 
Major League level, I am saying a universal test for everybody 
who is an athlete.
    Mr. Canseco. For Major League on down.
    Mr. Kanjorski. Major league on down.
    Mr. Canseco. Absolutely, yes.
    Mr. Kanjorski. You would be in favor.
    Mr. Canseco. Yes.
    Mr. Kanjorski. Do you have any idea how pervasive steroids 
are used, particularly in your younger population, college and 
high school? Do you have any idea, being at the center of the 
controversy?
    Mr. Canseco. If it is proportion to at the Major League 
level at the peak of steroid use, I would say it's very high.
    Mr. Kanjorski. Do you have any percentages or fractions?
    Mr. Canseco. No, I don't, not beyond the Major League 
level. No, I don't.
    Mr. Kanjorski. Carrying that on, I am going to give you an 
analogy that has bothered me--and I don't expect anybody has 
the answer--but suppose somebody came out with smart pills and 
that smart pill could make you 10 times smarter than you are 
right now, and they may put a warning on there that it could 
cost you 5 or 10 years of your life expectancy. How many people 
would be tempted to try to win a Nobel Prize and take that 
smart pill?
    Mr. Canseco. You know, that's a very tough question, 
because we don't know whether we are going to be around 
tomorrow or not. We don't know if our futures are guaranteed or 
not. But the smart pill guarantees something, meaning you are 
going to win a Nobel Prize. It's a tough question to ask. I 
don't really even----
    Mr. Kanjorski. It is trying to get to the point. Look, 
there's a motivation of why athletes who have a high 
appreciation of their body--their making a judgment of risking 
something. So what I am asking, it is somewhat of an 
intelligent question that they raise. I mean, I assume all of 
you fellows, particularly you, I won't address--you had an idea 
it could be dangerous to your body, didn't you?
    Chairman Tom Davis. The gentleman's time has expired. If 
you would like to answer, you may.
    Mr. Canseco. I think as athletes have become more educated, 
yes, they are starting to realize that--more and more 
information--that the dangers are greater and greater.
    Chairman Tom Davis. Thank you.
    Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman. And this has been 
one of the most fascinating hearings I have ever participated 
in, and I have been in Congress now 10 years.
    I am like a lot of the folks up here on this side of the 
panel. I grew up listening to baseball games on WHO radio, 
listening to Minnesota Twins, and my idols were people like 
Harmon Killebrew and Earl Batty and Richie Rollins, and I 
remember those games like it was yesterday.
    When I started thinking about this issue, and as this issue 
has sort of, you know, bubbled up over the last several years, 
my first reaction is how unfair this is to people like Harmon 
Killebrew. You wonder how many home runs he might have hit if 
he had been able to use chemicals.
    Or, particularly, Hank Aaron; you know, in some respects it 
sort of cheats the game, it cheats history, and it cheats 
things like that.
    I think about baseball, especially because growing up 
watching Roger Maris hit 61 home runs and remembering that for 
years--even today there's an asterisk after his name--and 
knowing that, for example, in Little League now, and even in 
softball leagues, we use aluminum bats, but we don't do that in 
some Major League Baseball, not even in the Minor League, but 
the reason is we take those records so seriously. I mean, they 
are all almost a part of history. We all know where we were 
when Roger Maris hit that 61st home run, and we remember some 
of those things.
    So in many respects, when I thought about this hearing, 
first I thought about some of the greats of the game.
    One of my favorite expressions is, with all kinds of issues 
we deal with here in Washington, is that it shouldn't take an 
act of Congress.
    But I would like all of you to perhaps respond to that 
question, can baseball heal itself, or is it going to take an 
act of Congress to force them to come to grips with this 
problem and hopefully begin to spread the message down to the 
Minor Leagues and to the colleges and high schools and 
ultimately to the Little Leagues, that this is a bad idea and 
it's the wrong way to go and it cheats you, it cheats the game 
and it cheats the history of baseball. Is it going to take an 
act of Congress?
    Mr. Shilling.
    Mr. Shilling. I don't think so. I, as a member of the 
Players Union and as a former player representative, I 
believe--and I have always believed--that the 90-plus 
percentile of players that test clean want to make sure that 
the ones that don't are found out. And I think that, given what 
I have heard from the Commissioner and from the people and the 
player representatives, that's going to happen now. And I think 
the fear of public embarrassment and humiliation upon being 
caught is going to be greater than any player ever imagined.
    Mr. Palmeiro. I don't believe it will take an act of 
Congress. I believe that our game will get straightened out and 
I believe it will get cleaned up. We just need to give this 
policy a chance. Like I said before, if we need to enhance it, 
let's do it.
    Mr. McGwire. I don't know, being that I am retired, but 
whatever it's going to take to put more of a positive light on 
this situation, to detract the young people of today away from 
this stuff, I am all for it.
    Mr. Sosa. I believe it can heal itself. If Major League 
Baseball will take that seriously, we can do so.
    Mr. Canseco. I have to be honest again. I don't believe it 
can, unless Congress steps in, because of the frugal testing 
programs that Major League Baseball has. It will just be a 
joke. It will be all this all over again, no buts about it.
    Talk about the way baseball has evolved, baseball is 
evolving, the ballparks, the bats. Let's say there was no 
steroids invented today at all; the nutrition, the information 
on food supplements out there are incredible. Nonetheless, 
let's say 10, 15 years from now, we have a shortage of wood in 
the world, so we have to go to aluminum bats, so we are 
constantly evolving, striving to move forward, faster and 
stronger. We just have to find a way to do it legally, that's 
it.
    Mr. Gutknecht. I yield back.
    Chairman Tom Davis. Thank you very much.
    Mr. Sanders.
    Mr. Sanders. Mr. Chairman, I want to thank you and the 
ranking member for calling this important hearing.
    Mr. Chairman, this morning I was on a TV show, as I am sure 
many members of this committee were, and I was asked by the 
interviewer whether I thought this committee was grandstanding, 
whether in fact we were using the fame of these outstanding 
athletes to get our names in the paper and so forth. And I said 
I didn't think so, because I thought this was a hugely 
important issue impacting millions of young people. And that's 
what I believe.
    But I do want to say that I am overwhelmed by the kind of 
media attention that this has gotten. I have counted dozens of 
TV cameras, and I think some of the American people wonder is 
this all we do, because this is what they see on television. So 
I want to say to our media friends, that when some of us talk 
about the collapse of our health care system and millions of 
people not having any health insurance, come and join us, and 
we talk about the United States having the highest rate of 
childhood poverty in the industrialized world at a time when 
the rich are getting richer, come on down.
    Now, maybe we may have to bring great baseball players to 
help us talk about childhood poverty, I don't know; I would 
hope not. I would hope we could have some of the great experts 
and you would come. But to the American people, some of us are 
dealing with other issues as well.
    In terms of this issue, I have a couple of questions that I 
would like to ask our guests. I have heard a discrepancy of 
opinion about the seriousness of the problem. Mr. Canseco says 
it's rampant, everybody knows it, virtually lots of people are 
doing it. Mr. Shilling says he is not so sure. He doesn't 
really think it is a terribly serious problem. I think Mr. 
Palmeiro has agreed with Mr. Shilling.
    So let me start off--and I know this is a hard one--are we 
talking about 1 percent of players, in your judgment, doing it? 
Are we talking about 5 percent, 10 percent? Is Mr. Canseco the 
only player in the world to have done this?
    Mr. Shilling.
    Mr. Shilling. No, I don't think he is the only player. I 
think he is a liar. I think that what he did was grossly 
overstate a situation to make himself not look as bad.
    Mr. Sanders. What would be your guess in terms of----
    Mr. Shilling. You know what? I took an oath. I swore to 
tell the truth today. Nineteen years in the big league, I have 
never seen a syringe. Other than one prescribed by a doctor to 
a player, I have never seen steroids.
    Mr. Sanders. But in locker room gossip? You may not have 
seen it. Right. This guy is doing something. That guy is doing 
something. I don't need names. What is your guess? You have 
heard people say somebody is doing it?
    Mr. Shilling. Absolutely. We have been through discussions 
about other guys on other teams. I would say the percentage is 
on or around where it's been tested at. I don't think it's much 
higher, I think it's--again, I am in a locker room I have 
played with six different teams. I have played with over 
thousands of players. I would guess that maybe 5 to 10 players 
in the last 15 years were using.
    Mr. Sanders. Five to 15.
    Mr. Shilling. Five to 10 maybe. I wouldn't know--or more.
    Mr. Sanders. Mr. Palmeiro, Mr. Shilling says he would guess 
he believes it would be 5 to 10 players in the many years he 
has been in the majors. What do you guess?
    Mr. Palmeiro. I wouldn't know, I couldn't take a guess. I 
just think as long as--even 1 percent is high, way too high. We 
need to make sure it is zero percent.
    Mr. Sanders. Mr. McGwire, would you like to speculate?
    Mr. McGwire. I wouldn't know. It is a big reason today why 
we are here today, to talk about it.
    Mr. Sanders. Mr. Sosa, what is your guess?
    Mr. Sosa. I wouldn't know.
    Mr. Sanders. Mr. Canseco.
    Mr. Canseco. I would say Mr. Shilling is correct on today's 
statistics about how many people are using steroids, because we 
have made steroids aware. We have brought it out. This book 
came out, scared a lot of individuals. If they were using 
steroids when this book came out, they cold stopped, period.
    Mr. Sanders. You are suggesting that it went from wide 
prevalence down to what Mr. Shilling is saying, almost nothing; 
is that what you are saying?
    Mr. Canseco. When I mentioned 80 percent at the peak of 
steroid use, that may have been somewhere from the year 1994 to 
the year 2000. That's when I played. I have been retired I 
guess for 3 or 4 years now. It's been a long time. But because 
of certain instances that have happened, definitely it has 
curtailed greatly.
    Mr. Sanders. Let me ask the last question. I appreciate all 
of your efforts, and you are willing to stand up for the kids 
of America; that you know you are role models, you know that 
steroids are bad, and you want to do everything you can to 
prevent kids from emulating bad habits.
    My question is this: If the Major League does not come 
forth with an aggressive policy--I think what you are hearing 
today is we are not overly impressed by what the Major Leagues 
have done--will you come back in a year from now and say, 
Members of Congress, we support you in passing Federal 
legislation to tell the Major Leagues that they have to be 
aggressive and pass strong and stringent requirements? In other 
words, will you come back and tell us to do that?
    Mr. Shilling.
    Mr. Shilling. I am not sure I can answer that. We are in 
support of a stronger system that eradicates the use of 
steroids by players.
    Mr. Sanders. The majors don't do anything if the league 
doesn't do anything. Are you going to come back?
    Mr. Shilling. That's a hypothetical. That, I don't believe 
is going to happen.
    Mr. Sanders. Now you sound like a politician. I want you. 
Mr. Palmeiro.
    Mr. Palmeiro. I am agreeing with Curt. I don't think it is 
going to happen.
    Mr. Sanders. You think the league is going to do the right 
thing?
    Mr. Palmeiro. I believe so. But if it doesn't, I would be 
more than happy to come back and address the problem again.
    Mr. Sanders. Mr. McGwire, will you come back and join us?
    Mr. McGwire. Well, I have no idea, being a retired player, 
I have no idea what the policy is. But if you would like me 
back, sure.
    Mr. Sanders. Mr. Sosa.
    Mr. Sosa. Sure. I believe Major League Baseball will do 
something. If you want me to come back here, I am happy to do 
it.
    Mr. Sanders. Thank you. Mr. Canseco.
    Mr. Canseco. I think it would be the Major League, to let 
the league police itself. No if and buts about it. We will be 
back here quicker than quick.
    Mr. Sanders. Thank you very much.
    Chairman Tom Davis. Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Chairman Tom Davis. I'm sorry. I promised Mr. Issa first, 
then we will go to Mr. Dent.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Shilling, I must say I came here intending to throw 
softballs to all of you whenever possible. But listening, I 
have been a little disappointed. I am sort of hearing a 
consistent problem from you as a Players rep that there isn't a 
problem and we don't need to intervene.
    So would it surprise you if I told you that I talked to 
multiple professional team owners, including baseball, and had 
an absolute positive ``please legislate a zero tolerance''?
    Mr. Shilling. Would it surprise me?
    Mr. Issa. Would it surprise you?
    Mr. Shilling. No.
    Mr. Issa. So that's a position that you feel is comfortable 
coming from the owners?
    Mr. Shilling. ``Position'' being----
    Mr. Issa. Zero tolerance, go ahead and mandate it. It 
doesn't surprise you that the owners feel that way?
    Mr. Shilling. Not that they say it, no.
    Mr. Issa. Mr. Shilling, I take people at their word.
    Chairman Tom Davis. He is a pretty good politician isn't 
he?
    Mr. Issa. Yes, he is. By the way, as to my colleague on the 
other side talking about that pill to make us 10 times smarter, 
I think it could be mandated for Congress to save the Nation. 
So I am not sure that wouldn't be one we would give ourselves a 
special exemption, as we do so many other things.
    The earlier panel, I asked every member--and they were 
medical and grieving parents--basically a question. And I will 
set it up: If you use the aluminum bat, if you were to sneak 
one into a game and use it, that would be cheating, wouldn't 
it? And if you were to--if you were a pitcher and you were to 
bring in a dull ball so that nobody could really hit a home run 
off of you while you were pitching, that would be cheating, 
wouldn't it? Anyone disagree here?
    So using an illegal drug to attempt to enhance the 
performance of a player would be cheating, wouldn't it? Anyone 
here disagree in any way, shape, or form? And wouldn't you 
agree that Congress has a vested interest in ensuring that 
baseball does not have cheating going on?
    Mr. Chairman, I have all my questions answered. I yield 
back.
    Chairman Tom Davis. Thank you. Mr. Kucinich.
    Mr. Kucinich. Thank you, Mr. Chairman, members of the 
committee.
    Some have used steroids, and with respect to baseball it 
defies credibility that only the players know. I mean, we are 
holding players accountable here. But what about those who 
profited from a system of enhanced performance?
    Others know, including the owners, which may explain why 
the owners may be congenial to some changes. So good for them. 
What has not been investigated today or documented, is the win-
at-all-cost mentality which has infected not only sports but 
business, the media, and, I might add, politics. Our steroids 
are called PACs and special interest contributions. This does 
not excuse anyone.
    But if we leave here today without looking at the larger 
questions of pressures to succeed, pressures to win, pressures 
to make money, pressures to be bigger, pressures to be better, 
win at all costs, at the cost of health, at the cost of 
reputation, at the cost of life--if we don't look at these life 
questions of win at all costs, if we don't think about this, if 
we don't go deeper with our thinking here today, we will be 
back here years from now, regardless of what these players so 
graciously commit to do. We only need to go back to Mr. 
Waxman's initial testimony, his statement about how we have 
been here before.
    Now, I would like to have the remaining time belong to the 
players who have said that they want to communicate with the 
young people of America. Take the opportunity now, because I 
think this is an important moment to do it. What can you say 
right now, Mr. Shilling, to America's youth with respect to the 
use of steroids? Just in a half a minute to a minute.
    Mr. Shilling. I think that----
    Mr. Kucinich. If you speak directly to the young people.
    Mr. Shilling. I think to the youth of America, we have made 
it very clear that steroids is cheating, and winning without 
honor is not winning.
    Mr. Kucinich. Mr. Palmeiro.
    Mr. Palmeiro. I would have to say that I am the perfect 
example of someone that came from another country and took 
advantage of the situation that was given to me. I have worked 
very hard and I have dedicated my life to my sport.
    Mr. Kucinich. Mr. McGwire.
    Mr. McGwire. I would say that steroids are wrong, do not 
take them, it gives you nothing but false hope. That's what I 
would say.
    Mr. Kucinich. Mr. Sosa, poderia usted dar un consejo a los 
jovenes en nuestro pais con respecto a uso de estroidas?
    Mr. Sosa. Yes, sir. I would say pretty much, you know, hard 
work, believe in yourself, you know, do good, and work hard, 
you know. Set an example, you know, coming from the island, 
work hard, make it to the Major Leagues. That's the only thing 
I can say. Everybody up there, you know, believe in yourself.
    Mr. Kucinich. Thank you. Mr. Canseco.
    Mr. Canseco. I can speak for myself and say I made a 
mistake using steroids, no if, ands, or buts about it. I don't 
want any youngster using steroids.
    Mr. Kucinich. Speak to the young people.
    Mr. Canseco. Yes. I probably haven't slept in 3 or 4 days. 
My attorney can verify this because of this issue. This is the 
first hearing about children that took their lives. It is not 
worth it.
    I am going to say this again. If Congress does nothing 
about this, Major League Baseball will not regulate themselves. 
The Players Association will not regulate these players, that I 
guarantee. I have been a Major League Baseball player for 17 
years. Sure, the Players Association and the owners disagree on 
most things, but when it comes to making money they are on the 
same page.
    Mr. Kucinich. Well, and that's what I alluded to earlier. I 
would suggest to the members of the committee that we can take 
these players at their word about their commitment, wherever 
they have been in the past. As a matter of fact, some who know 
the territory well may be the best spokespersons about a new 
direction. And if you have not been in that territory, as some 
of our witnesses have said, you can also make a strong 
statement. Young people look up to you.
    So thank you for being here today, and I agree that we need 
to look forward and we need to move forward.
    Thank you.
    Chairman Tom Davis. Thank you. Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    You know, we are here for a variety of reasons today 
because, one, this committee has Federal oversight on drug 
policy. We are all concerned about our youth. I believe we can 
all say that.
    The other constituency I think that has to be considered 
today are the taxpayers of this country. And in my State where 
we subsidize Major League Baseball--taxpayers do--over $150 
million went to support stadiums in the cities of Philadelphia 
and Pittsburgh. And we subsidize that industry, which is 
treated like a monopoly, and the antitrust legislation your 
industry enjoys.
    That said, here is my main question. In 1919, Major League 
Baseball went through the Black Sox scandal and the gambling 
issues that really, I guess, created the Commissioners Office 
in order to deal with that problem. I believe in 2005, that's 
about where baseball is now--1919--2005 is another similar year 
for baseball.
    And I guess my question is really this: Do you believe that 
steroid use in baseball is as serious an issue for Major League 
Baseball as is the antigambling policy that Major League 
Baseball currently has imposed?
    Mr. Shilling, do you want to start?
    Mr. Shilling. I think it's cheating. I think any form of 
cheating--I don't think they are any more serious than the 
next.
    Mr. Palmeiro. I agree. As long as there's positive tests, 
it's wrong and we need to clean it up.
    Mr. McGwire. I don't know, but if it's a positive move, I 
am all for it.
    Mr. Dent. I guess my----
    Mr. Sosa. I would do the same thing.
    Mr. Canseco. I didn't quite hear the question.
    Mr. Dent. The question is, is this issue, steroid abuse by 
ballplayers, as serious an issue as gambling or potential 
gambling by ballplayers?
    Mr. Canseco. Steroid use is much, much more serious because 
it takes lives. So you have to be very careful with it.
    Mr. Dent. I get the sense you think it is as serious, or 
more serious in your case, because--I guess several years ago 
Pete Rose's ban for life--banned for life from the game of 
baseball because of a violation of gambling policy.
    I guess this is the second question: Why do you think Major 
League Baseball was so aggressive, then, in going after Mr. 
Rose on that issue, and seems to have been so much less 
aggressive on this steroid issue? Do you think it's because of 
money, or what drives that?
    Start with you, Mr. Canseco?
    Mr. Canseco. I think it's very simple when you really look 
at it. It didn't affect the game in a sense of this issue. I 
say steroids affects the game. It's a completely different 
subject matter.
    Mr. Dent. Mr. Sosa.
    Mr. Sosa. I have no idea.
    Mr. Palmeiro. I can't answer that.
    Mr. McGwire. I can't answer that.
    Mr. Shilling. Could you repeat the question?
    Mr. Dent. Why hasn't baseball been more aggressive about 
gambling than this issue of steroid abuse, which has been 
described by some as rampant?
    Mr. Shilling. I don't know. It's illegal to gamble, it's 
illegal to bet on baseball. It's always been that way. That's 
about all that I can say about that.
    Mr. Dent. No answer. OK.
    I am curious what your perspective would be. It was always 
clear to me that baseball players knew not to bet on games, 
particularly once that they were playing and there were serious 
sanctions for that kind of behavior. I just get the sense, from 
hearing what I have heard, that Major League Baseball just 
doesn't take this issue nearly as seriously as it does the 
gambling issue.
    I commend Major League Baseball for what they did when they 
found an instance of gambling. I mean, they dealt with it 
decisively, as they should have. I am just trying to get a 
sense from players or former players why you think they are 
less aggressive on this. If anyone has anything to say, I would 
be glad to hear it.
    Chairman Tom Davis. You might ask the next panel.
    Mr. Dent. I will ask them, too. I wanted to get a player's 
perspective on that one, but I understand your reluctance to 
answer that question.
    Thank you very much.
    Chairman Tom Davis. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Representatives of the league have emphasized that the 
current policy--that is, the current testing policy--is a 
negotiated labor agreement, you know, that was negotiated; it's 
a collective bargaining agreement. I have a great deal of 
respect for that.
    But I guess the question becomes for me that since the 
impact, the outcome, the results, of what we are dealing with 
is far more reaching than just the players themselves terms of 
their work situation, and the owners themselves in terms of the 
work environment, how do we get the two--Mr. Canseco, you have 
emphasized consistently that you just don't believe that there 
is enough will within the industry itself, that there is enough 
will among the owners and players, to put together a serious 
policy that will impact the situation to a level of 
satisfaction.
    Is there any possibility that the industry can, in fact, 
really police itself, that would make it unnecessary for 
Federal legislation to further regulate baseball and drug use, 
if you will, among players of the game? And so maybe we could 
just revisit that. Is there, Mr. Shilling, any real possibility 
of that happening?
    Mr. Shilling. Absolutely. I think it's already happened. I 
think that what you have seen in the last couple of months is a 
direct result of Senator McCain's anger over the original 
policy. I understand that after yesterday he is a little bit 
more perturbed than he might have been 2 days ago. But my 
understanding is, after having spoken to him, that we are 
taking steps. And I believe if you as a body are voicing your 
displeasure, which you have done, baseball will listen.
    I know that as a player, we have listened. We understand 
that there needs to be stringent tests. There needs to be more 
stringent things done. There are loopholes. I don't question 
for a second we will close them to make sure, because as a 
player we want the playing field to be level.
    Mr. Davis of Illinois. Mr. Canseco, could you--why are you 
so adamant that nothing will really happen unless Congress 
steps in?
    Mr. Canseco. I try to think about this in a positive way. 
But if you really look at it, and you look at the drug testing 
policies today, nothing has really been done. I think we are 
looking at a drug testing policy that is not even down on paper 
yet. So I mean, I am hoping, just out of this, something 
happens. At least the public is aware, at least, you know, 
children, children's parents are aware what is really going on, 
and maybe they can help also.
    Mr. Davis of Illinois. So then all of you are actually 
disagreeing with people who have suggested that there is no 
role in this activity for Congress to play, and that this 
committee and the Congress is overstepping its bounds?
    Mr. Shilling. I don't think any of us said that.
    Mr. Davis of Illinois. No, I don't say any of you said it. 
But there are people who are suggesting it, and I am trying to 
get a verification from you that you are in agreement with my 
side of it, which is that we are doing exactly what we ought to 
be doing.
    Mr. Shilling. The media and Democrats maybe, but, no----
    Chairman Tom Davis. Where are you guys? After Ms. Watson's 
things?
    Mr. Davis of Illinois. I believe so.
    Chairman Tom Davis. Could we finish?
    Mr. Palmeiro. I believe that we are policing ourselves 
right now, and I believe that we will clean the game because I 
believe that players, like Curt said, want a level playing 
field.
    Mr. Davis of Illinois. Mr. McGwire.
    Mr. McGwire. Whatever it takes.
    Mr. Davis of Illinois. Mr. Sosa.
    Mr. Sosa. Yes, I believe they will take it seriously. Yes.
    Chairman Tom Davis. Thank you.
    Mr. Waxman.
    Mr. Waxman. The gentleman has a little time left. Would you 
yield to me?
    Mr. Davis of Illinois. Yes, I yield to Mr. Waxman.
    Mr. Waxman. Why should we believe that the Baseball 
Commission and the Baseball Union will want to do something 
when we have a 30-year record of them not responding to this 
problem? Why should we believe it's all going to be done now 
the way it should be done?
    Mr. Shilling, could you answer that question? In 30 years 
they have done nothing, and even the proposal that you are 
vouching for is not in effect yet. It's only a draft, it is 
filled with loopholes. And what you seem to be telling us is 
what baseball seems to be telling us: Trust us.
    Don't you think there's a reason not to trust them?
    Mr. Shilling. What do you mean by 30 years of history?
    Mr. Waxman. Well, 30 years ago, there was a committee 
hearing in Congress that looked at this whole problem and Bowie 
Kuhn was the Commissioner, and he assured the Congressmen, and 
that they were going to do testing and they were going to stop 
steroids. That was 30 years ago.
    There have been so many other incidents of reports in the 
last 10 or 15 years of widespread steroid use. Nothing has 
happened from the baseball industry. And even now when they 
have put a testing program in place, it seems to be full of 
holes.
    Don't you think at some point even a Republican would say, 
as a Democrat would say, how long do we go along with this 
trust that something is going to be done when we don't see a 
very good record?
    Mr. Shilling. I can't answer for the prior 30 years. I can 
answer for my time in the game as a player. I think there's a 
huge contingent. Like I said, there's 98.3 percent of us that 
have tested clean, that are all for as stringent testing as we 
can get that's Constitutional and fair.
    Mr. Waxman. You accept the test results, then.
    Mr. Shilling. Absolutely.
    Mr. Waxman. Thank you.
    Chairman Tom Davis. The gentleman's time has expired. Let 
me move on to Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Thank you all. This is a very important issue today. Not 
just important for the Nation, but, as all of the players have 
pointed out, what an important message it sends to the young 
people. And I am glad to hear that everyone is saying the right 
thing.
    And I just wanted to point out the testimony given by two 
of my favorite athletes, Rafael Palmeiro and Sammy Sosa, they 
are hometown favorites in our community in south Florida. As 
Raphael said, ``my parents and I came to the United States 
after fleeing communist tyranny that still reigns over my 
homeland of Cuba. We came seeking freedom, knowing that through 
hard work, discipline, and dedication, my family and I could 
build a bright future in America.''
    As a matter of fact, when he was asked by the team owner to 
go to Cuba and play baseball diplomacy, and do that with 
Castro, he said, ``Not me.'' We admire him for his courage, 
because we know that was not an easy decision.
    I thank Chairman Davis for being open to the possibility of 
having Raphael belong to the--be a member of the task force 
that they will be putting together. He will be a valuable 
addition, a person who says that his goal is to stamp out 
steroids out of the sport, and he would certainly add a lot to 
the debate.
    As all of us know, there are a high number of Hispanics 
playing baseball throughout the Nation at all levels, and he 
would certainly be a leading role model for that.
    And Sammy Sosa. What an outstanding athlete, growing up 
dirt poor in the Dominican Republic, undergoing very difficult 
circumstances to get where he is today. He says, very strongly, 
he supports testing athletes for illegal performance-enhancing 
drugs. And we congratulate you, Sammy, for that stand. And both 
of these individuals do so much charity work, especially in our 
area of south Florida, and we congratulate them for that. 
Felicidades, muchas gracias.
    Jose Canseco is a Miami boy, growing up a just few blocks 
from where I grew up, graduated from Coral Park High School. 
And I am pleased to hear Jose say he is devastated when he 
listens to the testimony that he heard today. And I have heard 
it in the past, the parents of people, of young people who have 
killed themselves as a result of steroid use.
    And I hope that as a proud graduate of Coral Park, the 
Rams, that in--a street right there, named for him right there, 
Southwest 16th Street. And you go back to Coral Park and you go 
back to my alma mater, southwest--my alma mater in southwest 
just a few blocks away, and talk to the people about the 
dangers of steroid use, and your voice will be heard.
    I encourage all of you to continue that battle, and I 
especially congratulate Raphael and Sammy. Muchas gracias, mios 
amigos.
    Mr. Canseco. Muchas gracias.
    Ms. Ros-Lehtinen. I would like to yield my remaining time 
to Mr. Souder.
    Chairman Tom Davis. Mr. Souder.
    Mr. Souder. I would like to add for the record, as Major 
League Baseball and Congress work together in how you look at 
drug testing--in 1989 I was a staffer for then-Senator Dan 
Coats, and we passed the first drug-testing legislation through 
the Safe and Drug Free Schools Act. And we looked at a high 
school in Indiana, McCutcheon High School, where they drug-
tested their kids because of several injuries on their baseball 
team, and one-third had tested positive for marijuana.
    That led to it being sustained by the courts that any 
athletic--or any type of athletic drug test in the country, 
they could drug test. That's a random type of test, but courts 
have also ruled for students that when there is probable cause 
or something that a student does, you can do a test and not 
have it legally challenged. For example, if you are tardy 3 
days to school, you can be tested; because that may be a sign 
that you have been imparting.
    In baseball I would suggest there are other things, such as 
sudden dramatic changes in player performance.
    Hey, if you are clean, it doesn't matter. Like Rafael 
Palmeiro said, if you are clean, hey, a drug test shouldn't be 
a problem.
    Also dramatic improvement when you are aging, like Senator 
Bunning referred to. After a strike, when there is a financial 
incentive to alter a game, that would be a good time to have 
more drug testing than usual. Also, if a particular franchise 
is in trouble. Those are motivations that cause question to the 
game, and drug testing should be accelerated, also including 
ephedra and other things in it.
    So there are lots of loopholes of policy. And I hope the 
players are very serious that you will talk to your player reps 
about doing logical testing, like we do for truck drivers, like 
we do for schools; not in the Olympics but across the Nation. I 
thank the gentlelady for yielding.
    Chairman Tom Davis. Thank you, Mr. Souder.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. McGwire, I along with all of St. Louis and the country 
watched with great excitement when you and Mr. Sosa chased and 
broke Mr. Maris' record. A stretch of Interstate 70 that runs 
through the heart of my district is named after you. And St. 
Louis Cardinals baseball has held a special place in the hearts 
of millions of fans for over 100 years.
    So naturally I am very concerned about allegations of 
player misconduct that, if substantiated, could damage that 
proud condition.
    Mr. McGwire, we are both fathers of young children. Both my 
son and daughter love sports and they look up to stars like 
you. Can we look at those children with a straight face and 
tell them that great players like you played the game with 
honesty and integrity?
    Mr. McGwire. Like I said earlier, I am not going to go in 
the past and talk about my past. I am here to make a positive 
influence on this.
    Mr. Clay. Mr. McGwire, you have already acknowledged that 
you used certain supplements, including andro, as part of your 
training routine. In addition to andro, which was legal at the 
time--that you used it--what other supplements did you use?
    Mr. McGwire. I am not here to talk about the past.
    Mr. Clay. Mr. Chairman, I am using my time.
    Mr. Canseco, how did steroids enhance your effort to hit 
the home run or your ability to hit the ball?
    Mr. Canseco. For me I think it was a little different, 
because I have also had a background, since I was a child, of 
coming home from baseball practice and bending over and falling 
to the ground paralyzed. I have had--been diagnosed with 
degenerative disk disease, scoliosis, arthritis. I have had 
four major back surgeries, elbow surgery.
    So for me, I was a separate, different case than anyone 
else in the sense of, yes, I truly believed, yes, it helped me. 
Yes, it helped my physical stature and my muscle density, 
helped me stand up straight. But I had so many other physical 
problems, that's why I said if you are completely healthy, I 
would never, ever, have touched the stuff. Never.
    Mr. Clay. Would you have been able to perform at that level 
that you did achieve without those--without steroids?
    Mr. Canseco. I am an exception to the rule, because I had 
all these ailments. And I truly believe that for myself and I 
am just, you know, just one in a billion in one sense, that it 
helped me because of my physicality, my problems.
    Mr. Clay. Thank you for your honesty.
    Mr. McGwire, let me go back and ask you, would you have 
been able to perform at that level without using andros?
    Mr. McGwire. I am not going to talk about the past.
    Mr. Clay. OK.
    Let me go on to Mr. Shilling then. I commend you speaking 
out against steroids even before baseball implemented testing. 
Who benefits from having a weak drug policy?
    Mr. Shilling. Nobody.
    Mr. Clay. Nobody benefits. Do clean athletes speak out 
often?
    Mr. Shilling. I am not sure I can answer that with any 
accuracy.
    Mr. Clay. How do your colleagues receive your message when 
you do speak out? Do they look at you funny?
    Mr. Shilling. I don't think I speak for--I am not trying to 
speak for everybody, but I think I speak for the majority of 
the players when I say that we all feel that it--that, you 
know, stricter testing is not something we are against.
    Mr. Clay. OK. Thank you for that response.
    Just in closing, Mr. McGwire. I wish you had taken this 
opportunity to actually answer some of these questions about 
your career. About the records that you established.
    Chairman Tom Davis. The gentleman's time has expired.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    Gentlemen, it's nice to have you here. This is an important 
hearing. It's about drugs, and, frankly, modestly interested, 
until we saw the response of Major League Baseball which I 
think has been outrageous.
    Some of your testimony has been very helpful. I want you to 
know that this committee had requested a Major League Baseball 
joint drug prevention and treatment program. We wanted a copy 
of it. We asked for it, we wrote a letter, and then we had to 
subpoena it.
    Now, I would like to ask the three who are active baseball 
players, I would like to have you tell me what you think, or 
thought until today, the policy was. And let me first say, we 
thought that it was--the first positive test, 10-day 
suspension; second positive test, 30-day suspension; third 
positive test, 60-day suspension; fourth positive test, 1-year 
suspension; and then any subsequent positive test, you are out 
for life. That's what we thought it was.
    I want to ask the three active players, starting with you, 
Mr. Sosa, if you thought that was the policy, or did you think 
that it was what we have now learned: that you could also be 
fined up to $10,000 on the first offense; fined up to $25,000 
on the second offense; fined up to $50,000 on the third 
offense; fined up to $100,000 on the fourth offense.
    Were you aware that you could be given a fine instead of 
suspension?
    Mr. Sosa. No.
    Mr. Palmeiro. I wasn't aware of it. I knew about the 10-day 
suspension for the first offense and your name being public and 
so on, but I wasn't aware of the fine.
    Mr. Shays. They need an answer so they can record it.
    Mr. Shilling. No, I wasn't aware of it.
    Mr. Shays. What does that tell you about Major League 
Baseball and the management if we couldn't get this information 
voluntarily, we couldn't get it through a request by letter 
after asking for it, we had to subpoena this? Why would this 
document, and why should this document have been prevented from 
coming to us?
    Would anyone care to answer that question?
    Let me ask you another question. I hear the concept of team 
player. And trust me, I don't care at this hearing, I don't 
care to get into the issue of cheating or records. I don't care 
at this hearing to know if you took drugs or not. I don't care 
to have you name names. But what piqued my interest was the 
concept that as a team player, I am not going to name names.
    I would like to know the obligation that each of you think 
you have for your team to make sure you don't have drugs being 
used by teammates.
    Let me start with you, Mr. Shilling.
    Mr. Shilling. Well, my obligation first is to the Lord and 
to my family, my family name, above any of my teammates that I 
have ever had.
    Mr. Shays. OK. What do you think the Lord would want you to 
do?
    Mr. Shilling. To be as truthful and honest as you could be 
and had to be.
    Mr. Shays. Do you feel that means you should confront, even 
privately, your colleagues that are using them, drugs?
    Mr. Shilling. I think that varies with different people.
    Mr. Shays. OK.
    Mr. Palmeiro. I am not sure how I would handle that. I have 
never had that problem. You know, if it became a problem, I 
guess I would confront the player.
    Mr. McGwire. I agree. I have never had that problem. And 
being retired and out of the game, I couldn't even think about 
that.
    Mr. Shays. Never had the problem of seeing your colleagues 
use drugs?
    Mr. McGwire. Pardon me?
    Mr. Shays. Never had a problem of seeing your colleagues 
use drugs, steroids; is that what you mean? I don't know what 
you mean by you never had that problem.
    Mr. McGwire. I am not going to get into the past.
    Mr. Shays. OK, I am not really asking about the past.
    Mr. Sosa, what obligation do you think that you have to 
your team if you are aware that someone is using drugs on your 
team?
    Mr. Sosa. I am a private person, I don't really go, you 
know, ask people whether they----
    Mr. Shays. I will just conclude by saying I think I know 
your answer, sir.
    It just seems to me that one of the messages you may be 
telling young people is that a team player--it's an interesting 
concept of a team player, it seems to me. It seems to me you do 
have an obligation.
    Chairman Tom Davis. The gentleman's time has expired.
    Ms. Watson.
    Ms. Watson. I want to thank everyone in front of us for 
being here in this most grueling session. Believe me, some of 
us feel very deeply for you.
    My concern is this. When I read statistics like this, more 
than 500 high school students have tried steroids, nearly 
triple the number just 10 years ago, nearly 20 percent of 8th-
graders, nearly 30 percent of 10th-graders, and more than 40 
percent of 12th graders that were surveyed in 2004. They were 
using steroids and found them fairly easy and very easy to 
obtain.
    So I want to ask a question about where does that come 
from? And I think it comes to be that drug use goes across all 
sports. It is a sign of the times. It seems to be so acceptable 
today to take some kind of drug, I don't care what kind of 
sport you are using. And I guess we have to know that our youth 
are living in a different era when they do this as a matter of 
standard.
    So, what I want to ask is what happened to sportsmanship? I 
am using that in the generic, sportsmanship. And why are drugs 
so accessible and is it the money that drives this kind of 
practice? Does anyone want to talk about that?
    I am highly concerned about our youth today. Believe me, I 
know what I am talking about. I sit on a school board in Los 
Angeles. I was a school counselor. I chaired the Health 
Committee for 17 years. We fought, along with Representative 
Waxman, tobacco use. And that's why I held this up--a dual 
purpose. This is a man who uses steroids and smoked cigars and 
was on the front of ``Sports Illustrated.''
    I am really disturbed by the messages we are sending to 
young people today, and so that's a general--those are general 
questions. If you would like to spout on them, it's fine. If 
you don't, it's all right with me. But I just had to get it 
out.
    Chairman Tom Davis. Anybody want to say anything?
    Ms. Watson. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Ms. Watson. Thank you very much, Mr. Chairman. I will 
yield.
    Chairman Tom Davis. Mr. Lynch.
    Mr. Lynch. Thank you very much, Mr. Chairman.
    I must say, the testimony I am hearing from you today is 
much, much different from what I read in your book. I must say 
it's a stark, stark change.
    I just want to remind you, at the end of your book you 
stated, ``What I am hoping is that some more intelligent 
forward-looking voices will come out and urge baseball to 
embrace the potential of steroids and to fight for their place 
in the game and in our lives.'' That's what you are selling 
here in this book.
    I don't know if there is a new book coming out with what 
you are saying today, but I have to tell you I am a little 
surprised when I read--and what you are saying. So can you 
enlighten me a little bit, because I am a little bit surprised?
    Mr. Canseco. I think we have to put it in context. This 
book took, I think, over 2 years to write. And while that may 
have been my opinion 2 years ago, it is not today. Absolutely 
not. I know, spoken with people, seen certain things that 
steroids has done, and it's--I have completely done a 
turnaround when it comes to that.
    Mr. Lynch. We will wait for the sequel.
    Mr. Shilling, you actually live in my district. I want to 
say in fairness to you, there's never been any allegation or 
any suspicion that you have ever had anything to do with any of 
the stuff. You are here for two reasons; that's what they tell 
me. One, you have been outspoken on this stuff, and a voice for 
right in this case, and that you are well respected among all 
the parties, the owners, the managers, the players, everyone.
    I have to tell you, though, I am a little surprised that 
you still believe in self-regulation, and I am looking--I am a 
former iron worker president, and I would negotiate for my guys 
and ladies, and then I would come back to them with the 
contract after I negotiated with the companies and I would ask 
them to ratify it.
    And Mr. Davis touched on this a little earlier. Did you 
folks ratify this contract? Because it's not signed by the 
Players Union.
    Mr. Shilling. That's right.
    Mr. Lynch. It's not signed by management. It says it's a 
draft agreement. I just wonder, did they ever come back to you 
and say here is the drug policy, here is the collective 
bargaining agreement, like I would do with my members? I would 
read to them, page by page, and say, OK, now we are going to 
vote on this. Did they do that?
    Mr. Shilling. I don't think it's possible. I think the 
dynamics in which we negotiate are very different than the ones 
which you negotiate. We have over 1,000 players spread around 
the world.
    Mr. Lynch. The salaries are different than the iron workers 
as well, I might add.
    Mr. Shilling. We elect player representatives to negotiate 
for us.
    Mr. Lynch. OK. Did that happen, though?
    Mr. Shilling. Yes, that always happens.
    Mr. Lynch. That always happens. Even on the drug policy?
    Mr. Shilling. I can't speak to that specifically. You will 
have to ask the panel following us exactly how that happened. 
But as a player, I am assuming it did. Yes, absolutely.
    Mr. Lynch. OK. I just want to talk about where self-
regulation has got us. You are allowed to leave in the middle 
of a urine test. There are a bunch of substances that are not 
included on the list. The players and the league have to agree 
on what is going to be banned.
    It says in the text of your agreement--and that's what you 
negotiate, the text of the agreement--that the first offense of 
steroid use, the players--according to the agreement--can pay 
$10,000 and keep it quiet. They are not publicized for their 
violation. They can buy it off for $10,000, and the average 
starting salary is over $2 million. So it's not even a slap on 
the wrist. We have an escape clause here, where if the 
government comes in and starts investigating your drug policy, 
it goes away, you just get rid of it.
    The parties agreed. That's where self-regulation has got 
us. I am just--I am not with you on that, I have to admit. I 
just don't think that baseball is capable. I am going to have 
a--we are going to have a chat with the next panel coming in. I 
just don't think that they have demonstrated good faith on 
their ability to be able to police this type of thing.
    But I want to thank you all for coming here today. Thank 
you.
    Chairman Tom Davis. The gentleman's time has expired.
    Mr. Duncan, any questions?
    Mr. Duncan. Very briefly, Mr. Chairman. I hear Mr. Palmeiro 
say that he could live with a one-strike-you-are-out Olympic 
standard on the steroids. And then I had to go to other 
meetings. And Mr. Souder tells me that some of you defended the 
present Major League policy.
    After seeing all of the interest, all of the concern, after 
hearing all of this testimony and seeing all of these news 
reports about young people dying, and I saw a news report where 
a light heavyweight boxer who became a heavyweight boxer this 
weekend, they had a report on the national news, that his legs 
were amputated. All of these horrible things.
    Do any of you on the panel, would anybody object to the 
Major Leagues coming in or instituting a much, much tougher 
stricter policy whatever that might be, much tougher than it is 
now?
    Do any of you have an objection to or problems with 
something like that? Even if it is not quite as strict as what 
Mr. Palmeiro said, Olympic standard, but I mean a much, much 
tougher policy? Anybody have any problems with that? Mr. 
McGwire.
    Mr. McGwire. I am retired. But, I am telling you whatever 
anybody can do to improve it so there is no more meetings like 
this, I am all for it.
    Chairman Tom Davis. I think everyone seconds that here on 
the panel. All right.
    Mr. Duncan. I think everybody agrees, a much tougher 
standard is necessary. Thank you very much, Mr. Chairman.
    Chairman Tom Davis. Thank you. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. And thank all of 
you for your testimony here today. And thank you, all of you 
also for your commitment to use your star power going forward 
to send a message to our young people about the dangers of 
steroid use, and the fact that it is just simply the wrong 
thing to do in baseball or any other sport.
    One of my sons, one of my young sons, Mr. Sosa, wore your 
t-shirt to bed just about every night, couldn't get it off of 
him. And that is when you were with the Cubs. I am from 
Maryland. Now that you are with the Baltimore Orioles, he is a 
real fan.
    So all of you understand, I know, that you have a great 
responsibility given the fact that you are heroes to so many 
young people to convey the right messages. And I thank you for 
that.
    A part of making that message, I think, also requires 
conveying to people an understanding of the scope of the 
problem. And that is why we are here today is to try to get a 
handle on the scope of the problem, and the best way that we 
can all work together to approach eliminating the problem.
    And in that regard, Mr. Schilling, I do have a question for 
you regarding your earlier statements regarding the extent of 
steroid use within baseball. Because as I understood your 
testimony, you said that steroid use in baseball is less than 2 
percent. Is that right?
    Mr. Schilling. That is the results of the testing from the 
last season. Right.
    Mr. Van Hollen. That is based on the league's current 
steroid testing policy? Right?
    Mr. Schilling. Right.
    Mr. Van Hollen. But, I think we have heard testimony today 
about the weakness in that policy. As I understand it, it does 
not include testing in the off season. Is that right?
    Mr. Schilling. Yes. It is random.
    Mr. Van Hollen. OK. It does not include, I understand, new 
designer steroids like the recent steroid, recently recognized 
by the World Anti-Doping Agency. It did not include Andro, 
which is an anabolic steroid precursor that we understand that 
players used. It did not include human growth hormone, which we 
also believe, at least from news accounts, that players used.
    And so I guess, given that information, are you confident 
that the 2 percent testing results really reflect the use of 
steroids?
    Mr. Schilling. I don't believe as written in--by the author 
of that book that 70 percent of them slip through the cracks, 
if that is what you are asking me.
    Mr. Van Hollen. I'm really asking very simply, you have 
used the number 2 percent. And that 2 percent I think is just 
important to understand for everybody is based on the current 
testing; right?
    Mr. Schilling. Right.
    Mr. Van Hollen. I think that a lot of the testimony today 
we heard from earlier panels suggests that policy is a very 
weak policy. As I understand your testimony, you would be 
willing to accept a much tighter policy?
    Mr. Schilling. Right.
    Mr. Van Hollen. So I think it is something that we all have 
to look at now, is that when you have a weak testing regime, 
you can't be confident in the results; is that right?
    Mr. Schilling. Right. I think my answer earlier was given, 
again, on my 19 years of being in the Major League clubhouse. I 
can honestly tell you I have never seen a syringe. The 
discussion is nothing more than you get on high school lunch 
breaks. You talk. You wonder. You speculate. But none of us, if 
any, are experts. But I have never seen it. I have never seen--
I wouldn't know what it would look like.
    Mr. Van Hollen. I appreciate that. The 2 percent number has 
been out there. It is important for people to understand that 
is based on a testing policy that I think most people have 
acknowledged today is relatively weak and would agree to 
strengthen it. And I think it is important that we understand 
the scope of the problem when we are trying to get a solution 
to it. I think it is important when we are communicating to 
young people that we are not trying to narrow the scope of the 
problem, which at least by all press accounts is much broader.
    So I really think there has been some progress today. I 
think the fact that you are all committed to going forth after 
the testimony today to dedicate yourself to sending a strong 
message, I think that is a very important part of it.
    Obviously, tightening the testing policy is what gives some 
teeth to the message going forward. But, I thank you for your 
testimony. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Ms. Sanchez.
    Ms. Sanchez. Thank you. Let me just start by saying that I 
am a huge baseball fan. I admire all of your talents and 
dedication to the sport. As a young girl who played competitive 
softball, I looked up to Major League Baseball players as my 
heroes.
    And as someone who plays on the Congressional baseball 
team, and that is baseball, I still look up to you all and 
admire your talent. But, because baseball is so intertwined in, 
like our national heritage and our history, to me this hearing 
is about being up front and honest about the problem. I think 
everybody here has agreed that there is a problem, but so far 
today, and I have to say I am really disappointed, because I am 
hearing differences in terms of how widespread it is.
    We have one member of the panel who says it is rampant, and 
we have four-fifths of the panel that could not really 
speculate because, you know, they never saw it, they never 
heard it, they have never been around it, they do not know 
anything about it.
    I just want to tell you that it is hard to reconcile those 
two visions about how rampant is this problem in baseball. And 
I think, you know, if we want to move forward, we have to start 
with being honest about how deep is this problem.
    I want to just read to you really briefly some news 
accounts. In 1995, the Los Angeles Times reported that anabolic 
steroids apparently have become the performance drugs of the 
1990's in Major League Baseball, and the paper quoted the San 
Diego Padres general manager saying we all know there is 
steroid use, and it has definitely become more prevalent. I 
think 10 to 20 percent. That is in 1995.
    In July 1997, the Denver Post quoted a player for the 
Colorado Rockies estimating that 20 percent of ball players 
used steroids. In 2000, the New York Times quoted Brad Andrews, 
the strength coach for the Colorado Rockies, as estimating that 
30 percent of Major League Baseball players had used steroids 
at some point in their careers. And one veterans all star 
outfielder said he believed that two-thirds of the top players 
in the National League are using some kind of steroid.
    In 2002, Sports Illustrated reported that the game has 
become a pharmacological trade show, and outfielder Chad Curtis 
estimated that 40 to 50 percent of the players used steroids.
    So it is hard for me to imagine that 2 percent of the 
players are using, we have had extensive questions on the 
testing, and my understanding is the current policy is that 2 
percent testing, is not testing that is done more than once a 
year, randomly, it can be done in the off season, it can be 
done in the preseason, but that is 2 percent that they are 
catching using at the time that the test is administered.
    We had a colleague that tried to pin you all down and have 
you just, I mean, estimate for us what percentage of 
ballplayers do you think are using. You guys are in the 
clubhouses. We are not. We do not have access there. We do not 
know. But we are getting this hear no evil, see no evil, don't 
know anything that is going on.
    I mean, the first step is admitting, hey, there is a 
problem, next step, how widespread is it? And then the next 
step is, what do we do to try to combat it. I am not hearing 
that from you today, and I am very disappointed, I have to say, 
extremely disappointed in the testimony today.
    So I am going to ask, you know, we are not asking you to 
name names, we are not asking you to implicate anybody. We are 
asking you because everybody admits that it is serious for 
young kids, but you as a teammate, as a player, and if you are 
all nonusers, which you, four-fifths of the panel has testified 
you guys did not use, if you guys are users, I would think that 
you would be the first to step and say, hey, there is a problem 
with teammates that are using, because it is potentially 
hazardous to their health, and because it is unfair, it is 
cheating, it is not a level playing field.
    If I am not using, why should teammates be allowed to use? 
Yet I am not hearing that. Have any of you ever confronted over 
the use, asked them about it, you hear rumors in the locker 
room, that was some of the testimony today. But none of you 
went to management or said, hey, there may be a problem here. 
Have any of you ever confronted a player or made that problem 
known?
    I mean, I am hearing that 1 percent is too much. Yet none 
of you, throughout all of the years that you have collectively 
played together, has ever stood up and said that before now. I 
would just like an answer to that question, as briefly as 
possible.
    Mr. Schilling. The question is?
    Ms. Sanchez. Have you ever made--I am sorry, but I am very 
passionate about this. Have you ever made the problem of use 
among players that you have heard rumors of, made that known to 
somebody responsible?
    Mr. Schilling. No. No, I haven't. I never would, because I 
have never known for sure.
    Mr. Palmeiro. I wouldn't know who to go to. I wouldn't know 
who is on it.
    Ms. Sanchez. Nobody knows.
    Mr. McGwire. I am not here to discuss it.
    Mr. Sosa. I really am not going to tell you something that 
I do not know, period.
    Ms. Sanchez. Mr. Canseco, when you played, did you ever 
notify anybody about the use by other players?
    Mr. Canseco. In my days, which I will stick to my book, I 
was a source of information for it.
    Ms. Sanchez. But you never made it, the problem, aware to 
anybody responsible?
    Mr. Canseco. It is funny because it wasn't a problem. There 
wasn't anyone that said, you know, don't do it, or you 
shouldn't do it, or if you get caught, this is going to happen 
to you. It was as acceptable in the 1980's and mid to late 
1990's as a cup of coffee.
    Chairman Tom Davis. Thank you. The gentlelady's time has 
expired. We have two questioners left and then will dismiss the 
panel and move to the final panel. Mr. Ruppersberger, any 
questions?
    Mr. Ruppersberger. When you come to the end of the panel, a 
lot has been discussed. We have been here all day. The first 
thing, I think, in the beginning I was concerned about this 
hearing.
    Now, I think it is very positive, it is very positive for 
baseball. The issue is now on the table. I guarantee you, if 
Jose Canseco is not going to win a popularity contest with the 
players, but he might be the best thing that has happened to 
you.
    Baseball has a public relations problem. And in my opinion, 
you players can solve it. Now, we can talk about management, 
and management has a lot of responsibilities. But we have been 
going through this testimony about who knows what, would you 
talk to a player? And it all comes down, in the end, I think, 
to having a good drug policy that works.
    And if the NFL can have a policy, if the Olympics can have 
a policy, especially the Olympics who had a credibility 
problem, then you can do it.
    We love your game. And I look at you, Curt Schilling, it 
was one of the worst trades we ever had. I'm a Baltimore Oriole 
fan. But, bottom line you can fix it. You have been dodging a 
little bit today, in my opinion, about saying, if I do not know 
about it, I am not going to say about it.
    If I think my colleague has taken a bribe, I am going to 
deal with it. It is your responsibility I think as baseball. 
You have one of the best negotiators, Mr. Fehr, if he cannot 
negotiate with management and management really, I am putting 
more burden on you than management, because management would 
love to fix this.
    And let's get on with the game of baseball. So my question, 
bottom line, would you take the position to go to Fehr and 
organize your players who have responsibility to this country, 
for our national pastime, for our children, would you go to 
Fehr and say, we want the best and the strongest program that 
we can have to bring integrity to baseball?
    Because if you do not have integrity, eventually this game 
is going to have problems. And we don't want that to happen. 
Would you go to Fehr and do whatever, and work with us. You 
might not know the intricacies of drug policy. I do. I was a 
former prosecutor who dealt with drugs. You have to have 
accountability. You can't tell people when they are going to 
test somebody. You have to make sure that you follow the vial 
when you take the urine test.
    These are things that have to be done. But if each one of 
you would agree, and I challenge each one of you here today to 
organize your players, you are world champion now, you have a 
momentum to challenge your players to say, we will go and we 
will do what we can do. We will match the NFL. Do you think you 
are a better sport than the NFL?
    Mr. Schilling. Definitely.
    Mr. Ruppersberger. Why can't you have a drug policy like 
the NFL? So bottom line, you can fix it. OK. You cannot blame 
the owners. The owners have responsibility. But you go to 
Selig, I am sure that he would love to have the strictest 
policy that you can have, and then you can go on about playing 
baseball.
    How about you, Rafael?
    Mr. Palmeiro. I agree. I would go to Donald Fehr for that.
    Mr. Ruppersberger. If you were there, Mr. McGwire?
    Mr. McGwire. Being that I am retired, I still would go to 
him, yes.
    Mr. Ruppersberger. Sammy Sosa, welcome to Baltimore. But 
would you do that?
    Mr. Sosa. I would do the same thing.
    Mr. Ruppersberger. What do you think, Jose. I gave you a 
plug. You put this issue on the table. And, by the way, if I 
was going to question you, I would question you about 
credibility, because you have made some inconsistent statements 
about how many people--I will go over it later in my private 
time if I was going to question you.
    But, the more I think about it, you put it out there on the 
table and now we are dealing with it. And if players and 
baseball management do not do it now, shame on you. OK. That is 
all. Thank you.
    Chairman Tom Davis. Thank you very much. Mr. Serrano, you 
are the clean-up batter.
    Mr. Serrano. Clean-up batter. Thank you, Mr. Chairman. I am 
just going to make two comments very briefly. One, a request 
which probably falls more on the shoulders of Mr. Sosa and Mr. 
Palmeiro than anyone else. If we talk about an education 
program for young people, please remember that according to 
statistics, I think it is 40 percent of all professional 
ballplayers from rookie league up are Latin Americans.
    And so an educational program that doesn't include an 
outreach to the Dominican Republic, to Venezuela, to Mexico, 
and to other places in Latin America, will not be in 
preparation for what needs to happen.
    There have been already scandals reported about an 
anticipation of signing as free agents people in different 
parts of Latin America that have been beefed up and hurt with 
drugs.
    And, I hope that would happen. And second, I hope that as 
the one of the last speakers today, you see us for who we are. 
I am not a member of this committee. The chairman and the 
ranking member gave me the privilege of being here today 
because I, like so many of these people on the panel, are 
baseball fanatics.
    For me baseball is not a game, it is a passion. Some 
reporters may see us as politicians having another hearing, but 
we are concerned about a game that we love.
    When Mr. McGwire and Mr. Sosa took us on that ride that 
summer, that wasn't just hitting home runs, that was a country 
hanging onto heroes.
    When Mr. Palmeiro, I will watch you this summer, as you 
become only the fourth player, joining Aaron and Murray and 
Mays to get 500 home runs and 3,000 hits. As a Latino, I feel 
proud, and as an American I will be excited.
    Mr. Canseco, I wish I could have helped you get those 38 
homes to reach 500. You stopped at 462. Perhaps baseball 
stopped you, you claim at times.
    And, Mr. Schilling, even though you did it to my Yankees, 
you are still my hero. That is who you are. You are not just 
normal, regular people. It is not the kids who look at you 
alone. That is the excuse we use. This autograph is for my son. 
It is for me. I already signed up for Major League Gameday 
audio for my computer.
    I already bought my first 25 packs of baseball cards for 
this year to add to the closet full of baseball cards that I 
have. Mr. McGwire, I will never sell your rookie card. I will 
leave it to my children and my grandchildren, because you are 
heroes.
    There is no prize for my love of this game. And so I hope 
that when you leave here today, and think about it tomorrow and 
the next day, that you do not think of us as another 
legislative committee, you think of us as no different than the 
people you see in the stands. We are baseball fans who love 
this game, and we are terrified of what could happen to it.
    I do not like the fact that you are here. I do not like to 
see the break-up of the Bash Brothers in front of me. I do not 
like the fact that Mr. Sosa hasn't smiled that famous smile. I 
do not like the uneasiness of all of you today. You shouldn't 
be here. Circumstances put you here. Please save the game. 
Without this game, this country is in deep trouble. I would 
like to yield now, to Mr. Waxman.
    Mr. Waxman. I thank you for yielding to me. That was a very 
eloquent plea. And I thank you for it, because you speak on 
behalf of so many of us.
    But, Mr. Schilling, I just want to raise something that 
just came to my attention and read you some quotes that were 
attributed to you, which sound so different than what you said 
today.
    So you will be prepared for it in case somebody raises it 
later. This was from Sports Illustrated, June 2002. ``Schilling 
says that muscle building drugs have transformed baseball into 
something of a freak show. Quote, you sit there and look at 
some of these players and you know what is going on, he says. 
Guys out there look like Mr. Potato Head with a head and arms 
and six or seven body parts that just do not look right. They 
do not fit.
    I am not sure how steroid use snuck in so quickly, but it 
has become a prominent thing very quietly. It is widely known 
in the game. And also I know guys who use and do not admit it, 
because they think it means they do not work hard. And I know 
plenty of guys now are mixing steroids with human growth 
hormone, those guys are pretty obvious.''
    Were those your quotes?
    Mr. Schilling. Yes.
    Mr. Waxman. You feel--don't those quotes seem to indicate 
that you thought that at least when you gave them, that there 
was a widespread use of steroids with some people, because you 
could see it?
    Mr. Schilling. I think we saw it as a problem. I think that 
any player looks at anybody on the field, that gave themselves 
a competitive advantage by cheating as a problem.
    Mr. Waxman. You do not think this is inconsistent with your 
statements today?
    Mr. Schilling. No. I think--I said those are my quotes. I 
made those quotes. I think I said earlier today that there were 
some quotes I had made in the past, referring to some of those, 
where they grossly overstated the problem due to being 
uninformed and unaware.
    Mr. Waxman. Thank you very much.
    Chairman Tom Davis. Thank you very much. Let me just thank 
all of you. It has been a long afternoon for you. This has been 
very helpful to us. I think it is going to be very helpful, 
hopefully the owners and management and union are listening to 
this as well.
    We have a lot of different perspectives up here. We are the 
elected representatives of the people. I think we share that 
perspective, which is a little different from being a player or 
in management. But this has been very helpful for us.
    I just appreciate the willingness of all of you to step 
forward. This has been, I think, a victory in itself. We look 
forward to continuing to work with you. We wish all of you good 
luck on the field this year as the season begins as well, and I 
am going to release this panel. Thank you very much.
    Take a 5-minute recess.
    [Recess.]
    Chairman Tom Davis. If we can get everybody seated.
    We are going to now recognize the fourth panel. We have 
Commissioner Allan H. Selig of Major League Baseball. 
Commissioner Selig was not subpoenaed. He called up and 
volunteered to come here today. And we appreciate that very 
much.
    He is accompanied by Mr. Robert Manfred, the executive vice 
president for labor and human resource of Major League 
Baseball.
    We have Mr. Don Fehr, the executive director and general 
counsel of the Major League Players Association. Don, thank you 
for much for coming here as well. I think you know where the 
lines of inquiry are going to be, the concerns from the 
previous panels.
    We have Sandy Alderson, the executive vice president of 
baseball operations. Former general manager of the Athletics, 
Mr. Kevin Towers, general manager of the San Diego Padres.
    As you know, it is our policy that we swear in all 
witnesses before they testify. So if you can rise with me and 
raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Which of you are going to make an 
opening statement? Bud and Rob? Mr. Fehr, are you going to make 
an opening statement as well?
    Mr. Fehr. Very brief.
    Chairman Tom Davis. That is fine. Commissioner Selig, 
welcome very much. You know the rules. Your entire written 
statement is in the record. But take what you need. This is 
important, and I can't thank you enough.
    Just for the record, you sat out here the whole day. He 
listened to everybody that testified, the parents and 
everything else. And I know it has been an interesting 
experience for you, as it has for us. We appreciate your being 
with us.

  STATEMENTS OF ALLAN H. SELIG, COMMISSIONER OF MAJOR LEAGUE 
 BASEBALL; ROBERT MANFRED, EXECUTIVE VICE PRESIDENT, LABOR AND 
  HUMAN RESOURCES, MAJOR LEAGUE BASEBALL; DON FEHR, EXECUTIVE 
  DIRECTOR AND GENERAL COUNSEL, MAJOR LEAGUE BASEBALL PLAYERS 
ASSOCIATION; SANDY ALDERSON, EXECUTIVE VICE PRESIDENT, BASEBALL 
  OPERATIONS, MAJOR LEAGUE BASEBALL, FORMER GENERAL MANAGER, 
OAKLAND ATHLETICS; AND KEVIN TOWERS, GENERAL MANAGER, SAN DIEGO 
                             PADRES

                  STATEMENT OF ALLAN H. SELIG

    Mr. Selig. Thank you very much, Mr. Chairman. Major League 
Baseball has made progress in dealing with the issue of 
performance enhancing substances. Today I would like to 
describe for you that progress at both the Minor League and 
Major League level.
    I would also like to describe for you the newly negotiated 
Major League steroid policy, as well as an effort we have 
undertaken with the Partnership for a Drug Free America aimed 
at educating America's youth on the dangers of steroid use.
    Before I start, Mr. Chairman, let me clarify an issue that 
was raised yesterday so that there is no misunderstanding from 
my perspective. I will suspend any player who tests positive 
for an illegal steroid. There will be no exceptions. The union 
is aware of that and they accept it.
    In 2001, I promulgated the first-ever comprehensive drug-
testing policy for Minor League baseball. In the first year of 
testing under that policy, the positive rate in the Minor 
Leagues was approximately 11 percent. Confronted with this high 
rate, we responded with more testing and tougher discipline. In 
each subsequent year, that positive rate has decreased. In the 
overall, the decrease has been dramatic. The rate was 4.8 
percent in 2002, 4 percent in 2003, and just 1.7 percent in 
2004.
    As we embark on the 2005 season, baseball has committed 
even more resources to the eradication of steroid use in the 
Minor Leagues. We will do more testing, expanding the program 
into the Venezuelan summer league. And we will continue to 
discipline violators in a manner that our medical advisors 
believe will eradicate steroid use.
    Similar progress has been made at the Major league level. 
In 2002, Major League Baseball reached a new agreement with the 
Major League Players Association, which, for the first time, 
provided for testing of Major League players for steroids. The 
positive rate for performance enhancing substances in 2003 
testing was in the range of 5 to 7 percent.
    This disturbing rate triggered a more rigorous disciplinary 
testing program in 2004. That more effective program resulted 
in a decline of the positive rate to 1 to 2 percent. In other 
words, the 2002 agreement that has been roundly criticized in 
some circles, actually resulted in a significant reduction in 
steroid use.
    Despite this improvement, Major League Baseball has 
continued to move ahead on this most important and challenging 
issue. Last December at my urging, the Players Association took 
the unprecedented step of reopening an existing collective 
bargaining agreement to allow for the negotiation of an even 
stronger new policy on performance enhancing substances.
    This new policy addresses all of the major areas of concern 
raised in congressional hearings conducted in 2004. Before I 
turn to the specifics of the new policy, however, I want to 
review the background that led to our concerns and ultimately 
the adoption of a new policy.
    In the period of time following the 1994, 1995 strike, I 
began to hear more about the possibility of the use of 
performance enhancing substances by players. That concern 
escalated with the 1998 statements involving Mark McGwire and 
Andro. At that time we began a comprehensive review of the 
medical and health issues.
    Given the limitations in our collective bargaining 
agreement, we were prohibited from testing players to determine 
which particular players were using what substances. To assist 
us in the development of our Minor League policy, and later our 
bargaining proposals to the Players Association, we hired and 
relied upon experts in the areas of drugs and sports. I have 
relied heavily on those experts in developing and refining our 
policies.
    I want to say a word about our players, four or five of 
them who have just left. For sometime now the majority of our 
great and very talented athletes have deeply and rightly 
resented two things. They have resented being put at a 
competitive disadvantage by their refusal to jeopardize their 
health and the integrity of the game by using illegal and 
dangerous substances, and they have deeply and rightly resented 
the fact that they live under a cloud of suspicion that taints 
their achievements on the field.
    The cloud has been produced in part by some critics of 
baseball, who although well intentioned are not well informed 
about baseball's multifaceted campaign against such substances. 
This campaign has produced a dramatic quantifiable successes 
that I outlined earlier.
    Now I would like to turn to the details of our new Major 
League policy. First the new policy broadens the list of banned 
substances in baseball. The list includes not only all 
steroids, but also steroid precursors, ephedra, human growth 
hormone, diuretics and other masking agents. I should add that 
Congress's passage of the Anabolic Steroid Control Act of 2004 
was a key development in allowing baseball to move closer to 
accepted international standards in that area.
    Second, the new policy greatly increases the frequency of 
testing of Major League players. Under our prior policy, each 
player was subject to one steroid test per season on an 
unannounced randomly selected date. This type of testing was an 
important first step and will be continued in 2005.
    Under the old testing program, however, once a player had 
completed his one test for the year, the threat of discipline 
for the use of steroids was gone until the next season. To 
address this issue, Major League Baseball added on ongoing 
program of random testing for 2005, under which players can be 
tested multiple times in a given year. Under the new policy, no 
matter how many times a player is tested in a given year, he 
will remain subject to an additional random test.
    Third, the new policy for the first time introduces off-
season or out-of-competition testing. In the traditional 
employment context, unions have understandably resisted 
employer efforts to intrude into off-duty hours and vacation 
time. To its credit, however, the Players Association has 
agreed to compromise the legitimate privacy concerns of its 
members and allow off-season testing. This off-season testing, 
which will literally be carried out around the globe, will 
ensure that players cannot use the winter as an opportunity for 
drug-induced performance enhancement.
    Baseball's new policy also provides for increased 
penalties. Under the new policy, first-time offenders, and as I 
said at the beginning of my remarks, make no mistake about 
this, will be suspended for 10 days without pay, and will be 
publicly identified as having violated the policy against the 
use of performance enhancing substances.
    A 10-day suspension will cost the average Major League 
player approximately $140,000 in lost salary. Penalties for 
subsequent offenses include increase to 30 days, 60 days, and 1 
year. More important in terms of deterrence, however, is the 
fact that no player wants to be identified to his peers and the 
public as a cheater.
    As baseball's testing program has become more strict, we 
have also worked to improve its quality. Last year baseball 
moved its testing programs into independent Olympic 
laboratories certified by WADA. These labs are the gold 
standard in testing for performance enhancing substances.
    Equally important, our relationship with these facilities 
has put baseball in a better position to monitor new 
developments in the area of performance enhancing substances. 
For example, baseball has already banned at both the Major 
League and Minor League levels the designer steroid DMP, that 
was recently discovered at the WADA laboratory in Montreal.
    Baseball is, of course, an international game. Recognizing 
that fact, our efforts at eliminating the use of performance 
enhancing substances have an international component. Last 
year, the Minor League policy was expanded to the Dominican 
summer league, complete with testing and educational 
activities. Our partners in the Mexican League have announced 
recently their intention to implement a program much like our 
Minor League policy.
    We will extend our Minor League policy to the Venezuelan 
summer league this year. Next spring, baseball and the MLBPA 
will conduct the first ever international baseball tournament 
in which countries from around the world will field teams that 
include the best professional players, including the biggest 
Major League stars. As part of that event, Major League 
Baseball and the Players Association and the International 
Baseball Federation have reached an agreement whereby all 
participants in this event will be subject to Olympic style 
drug testing in accordance with the world antidoping code.
    The world tournament will not only provide great 
international competition, but it will mark yet another step 
forward in baseball's effort to deal with the problem of 
performance enhancing substances. In promoting this event, 
baseball will emphasize this important antisteroid message.
    Major League Baseball has always recognized the influence 
that our stars have on the youth of America. As such, we are 
concerned that recent revelations and allegations of steroid 
use have been sending a terrible message to our young people. 
Over the past year we have been working with our friends at the 
Partnership for a Drug Free America to determine the 
appropriate timing and content of public service announcements 
that will discourage young people from using steroids.
    In the coming months you will see the product of these 
efforts on television, and we can only hope that those 
announcements will contribute to better decisionmaking by young 
athletes. My office has also had conversations with Congressman 
Sweeney about Major League Baseball providing support for his 
proposed legislation on steroid education, and becoming 
involved in the educational programs created by that 
legislation.
    I expect that these conversations will continue and will 
bear fruit. Baseball will not rest and will continue to be 
vigilant on the issue of performance enhancing substances as we 
move toward my publicly stated goal of zero tolerance.
    Thank you, Mr. Chairman. And I request that my entire 
written statement be placed in the record.
    Chairman Tom Davis. Without objection. And thank you for 
bearing with us.
    [The prepared statement of Mr. Selig follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.159
    
    [GRAPHIC] [TIFF OMITTED] T0323.160
    
    [GRAPHIC] [TIFF OMITTED] T0323.161
    
    [GRAPHIC] [TIFF OMITTED] T0323.162
    
    [GRAPHIC] [TIFF OMITTED] T0323.163
    
    [GRAPHIC] [TIFF OMITTED] T0323.164
    
    [GRAPHIC] [TIFF OMITTED] T0323.165
    
    [GRAPHIC] [TIFF OMITTED] T0323.166
    
    Chairman Tom Davis. Mr. Manfred.

                 STATEMENT OF ROBERT D. MANFRED

    Mr. Manfred. Thank you, Mr. Chairman, ranking member, 
committee members, I especially appreciate the opportunity to 
speak with you this evening. And I would like to take the 
opportunity to respond to some of the issues raised in the 
committee's letter to Commissioner Selig and Mr. Fehr.
    At the outset, I should say that baseball has worked hard 
to negotiate and improve its drug policy in recent years. We 
know that we have made significant progress in this area. At 
the same time, we know that the policy is not perfect.
    Our collective bargaining agreement, like every collective 
bargaining agreement, is a living document. There is the pure 
language, there is the understandings of the parties, and there 
are the party's practices. Tonight I would like to try to 
explain to you what the agreement means based on those 
language, understandings and practices.
    I hope I can convince you that I am reading the agreement 
correctly. And in making that determination, I urge you to take 
into consideration that the gentleman that I negotiated the 
agreement with, Mr. Fehr, agrees with everything that I am 
about to tell you.
    First, much has been made out of the fact that our 
agreement sets forth penalties in the disjunctive. For each 
offense, there is a suspension of a specified length or a fine 
amount. The formulation of the penalties was included in our 
2002 agreement, and was carried forward into the new agreement.
    In retrospect, the language as a drafting matter should 
have been altered. There is, however, no misunderstanding or 
dispute between the bargaining parties as to how the agreement 
is going to operate. We informed the MLBPA at the bargaining 
table, while we were negotiating the agreement, that the 
Commissioner intends to and will suspend across the board for 
all violations. The owners ratified the agreement with this 
understanding. It is also my understanding that Mr. Fehr's 
constituents are in the process of ratifying, based on the same 
understanding.
    The agreement might have been drafted better. But, even as 
it sits, it provides the Commissioner with the unfettered right 
to do what he has said he is going to do, namely suspend all 
players who violate the agreement.
    Moreover, those suspensions are automatic in the sense that 
they are for stated periods of time, and the union has taken 
the unprecedented step of waiving its right to contest the 
length of those suspensions. Our commitment to suspend also 
undercuts the committee's criticism with respect to the topic 
of disclosure.
    Under the agreement, if a player tests positive and is 
suspended, it will be reported in the transaction list that is 
published in every paper in America, that the player tested 
positive for violating the joint drug agreement.
    Given that we only test for steroids under the joint drug 
agreement, everyone will understand that the suspension was 
based on a steroid test. In terms of the general 
confidentiality language in our agreement, I would point out 
that virtually every drug program in America contains such 
general confidentiality language, including the programs that 
have been adopted by the Federal Government to cover its 
employees.
    The assertion that all steroids are not banned under the 
baseball policy is simply not correct. The plain language of 
our agreement bans all steroids that are on Schedule III, as 
well as any other anabolic androgenic agent that cannot 
lawfully be obtained in this country.
    The list of substances in the agreement is clearly 
identified, explicitly identified as a nonexhaustive list. As 
to the four substances specifically mentioned in your letter, 
we have discussed those with our experts.
    Two of the substances are anabolic androgenic agents that 
cannot lawfully be obtained in the United States and as such 
are banned under the general language in our program. A third, 
Boldonone, is a nutritional supplement that Congress 
inappropriately excluded from the Steroid Control Act of 2004.
    We have been in conversations with the DEA, and we 
understand that substance is going to be added to Schedule III 
as the first additional substance under the Steroid Control 
Act, at which time it will be automatically banned under our 
agreement.
    The fourth substance listed is DHEA, which dispute our 
lobbying efforts, was excluded from the Steroid Control Act of 
2004. I would now like to address the issue of diuretics and 
masking agents.
    At page 6 of our agreement it says: Any test conducted 
under the program will be considered a positive under the 
following circumstances. Item 3. A player attempts to 
substitute, dilute, mask or adulterate a specimen sample in any 
other--or in any other manner alter a test.
    In order to enforce this provision of the agreement, the 
Montreal laboratory has been instructed by the MLBPA and me 
that they are to test for their standard list of diuretics and 
masking agents, continuing a practice that has existed under 
our agreement. The assertion that our policy fails to ban 
designer steroids is contrary to the language and history of 
this agreement. The language banning, quote, anabolic 
androgenic steroids that are not covered by Schedule III, but 
that may not be lawfully obtained in the United States has been 
previously used by the bargaining parties to ban THG and DMT.
    The bargaining parties have relied on this language in the 
contract to ban designer steroids in the past and will do so in 
the future. I would also point out that substances that fall 
within this definitional language in the contract are added 
automatically to our banned list without the necessity for 
action by the Health Policy Advisory Committee.
    The committee's criticisms on our position with respect to 
human growth hormone were addressed earlier today. I want to 
reiterate that our experts, including the director of the WADA 
certified laboratory in Montreal, and our drug testing expert, 
Dr. Gary Green from UCLA has informed us that there is not a 
verifiable blood test, and that blood test kits for this test 
are not available.
    The labs do not have testing kits to perform this blood 
test. They may have had 300 of them for the Olympics this 
summer, but they are not currently available. We are actively 
involved in efforts to accelerate the development of a urine 
test, and there are actually some advantages associated with a 
urine test as opposed to a blood test. I should also point out 
that no professional sport in America conducts blood testing of 
any type.
    The committee also raises issues with respect to the health 
policy advisory committee. No other professional sport uses an 
independent outside agency to supervise its drug testing 
program. This includes the NFL. In fact, I am unaware of a 
single collectively bargained private employer drug testing 
program anywhere in the United States that is supervised by an 
independent outside agency such as the USADA.
    While the Olympics may take a decidedly different approach, 
the Olympics operate in a decidedly different environment, 
unrestrained by a collective bargaining obligation or the 
obligations that accrue to an employer under many State and 
Federal statutes. The committee's letter characterizes as 
extraordinary a provision that would suspend testing in the 
face of a government effort to obtain across-the-board testing 
results from our program.
    At the outset, I should point out that this provision 
relates only to individually, identified-by-name drug test 
results and not general oversight activities of the type 
reflected in the subpoena that was issued to baseball.
    It also does not apply if the Government's investigation is 
supported by individualized probable cause for particular 
players. It is also important to understand that this provision 
did not arise in a vacuum. Baseball has faced efforts by law 
enforcement authorities to obtain across the board testing 
results absent any individualized showing of probable cause.
    All the provision does is temporarily suspend the program 
while we resist an attempt by law enforcement officials to 
premise a criminal probe on private drug testing results.
    Last, the committee's letter raises issues with respect to 
some of our collection procedures. In particular, the letter 
makes the point that they are not consistent with those used by 
WADA. At the outset, it is important to understand that there 
are many Federal and State laws that make it very difficult for 
an employer like Major League Baseball, as opposed to an 
oversight organization like the Olympics to follow strictly the 
WADA requirements.
    On the fundamentals, however, our collection procedures are 
entirely sound. All urine specimens are provided under the 
direct observation of an independent, not employed by Major 
League Baseball, collector.
    While players are occasionally allowed to leave the portion 
of the locker room that is identified as the testing site for 
approximately an hour, if they cannot provide a specimen in 
order to continue their preparation for the game, the 
opportunities for a steroid user to avoid detection during this 
hour are very limited, given that baseball tests for diuretics 
and masking agents, and checks the specific gravity of all 
urine samples.
    I do not know whether anyone on the committee has been at a 
Major League clubhouse, but there is precious little privacy in 
those clubhouses. While they may leave the particular area 
where the samples are being provided, our collectors are in and 
out of that clubhouse and the players are still subject to 
observation by those collectors during that period of time.
    In closing, I would like to point out that no one likes to 
receive a letter like we received from the committee yesterday. 
When one really understands the substance of our policy, 
however, there are few legitimate criticisms that can be 
directed at this policy. This is particularly true when one 
gives some appreciation for the fact that this policy was 
negotiated in the context of a voluntary re-opener of a 
collective bargaining agreement that is encouraged and 
protected by the Federal labor laws.
    Chairman Tom Davis. Mr. Manfred, thank you very much.
    [The prepared statement of Mr. Manfred follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.167
    
    [GRAPHIC] [TIFF OMITTED] T0323.168
    
    [GRAPHIC] [TIFF OMITTED] T0323.169
    
    [GRAPHIC] [TIFF OMITTED] T0323.170
    
    [GRAPHIC] [TIFF OMITTED] T0323.171
    
    [GRAPHIC] [TIFF OMITTED] T0323.172
    
    [GRAPHIC] [TIFF OMITTED] T0323.173
    
    [GRAPHIC] [TIFF OMITTED] T0323.174
    
    [GRAPHIC] [TIFF OMITTED] T0323.175
    
    [GRAPHIC] [TIFF OMITTED] T0323.176
    
    [GRAPHIC] [TIFF OMITTED] T0323.177
    
    [GRAPHIC] [TIFF OMITTED] T0323.178
    
    [GRAPHIC] [TIFF OMITTED] T0323.179
    
    [GRAPHIC] [TIFF OMITTED] T0323.180
    
    [GRAPHIC] [TIFF OMITTED] T0323.181
    
    Chairman Tom Davis. Mr. Fehr, thanks for being with us.

                     STATEMENT OF DON FEHR

    Mr. Fehr. Thank you, Mr. Chairman. It has been a very long 
day. I have listened to a lot of testimony. And rather than 
read some remarks that were prepared last night, I am going to 
try and make a number of other comments that perhaps may be 
more central to the question at hand. My full testimony I 
understand will be placed in the record.
    Chairman Tom Davis. Would you like to put some remarks in 
the record?
    Mr. Fehr. My full testimony, I understand, will be in the 
record.
    Before going on, I would like to make two introductory 
comments. First of all, we had concerns, a lot of people had 
concerns, as the chairman knows, about the fairness of the 
hearing. And I would like to thank him and the Members for the 
fashion in which the hearing has been conducted.
    Second, I want to address the parents of the three 
individuals that were the subject of testimony and comment 
earlier in the hearing. I have four children. My wife and I can 
think of nothing more tragic than losing a child under any 
circumstances. Our hearts simply go out to them. In my own 
family, although it wasn't of a child, we have experienced 
something of suicide, and it just is tragic beyond description.
    Third, I appreciate the committee's interest and concern 
about the unlawful use of steroids. And I want to just take a 
minute to repeat the basic position we have had, which I 
expressed twice before Senate committees, once in 2002 and once 
in 2004. Simply put, Major League Baseball Players Association 
does not condone or support the use by players, or by anyone 
else, of any unlawful substance or condone the unlawful use of 
any substance legal for certain purposes.
    I cannot put it any more plainly. The use of any illegal 
substance is wrong. And lest there be any question on the 
matter, I should add that we are committed to dispelling any 
notion that the route to becoming a Major League athlete 
somehow includes the taking of unlawful performance enhancing 
substances.
    I am not a physician. One doesn't have to be to understand 
that these are powerful drugs that are dangerous, and should 
not be fooled around with. And we understand that this is 
particularly true for children.
    Next, as I indicated in my full written statement, this has 
been one of the most difficult and divisive issues that we have 
faced. As I have explained to other committees, let me just 
take one moment to go through the process. The summer of 2002, 
when we were in bargaining, I met, as I do normally in 
bargaining with the players on every team one at a time, to 
talk about all issues involved in that negotiation.
    Half of each meeting and a little more was devoted to 
steroids. And a lot of issues were discussed with a lot of 
different, and a lot of conflicting opinions. There was a lot 
of discussion, for example, about the differences between legal 
and illegal steroids. And, in fact, people wondered what 
percentage of the claimed steroid use was legal substances. We 
did not know. There was a lot of speculation.
    There is a lot of speculation about whether we could be 
certain that dietary supplements, authorized and made legal by 
action of this Congress some 11 years ago unanimously in both 
Houses could be counted on to have the purity of products, or 
whether they were adulterated. There were questions raised as 
to whether or not testing does not amount to an assumption of 
guilty. What I mean by that is, you go up to someone and you 
say, take a test. And the failure to take a test, even without 
any other evidence is considered guilt. Normally, some players 
said, if someone accuses you of doing something wrong, it is up 
to them to have some evidence of that.
    And in a similar fashion, there was a question as to 
whether you should have to make a preliminary showing to test 
of some reason to believe there was inappropriate conduct. Not 
a precise fourth amendment standard, but the concept is 
similar.
    That produced, if I can use the words of Mr. Sosa earlier 
today, some bristling among the players. We talked it through. 
And we came to the following solution. We will do an anonymous 
test in 2003, and we will get some empirical data. If it is 5 
percent or more, we will shift to a program with disciplinary 
consequences.
    Did I hope and expect that it would substantially below 5 
percent? Yeah, I think I did. Was I right? No, I wasn't. It was 
slightly above 5 percent. So we shifted in 2004 to a program 
with disciplinary consequences.
    The incidence of use dropped to somewhere in the 
neighborhood of 1 percent. I have heard a lot of the comments 
about holes in the program. I am not sure there are really 
there, or that any real analysis has been done of the program. 
But, in any event, the trend line is pretty clear. 
Notwithstanding that, after the hearing before the Senate 
Commerce Committee a year ago this month, in which I indicated, 
as I will today, or as I will now today, that we understand the 
concerns raised by the members of the committee, I have 
listened all day, and that we will discuss them with the 
constituents.
    We entered into discussions with Major League Baseball 
about expanding that program. It took longer than we thought, 
in part, because there were some legal matters that we had to 
await the resolution of to see how certain matters could be 
resolved.
    I went to the players in December, at our executive board 
meeting, and made the recommendation that they give us the 
authority to finish that agreement and make the changes that we 
had negotiated. They gave me that authority without question. 
The result is, without going into the details, although I will 
be happy to if questioned, there is much more frequent testing 
this year.
    And as Mr. Selig has indicated, there is never a time in 
which a player is free from other tests. There is off-season 
testing. The substances, Mr. Manfred has covered. And just to 
reiterate a point, we both copied the applicable law, and 
provided that if any substance is shown to be anabolic and is 
unlawful, it gets automatically added. And the penalties were 
enhanced. With respect to the ``or'' clause, about which there 
has been a lot of discussion, let me echo what Mr. Manfred has 
just told you.
    During bargaining, we were explicitly told, there will be 
suspicions. During bargaining we expressly waived our right to 
contest that. It is not up to us. Normally a union can file a 
grievance and say, we think the penalty is too severe. In this 
case, up to the limit set forth in the agreement, we cannot. 
This was such a nonissue that in my transmittal to the players 
on ratification, I did not even mention the ``or'' possibility. 
It was just the straight suspensions.
    By any reasonable estimation, this is a considerably 
stronger and more enhanced program than we had a year ago. Will 
it work? I have my own belief. I believe that it will. And I 
believe that the evidence we have from last year is. But we 
won't have to guess about that. We won't. Mr. Selig won't. None 
of you will. Because the data will be the data. It will show 
us. And if it is successful, we will know it. If it is not, we 
won't.
    We were asked about ratification. The players are not 
together during the off season. They are together now. They are 
ratifying this agreement on an ongoing basis through spring 
training. A lot of clubs haven't, because I have not had an 
opportunity to meet with them yet, answer questions and explain 
the agreement and make sure they understand it. I can envision 
no circumstance in which it will not be overwhelming ratified.
    Finally, the committee's letter inviting me to testify 
asked me to comment a bit on what can be done to help educate 
America's young people about the dangers of abusing drugs and 
so on. As I previously testified, we stand prepared to work 
with the Congress, to meet with all of you, and see what makes 
the most sense, what would be the most effective. And I think 
you heard that from the players that were here today. I don't 
have to speak for them.
    I also want to echo that we ought to make certain that we 
do not explicitly or implicitly give credence or notoriety to 
those who claim or have claimed that steroids are the future of 
sports, etc. I applaud the Advisory Committee which has been 
the subject of some testimony.
    I did not know about it until today. It seems to me to be a 
fine idea. I am very glad that the players are involved. And I 
certainly hope that it gets off the ground. If we can help as 
an institution, as apart from the individual players, I am sure 
that we will be willing to do so.
    Finally, two points. I thank you for hearing me, Mr. 
Chairman. I think that the Congress needs to consider the 
reality that for many young people, steroids may only be a 
mouse click away. They are getting them from somewhere. Or the 
fact that our culture does not have a uniformally negative 
image of steroids.
    And I was struck by testimony before House Energy and 
Commerce last week. And I don't remember the individual 
testifying, I apologize, who pointed out that a number of 
corporate giants have premised advertising campaigns for 
products linking those products to being bigger and better, 
like they were on steroids.
    I mention it to indicate the breadth of the issue that 
perhaps is out there in the public mind. Congress should 
consider not limiting its attention exclusively to a top down 
review of testing programs, but also how to furnish parents, 
coaches, athletic directors, team physicians, teachers, 
principals and others who work with young people to have the 
information that they need.
    I know there was a bill pending in California that has not 
come into law yet. I do not know what is in the bill. It seemed 
to me the idea behind it was good. Last point and I will 
conclude.
    There is an article today in the Washington Post talking 
about gene doping. That article was similar to one that was in, 
I believe, Scientific American or Discover that I saw about a 
year ago. The principal point is, what has been going on now is 
chemical efforts to change muscle mass. And the science may be 
progressing to a point where it may be genetic efforts to 
directly change the genetic code.
    I suggest to you that is something which bears the closest 
scrutiny. And I do not know of anyone who can do that, other 
than the Congress of the United States.
    Thank you, Mr. Chairman. I apologize if I went a little 
long.
    Chairman Tom Davis. No. That is fine. Thank you very much. 
Anybody else wish to say anything up there.
    [The prepared statement of Mr. Fehr follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.182
    
    [GRAPHIC] [TIFF OMITTED] T0323.183
    
    [GRAPHIC] [TIFF OMITTED] T0323.184
    
    [GRAPHIC] [TIFF OMITTED] T0323.185
    
    [GRAPHIC] [TIFF OMITTED] T0323.186
    
    [GRAPHIC] [TIFF OMITTED] T0323.187
    
    [GRAPHIC] [TIFF OMITTED] T0323.188
    
    [GRAPHIC] [TIFF OMITTED] T0323.189
    
    [GRAPHIC] [TIFF OMITTED] T0323.190
    
    [GRAPHIC] [TIFF OMITTED] T0323.191
    
    [GRAPHIC] [TIFF OMITTED] T0323.192
    
    [GRAPHIC] [TIFF OMITTED] T0323.193
    
    Mr. Alderson. I have a statement, if I can. It will be 
abridged, but I would like to make an opening statement, if I 
can.

                  STATEMENT OF SANDY ALDERSON

    Mr. Alderson. Mr. Chairman, Mr. Waxman, committee members, 
I have been employed in baseball for almost 24 years, 17 of 
them with the Oakland Athletics, 14 of those years, from 1984 
through 1997, I was the general manager of the A's. I have been 
executive vice president of baseball operations at Major League 
Baseball since 1998.
    With the considerable attention now being paid to the 
steroid issue, it is difficult to imagine that there was a time 
when those in baseball had barely heard of steroids, much less 
suspected that they were a problem in the game.
    When I first became the general manager of the Athletics, 
the conventional wisdom within professional baseball was that 
strength training would not result in improved performance. 
Many players and clubs placed no emphasis at all on strength 
development.
    In the early and mid 1980's, the Oakland Athletics embarked 
on many innovative programs. We were the first to embrace 
quantitative analysis for the evaluation of players. We hired 
the first mental coach, someone actually in uniform, to assist 
with the development of our players and staff. We may have been 
the first team to promote strength training and to configure a 
team weight room at the ballpark.
    At the Major League level, a former Major League player 
already on the coaching staff was assigned additional 
responsibility as the strength coach. One of the players 
developed by Oakland during this time was Jose Canseco. Canseco 
was a mid-round draft selection, but he quickly developed a 
reputation for bat speed and power. By the end of the 1984 
season, which was before Canseco claims he began using 
steroids, Canseco was a possible future star with great power 
potential.
    Baseball America considered him the A's No. 1 prospect. 
Consequently his subsequent development physically as well as 
professionally was gratifying, but not surprising to those in 
the organization. By the time Canseco was an established 
player, many organizations had adopted similar strength 
training programs, and as a result throughout--many players 
throughout Major League Baseball were getting stronger and 
bigger.
    There did come a time when I did wonder whether Jose 
Canseco might be using steroids. There was a column written 
late 1988 that speculated his steroid use. But his reaction to 
that speculation was a vehement denial, much different response 
than the recent admissions in his book. Also, probably in 1989, 
Canseco reported to spring training looking markedly bigger and 
more physically developed than he had been the year before. 
However, under the collective bargaining agreement then in 
force with the Major League Baseball Players Association, Major 
League players could not be tested for steroid use. Steroids 
were not even illegal until 1991.
    During my time in Oakland, I never saw a player use 
steroids, never saw steroids or steroid paraphernalia. Steroid 
suspicion was not a consideration of mine in trading Canseco in 
1992, in trading in 1997 or not resigning him in 1998.
    There were many factors at work in baseball in the 1990's 
which may have obscured a steroid problem. Home runs and run 
production were increasing during this time, but not always 
year to year. At the same time, strength programs were in vogue 
across baseball; hitter-friendly ballparks were being built, 
expansion that occurred in 1993 and again in 1998. Two seasons, 
1994 and 1995, had been shortened by a player strike. That 
design had changed, and there was an emphasis with many clubs 
on having more offensive players even at traditionally 
defensive positions.
    Beginning in the late 1990's, there has been a growing 
awareness of steroid use in professional baseball. This greater 
awareness first emerged with the inquiry into the use of 
androstenedione in 1998. Since then we have become more 
knowledgeable as a result of a strong testing program in the 
Minor Leagues as well as the testing program contained in the 
2002 collective bargaining agreement with the Players 
Association. Participation in international competitions such 
as the Olympics, where professional players have competed since 
2000, has also contributed to our knowledge and, I believe, to 
the willingness of the Players Association to finally accept 
drug testing for steroids. Out of this greater awareness have 
come a strengthened Minor League drug policy, the new Major 
League drug policy implemented for this season, and a medical 
advisory committee that was formed partly to keep the 
Commissioner and Major League Baseball informed about 
performance-enhancing substances. Also, tighter controls on the 
access to Major League clubhouses have been instituted.
    Hindsight is 20/20 vision. All of us in baseball, including 
me, wish we would have been able to detect steroid use early in 
the 1990's, but we can only learn from this recent history. In 
the meantime, the new Major League steroid policy effective for 
this season is a great step forward. The program represents on 
the part of both players and management an affirmation that the 
integrity of the game, the health of Major League players and 
the health of the youth of the United States are vitally 
important to baseball. Thank you.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Alderson follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.194
    
    [GRAPHIC] [TIFF OMITTED] T0323.195
    
    [GRAPHIC] [TIFF OMITTED] T0323.196
    
    [GRAPHIC] [TIFF OMITTED] T0323.197
    
    [GRAPHIC] [TIFF OMITTED] T0323.198
    
    Chairman Tom Davis. Mr. Towers, did you want to make an 
opening statement?
    Mr. Towers. Just questions.
    Mr. Manfred. Mr. Chairman, I notice this list went up over 
here, and I might--so that we are clear, the second item from 
the bottom, clenbuterol, that is listed is not covered by our 
policy. If you review my letter of March 14, 2005, we reported 
a positive for that substance to you. It is, in fact, covered 
by our program. It is in response No. 5. In addition, the first 
item under the list of anabolic steroids is the base molecule 
for THG, which is also banned under the program.
    Chairman Tom Davis. That is Mr. Waxman's chart. Let me ask 
you while you are here. Let's turn to the agreement, page 11, 
player tests positive for steroid. First positive test results 
in a 10-day suspension or up to a $10,000 fine. You are telling 
me this was just carried-over language from a previous 
agreement?
    Mr. Manfred. Yes.
    Chairman Tom Davis. Mr. Fehr, your understanding is you 
have communicated this to the players, that you didn't even 
talk about the fine; is that correct?
    Mr. Fehr. That's correct, we have not.
    Chairman Tom Davis. Since this is a draft agreement, we 
have no problem taking this out of here, do we, ratifying this 
and just taking this out? Does anybody?
    Mr. Selig. I do not have a problem.
    Chairman Tom Davis. Can we execute an agreement that we can 
take that out?
    Mr. Fehr. I will certainly go back to the players with it.
    Chairman Tom Davis. The players don't know it's in there, 
right?
    Mr. Fehr. That's correct.
    Chairman Tom Davis. You didn't communicate this?
    Mr. Fehr. Mr. Chairman, as we heard from one of the 
individuals on the doctors' panel, and I apologize, I do not 
remember who it was, there may be individuals for whom it's 
clear that a positive result was either inadvertent or 
unknowing.
    Chairman Tom Davis. That's why you have the appeal.
    Let me just say I'm not a big lawyer like you, I'm a 
recovering lawyer, but that's why you have an appeal procedure 
where they can come back.
    Let me just say, we will look at this. Taking this out 
would be a major advance for baseball both for everybody's 
credibility.
    Mr. Selig. When we presented it to the owners on January 13 
and 14, in Phoenix, we presented it as just suspension. There 
was not a mention of fines. So it was passed and ratified 30 to 
nothing with the understanding that any violation would be 
suspension.
    Chairman Tom Davis. Let me say, you are people of goodwill. 
Mr. Fehr is a careful attorney, and I understand why he wants 
to go back and check it, but it wasn't communicated to the 
players, according to your testimony, so I wouldn't think you 
would have to go back to the players. It seems to me there is 
an appeal period for players who have a test result otherwise 
they can take advantage of and take care of----
    Mr. Waxman. On this one point, yesterday Mr. Manfred was on 
the radio, and he said that this was not simply carried over, 
but it was intentionally done so to give as much power to the 
Commissioner as possible. Do you deny saying that on a radio 
interview yesterday?
    Mr. Manfred. What I said on the radio was that the language 
was originally put in the agreement to deal with an 
extraordinary circumstance such as Mr. Fehr just described. 
That's what I said on the radio when I was talking about going 
into the agreement.
    Chairman Tom Davis. Wouldn't the appeal period allow for 
that?
    Mr. Manfred. You are correct about that. Your analysis of 
that issue is correct.
    Chairman Tom Davis. Let's watch that, and would like you to 
report back to us on that. We have made a major issue out of 
it, and you have responded. And if you could respond to it, 
that would be helpful.
    If I could turn back to page 8 on the disclosures, where it 
says that disciplinary fines imposed upon the player by the 
Commission will remain strictly confidential, since we are not 
going to be doing fines, is this another drafting error?
    Mr. Manfred. What page?
    Chairman Tom Davis. Page 10, disclosure of player 
information, A-2.
    Mr. Manfred. There is language that deals with suspension. 
The suspension shall be entered in the baseball information 
system.
    Chairman Tom Davis. I understand that. But under the 
language on page 11, where you still had under the written 
document a fine or suspension option, this refers to the fine 
would not be disclosed. You tell me that was a drafting error. 
Would this be a drafting error as well?
    Mr. Manfred. You still might have fines under the drugs of 
abuse portion of the program, Mr. Chairman. So not the steroid 
portion, but the drugs of abuse portion. And there may be some 
use for that language still, I believe, but not under the 
steroid piece, because all the suspensions would be disclosed 
in the transactions.
    Chairman Tom Davis. What about the discipline, going back 
to page 11, under the discipline program, where you give 
options for players who are at this point--who are put into 
treatment, and they fail treatment, failure to comply with the 
treatment. Again, you have suspensions, and you also have a 
fine option there. Was this agreed to?
    Mr. Manfred. There is an option to fine. This part of the 
program would apply to drugs and abuse. Some people who enter 
these programs are in an employee assistance mode. They may 
come forward voluntarily, seek treatment, and they are put on a 
treatment program and may be tested, OK. And if they have a 
slip, sometimes the doctors recommend to us that a fine is 
appropriate, and we don't disclose those fines.
    Chairman Tom Davis. And, in fact, if a player came forward 
and admitted they have a problem and went into the program, 
they could still be playing, and you want to protect the fact 
that they came forward?
    Mr. Manfred. Absolutely correct. The drugs and abuse 
portion of the program, there could be still some fines there.
    Chairman Tom Davis. Confidentiality. Turn to page 9 of the 
confidentiality, and this was addressed. Mr. Selig, you 
addressed this both in your opening statements on the 
governmental investigation. This means any subpoena issued, 
warrant obtained or any other investigative effort employed by 
any governmental body with the intention of securing 
information relating to drug testing of players--that, in my 
mind, doesn't just mean the individual player's results; these 
could be the composite results, which we have subpoenaed in 
this case, too. Am I misconstruing this, or did you really 
mean----
    Mr. Manfred. All I can tell you is that when we provided 
you the aggregate information----
    Chairman Tom Davis. Which is all we asked for. We didn't 
ask for any individual player results because some of your 
representatives are out there saying we asked. We never did ask 
for that, did we, to you knowledge?
    Mr. Manfred. I believe--and I don't have the document in 
front of me. I think the original request for information was 
broader than the subpoena. I mean, I don't have it in front of 
me.
    Chairman Tom Davis. It is not in front of me.
    Mr. Manfred. I just don't remember, Mr. Chairman. Candidly, 
the best answer I can give you on this is the type of request 
made was such that nobody raised even the possibility that this 
language was operative. Again, I think the best evidence of 
what we intended the language to mean was the way that Mr. Fehr 
and I conducted ourselves, confronted with the type of limited 
investigation that you wanted to undertake.
    Chairman Tom Davis. It would not apply to the investigation 
of this committee under your understanding?
    Mr. Manfred. That is correct.
    Mr. Fehr. If it is not seeking the individual private data. 
This is designed to get that private, individualized results, 
and it is broad enough to encompass not only steroid testing, 
drugs and abuse testing, treatment programs, medical records.
    Chairman Tom Davis. Also broad enough to include what we 
are doing, but you are telling me that doesn't apply?
    Mr. Fehr. The fact that it doesn't, I think, is evidenced 
by the fact that there was no effort to resist the subpoena 
once it was clear that no individual names were being sought.
    Chairman Tom Davis. Both of your interpretations is as long 
as you stay away from individual information, subpoenas and 
investigations would not halt the program?
    Mr. Manfred. I agree with what you just said.
    Mr. Fehr. Yes.
    Chairman Tom Davis. I think one of our concerns is, you 
know, when you get into labor negotiations--and I'm a 
recovering lawyer. I used to do this before I got here. You get 
into negotiations, and you very ably want to represent your 
client whether it's the league owners, whether it's the 
players, and you get inside this bubble. And I hope if nothing 
else, I hope today's hearing has shown you inside the bubble 
and what you are dealing with on these issues from the players' 
perspective and from the managers' perspective is just a solar 
system away from where the American public is.
    The public really demands more clarity to this, a clearer 
sign than what we have. NFL--and we have talked about other 
sports and amateur sports. This is a start, and I don't want to 
sit here and say you haven't tried to do something. That would 
not be fair. And I know you have worked hard on this. I know, 
Mr. Fehr, from your perspective, this is not an issue you had 
to address under your collective bargaining contract. You came 
back and did this out of cycle. I don't want to take that away 
from you. But I want to say that the end result--and you can 
hear this from the testimony and from liberals and 
conservatives and Republicans and Democrats here--really falls 
short of what we think Major League Baseball ought to be doing 
because it is not just a business, it has been decreed by the 
court as a national pastime. These players, like it or not, are 
role models, and this trickles down into every element of 
organized sports. And that is really the concern here as we 
look at this in terms of some of the shortcomings.
    Again, as Senator Bunning said, you are out of the batter's 
box and on your way to first base, and we think it needs, as we 
have discussed here, some additional work. So I will end with 
that and pass it on to Mr. Waxman.
    Mr. Waxman. Thank you very much, and thank you, gentlemen, 
for your testimony.
    Mr. Selig and Mr. Fehr, there are two fundamental questions 
that I think we need to focus on today. One is what did 
baseball know about steroid use in the game, and what did 
baseball do about it? The other, of course, is whether 
baseball's new policy is adequate.
    I want to focus my questions on the first issue. What did 
baseball know, and what did baseball do to respond? Mr. Selig, 
Jose Canseco told us that it was widely--Jose Canseco was 
widely suspected of using steroids during his career, yet he 
told us that no one in baseball ever asked him about his 
steroid use. No one told him it was wrong or asked him to 
submit to a drug test. What did you do as Commissioner to 
investigate whether Jose Canseco was using steroids?
    Mr. Selig. Some of the things that happened, Congressman, 
with Jose Canseco happened before I became Commissioner.
    Mr. Waxman. The stories were after you became Commissioner.
    Mr. Selig. The fact of the matter is that I have said--if I 
can answer your question--having been in this sport for almost 
40 years, that in the 1990's, and I have gone back over that 
period, there was some conversation, there was the 1988 thing, 
there were a few articles written that people have quoted, but 
not many--nobody ever came to me, no manager, no general 
manager, nobody ever came to me in the 1990's. I became 
concerned myself in July on a Sunday morning when I read about 
Mark McGwire and Andro, and that's when all these things 
started.
    Mr. Waxman. Before that, Fay Vincent, who was your 
predecessor, was concerned about steroid use to make it a 
prohibition on his own. He said it is going to be prohibited in 
baseball. And then there were news reports about Jose Canseco.
    Mr. Selig. With all due respect, I want to be careful about 
my predecessors, but baseball had no drug program at all until 
I took over, none, zero. And therefore, whatever you may hear 
and whatever you read, there was no program, and it was only in 
the 1990's as we developed that these programs began to 
develop. There was nothing. And remember----
    Mr. Waxman. Let me interrupt you, because I have limited 
time. In 1991, it became baseball's drug policy the possession, 
sale or use of any illegal drug or controlled substance by 
Major League players and personnel is strictly prohibited. 
Those were the rules in 1991.
    Mr. Selig. They were not the rules. They were not 
enforceable. They were our statement of purpose, but they had 
to be collectively bargained.
    Mr. Waxman. That was true only if you were going to have 
random tests of everybody. But if you have an individual for 
whom you had probable cause to believe that something needs to 
be investigated because they are violating the rules, it seems 
to me--I have in front of me, the Major League Constitution, 
and it says, the functions of the Commissioner shall include to 
investigate or upon complaint or upon the Commissioner's 
initiative any act, transaction or practice charged, alleged or 
suspected to be not in the best interest of the national game 
of baseball with authority to subpoena persons and order the 
production of documents in case of a refusal to do so, and to 
determine after investigation what actions to take.
    So you had the ability, if you knew that somebody was 
breaking the rules, to bring them in and ask them, why are you 
breaking the rules, are you breaking the rules, would you 
submit to a test?
    Mr. Manfred. Mr. Waxman, all aspects--and the only reason I 
am answering, because it's a lawyer's answer, all aspects of 
that Commissioner's drug policy--and again, we have had a lot 
of agreement today. I think Mr. Fehr is going to agree with me 
about that, we are mandatory. The probable cause requirement, 
the random testing, those are all mandatory.
    Mr. Waxman. I'm going to interrupt you, because you are 
giving me a lawyer's answer. The collective bargaining 
agreement was for random testing of everyone, but the 
constitution of Major League Baseball said if there was some 
suspicion of breaking the rules, the Commissioner could do 
something about it.
    I have a picture up there of Giambi, and he went to the 
Yankees. And the picture on the left showed him with long hair 
and a beard. And Steinbrenner said, nobody is going to play 
with long hair and beard. That is what he looked like right 
after he went to the Yankees. If people said you are not going 
to disobey the rules of using steroids, we are not going to 
permit it; and if we suspected it, I think the Commissioner had 
the ability to go in and demand an explanation.
    Mr. Selig. I will let him give a more legal answer. 1990, 
1991 was before I took over. Mr. Vincent was the Commissioner 
then. No. 2, the fact of the matter is he denied it, he being 
Canseco. And nobody did come to me. And he denied it 
emphatically, and that was the end of the discussion.
    Mr. Waxman. In July 2000, the police found illegal steroids 
in the glove compartment of the car of Red Sox shortstop Manny 
Alexander. At the time it was a Federal crime to possess these 
steroids. At the time you were the Commissioner. The 
Commissioner's policy on drug use specifically banned the 
anabolic steroids in Major League Baseball. What kind of 
investigation did your office do after this discovery, and was 
Mr. Alexander ever asked to take a test for illegal steroid 
use?
    Mr. Selig. Mr. Manfred conducted the investigation.
    Mr. Manfred. When we learned about the situation with 
respect to Mr. Alexander, we worked with the Players 
Association under kind of ad hoc arrangements we developed. We 
reached an agreement, and there was actually reasonable cause 
testing imposed in that situation.
    Mr. Waxman. There was testing?
    Mr. Manfred. Yes.
    Mr. Waxman. What sanctions did Mr. Alexander receive? Did 
he get a suspension?
    Mr. Manfred. I believe----
    Mr. Waxman. The answer was no.
    Mr. Manfred. I believe because his test was actually 
negative and he denied those steroids were his, he took the 
position that they belonged to a young man that was in the car 
with him. And after we tested him and he was clean, we didn't 
have a basis for disciplining the individual.
    Mr. Waxman. We heard from Senator Bunning this morning, and 
he is a very respected Senator and someone who is--most 
valuable player in the Hall of Fame for baseball, and he said 
your testing program is puny. We heard from the parents, and 
the parents said to us, we don't think this testing program is 
adequate. We heard from the players, and over and over again 
they were asked, why don't you go to something stronger? Why 
don't you go to something like the Olympic standard?
    Now, Mr. Selig, you can't agree to anything without 
collective bargaining, but if Mr. Fehr would agree, would you 
accept the idea that on a first offense, you got a 2-year 
suspension, and on a second violation, that you are out of the 
game? That is one that has worked in the Olympics, and it would 
be a clear signal.
    Mr. Selig. Well, the Olympics are a little bit different, 
but let me answer your question. The fact of the matter is--and 
I say this and I think everybody is going to understand--yes, I 
wanted tougher testing. I think the Minor League program is a 
manifestation of that. I believe there should be tougher 
testing. I believed it in 2002. I believe it now. But we now 
have a program----
    Mr. Waxman. Let me ask Mr. Fehr. If you are supporting it, 
maybe we could find out if Mr. Fehr would support it.
    Mr. Selig said he would support a tougher testing program. 
The players said they wanted it. The members of your union, 
they wanted a tougher testing program. And it appears that this 
program that you have already agreed on is not tough enough in 
the eyes of so many people. Would you support a tougher testing 
program?
    Mr. Fehr. Let me take a minute to explain my response. It 
is not a simple yes or no answer. First, I believe my 
obligation with the players is to consult with everyone in 
private, confidentially, in a situation in which they are not 
under the glare of TV cameras. That's first.
    Second, my personal view, this is not an institutional view 
I'm expressing now, my personal view is that our job with 
violations of substance use is not to destroy careers. Our job 
is to stop it. And if we can stop it short of destroying 
careers, and we can put people on the right track, and we can 
get them back to playing with the appropriate disclosures that 
you heard the players talk about and all the rest of it, that 
is manifestly better.
    That is the principle behind which every employee 
assistance program in the country. It worked with drugs and 
abuse with us. No question about that. And therefore, my 
suggestion is, and I believe this very strongly, we have to 
find out empirically if it works before you go back and do 
that. The evidence we have so far suggests that what we did, 
which is far short of the program we have now, far short of it, 
had a--not only a demonstrable, but a dramatic effect. The data 
is the data.
    Mr. Waxman. I would submit to you that it's not just a 
collective bargaining issue between the two of you. The best 
law enforcement is the one that is clearly stated and enforced. 
And if laws are broken, you enforce them, and that means you 
prevent people from using steroids or any other illegal drug. 
If we had a policy of first offense, light penalty; second 
offense, not that big a penalty; third offense, maybe a little 
stronger, if they know they are going to be out of the game and 
lose that money, those players are not going to be using 
steroids.
    Mr. Souder [presiding]. We have gone way over time. I yield 
to Mr. Shays.
    Mr. Shays. Thank you. I appreciate you gentlemen being 
here. Frankly, you are the most important panel. I know you are 
people of goodwill, but I feel that you are asking us to do 
something that just boggles the mind. It boggles the mind for 
me to think that you would send us a drug policy and then tell 
us that the document isn't accurate, and that is just sloppy. 
You guys are the best lawyers in the business. And I want to 
know, and I want to know without--under oath, I want to know if 
you were asked for the drug policy verbally by our staff?
    Mr. Manfred. I was here on March 2, and a member of the 
staff asked me if we could get the drug policy. I told them we 
were still drafting the policy. The next request that I 
received was a letter that I received on March 7th. It was a 
two-page, single-spaced request for documents that included 
items----
    Mr. Shays. Thank you. You have answered the question. You 
were asked first by staff. You were asked second by letter on 
March 7. I want to know why it took a subpoena to get this 
document.
    Mr. Manfred. Because the document was not yet complete.
    Mr. Shays. What do you mean not yet complete?
    Mr. Manfred. We were drafting the document. That document 
on March 2 did not exist.
    Mr. Shays. This document didn't exist?
    Mr. Manfred. Not in the form that you have it.
    Mr. Shays. You mean you just wrote it then; this document 
you were telling people you had a policy, and now telling us 
wasn't even drafted in March?
    Mr. Manfred. We were making changes to the draft still in 
March.
    Mr. Shays. I think that I need to calm down.
    Mr. Waxman. If the gentleman would calm down, I just want 
to point out the Commissioner announced this policy in January.
    Mr. Manfred. We always have announced our collective 
bargaining agreements without language drafted. We have 
routinely done that for 30 years.
    Mr. Shays. All you do by your answers is make me want to 
know more about what the hell you do do, because when you 
announce the policy and you tell us--and you have not been 
responsive to our staff--and the bottom line is--no, you 
haven't been--and the bottom line is we had to subpoena this 
information. And when we get this information, you are telling 
us what we are looking at is a drafting error, that to me is 
just unbelievable.
    I would like to ask you why should someone have five 
strikes before they are out? I want to go down the list. Why 
five strikes?
    Mr. Manfred. Congressman, let me begin----
    Mr. Shays. I would like the Commissioner. Why five strikes?
    Mr. Selig. That is the negotiated policy. That is the best 
we could do in collective bargaining. This is collective 
bargaining.
    Mr. Shays. It's the players' fault? I want to know your 
position. Is your position one strike and you're out?
    Mr. Selig. No, but the penalties would be much tougher if I 
had my way, as I did in the Minor Leagues.
    Mr. Shays. Let's not blame the players. I want to know why 
you need five strikes and you're out.
    Mr. Selig. I am not blaming the players.
    Mr. Shays. I want to know why you need five strikes and 
you're out. I want to know why you can break the law once, 
break the law twice, break the law three times, break the law 
four times and then you're out? Mr. Fehr, maybe you could tell 
me, because you represent the players.
    Mr. Fehr. The notion of progressive discipline is well 
ingrained in collective bargaining agreements in this country 
and has been for years.
    Mr. Shays. Even when you break the law?
    Mr. Fehr. Has been for years.
    Now, second--I'm sorry. I lost my train of thought.
    Mr. Shays. Why should you have five strikes before you are 
out?
    Mr. Fehr. And the second reason is did we believe--did I 
believe that doing it this way with the public disclosures 
would accomplish the result of getting it stopped? The answer 
is, yes, I did. And I think the data we have so far supports 
that.
    Mr. Shays. Well, why would it accomplish it if you have 
five strikes? You can break the law five times, four times 
before you are asked to leave baseball?
    Mr. Fehr. I can't say it any more than we have. We believe 
in the concept of progressive discipline. It is well ingrained 
in labor law and has been for a long time. We believe that if 
what you do is you have a circumstance in which there is a 
positive test, there is no treatment program like there was 
under the first one. That was the criticism last year. It 
becomes publicly known. That person is now subjected, 
immediately, to individualized testing. He is no longer part of 
the random program. He gets it on an ongoing basis. If he 
screws it up, he is gone.
    Mr. Shays. My light is on, but what you are telling the 
kids is--is you can break the law four times before you are out 
of the game. And that, to me, is amazing. And I just want to 
say to you, Commissioner, when you say it is collective 
bargaining, you are basically blaming the ballplayers. And I 
don't know why you just don't say what you want, what it should 
be, and fight like hell to make sure it happens and publicly 
expose the players if they are taking the position they are 
taking.
    Mr. Selig. I have said, Congressman Shays, over and over 
again publicly that the Minor League policy, which is much 
tougher, is a manifestation--is about how I feel about the 
issue and what I want. I would even tighten that up, and we may 
in future years.
    Mr. Shays. I think you need to take your case to the 
public.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. How many people have you suspended?
    Mr. Manfred. I'm sorry?
    Mr. Cummings. I asked the Commissioner how many people have 
been suspended.
    Mr. Selig. This policy has just kicked in.
    Mr. Cummings. That's what I thought.
    You know, one of the things that you said, Mr. Fehr, and I 
do appreciate all your testimony, but you talked about you 
didn't want to destroy the careers of these players, these 
multimillion-dollar players. Well, Mr. Fehr, let me tell you 
something. I have people in my district that don't have a job. 
And if they got caught with a Schedule III drug, you know where 
they're going? To jail. And nobody cares about their careers. 
And Mr. Souder will tell you, we travel all over this country, 
and we have people who get convicted of offenses, and they 
suffer for the rest of their lives. And so we have criminal 
laws here. And it seems to me that we would want zero 
tolerance. Is that what you want, Mr. Selig?
    Mr. Selig. Yes.
    Mr. Cummings. 1.7 isn't good enough, is it?
    Mr. Selig. No. I agree with that.
    Mr. Cummings. Let's talk to you, Mr. Manfred. On ESPN 
radio, Mike and Mike show yesterday, you said the way the 
policy is written is that it says that for a first positive 
steroid test, the Commissioner has the discretion to impose a 
10-day suspension or $10,000 fine. The reason it was written 
that way and committed to the Commissioner's discretion is 
because the bargaining party's understanding consistent with 
the descriptions that have been made to the policy publicly and 
to Congress is that a positive test will result in the 
Commissioner imposing a 10-day suspension. The language after 
the disjunctive was added, to give the Commissioner discretion 
to deal with that unusual circumstance where there was an 
unwitting positive, what does that mean?
    Mr. Manfred. First of all, I was describing the original 
reason for including the language in the 2002 agreement, No. 1. 
No. 2, what I meant by the phrase ``the unwitting positives,'' 
somebody who demonstrated to us that the only substance they 
ever took was in this jar. We analyzed it. It contained a 
contaminant, a steroid that resulted in a positive, and it was 
nowhere listed on the label. The individual had no way of 
knowing; he could not have known that it was in there, and that 
was the kind of circumstance I had in my head when I said that.
    Mr. Cummings. When do we expect this, whatever the policy 
is, to be ratified, Mr. Fehr?
    Mr. Fehr. I'm sure it will be by the end of the month. I 
still have to meet with 12 or 13 teams and make sure that I 
explain it and answer the questions from them.
    Mr. Cummings. You can understand the frustration of Members 
of Congress, can you not?
    Mr. Fehr. Of course.
    Mr. Cummings. You can understand the frustration of these 
parents that I'm sitting here watching, and I feel kind of bad 
about this, and they're sitting here listening to this, and I 
wish you could have a camera so you could see them while you 
are testifying, because they are getting the impression--that 
there used to be a time when they used to use the phrase rope-
a-dope where I think Mohammed Ali--they'd rope-a-dope and just 
play out the clock. And basically I want to make sure that, 
first of all, that we know what the policy is.
    I am going to be frank with you. I've sat here for about 8 
or 9 hours, and I am still not clear what the policy is. And we 
want to know when is that policy going to take effect, and is 
it clear, Mr. Selig, that if someone is found to use steroids, 
that they will be suspended? Is that what you are telling us, 
that $10,000----
    Mr. Selig. Unequivocally, they are gone, and they will be 
suspended.
    Mr. Cummings. For how long?
    Mr. Selig. Ten days for first offense.
    Mr. Cummings. Without question?
    Mr. Selig. Without question.
    Mr. Souder. I hope that you realize your position has 
deteriorated substantially on this panel, and we were 
progressing along thinking we were kind of moving to the same 
page. In fact, you have upset me and most of the other Members. 
Doesn't matter if you are a Democrat, Republican or liberal or 
conservative. We have been hearing all day about a policy. I 
think spring training is under way. I think off season is 
already over. Drafting errors--where you have contradicted 
yourselves, whether it is a drafting error--we have had 
testimony here saying there is precious little privacy in the 
locker room. Mr. Alderson says he didn't know what was going on 
in the locker room. Is there precious little privacy that we 
know? Ken Caminiti has already confessed. Jose Canseco has 
already confessed. How come nobody could see it? It isn't even 
plausible. American people who are watching this right now 
aren't viewing your testimony plausible. It is a huge problem 
right now for Major League Baseball.
    Let me tell you another reason why you are losing ground. 
You talk about financial penalties, and you confuse matters by 
saying what is voluntary and involuntary. Quite frankly, that's 
easily fixed in the contract. Those that come forward 
voluntarily are treated differently than those who get caught 
in a drug test. It is that way in every business. Don't act 
like you are the only collective bargaining agreement or the 
only business in the country that has drug testing problems.
    And in your fines, you are dealing with people who are 
making in some cases $10 million a year. Do you know what your 
fine system is, the equivalent for a truck driver who has to 
take a test and gets suspended? The equivalent is a $25 fine 
for a major player, and the $10,000 equivalent for a 2 million 
or lower-level player is $125. That is a real severe penalty.
    As Mr. Fehr said, you believe someone will be--the first 
suspension, even though it is only 10 days, why do we have 
five? And you said, well, because it won't take five. Then take 
the five out if you are so confident it won't take the five. We 
don't give five strikes and you're out to people all over this 
country. We are looking for all kinds of reentry programs and 
looking how to address it, but we don't give young kids on the 
street that we pick up five chances on this type of thing.
    Let me go through one other category that I raised, and I 
ask unanimous consent to put these materials in the record on 
ephedra.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.199
    
    [GRAPHIC] [TIFF OMITTED] T0323.200
    
    [GRAPHIC] [TIFF OMITTED] T0323.201
    
    Mr. Souder. In 1997, the NCAA banned ephedra. In 2001, the 
NFL banned ephedra. In 2003, a baseball player of the Baltimore 
Orioles, Steve Belcher, died of complications of an ephedra-
related substance. Shortly thereafter, Mr. Selig, Commissioner 
Selig, said we are going to ban ephedra. Then ephedra wasn't 
banned. Then Congress went ahead and we made ephedra illegal. 
And this is one of the documents I'm inserting into the record. 
It's only in this policy that you start to even test for 
ephedra 1 year after it's illegal, and you expect us to believe 
here that you shouldn't have independent testing, trust us, 
when you said there are drafting errors, when you brag about 
the policies of the whole hearing, and you don't have the 
policy, as we are trying to develop the hearing, that you have 
already started the baseball season and you are not doing it.
    And one last thing I want to say, and I would be interested 
in some responses, that I heard you say that even given the 
holes in the test, which I believe they are substantial, 
including on steroids, that this applies to steroids only. If 
somebody is on cocaine or LSD or other hormones, that they can 
be fined basically the equivalent of $25 for a star; in other 
words, $10,000 converted is $25 for a star, and $125. Are you 
saying you are going to suspend for other drugs as well as 
steroids?
    Mr. Manfred. First of all, even though we reached this 
agreement in late January and began redoing what is a long and 
complicated agreement to get it right, we began operating under 
this agreement on March 3. We were in the camps taking urine 
samples. So I understand you would have liked it done faster. 
That was as fast as we could get it done, and, frankly, 
demonstrated a lot of sort of cooperation in terms of beginning 
to go out and make collections under the program before the 
document was finalized.
    With respect to the drafting of the agreement, this is a 
very long and complicated document. You did identify one spot 
in the language where it could have been drafted better. I will 
say again what I said at the outset, as drafted, the 
Commissioner had the ability to do what he said he was going to 
do. He has the ability to suspend for 10 days. And you have 
been mischaracterizing the document.
    Mr. Souder. You have been describing that as one thing we 
made an error in. It is the pivotal part which is the penalty.
    My time is up. I yield to Mr. Kanjorski.
    Mr. Kanjorski. I can sympathize with some of my fellow 
committee members and a little bit of the frustration in your 
responses. I think people that are watching us ask questions 
whether there is favoritism and special benefits that flow to 
professional athletes as opposed to the general population, and 
that is a reasonable question. And I have always wondered why 
you could go to a hockey game and see an organized riot on the 
field, and nobody ever gets prosecuted for assault and battery. 
If you are a professional hockey player, you have the right to 
take your club and beat the living bejeezus out of your 
opponent as long as he doesn't get brain dead.
    What we are facing here that--as a result of this hearing, 
we are approaching this whole problem like it's a baseball 
problem. I don't happen to think it is. I think it is a 
societal problem of great proportions. But what I think our 
policy as Congress should be is what we are going to do to 
protect average people and average athletes, misguided but 
nevertheless average, many of which will never get there.
    I am not certain it is totally solvable. I proposed some 
questions earlier today that what is the motive for doing these 
things. And, you know, when you are dealing with cocaine or 
marijuana, I guess the motive is to feel good, I'm not sure. 
But when you are dealing with these things, it's a profit 
motive. If you can equip your body in a more special way than 
your opponent, you have a chance to succeed and get a greater 
salary. It is sort of free enterprise's solution to the 
challenges of modern science. And regardless of what we do in 
policy, somebody is going to be out there trying to put another 
drug together ahead of us so that we are obsolete by the time 
we pass the law.
    Mr. Kanjorski. The situation I would like to have baseball 
look like is one, and the rest of the committee is saying, back 
off from this idea of collective bargaining. Quite frankly, if 
it is illegal substances, I'm not sure how you can participate 
in not prosecuting. It would seem to me--isn't it correct that 
in a junior high school or high school, we found out if someone 
was taking one of these Class III drugs that are illegal, that 
they would have to be prosecuted? Why should baseball be any 
different?
    So whether I'm talking to the players' side or the league 
side, you know, you really have to disengage yourself from the 
idea that you are some special category in American society 
that is not subject to criminal law or the same type of 
punishment as my friend from Maryland indicated what happened 
in his congressional district has happened. You have to--and 
I'm going to tell you, I'm a sympathetic Member of this 
Congress from the standpoint that I'm not sure that it's our 
role to get into taking on the regulation of every sport in 
America. But it is awfully frustrating when professional 
athletics think they are in a special category and don't have 
to measure up to what other citizens are held for in criminal 
respects. And you have to do something about it. Have to do 
something about it.
    But what we are trying to do is see how we can protect 
those kids out there. I want to bring up a proposition. Look, 
we use markers. We can trace where a drug comes from, where it 
was manufactured, whose hands it was in until its final 
disposition. Has baseball ever gone to people and said, let's 
get these steroids with markers in them so we can determine 
where they came from? Has anybody inquired into who is making 
the money on this? Is this the American pharmaceutical 
industry, or is this some diabolical foreign industry, or is 
this a garage operation? I happen to think it is probably more 
sophisticated than that.
    My question is what are you doing about the prevention of 
this so it doesn't spread to the millions of athletes out there 
that are dreaming someday to sign a $10 million contract?
    Mr. Manfred. Let me take a crack at that. What we do know 
as a result of our own internal activities is that steroids are 
available a wide variety of places. You heard some testimony 
earlier today, different countries, Mexico, the Dominican 
Republic have different types and severity of regulation in 
terms of the availability of these substances, and not only is 
the regulation different, the acceptance in society of the use 
of those substances are different.
    The Internet is a second huge problem. I mean, if you go on 
the Internet and look up things like steroids, you cannot only 
figure out how to buy them, there are whole Web sites devoted 
to how you beat steroid tests. It is like a cottage industry.
    So in terms of getting at it from the control end, when you 
realize you have both foreign sources and the Internet, to us, 
we don't have a good answer as to how you get your arms around 
that. It just seems kind of beyond the capacity of a private 
employer to deal with, you know, the trafficking issues 
associated with availability in other countries and, you know, 
the sale of these substances on the Internet.
    Mr. Alderson. Recent reports to the contrary 
notwithstanding, Major League Baseball has had an ongoing and 
very positive relationship with the FBI. We currently expect to 
have a meeting with the FBI over the next 2 or 3 weeks in order 
to make sure that, going forward, we work together. And this is 
certainly an area where the FBI has been active in the distant 
past and perhaps may be active again in the future.
    Chairman Tom Davis. Thank you.
    Mr. Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman. The only 
document we have is this drug proposal that we were handed 
today that talks about Major League Baseball's joint drug 
prevention and treatment program. And I assume that is the most 
current copy; is that correct?
    Mr. Manfred. Document that I produced to the committee.
    Mr. Westmoreland. And who negotiated this for Major League 
Baseball, and who negotiated it for the players?
    Mr. Selig. Mr. Manfred did for Major League Baseball.
    Mr. Fehr. It was very probably Michael Weiner for the 
players.
    Mr. Westmoreland. Mr. Manfred, we've got a saying down home 
for something like this: You've got your hat handed to you. And 
when they handed you, their hat--your hat, they handed America 
their hat, because this thing right here, I'm going to read 
this to the American people, and hopefully this will be able to 
put on the Internet. As Mr. Shays said, if you don't comply 
with the treatment program, you have five opportunities; that 
the fifth failure is any subsequent failure, this is after No. 
4, to comply by a player shall result in the Commissioner 
imposing further discipline on the player. The level of 
discipline will be determined consistent with the concept of 
progressive discipline.
    Now, remember, these people are being suspended for 15 
days, and I just took out my little calculator, and I hope I 
did it right, if they are making $10 million a year, they make 
$61,728 a day. If you're going to suspend them for 15 days, 
maybe they are going to play 10 ballgames, about $670,000, I 
think they will probably want to go with a $10,000 fine. And if 
you negotiate with the players like you did on this, they are 
going to get by with a $10,000 fine.
    Mr. Manfred. We have already clarified that they have 
agreed to take that language, at the chairman's request, out of 
the agreement to clarify.
    Mr. Westmoreland. You both agreed on this at one time, 
correct? I'm assuming you did.
    Mr. Selig. Yes, we did.
    Mr. Westmoreland. If a player tests positive for a steroid, 
first test, 10-day suspension or up to a $10,000 fine, is that 
still correct?
    Mr. Manfred. No. We agreed with the chairman earlier in 
this hearing. It was drafting language.
    Mr. Westmoreland. Conviction for the use of a prohibited 
substance, first offense, a 15-day--but no more than a 30-day 
suspension or up to a $10,000 fine; is that correct?
    Mr. Manfred. Page what?
    Mr. Westmoreland. Page 14.
    Mr. Manfred. That is correct.
    Mr. Westmoreland. Now, these are people being caught with a 
prohibited substance; is that correct? Something that is 
against the law, against the Federal law.
    Mr. Manfred. Defined term in the agreement.
    Mr. Westmoreland. It could be against Federal law; is that 
correct?
    Mr. Manfred. Yes.
    Mr. Westmoreland. You are going to fine them up to $10,000 
on the first offense?
    Mr. Manfred. That is correct.
    Mr. Westmoreland. And you could suspend them for 15 days 
but no more than 30 days?
    Mr. Manfred. That's correct.
    Let's go to marijuana. And I would point out that these 
levels of discipline are consistent with the levels of 
discipline that arbitrators have upheld in prior decisions in 
this agreement. Sometimes the law is not good, but the law is 
what the law is.
    Mr. Westmoreland. If it is against Federal law, I don't 
know what the arbitration society has to say. Listen to me, 
because there are people in prison that would like this same 
kind of deal. Number E says participation in the sale or 
distribution of a prohibited substance. A player who 
participates in the sale or distribution of a prohibited 
substance shall be subject to the following discipline: For the 
first offense, at least a 60-day but no more than 90-day 
suspension and up to a fine of $100,000; is that correct?
    Mr. Manfred. That's correct.
    Mr. Westmoreland. Second offense, they get a 2-year 
suspension. Then the third time, it goes into the progressive 
discipline, again up to the Commissioner as to what it would 
be. Marijuana, a player on the administrative track for the use 
or possession of marijuana shall not be subject to suspension. 
The player will be subject to fines which shall be progressive 
and shall not exceed $15,000. Notwithstanding the foregoing, a 
player who participates in the sale or distribution of 
marijuana would be subject to those same penalties.
    Chairman Tom Davis. Gentleman's time has expired.
    Mr. Westmoreland. One quick question. Mr. Fehr, you talked 
about the progressive punishment. What kind of progressive 
punishment did Pete Rose get for gambling? And gambling is 
legal in some States. What kind of progressive punishment did 
he get versus somebody that sells drugs that is against Federal 
law that gives progressive punishment? Can you tell me the 
equity?
    Mr. Fehr. My recollection is that Pete Rose was declared 
permanently ineligible. I am not familiar with the details.
    Let me make one point in response to the questions you have 
raised. Players are not immune from prosecution. We assume that 
they will be prosecuted to the same extent that other 
individuals will be prosecuted in similar circumstances. If 
they are in prison, they are not getting paid and don't have to 
be suspended.
    Mr. Westmoreland. How many are going to prison; do you 
know?
    Mr. Fehr. No.
    Mr. Westmoreland. One more question for Mr. Manfred. On 
page 2, at the bottom of page 2, you put, but as those of you 
who were around in 1994 will remember, the priority was 
resolving the economic issues facing the game and getting the 
game back on the field.
    Mr. Manfred. Uh-huh, I did.
    I was reporting----
    Mr. Westmoreland [continuing]. Than the welfare--health and 
safety people that were reporting priorities.
    Mr. Manfred. I was not stating priorities. I was stating 
priorities that were expressed repeatedly in various committees 
on both committees of the House, some when we were involved in 
the long labor dispute.
    Mr. Westmoreland. So it was Congress' fault that we didn't 
do anything about steroids then?
    Mr. Manfred. I am simply making the point as to what 
happened. Congress called us down here, and that was the point 
they made.
    Mr. Selig. Congressman, let me also say, in 1994, I heard 
from nobody--there was nobody anywhere who was talking to me 
about steroids. I have really--any knowledge other than the one 
player who admitted--that he now admitted that he was using 
steroids, but he was in tremendous denial at the time. The fact 
of the matter is, even though we had a program that was--
imposed collective bargaining, there was no--if you go back to 
1994--and I am an old history major, and I understand this----
    Mr. Sanders. Please talk into the mic.
    Mr. Selig. There was nobody that was bringing up the 
steroid issue.
    Look, I have often said, and I will say to you here 
tonight, I wish I knew in 1995, 1996, 1997 and 1998 what I know 
today. I will acknowledge that.
    Mr. Westmoreland. I understand. I will just tell you, this 
document--for you to send this to us and expect us to use this 
during this hearing, it's an embarrassment to me, and I would 
hope that it would be an embarassment to Major League Baseball.
    Chairman Tom Davis. The gentleman's time has expired.
    Let me ask, before I recognize Mr. Sanders, if you were to 
catch--if a Major League ballplayer were distributing illegal 
drugs and you were to discover that, would you turn him over to 
the authorities?
    Mr. Selig. Oh, absolutely.
    Chairman Tom Davis. You would.
    Mr. Selig. Oh, there is no question about it.
    Chairman Tom Davis. OK.
    Mr. Selig. Oh, absolutely.
    Chairman Tom Davis. Thank you.
    Mr. Sanders.
    Mr. Sanders. Thank you, Mr. Chairman.
    Let me start off with the very first line of Mr. Selig's 
statement. He said, Major League Baseball has made ``tremendous 
progress'' in dealing with the issue of performance enhancing 
substances.
    Mr. Selig, I gather that if you have made major progress, 
there must have been a tremendous problem. Was Jose Canseco 
correct when he said that everybody knew what was going on? It 
sounds to me like you are in agreement. If you have made 
tremendous progress, there must have been a very serious 
problem. Was Canseco correct?
    Mr. Selig. No. Jose Canseco has--in my judgment, was not 
correct.
    Mr. Sanders. What tremendous progress did you make, if 
there wasn't a tremendous problem?
    Mr. Selig. Because in the year 2000----
    Mr. Sanders. Please speak closer to the mic.
    Mr. Selig. I'm sorry. In the year 2000, we had no problems 
anywhere. Finally, I was able to put one unilaterally in the 
Minor League. We began one in 2002. We began an educational 
program. We began other multifacet----
    Mr. Sanders. But you are not answering my question. You are 
saying that you made an effort, and I understand that. Whether 
it was good enough, people here dispute that. Was there a major 
problem?
    I am gathering what you are telling us, between the lines, 
is that Major League Baseball had a very, very serious problem 
with steroids. It wasn't dealt with, that in a sense Canseco is 
correct and that what you are now saying is that you have begun 
to make some progress.
    Mr. Selig. We have made some progress in testing and 
everything else. Did we have a major problem?
    Mr. Sanders. Yes.
    Mr. Selig. No, I don't believe we ever had what he says is 
a major problem. Let me say this to you, there is no concrete 
evidence of that. There is no testing evidence. There is no 
other kind of evidence. All we have is some anecdotal evidence 
mainly articulated by him, and I think the other players dealt 
with that today. But we needed a testing program.
    Mr. Sanders. There is--one of the problems that we are 
having this whole day is trying to get a handle on how serious 
this problem was. You say nobody came to you, and yet there 
were articles in the newspaper talking about Canseco in 
particular. Just because nobody came to you doesn't mean to say 
there wasn't a problem. Why are people turning their backs?
    Mr. Selig. I don't believe people were turning their backs. 
No, I certainly do not believe that. There were very few 
articles. But once the andro--I said before, now let me try to 
say it again. I can only tell you from my personal experience 
that when I read about andro in July 1998, I began to be very 
concerned, and I would talk to all of our people, and that's 
when all this began.
    But so--if--from my own thing--and I have been in this 
sport almost 40 years, sir, and I think I understand and every 
general manager I talked to, all the doctors I have talked to, 
all the trainers I have talked to, know there is no evidence 
that there was any widespread problem, and nobody has any data 
to support that.
    Mr. Sanders. Let me just quote, in 1995, the LA Times 
reported that anabolic steroids apparently have become the 
performance drugs of the 1990's in Major League Baseball. 1995, 
the LA Times wrote that. You don't know anything about that?
    Mr. Selig. No, I don't.
    Mr. Sanders. Well, we have a problem here.
    Mr. Selig. No.
    Mr. Sanders. If the LA Times says something, how come--are 
they wrong?
    Mr. Selig. Well, you would have to tell me what their basis 
in fact was, because I was not aware of any of us, 
Congressman--OK.
    Mr. Sanders. Just out of curiosity, if there was an article 
in a major newspaper--doesn't say that they are right. I am not 
saying they are right. Somebody should say, gee, we may have a 
problem, we should look at it, don't you think?
    Mr. Alderson. Congressman, if I could attempt to answer 
that question.
    Mr. Sanders. Sure.
    Mr. Alderson. As a followup to that 1995 article in the LA 
Times, there was also an article in the Detroit paper the 
following year. The general manager quoted in the LA article is 
also quoted in the Detroit article. The general manager had 
gone from San Diego to Detroit. I only read this to you as a--
sort of a sense of what was going on at the time in terms of 
other factors that may have obscured what was going on. But 
here is the same general manager----
    Mr. Sanders. Is this Randy Hughes Smith?
    Mr. Alderson. ``The pitching has thinned out. The hitters 
are stronger and the ballparks are smaller. They are always 
thinking about hitting. I remember once finding Melvin Nieves 
working out on a batting cage on Christmas Eve. Baseball could 
help slow the offensive onslaught by raising the mound to 
pre1969 levels.'' Smith said, ``They are not going to make 
ballparks any bigger, and you can't change the physical 
strength of the hitters. But you could help even things out a 
little by raising the mound.''
    Now I am not pointing this out in contrast to the 1995 
article but only to say that those articles were infrequent, 
and there were other explanations for the kinds of offense that 
were being generated at the time. I am not suggesting there 
wasn't a problem, but I think what it did was obscure the 
nature of the problem and the extent of the problem.
    Mr. Sanders. I don't have a lot of time, Mr. Alderson, so 
let me say this. I think what people up here, regardless of 
political persuasion, are getting the impression is you have 
turned your back on the problems in the past.
    And the second issue--Mr. Cummings raised it--is obviously 
we all know that in the real world people with money are 
treated differently than low-income and moderate-income people. 
There are God knows how many thousands of people rotting in 
jails, and whether they should or should not is a whole other 
issue, but they are in jail. And what people, I think, in 
America want to know is that in this country people who commit 
the same crimes are treated the same way, and I think that the 
impression that we are getting is that is not the case.
    The last point I would make. The players themselves 
acknowledge what everybody here knows, that they are role 
models for millions of young people, and I would hope that the 
union and management would substantially raise the standards to 
tell people who are making millions and millions of dollars, 
who have opportunities that very few people have, that if they 
want to do that type of work and make that kind of money, they 
are going to have to not do drugs at all, period.
    Thank you.
    Chairman Tom Davis. Thank you. The gentleman's time has 
expired.
    I mean, one of the problems you have is not the 
percentages. It's been the very high-profile MVP players who 
have bulked up who have been linked to this. We heard from Mr. 
Canseco and Mr. McGwire today. Mr. Caminiti was an MVP; Barry 
Bonds, a seven-time MVP; Jason Giambi, an MVP; Sheffield. These 
are the role models.
    The percentages are one thing, but it is a lot of the stars 
that appear to be using drugs. Yes, Mr. Selig, that seems to be 
where it is siphoning down, to the little----
    Mr. Selig. I understand; and, No. 1, I accept the social 
responsibility that we have. I have said that everywhere. We 
have it--you are correct. Our players have it. The clubs have 
it.
    The thing that is fascinating me, as we go back in the 
1990's--I have spent a lot of time now--I sent Sandy Alderson 
in 1998 and 1999 to Costa Rica. Do you know why? Everybody said 
the ball was all juiced up. Then everybody said there was 
something wrong with the bats. Then we had two expansions in 
the 1990's, and everybody said the pitching is lousy. Mike 
Smith, the Hall of Fame third baseman, said the other day he 
doesn't believe it's the steroids. He said, I believe it is the 
small ballparks, juiced-up ball, bats.
    I am not--I don't want to debate. I guess what I am saying, 
everybody has theories. As the Commissioner, I think you all 
understand that I need to deal with facts as they are. I 
understand our responsibility, and I don't disagree with it, 
and, frankly, the steroid situation has been on my mind now the 
last 6 or 7 years.
    Of course, I am not only taking it seriously, broke my 
heart today to listen to the parents. I understand it's an 
enormous health problem. But, more importantly, we do have a 
responsibility, and we better set and be a good role model.
    Mr. Waxman. Mr. Chairman.
    Chairman Tom Davis. Mr. Waxman.
    Mr. Waxman. Just on that point, Mr. Selig, you said it's 
not a major problem. Yet Barry Bonds, seven times Most Valuable 
Player; Giambi, Most Valuable Player; Jose Canseco, 1998 Most 
Valuable Player; Ken Caminiti, who was Most Valuable Player; 
and Mark McGwire was suspected of steroid use. That's half of 
the 30 MVPs, roughly speaking, and your job was to protect the 
integrity of the game. Because you don't need large numbers to 
have filtered down to the kids to think it's acceptable, 
because these are the heroes. So I just want to point that out 
to you.
    Mr. Selig. May I respond to you, Mr. Waxman? I agree with 
you, Congressman. You are right. It is my responsibility. I 
take it very, very seriously, and I have throughout my entire 
life.
    However, having said that, the fact of the matter is that's 
the only way to finally get to the root problem here and solve 
it, is through the toughest kind of testing program, doing all 
the other things that I have heard here today. I agree with 
that, education, everything else. I am not disagreeing there.
    But I can't just take anecdotal evidence about something 
without having any other evidence that somebody has done 
something. For instance, today--there are people who came here 
today, players, who have been accused of something and clearly 
denied it today, and that's the kind of thing that we--that I 
have to live with, and we have to deal with.
    Chairman Tom Davis. Thank you.
    Mr. Sweeney.
    Mr. Sweeney. Thanks, Mr. Chairman.
    Thank you all. I know this has been long, arduous. 
Commissioner, I am really thankful that you mentioned in your 
statement you are going to work with the partnership, and I 
look forward to working on a program.
    Let me just leave you this message. I know each of you 
pretty well now after these numbers of years. You can tell 
Congress--I think you have misread and misinterpreted Congress' 
tolerance here. I think you have made some very critical 
mistakes. I would suggest to you--I know, Donald, this will be 
harder for you because you have to sell this stuff--but I think 
time is of the essence.
    You need to go back to your membership and let them know 
that not only do the American people but Congress has reached a 
level of intolerance, that this game that is special to them. 
But, more importantly, its impact on public health policy has 
really reached an end, and you need to do something a little 
more definitive than what you have done, maybe substantially 
more definitive.
    Along that line--I would like to be helpful here, and I 
want to talk to Mr. Manfred, specifically. I am a former labor 
commissioner. I called the NLRB. I talked to the Department of 
Labor. That confidentiality clause is really, really 
extraordinary. I have not seen too much of that, and neither 
have folks at the NLRB.
    This is really more commentary than it's anything, but Mr. 
Alderson mentioned you are going to be preaching to the FBI to 
work with them on steroid issues, related issues. Does that 
mean that--because what you are essentially saying here in both 
subsection D and E, that both parties agree to resist the 
government investigation and that the program itself will be 
suspended? It is overly broad. It is incredible language, it 
seems to me, especially to an entity that has the public 
relation problems and the perception problems you all have. I 
think you need to relook at that as well and be--at least be 
more defined.
    I understand it's a privacy issue for you, Mr. Fehr, but 
people aren't particularly interested in the privacy aspects 
when their kids are dying because of the influences.
    Finally, let me say this. On the testing procedures, Mr. 
Manfred, you said two things that have confused me. One is you 
said that--I do think the chain of evidence is real important 
here--that independent collectors are involved in the 
collection of specimens. I don't see that anywhere in here. If 
you could point that out to me, I would greatly appreciate 
that.
    Mr. Manfred. I will find the language for you. It may not 
be laid out here.
    I can tell you how we operate. We use a company called 
Comprehensive Drug Testing Services in California. We have used 
them for a number of years. We have used them to put distance 
between the Health Policy Advisory Committee and the actual 
operation of the program. They do the random selection of dates 
on which tests are to take place and actually dispatch the 
collectors, too.
    Mr. Sweeney. My understanding of the collection process--
and I am looking for the section myself.
    Mr. Manfred. And in terms of an independent----
    Mr. Sweeney. I forget what the acronym was for the group 
that you had doing it.
    Mr. Manfred. CDT?
    Mr. Sweeney. HPAC. It's certainly a representative from the 
Players Association and a representative from management that 
collects--is there an independent party involved or not?
    Mr. Manfred. Yes. HPAC oversees, picks somebody, enters 
into an arrangement with a company to do--it has been the same 
company for a number of years, and there are two different 
contracts. One is with this company called CDT. I think it is 
the largest drug collection company in the United States. All 
they do is collect--I am sorry?
    Mr. Sweeney. How did you find them?
    Mr. Manfred. Originally, the woman who ran the company knew 
Commissioner Ueberroth from the Olympics. She was involved in 
the Olympics in Los Angeles. And then we have a separate 
contract----
    Mr. Sweeney. You are saying you have an independent 
contractor in the game.
    Mr. Manfred. We do.
    Mr. Sweeney. Mr. Fehr, your colleague next to you has 
indicated in the past that you probably would be the problem 
with bringing U.S. antidoping in.
    Mr. Fehr. I'm sorry. What?
    Mr. Sweeney. You would be the problem. You would object to 
reopening the Collective Bargaining Agreement to bring in USADA 
in, sort of gold standard collector and standard setter in the 
area. Is that true?
    Chairman Tom Davis. The gentleman's time has expired.
    Mr. Fehr. My view is as follows: As Mr. Manfred indicated, 
and I agree with, all of these drug testing programs operate 
under the terms of their Collective Bargaining Agreements. We 
have a legal obligation to negotiate all terms and the 
conditions of contracts--of the contract and to administer it.
    I think that if this committee had the opportunity--and I 
knew that because of the speed this hearing was put together 
that was very difficult to do--to examine who does the 
collections and what the procedures are to look at the WADA 
certified lab and so on, you would conclude that it is 
completely independent and entirely trustworthy.
    Chairman Tom Davis. The gentleman's time has expired.
    Mr. Kucinich.
    Mr. Kucinich. Thank you, Commissioner. Tell me, can you 
tell the committee who hired you as Commissioner?
    Mr. Selig. Who hired me?
    Mr. Kucinich. Yes, who hires the Commissioner?
    Mr. Selig. The owners.
    Mr. Kucinich. The owners, thank you.
    Commissioner, 1 month ago the New York Daily News reported 
that, in the 1990's, FBI agents contacted Major League Baseball 
to inform them that certain players were using steroids; and, 
according to the story, baseball did nothing to pursue these 
allegations, no investigations, no testing, no nothing. Can you 
describe, Commissioner, the communications with the FBI?
    Mr. Selig. I can only tell you what the head of our 
security department said, Mr. Kevin Hallernan, who said that 
there hadn't been a contact and that he sort of denied the 
existence of the story.
    Mr. Kucinich. I'm sorry, what did you say, Commissioner?
    Mr. Selig. He denied that somebody contacted him.
    Mr. Kucinich. You were contacted or you weren't?
    Mr. Selig. He was not contacted.
    Mr. Kucinich. Major League Baseball was not contacted. In 
that New York Daily News story, you are saying that story was 
wrong?
    Mr. Selig. Well, I am just telling you--you asked me.
    Mr. Kucinich. You don't have any knowledge.
    Mr. Alderson. Congressman, could I attempt to respond to 
that?
    Mr. Kucinich. I am asking if the Commissioner had any 
knowledge, any contact.
    Mr. Selig. I did not, head of security said he didn't know. 
He works for Mr. Alderson.
    Mr. Kucinich. Does the gentleman want to answer yes or no, 
whether you have knowledge of any contacts? I am interested in 
finding out the substance of the New York Daily News article.
    Mr. Alderson. Well, we have no knowledge of the 1994-1995 
contact. If it happened, it happened on an informal basis at a 
seminar in Quantico.
    The only other contact we had on the subject was in 2002 
from the same agent. That was an 8-year gap between what he 
said was the initial contact and the subsequent followup.
    Mr. Kucinich. So you are saying--you are acknowledging that 
there may have been informal contacts.
    Mr. Alderson. It's conceivable, yes, Congressman.
    Mr. Kucinich. Commissioner, let me ask you something. After 
listening to Congress today, you feel very strongly that you 
are willing to cooperate to make sure that baseball has strict 
standards with respect to steroid testing, is that correct?
    Mr. Selig. Yes, sir. Absolutely.
    Mr. Kucinich. Is this the first time that you have heard 
from Congress on this matter?
    Mr. Selig. No, we were here last year before Senator McCain 
and his committee.
    Mr. Kucinich. Was that the first time you heard from 
Congress on that matter?
    Mr. Selig. I have heard from him on most other matters. I 
believe that's the first time----
    Mr. Kucinich. Let me submit for the record, Mr. Chairman, I 
ask unanimous consent to submit for the record H. Res. 496 from 
the 107th Congress titled, Expressing the Sense of the House of 
Representatives that Major League Baseball and Major League 
Baseball Players Association should implement a mandatory 
steroid testing program, and this is dated July 22, 2002.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0323.202
    
    [GRAPHIC] [TIFF OMITTED] T0323.203
    
    [GRAPHIC] [TIFF OMITTED] T0323.204
    
    Mr. Kucinich. Are you familiar with this, by the way, Mr. 
Selig?
    Mr. Souder [presiding]. Mr. Kucinich, may I interject 
here----
    Mr. Selig. We were here. There may have been a resolution--
--
    Mr. Kucinich. Thank you, Mr. Commissioner.
    I would like to ask Mr. Towers a question. Is it true that, 
under current law, baseball franchise owners are able to write 
off half the cost of a purchase price of a team by capitalizing 
and depreciating players' contracts?
    Mr. Towers. I would not have the answer to that, Mr. 
Kucinich.
    Mr. Kucinich. Does anyone on the panel know the answer to 
that question, that baseball franchise owners are able to write 
off half the cost of a purchase price of a team by capitalizing 
and depreciating players' contracts?
    Mr. Fehr. Mr. Kucinich, my basic understanding is as 
follows--I haven't looked at this in a long time--that the IRS 
had a rule in effect which allowed substantial write-offs, and 
I believe that this Congress, within the last 120 days, 
modified that. But the write-offs still continue. I don't 
remember precisely what they did.
    Mr. Selig. But I believe that is correct, Congressman.
    Mr. Kucinich. OK. Let me ask just one quick followup, may 
I?
    Mr. Souder. One followup.
    Mr. Kucinich. If you see baseball players' contracts as 
being that valuable, why in the world wouldn't you want to know 
what the health of a player was with respect to what they were 
putting in their body, since it could undermine the value of 
your investment, if you don't look at it any other way?
    Mr. Towers.
    Mr. Towers. Well, we do, and because of the current basic 
agreement we were not able to test and find out what some of 
these players were putting in their bodies.
    I will say that our organization, San Diego Padres, in 1997 
was one of the first in baseball to add not only over-the-
counter muscle enhancers as well as steroids that test our 
Minor Leaguers. So at least I knew within my own organization 
players that would either want to commit to or not to commit to 
because they would have knowledge of use.
    Mr. Kucinich. Thank you.
    Mr. Souder. Mr. Alderson, we have been going back and forth 
on a couple of other questions about whether the FBI contacted 
baseball. Why weren't you contacting the FBI, if these things 
were circulating, to do an investigation?
    Mr. Alderson. I'm sorry, I didn't hear your question.
    Mr. Souder. In other words, the questions that have mostly 
come at you is because there were--whether it's at Quantico or 
whatever--FBI contacts to baseball. The question is, why, if 
these things were swirling around, weren't you going to the 
FBI?
    Mr. Alderson. Since the story in the Daily News, we have 
been in touch with the FBI quite frequently, and--in an attempt 
to understand what exactly did take place in 1994 or 1995. And 
what we hope to do is meet shortly in order to resolve that, as 
well as reestablish a very positive relationship which has 
existed for quite a long time.
    Mr. Souder. I think the fundamental concern is why the FBI 
would have to be initiating something, and they could figure it 
out when those of you in the locker rooms couldn't and weren't 
going to the FBI first. I think that's the fundamental 
question.
    I yield to Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Mr. Selig, I have a question of you. Back in 1919, the so-
called Black Sox scandal really created the Commissioner's 
office as it now is.
    Mr. Selig. Right. Major League Baseball, as you know, deals 
very aggressively and swiftly with a player betting or 
gambling.
    Mr. Dent. Pete Rose was mentioned. Do you believe that this 
issue of steroid use in baseball players is as serious as the 
involvement in betting on baseball?
    Mr. Selig. Well, I don't know that I could draw that 
analogy. Let me suggest to you that Pete Rose was suspended by 
Commissioner Giamatti, voluntarily accepted a lifetime 
suspension. There have been rules since 1920 about gambling. 
Pete Rose was the manager of the Cincinnati Reds, and so what 
he did was a violation of our rules. At that time, we didn't 
have any rules on steroids.
    Do I think steroid use is very serious? Congressman, I 
think it's very serious. And as we test now we will be able to 
discipline players or people that violate that under the terms 
of our Collective Bargaining Agreement. It's a little different 
in terms of the Pete Rose situation.
    Mr. Dent. My only point is this. I don't know if what Pete 
Rose did was legal or illegal, but he was dealt with swiftly. 
He is out of the game.
    This issue--by the way, I just spoke a couple of hours 
ago--I spoke to Curt Schilling. He said, in every locker room, 
it's--I don't know what the article is about baseball betting, 
but every player was well aware of that policy. They knew what 
the consequences would be if they were involved in betting in 
baseball.
    Mr. Selig. That is correct.
    Mr. Dent. They would be gone.
    Mr. Selig. That is correct.
    Mr. Dent. All I am asking is that this issue be given the 
same level of attention and interest by Major League Baseball 
as the gambling issue. Based on what I have seen, we have heard 
about the four strikes or five strikes and you are out, and it 
just seems to many of us that this policy is unacceptable.
    Again, I asked the ball players about that question. Again, 
we have been talking about the kids, we have been talking our 
committee's oversight on drug policy. In my State, and I will 
say it again, that my taxpayers in Pennsylvania subsidize Major 
League Baseball in a big way. Hundreds of millions of dollars 
just for two baseball stadiums, not even counting the football. 
They are able to do that because of the fact that you have this 
antitrust exemption.
    At the time the Pittsburgh Pirates said--we were told they 
were going to go to northern Virginia if they didn't get their 
stadium. A lot of people didn't want to pay for that. They have 
a stake in the game and I believe an obligation to the 
taxpayers. And I have to ask to question, you know, is Major 
League Baseball worthy of that antitrust exemption, granted at 
the Federal level, in light of all of this issue with steroids?
    Mr. Selig. Well, I am obviously very sensitive about it. I 
think that we have dealt with the issue as aggressively as we 
could, but there is clearly work to be done. I don't deny that. 
There is clearly work to be done in the future, but I can 
assure you we are not taking it lightly in any way, shape or 
form, nor should we.
    Mr. Dent. I would ask the same question of the players' 
representative here, too. I know we heard from Mr. Selig that 
he would like to have a more stringent policy but can't because 
of collective bargaining and that apparently the Players 
Association is the impediment, if I heard him correctly, to a 
more stringent policy on steroid use.
    Mr. Fehr. I will repeat what I said in my introductory 
remarks, at least I hope we did. We took the unprecedented step 
of opening the contract in the middle of this last year. We 
believe we have made very substantial improvements. We believe 
that the data that we have so far--and I am confident, but if I 
am wrong, it's going to be shown--is going to make everybody 
extraordinarily pleased.
    I will, if you will permit me, make the same commitment 
that I did before the Senate Commerce Committee a year ago, 
which is that my obligation is, as you might expect, to relay 
the sentiments of this committee to my constituency.
    Mr. Dent. We do not as a Congress--I believe I agree with 
the chairman we do not want to have to get into the issue of 
passing a law at this level to deal with steroids, baseball, 
and the only thing we have to hold over your heads is the 
antitrust exemption to make you do something about it. So we 
hope you take this seriously. I believe you are now.
    Mr. Towers--OK, well, I had a question for Mr. Towers. I 
guess I will defer. Thank you.
    Mr. Souder. We haven't had a question of Mr. Towers. Why 
don't you go ahead.
    Mr. Dent. Mr. Towers, I would first like to thank you for 
speaking today on such an emotional issue for you. I applaud 
the candor of your public statements. Buster Olney and ESPN, 
the magazine, quotes you stating that you have--imagine that 
all GMs at one point or another had reason to think that a 
player on their ball club was probably using. Could you please 
speak to what you believe general managers could do to curb the 
use of steroids in Major League Baseball?
    Mr. Towers. In the mid-1990's we had our general managers 
meetings, and several topics come up during those discussions. 
I would probably say the mid to late 1990's probably the most 
major topic was over-the-counter muscle enhancers, something 
that we talked about.
    We certainly knew that there were whispers of steroids at 
the time. There were discussions, because of the current basic 
agreement. There was no way of really knowing. I can say that, 
as general managers, we saw with our own eyes andro and muscle 
enhancers in our clubhouses, in our locker rooms; and what we 
did was we acted when we knew. We banned those from the 
clubhouse, and now that we have more information and it is 
becoming evolutionary we are learning more about steroids. Now, 
today, we do have a program where I think, as long as there is 
public disclosure, I think it will be very effective.
    Mr. Dent. And a quick followup, do you think that the 
league ought to impose an obligation on management to report 
such illegal drug use?
    Mr. Souder. Mr. Dent, others will have to do the followup.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. Manfred, in your testimony, you talked about the Health 
Policy Advisory Committee; and, Mr. Fehr, you also mentioned it 
in your statement.
    A few years ago, the Olympics were in a similar position to 
Major League Baseball. There were allegations of drug use, and 
the Olympic organizations had no credibility within really to 
fix the problem. In response, the Olympics decided to rely on 
an independent expert body to oversee the integrity of sports. 
This removed any shadow of a doubt that decisions will be made 
on the best possible science and not as part of a Collective 
Bargaining Agreement. This is the same decision that other 
major sports have made, including tennis, international soccer 
and cycling.
    By contrast, baseball's policy is overseen by the Health 
Policy Advisory Committee. This sounds good. But when you read 
the details, you learn that the Health Policy Advisory 
Committee is a four-member panel, with two members appointed by 
management and two by the Players Association. Of course, one 
of the members is you, Mr. Robert Manfred, who handles labor 
negotiations for the owners, and the other is Gene Orza, who 
handles negotiations for the players.
    Now when I look at this provision, I really don't see an 
independent health advisory committee. I see an extension of 
the labor management negotiations. So I have to ask the 
question, how can the public have confidence that this is a 
credible policy when the members of the health advisory 
committee are management and labor negotiators?
    The Health Policy Advisory Committee has key 
responsibilities. For example, it has to agree unanimously 
before any new substances are added to the drug testing regime. 
Also, it decides how players will be tested during the off 
season when steroid use is reported to be common. These are 
decisions that should be made by independent experts. That's 
what's done in the Olympics, and it is what needs to be done to 
restore credibility to baseball.
    My question is, why can't it be done? What prevents it from 
being done the same way?
    Mr. Fehr. I will respond first, if that's permissible, 
Congressman.
    We have heard a lot of comment today about this isn't 
really a matter for collective bargaining in one sense or 
another. Please understand that, under our laws, the Players 
Association and management are obligated to bargain about all 
terms and conditions of employment. Where you have matters 
arising under that agreement which need to be implemented, the 
traditional and expected way to handle it--and I believe this 
is true in all professional team sports in the United States--
is done by the parties themselves. That's what the law 
contemplated, just like it does in other industries.
    I think that if there would be an evaluation of the Health 
Policy Advisory Committee, just as I indicated with respect to 
the independence of the testing collectors and of the lab, the 
suggestion that it isn't operating independently or it isn't 
operating on the basis of the best science or that the doctors 
are somehow making medical judgments for reasons other than 
their sound medical beliefs, I think would be found to be 
inaccurate.
    If the doctors disagree--if there is a disagreement, for 
example, there is a provision for a fifth member to be chosen, 
effectively by the two doctors, that will be another physician 
that will break the tie.
    That's the best answer I can give you, Mr. Congressman.
    Mr. Davis of Illinois. Then do you have any fear that if 
labor and management cannot come up with a program that is 
going to be independently oriented that really gets to the 
bottom of the issue, similar to what appears to have happened 
with the Olympics, that then Congress may very well find it 
necessary to step in and add some regulations that would lock 
both labor and management into some situations that you might 
find untenable and disagreeable?
    Mr. Fehr. There may be a lot of things that people say that 
I disagree with positions that I take or may advocate. No one 
has ever questioned my ability to listen.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. Souder. Thank you.
    Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman.
    It's been a long day, and I want to thank you all. I really 
don't want to badger you, but, you know, what we are hearing 
from most of you is, well, this is a collective bargaining 
issue. This is a legal issue. I think. At the end of the day, 
this is both a criminal and a moral issue.
    I want to at least congratulate you, Mr. Selig, because I 
think--in your last few responses, I think you have 
acknowledged that this is much bigger than just a collective 
bargaining issue.
    Mr. Fehr, you heard the testimony today, and you heard from 
the parents, you heard from the doctors, you heard from the 
players. Based on what you heard today, would you be willing to 
go back to members and ask for a much tougher policy and get a 
vote on that?
    Mr. Fehr. As I indicated before, I will report fully the 
sentiments here today, both the testimony at the hearing and 
the comments that have come from the Members; and I want to 
consult with my membership.
    Mr. Gutknecht. That's an interesting answer. The question 
is, will you go back to your members and ask for a new vote?
    Mr. Fehr. I will go back to my members, and I will consult 
with them. That's the most I can do.
    Mr. Gutknecht. Thank you.
    Mr. Selig, I want to come back to something I raised 
earlier, and that is, in some respects, using these chemicals, 
some of these chemicals, it cheats the fan, it cheats the game. 
But, most importantly, in some respect it cheats some of the 
heroes that we grew up with. If you had credible evidence that 
records had been set by people who had used illegal chemicals, 
what would you do about it?
    Mr. Selig. If I had credible evidence and I wasn't dealing 
just in hypotheticals or conjecture, I would then feel that it 
is my responsibility to do something.
    Mr. Gutknecht. Do you think that right now we are dealing 
in hypotheticals?
    Mr. Selig. Well, there's no question that we have had a 
steroid problem, and there's no question that we need to do 
something about it. I agree with what you said at the outset of 
your remarks. No question in my mind.
    The fact of the matter is, what is difficult--and people 
have raised this issue with me. What will you do about the 
records? What will you do about so on and so forth? And I am 
very sensitive about that. But what I would say to you is, the 
evidence from the 1990's--is the period we are talking about, 
there is no tangible evidence.
    Mr. Gutknecht. Mr. Selig, in all fairness, I don't know how 
much evidence you need to have. You know, I am not sure that 
you don't have to have the same level of evidence. I am not 
sure--you have a lot of latitude as commissioner of baseball. I 
am not saying you should move arbitrarily or whatever. But I 
think this is a very serious matter, and I think you owe it to 
the greats of the game. You owe it to the fans. You have the 
responsibility to protect the integrity of the game. And so 
far, I mean, the general public and the average fan thinks that 
you really don't have much interest in making certain that the 
records that have been broken in the last several years were 
done legitimately.
    Mr. Selig. I don't think that's right. I mean, I think our 
fans do. You know, I go from ballpark to ballpark. I wind up 
talking to a lot of people. I have been in this sport for 40 
years, so I think I understand.
    I happen to agree with you. I understand the sensitivity of 
the problem, the depth of the problem. But I have said often, 
and I would say to you, the first thing I said to myself, 4 or 
5 or, actually, 7 years ago now, look, we have to--we get to 
deal with this problem, and there was a lot of--it was tough. I 
have talked to a lot of players--talked to a lot of players. 
Hank Aaron has been a friend of mine for 50 years. We literally 
have grown up together. So I understand exactly how people feel 
and how different generations feel.
    But what I said to you is I have concentrated my energy on 
trying to make the present and the future better. I will deal 
with the past when there is evidence that I can deal with. 
Until then, I just don't want to deal with a matter of 
conjecture.
    Mr. Gutknecht. Mr. Selig, in all fairness, that really 
sounds like a hear-no-evil, see-no-evil, speak-no-evil 
strategy.
    Mr. Selig. Oh, I don't think so.
    Mr. Gutknecht. Well, it seems to me words are plentiful, 
but deeds are precious. And, ultimately, I think we are looking 
for--the American people and the fans are looking for some 
level of real investigation by Major League Baseball to find 
out is there any real evidence. See, that's why we have 
hearings to find out: Is there real evidence?
    I'm sorry, Mr. Chairman. I used more than my 5 minutes.
    Mr. Souder. Ms. Watson.
    Ms. Watson. Thank you. We have been here since 10 a.m.; 
and, members, I think we have chewed over every issue as much 
as one can tolerate.
    Several hours ago, I held up a poster of our Governor; and 
I read his comments. What I am trying to do now is start doing 
something positive and productive. We discussed the substances 
that were on that chart, and because I want to move forward and 
really focus on our youth and preventing them from getting into 
steroids, I made a telephone call to Senator Jackie Speier, who 
had the bill that was described by myself that the Governor 
vetoed. That bill would have created a list of banned 
substances for interscholastic sports and would require coaches 
to take a course of performance-enhancing supplements.
    I asked her if she would amend her bill to put in a passage 
where we would ask the 1,100 school districts in California to 
look at the problem among their high school students. It may be 
even middle school students. And she said, if you don't make it 
a mandate, I will do that. So my staff at this minute is 
sending her an e-mail.
    I would like to ask a question of Mr. Manfred, Mr. Fehr and 
anyone else that might answer. There was some discussion as to 
whether those substances should be on the list or not. I told 
the Senator that I would get back to her with a list of the 
substances so that she could be sure that they were coinciding 
with what she had in her bill before. So is there an agreement 
on those substances?
    Mr. Manfred. Let me take them one at a time.
    We ban human growth hormone, clearly should be on her list.
    The first four are anabolic. Well, I have to take them in 
order. The first four are all anabolic agents of some sort. I 
would put them on--if you are asking me my opinion, I would put 
them in the bill.
    I would also put in DHEA. We lobbied for that to be part of 
the Steroid Control Act. That's the last indented substances. 
Designer steroids, THG and DMT should be included.
    I have to tell you, I can't answer about the next three, 
because I don't know what they are. Clenbuterol is banned under 
our program.
    OK, so I can pull all but those last three. If you have any 
additional ones, would you give me that list? I am going to see 
that she gets them right now.
    Mr. Manfred. OK. The only one that I would just talk 
briefly to----
    Ms. Watson. There are some questions.
    Mr. Manfred [continuing]. To our drug expert, Dr. Green. He 
said the only one that he would leave off the list is insulin. 
Insulin is a complicated issue.
    Ms. Watson. OK, why don't----
    Mr. Waxman. Would the gentlelady yield?
    Are those all on the list of what you would prohibit in 
baseball?
    Mr. Manfred. Ours in baseball. Human growth hormone is. I 
said everything except DHEA in the anabolic steroid category 
would be on our banned list or will be as soon as Boldione is 
added to the Steroid Control Act.
    Designer steroids are banned in our program. Insulin is 
not. I don't know what the next two are. Clenbuterol is the one 
I said we had a positive for, is banned under our program; and 
stimulants, with the exception of Ephedra, not banned under our 
program.
    Mr. Waxman. Why wouldn't you ban DHEA and Ephedra?
    Mr. Manfred. Ephedra is banned. DHEA--we actually lobbied 
for DHEA to be included in the Steroid Control Act. We did what 
Congress did in terms of the ban.
    Mr. Waxman. Why--I mean, you lobbied, and I supported your 
position, but why wouldn't you put it on your list even though 
Congress failed to adopt it as a prohibitive substance?
    Mr. Manfred. We actually--look, it is a legal substance, 
and that's why it's not on our banned list. It is, by the way, 
banned in the Minor League.
    Ms. Watson. If I can reclaim my time, I would put it on the 
list and save us some controversy about it. She can do what she 
wants about it. It's her bill.
    Mr. Manfred. I am sorry.
    Ms. Watson. So I will include it in the list, too.
    But I want to thank all of you for spending this time with 
us. It's been a long day, and I don't think there is another 
question that we can put to you in any other form that hasn't 
already been addressed. So I want to thank you so much.
    At this point, I am going to leave the committee. I want to 
thank the chairman and the ranking member for, I think, quite 
an inclusive hearing; and the tolerance that you have shown is 
remarkable. Thank you so much.
    Mr. Selig. Thank you very much.
    Mr. Waxman. On the fact sheet, could we just put that in 
the record?
    Mr. Souder. Ask unanimous consent to it.
    Mr. Waxman. Unanimous consent.
    Mr. Souder. So ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T0323.205
    
    Mr. Souder. Mr. McHenry--Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    I feel obligated--I have asked each panel of questions the 
same series of questions, and I think this is the panel that I 
have waited, as you have waited, for a long day to ask.
    Please just nod yes, and we will acknowledge it, unless you 
want to make some individual statement on it. Would you agree 
that if a player brought a bat in that was either aluminum or 
had steel or had cork or some other enhancing inside in 
violation of your batting rules that would be cheating if they 
brought it into a game and slugged with it? Could I get a yes 
from everyone?
    Mr. Selig. Yes.
    Mr. Manfred. Yes.
    Mr. Issa. If a pitcher were to go get a dead ball that was 
custom wound so it would not be very hittable and he threw with 
that, would that be cheating?
    Mr. Selig. Yes.
    Mr. Manfred. Yes.
    Mr. Issa. So if is there any way not to say that if 
somebody were to take illegal drugs which made them better at 
hitting a baseball that would be cheating?
    Mr. Selig. It's cheating, yes.
    Mr. Issa. Cheating.
    Mr. Selig. Yes, it's cheating.
    Mr. Issa. There is no question here? It's cheating.
    Mr. Selig. Yes.
    Mr. Issa. I am glad we have an agreement. That's what we 
strive for here.
    Commissioner, I particularly want to call something to your 
attention, because I am concerned that this is sort of, you 
know, deja vu, all new, all again.
    In 1985, somebody who I have grown to know and actually 
worked with when he explored running for Governor, Peter 
Ueberroth, when he was Commissioner, in speaking about drugs in 
1985 he said, baseball will be providing important leadership 
which we believe will be followed by other segments of society. 
He was talking about his intention to deal with drugs in 
professional baseball as Commissioner.
    In 1986, again, Commissioner Ueberroth said, we do not have 
any type of agreement with the Players Association regarding a 
drug program because we have been unable to bridge the gap 
between the desire of the clubs for effective and comprehensive 
drug testing program and the Association's opposition to 
meaningful testing.
    Now, Commissioner, you are aware of that?
    Mr. Selig. Yes, yes.
    Mr. Issa. These two words of a man--two expressions in just 
a year of a man I have great respect for--and I know his 
honesty and integrity is unquestioned--tells me that, for 20 
years, 19 and change, you have known of a terrific problem of 
drugs and even today, with your brand-new program, at best are 
just getting around to dealing with it.
    So I would like to echo Mr. Sweeney and others in saying 
that it is going to be this Congress' position that if you do 
not act much better in very little time than you have done up 
until now, we will clearly be holding you accountable by our 
mandating an act in some way, shape or form.
    I would like to ask a question of Mr. Towers. Mr. Towers 
has not been asked very many questions.
    As a general manager, multiple clubs, would it surprise 
you--consistent with Commissioner Ueberroth's second 
expression, would it surprise you if I said that every 
professional sports team owner I have talked to, including in 
baseball, had said that they would welcome this body mandating 
mandatory testing, that it would be great for them because it 
would bypass the collective bargaining system, and it would 
allow for an even playing field?
    Mr. Towers. I think I would agree with that, yes.
    Mr. Issa. Is there anyone there that finds that surprising?
    Mr. Selig. No, I would say to you that the owners have been 
unanimous in wanting very aggressive--see, and I, frankly--
nobody has asked me, but I would tell you I would agree to a 
Federal program, too. I think that's--and I think I can speak 
for all the owners. I don't think that's a problem.
    Mr. Issa. Mr. Fehr, you are the other half of that 
equation. Does it surprise you that the owners unanimously 
would like to have that kind of enforcement and cite your 
representation and your members as the reason that they don't 
have it?
    Mr. Fehr. Well, the owners generally would rather not be 
burdened with collective bargaining. I am not surprised by the 
comments.
    Mr. Issa. No, no, just as to drug testing, if you please. 
That was the question.
    Mr. Fehr. No, I am not surprised by the comments.
    Mr. Issa. Mr. Chairman, I know time has expired, but we 
have been letting it go a little longer. One question, because 
we have two choices if you don't react. I would like to just 
paraphrase them.
    One is, we can mandate drug testing. The other is, we can 
change the law as to collective bargaining to take it out of 
all collective bargaining agreements for all organizations in 
this country, dramatically change that. Either one of those 
would change what would happen, and I only say that because 
those are really the choices you are leaving us if you do not 
act and act immediately.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    I think Mr. Issa is much more generous than I am. I don't 
think we have time to wait. I think that Congress has to act, 
and I have not been reassured one bit by the testimony I have 
heard today, I have to tell you.
    I am a person who has negotiated probably 30 collective 
bargaining agreements on behalf of everyone from iron workers 
to wardrobe workers to stagehands to electricians to 
carpenters, and I always took the position in negotiating for 
my members that a drug policy was a good thing for my members. 
I did not resist it. I thought it was good to have clean 
members who would be subject to that and that would get the 
clear signal that drug use on the job is something to be 
avoided and when it was not good for their overall health.
    So this back and forth about whether people can hold each 
other accountable to support our solid steroid policy is just--
you know, it's just lost on me. I just think that if you are 
really acting in the best interest of the people involved, the 
players who were using this stuff, then you will get rid of it; 
and if you are doing it for baseball, you will come to the same 
conclusion.
    You know, I am looking at this agreement that it came up 
with, and there are so many loopholes in this it is just 
unbelievable. And the statement by Mr. Manfred, and confirmed 
by Mr. Fehr, that the language of the contract, the Collective 
Bargaining Agreement, the drug policy, it says you can either 
be suspended or you can pay the fine, that's clear language. 
That's clear language. It is unambiguous.
    I know you are going to tell me it was a typing error, but 
I have to tell you, I have the 2002 agreement in front of me, 
the entire agreement. I have the 2005 agreement in front of me. 
I have looked at both of them. They have changed extensive 
language in the second agreement. They have left ``or'' in, the 
word ``or'' in. I am telling you--I know what your explanation 
has been--as a union labor attorney, I find it unbelievable.
    Mr. Manfred. Congressman.
    Mr. Lynch. I find it unbelievable. Honestly.
    Mr. Manfred. OK. You can find--I mean, you are entitled to 
find it whatever you want, obviously. But the fact of the 
matter is the language as written, OK--just as written on the 
page--you read it to suggest that the player gets to pick 
whether he gets a fine or a suspension when, in fact, the 
agreement even as written, however critical of it you may be, 
gives the Commissioner absolute discretion.
    Mr. Lynch. Not under a plain reading of the contract.
    Mr. Manfred. With all due respect, I respectfully disagree.
    Mr. Lynch. Not under a plain reading of the contract, I 
have to tell you. You are comparing the 2003 agreement to the 
2005.
    Mr. Manfred. Who would believe a disciplinary decision that 
the player gets to pick what the discipline is? There has never 
been a Collective Bargaining Agreement written----
    Mr. Lynch. There is a lot of stuff I have never seen 
before, I have to tell you.
    Mr. Manfred. OK.
    Mr. Lynch. But these are extraordinary terms to these 
agreements as well. I have to tell you, I am not encouraged, 
and I think Congress has to act. I think the time for waiting 
has long since passed.
    I am very disappointed in the testimony and the fact that 
there is still reluctance here, people are still in denial to 
say we have a problem I think is a good indication of the depth 
of that problem.
    Mr. Chairman, I will yield back, but I think Congress has 
to act now.
    Mr. Souder. Mr. McHenry is next.
    Mr. McHenry. Thank you, Mr. Chairman.
    I certainly appreciate it. I certainly appreciate you all 
being here. I know it's been a very long day. I commend you for 
your endurance; and, indeed, I commend the committee for their 
endurance. It has been quite a long day for all of us.
    Let me just get to the point, and I just need a simple 
answer. We have talked about the frequency of drug tests. How 
many--there are 1,200 players. Let's just say--how many samples 
will there be at each interval of testing?
    Mr. Manfred. Every player will be tested once.
    Mr. McHenry. No, no, the number, sir, the number.
    Mr. Manfred. Every player will be tested once, so there are 
1,200 tests there. There will be four random selections at 
different calendar points in the year, and we--our only 
understanding at this point is there will be hundreds of 
additional random tests. We haven't allocated them out yet.
    Mr. McHenry. OK. Hundreds, could be 101?
    Mr. Manfred. Hundreds of multiple--hundreds is what our 
understanding is.
    Mr. McHenry. Is part of a policy? Is that part of a 
Collective Bargaining Agreement?
    Mr. Manfred. No, HPAC will allocate out--decide a specific 
number and then allocate out those specific numbers when we get 
an opportunity to go back to finalizing the policy.
    Mr. McHenry. Any ranges in mind?
    Mr. Manfred. As I said, I can't be more--our discussions 
have only progressed to the point that we understand there 
needs to be hundreds.
    Mr. McHenry. That will be a helpful thing to tell us. What 
you are trying to say to us is baseball is acting reasonably 
and responsibly to crack down on steroids.
    Mr. Manfred. I understand that.
    Mr. McHenry. Another question. Commissioner Selig, let's 
say a proposal is put on the table. Let's say a proposal was 
put on to the table that said, Mr. Commissioner, would you 
accept a zero tolerance policy, where you break it once, you 
are done, you are out. Would you accept that? Yes or no?
    Mr. Selig. I can't answer yes or no. I want a zero 
tolerance policy. I want tougher things. Whether once and out 
is fair is something I would have to think about.
    Mr. McHenry. What is it then?
    Mr. Selig. Well, I really--I think that these--the numbers 
that we have, frankly----
    Mr. Souder. Mr. Selig, Commissioner Selig, mic.
    Mr. Selig. I'm sorry. I think that while the numbers that 
we have now need to be expanded considerably to get to a zero 
tolerance, I happen to agree with that. I have said that all 
along. Whether or not there is no American sport that has once 
and out--and I would really have to think that one through, 
frankly.
    Mr. McHenry. So you are negotiating with a players union 
with a perspective that--that not a zero tolerance policy--you 
are saying maybe somewhere--maybe we can tolerate some steroid 
use and give some people a few outs.
    Mr. Selig. Well, no, I am not saying that we tolerate 
anything. On the contrary, I think that what we have done so 
far will discourage it. I am really very optimistic about this 
program.
    But what I am suggesting to you is that I heard people say 
today, about the NFL, well, isn't that good? They do four 
games. That's 25 percent of their schedule. And there were a 
lot of nods of approval today.
    Mr. McHenry. Sure, sure. Let me go on to another question.
    Mr. Selig. I am suggesting to you I would take the ones we 
have and I would make them tougher, yes, much tougher.
    Mr. McHenry. Yes, you would make a much tougher steroid 
policy than what is in place.
    Mr. Selig. Yes.
    Mr. McHenry. That's positive.
    Let me start from the end.
    Mr. Towers, thank you, sir, for being here; and you can 
just answer yes or no. Do you consider the use of steroids 
cheating? Yes or no?
    Mr. Towers. Yes.
    Mr. Alderson. Yes.
    Mr. Fehr. Yes.
    Mr. Manfred. Yes.
    Mr. Selig. Absolutely, yes.
    Mr. McHenry. So what you are telling me is professional 
baseball said, you can cheat once, you know, we will just give 
you a slap on the wrist. You cheat twice, you know, we are 
starting to get a little upset. We might even say your name. 
Third time well, we are getting really ticked off here. The 
fourth time, fifth time--I mean, this is absolutely ridiculous.
    You admit that it's cheating, but you don't want a zero 
tolerance policy. So you want to tolerate some level of 
cheating, which to me seems totally irresponsible, and that's 
why you are before the committee. The reason why we are having 
these hearings is not because we want to. No, in fact, the 
reason why we are having these hearings is we want to be able 
to preserve our national pastime. That's what we are here to 
do, and you guys have not acted responsibly.
    But, Mr. Selig, I want to let you off the hot seat, because 
Mr. Fehr needs the final question.
    From your perspective, Mr. Fehr, would you accept a zero 
tolerance policy?
    Mr. Fehr. From my perspective, there is in the agreement 
now penalties from day one, from the first one; and I believe, 
as I have previously indicated, that the data we have suggests 
that it will work. We will know if it doesn't.
    The final point I would make, if I understand the views of 
the committee expressed by you and by other members, and I will 
advise my constituency, as is my obligation.
    Mr. McHenry. A final note, Mr. Chairman, if I may.
    Mr. Towers, I certainly appreciate you being here. I 
certainly appreciate you as an owner to step forward and to say 
tough things. I know it's not easy on you. But we as a 
committee appreciate your genuine honesty on this issue and 
being forthright on it and your boldness. And I speak for all 
members of the committee when it comes to that matter.
    On a final note, I think the players union needs to step 
forward so we can save baseball from this disgrace, which you 
all have put it in.
    I yield back.
    Mr. Souder. Mr. Selig, do you have a once and out on 
gambling?
    Mr. Selig. I am sorry?
    Mr. Souder. Is it once and out if you are caught gambling?
    Mr. Selig. Do we have once and out on gambling? We do, yes.
    Mr. Souder. Mr. Ruppersberger.
    Mr. Ruppersberger. Sure. Well, we are coming to the end. 
It's been a long day. I hope we have learned something from 
today.
    Mr. Towers, you are the general manager of the San Diego 
Padres.
    Mr. Towers. Yes.
    Mr. Ruppersberger. About 2 weeks ago, you were quoted 
basically, I think, because of your relationship with Caminiti, 
who just passed away.
    The quote, the truth is we are in a competitive business, 
and these guys are putting up big numbers and helping your ball 
club win games. You tended to turn your head on things. I hate 
to be the one voice for the other 29 GMs, but I have had to 
imagine that all of them at one point or another had reason to 
think that a player on their ball club was probably using 
baseball--body changes and things that happened over the 
winter.
    Now what you had the courage to say is what a lot of people 
maybe suspect. There's a lot of issues involving baseball. I am 
sure Mr. Selig wants to do the best he can from his point of 
view; and, Mr. Fehr, you want to do the best representing your 
players.
    Bottom line, I think what I have learned today, more than I 
thought I would, is that we have a perception problem. We have 
an integrity problem. And we love this sport, and I feel you 
are holding this sport in trust for future generations just 
like people did for you. And if you don't act on this and learn 
from today--I would like you to respond to your comment a 
little bit more.
    Evidently, based on what you said, you feel there is a 
problem. Why do you think other GMs have not addressed that 
problem?
    Mr. Towers. I don't want to speak for the other GMs. I 
commented earlier that we have had GMs discuss only over-the-
counter muscle enhancers as well as steroids. My comments and 
quotes are accurate, and I stand by those.
    I will say that, you know, reflecting back on Ken Gaminiti, 
who was a player of mine and somebody who I was very close 
with, I have hindsight knowledge now. Some of those comments, I 
think, were based on ``I wish I knew back in 1996 and 1998 what 
I know now'' with Ken coming out and saying he was a user of 
steroids. I do believe that, with the steroids testing program 
as it is today in place, I am very hopeful that we will not be 
sending a wrong message to the youth of America.
    I can tell you as a talent evaluator, as a former scout and 
former scouting director, listening to the testimonies today of 
Mr. and Mrs. Garibaldi as well as Mr. Hooton, I have spent a 
lot of time in high school parks and college parks and seen a 
lot of games around the country, and I will assure them now 
that steroids--if there is any knowledge of steroids with any 
amateur player that has aspirations to get into professional 
baseball--steroids is not your way in.
    Mr. Ruppersberger. Let me ask Mr. Selig and Mr. Fehr this 
question. We have been here all day. You have your agendas on 
both sides of your positions. Have you learned anything today 
that you can take back with you that you might reconsider where 
we are with respect to your existing policies? First, Mr. 
Selig, and Mr. Fehr.
    Mr. Selig. I would say that it has been a most interesting 
day, and I think I understood the intensity of the feelings. It 
is the feeling I have communicated and others have 
communicated, we are going to be very, very sensitive in trying 
to meet all the feelings and complaints and thoughts that this 
group has. That is fair. And from an ownership standpoint, we 
will do that.
    Mr. Ruppersberger. We can talk about it, but we need 
action. And I know that we have to move forward.
    Let me ask you this. You stated today that you feel that we 
need a stronger drug policy in baseball, and I think you want 
that. And I think most of the owners do, because you want to 
fix this and move on. Would you be in a position that you would 
not sign or not participate in the existing contract? Would 
this be a contract buster? Would you, in your negotiations, 
demand that there is a stricter policy than you have now? You 
have talked about it all day. If you mean this, would you say 
that this would be a contract that you could not support? That 
is what it comes down to really.
    Mr. Selig. We are bound by the Collective Bargaining 
Agreement. To the Players Association's credit, they reopened 
when they didn't have to.
    Mr. Ruppersberger. Could you answer my question? My light 
is starting to come on, and you are probably happy.
    Mr. Fehr. As I indicated to a couple of your colleagues, a 
lot of people have accused me of not doing a lot of things. Not 
listening is not one of them.
    Mr. Ruppersberger. Let me say this, I would hope that your 
two sides could get together based on what we have here. It is 
not what you think. It is perception. This is becoming reality. 
Perception does become reality. We all deal with it. And we 
have an obligation for our American sport, and if we don't take 
away from today what we have said and what Congress is doing, 
Congress probably will start to get involved. You don't want 
that. You want to take care of that yourselves. And shame on 
you if you don't.
    Mr. Fehr, you have a lot of respect for your players and 
have taken them a long way. And I challenge you, as I did the 
players.
    And I challenge you, Mr. Selig.
    And I challenge the players that were up here, to 
coordinate and get a consensus to come back, because it is your 
game, and you are getting the money. And if you don't do it, 
it's going to hurt.
    Let me ask you one thing, and I will go forward. I would 
look at the perception of NFL Football. The reason they are 
perceived to have a better program is because of the penalties, 
but they also are in a position where they can rehabilitate 
first time. But then it's time to move on, and I don't see that 
in your contract at this point.
    Mr. Souder [presiding]. Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman, very much. Again, some 
of the questions I wanted to ask have been asked already, but I 
have to come back to the comment that has been made.
    Mr. Selig, you said that there is one time for gambling, 
and you are out. Is that correct?
    Mr. Selig. That's correct.
    Ms. Foxx. Mr. Fehr, do you feel like one time for gambling 
and you're out? Is that your position?
    Mr. Fehr. That has been the rule that has been articulated 
for a long time. In a given case, we have a legal obligation to 
look at the facts and advise the individual player whether or 
not we think that can be supported. That is what any union 
would do.
    Ms. Foxx. Explain to me, if you will, why it is you 
consider one type of illegal activity having a zero-tolerance 
and not another kind of illegal activity having zero-tolerance; 
having a zero-tolerance policy for one kind of illegal activity 
and not another?
    Mr. Fehr. The best way I can respond in a succinct 
fashion--and we know it's late--is that the agreements we have 
had over the last 20-odd years--and there actually were some in 
the 1980's, formally and by consent, ad hoc, if you will--
procedures that were in place were the traditional type of 
employee-assistance programs that we believed would work and we 
believed would solve the problem. And that's the way you go 
after substance-abuse problems. That's the approach we have 
taken.
    Ms. Foxx. Well, I will make one brief comment, and I need 
to ask another question. I come from a family of huge baseball 
fans. My husband can quote you the statistics of every game, I 
think, that has been played from the Brooklyn Dodgers since the 
beginning. He is a huge, huge fan and really loves the game. 
And I find it impossible to have sat here all day today and 
have heard the kinds of things we have heard. And I know you 
all have said you hear what we are saying, but I am not sure 
you have understood the intensity of feeling of these when you 
have made both the Republicans and the Democrats as upset as 
they are in this body. You have to get that message back to the 
folks that you deal with.
    I need to ask a quick question of Mr. Alderson. In 2001, 
the Fort Lauderdale Sun Sentinel reported a Major League scout 
as saying, ``I wish our industry would start testing for 
steroids. It's really become a joke. It is a laughing joke.'' 
That same year, the Denver Post stated, ``Sandy Alderson has 
said he is not convinced steroid use is a problem.''
    You all have said that you have become increasingly aware 
that it's a problem. Can you tell us when you personally became 
convinced that Major League Baseball had to institute a new 
drug testing policy that encompassed steroids? Did a particular 
event spark this realization on your part?
    Mr. Alderson. Yes, I think, as I said in my statement, 
that, in 1998, actually, with the identification of andro in 
the locker room was a precipitating event. It was the first 
concrete evidence we had of something going on in the 
clubhouse. So from that time, really, I have felt that steroids 
were something that needed to be addressed, and I felt that the 
commissioner has addressed steroids progressively since 1998.
    Ms. Foxx. Mr. Chairman, I yield the remainder of my time to 
Mr. Shays.
    Mr. Shays. I thank the gentlelady for yielding. I have been 
wrestling with the response to your question of the Major 
League Baseball's joint drug and prevention program and the 
claim that it was not written. And I want to ask you, since you 
were asked for this document on March 2, Mr. Selig, what change 
in the document has been made since March 2 on this document?
    Mr. Manfred. I would have to--I couldn't tell you what has 
been done to the document.
    Mr. Shays. Mr. Manfred, what change was made in this 
document since you were asked for this document on March 2?
    Mr. Manfred. I can't tell you what specific language 
changed. There were meetings between the parties in which 
language was reviewed.
    Mr. Shays. Who were the members in that party? Who was at 
those meetings?
    Mr. Manfred. On my side, myself, Frank Coonelly who works 
for me, Mr. Orza and Mr. Weiner. We had conversations 
throughout that period back and forth.
    Mr. Shays. Was there a document on March 2?
    Mr. Manfred. There certainly was a draft.
    Mr. Shays. Why didn't you give us that March 2 document?
    Mr. Manfred. Because, as I explained to the committee, it 
was a draft, and no one seemed to want the draft. I said that, 
when the document is final----
    Mr. Shays. That is not true, Mr. Manfred.
    Mr. Manfred. That is absolutely true.
    Mr. Shays. It is not true. We asked for whatever draft you 
had.
    Mr. Manfred. The response I gave to the committee was when 
I have a final document, I will provide it. That is exactly 
what I said.
    Mr. Shays. The response of the committee was, we want the 
draft that existed.
    Mr. Manfred. I never was told that. I did not hear anyone 
say that to me.
    Mr. Shays. What I'd like from you is, I want the copy of 
the draft of March 2, and I want to compare it to this draft. 
You are under oath. I don't buy it one bit. I don't buy one bit 
that you would draft a document, you would announce it that you 
had a document, you had a policy and then you would make it up 
after the committee has requested. I don't buy it.
    Mr. Selig, do you want to respond?
    Mr. Selig. No, Mr. Manfred was negotiating that.
    Chairman Tom Davis [presiding]. I don't think anybody wants 
to respond.
    Mr. Shays. That is the problem.
    I want to ask you, Mr. Selig, was there a draft on March 2?
    Mr. Selig. I don't have any knowledge.
    Mr. Shays. There was no draft on March 2. You have no draft 
of any drug policy on March 2? I'm asking the commissioner. I 
want to know if he ever saw a draft of any drug policy before 
March 2.
    Mr. Selig. I did not.
    Mr. Shays. Why?
    Mr. Selig. Because that is not the way it works. I told Mr. 
Manfred what he had to do. He was proceeding with the Players 
Association people, and frankly, I don't participate in the 
drafting.
    Mr. Shays. Mr. Fehr, was there any draft on March 2?
    Mr. Fehr. I'm sure there was a draft.
    Mr. Shays. Would you make sure this committee gets a copy 
of that draft of March 2? We would like to compare how you 
changed it from March 2 when you were requested for a draft and 
the document we finally got. That is the request. Are you 
unclear on what the request is?
    Mr. Manfred. No.
    Mr. Fehr. No.
    Mr. Shays. Do you think there will be much of a difference 
between the March 2----
    Mr. Manfred. I don't believe there is any material change. 
There were discussions about the document. I don't think the 
language changed in any big way.
    Mr. Shays. Why didn't you give us the March 2 document?
    Mr. Manfred. Because, I said it.
    Mr. Shays. You have said it, and you are really now saying 
you had a copy you could have given us. Give us that draft. We 
want to compare it.
    Chairman Tom Davis. That's fine. Thank you.
    Mr. Waxman. Mr. Chairman, Mr. Selig, I don't know as much 
about baseball as a lot of other members on the committee. I 
certainly don't know as much as Senator Bunning, but when he 
was here many hours ago, he said that all records tainted by 
steroids should be thrown out. But you have made it absolutely 
clear that you won't consider doing that. You have also said 
that you would only do that if you had credible evidence, but 
you have also said your own investigator looked back. You made 
it as clear as you can you weren't going to find any evidence 
if you don't investigate. That's one problem.
    You have told us baseball doesn't have a major problem, but 
Kevin Towers has made it clear there is a major problem. And 
everything we know, everything that the American people know 
that there was and is a major problem. I think you have let 
baseball down. What is even worse, I think you have let down 
the kids of this country. You have been involved deeply in 
baseball for over 30 years, and I know you have done many good 
things for baseball, and I know you have done incredibly 
positive things for kids. And I praise you for that, but we 
have been running in place for 30 years, and I think we can do 
better. We need to have accountability, I want to ask you, I 
want to ask you to work with us to get a strong policy across 
all the sports. It ought to be like the Olympic policy. I think 
that's a policy you would support. If we can't get it through 
collective bargaining, I want you to work with us to get it 
through legislation. And I want to say something that I don't 
mean to be real harsh, but I think that whoever makes the 
decision for baseball--and you, also--look at the situation we 
are in and see if it is time for new leadership, because I 
don't think baseball is doing what it should have been doing 
for all these years on the steroid problem.
    In my opening statement, I went back 30 years ago when 
Congress first looked at this issue, and we were given 
assurances, as we have been given assurances, this problem 
would be dealt with in a responsible and satisfactory way. I 
don't think it has been. I don't think your policy will do it. 
Let's get legislation passed, and let's get this issue 
resolved.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Do you want to respond briefly?
    Mr. Selig. I know the hour is very late, but I would just 
say to you, Congressman, and I understand criticism. One thing 
about being a commissioner, criticism goes with the job on a 
daily basis. Having said that, I would say to you, my father 
used to say to me 1,000 times a day, nothing is good or bad 
except by comparison. We have a program in place. None of my 
predecessors had a program in place. There were a lot of 
problems in the 1970's and 1980's and 1990's not dealt with. 
You may think this program is not adequately dealt with. Only 
time will tell. You may be right. And by the way, and I share 
your view on Federal legislation and on other things, and I do 
share your view on a tougher program. We probably don't 
disagree. But having said that, we have a program in place, and 
it is fair now to try to let that program work.
    Mr. Waxman. In 1984, there was a drug testing program for 
baseball. It didn't test for steroids because steroids weren't 
illegal at that time, but Major League Baseball, because of the 
commissioners, abandoned that program. And I think there were a 
lot of other causes for you to have reinstituted it, not as 
late as you did, but in the 1990's. I know what you have said, 
and I'm not going to debate it with you any longer. I hope we 
can get legislation passed. Let's get one national standard for 
baseball and all sports and college, professional, even kids in 
schools and let's make it one that is very, very clear if we 
are going to prevent people from using steroids.
    Chairman Tom Davis. And thank you.
    And it has been a long day for you, and we appreciate you.
    And just again, Mr. Selig, you are not here under subpoena. 
You came here voluntarily--and I want to thank everybody else 
for coming as well. Hindsight is 20/20. And as we look at this 
from our perspective today and look back with the moral clarity 
that I think history gives us, we appreciate the advancements 
that baseball has made, but we think it is still short of the 
mark. And we urge you to make some of the corrections I think 
you said you would do through here. And we are going to watch 
this closely. We represent people from vastly different 
districts, but tonight, we speak with one voice, conservative 
and liberal, Democrats and Republicans.
    By the way, this is not the end of our investigation into 
steroids, and Major League is one component, but you are a 
critical component because we can't do this going into high 
schools. It has to start at the top. Like it or not, your 
players are the role models and the heroes for millions of 
kids. So I appreciate everybody taking the time to come here. 
This has been a very fruitful hearing. And I know you would 
have rather done other things today, but we have established a 
record here and heard a lot in terms of what you are doing and 
what the league is doing, what the union is doing. And we 
appreciate your staying with us until this late hour.
    [Whereupon, at 9:15 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Brian Higgins and Hon. 
Ginny Brown-Waite, and additional information submitted for the 
hearing record follows:]

[GRAPHIC] [TIFF OMITTED] T0323.206

[GRAPHIC] [TIFF OMITTED] T0323.207

[GRAPHIC] [TIFF OMITTED] T0323.208

[GRAPHIC] [TIFF OMITTED] T0323.209

[GRAPHIC] [TIFF OMITTED] T0323.225

[GRAPHIC] [TIFF OMITTED] T0323.226

[GRAPHIC] [TIFF OMITTED] T0323.227

[GRAPHIC] [TIFF OMITTED] T0323.210

[GRAPHIC] [TIFF OMITTED] T0323.211

[GRAPHIC] [TIFF OMITTED] T0323.212

[GRAPHIC] [TIFF OMITTED] T0323.213

[GRAPHIC] [TIFF OMITTED] T0323.214

[GRAPHIC] [TIFF OMITTED] T0323.215

[GRAPHIC] [TIFF OMITTED] T0323.216

[GRAPHIC] [TIFF OMITTED] T0323.217

[GRAPHIC] [TIFF OMITTED] T0323.218

[GRAPHIC] [TIFF OMITTED] T0323.219

[GRAPHIC] [TIFF OMITTED] T0323.220

[GRAPHIC] [TIFF OMITTED] T0323.221

[GRAPHIC] [TIFF OMITTED] T0323.222

[GRAPHIC] [TIFF OMITTED] T0323.223

[GRAPHIC] [TIFF OMITTED] T0323.224

                                 <all>

</pre></body></html>
